<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR FISCAL YEAR 2013</title>
<body><pre>[Senate Hearing 112-]
[From the U.S. Government Publishing Office]



 
  COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                            FISCAL YEAR 2013

                              ----------                              

                                       U.S. Senate,
           Subcommittee of the Committee on Appropriations,
                                                    Washington, DC.

                       NONDEPARTMENTAL WITNESSES

    [Clerk's Note.--The subcommittee was unable to hold 
hearings on nondepartmental witnesses. The statements and 
letters of those submitting written testimony are as follows:]
        Prepared Statement of the American Geosciences Institute
    The American Geosciences Institute (AGI) supports Earth science 
research sustained by the National Science Foundation (NSF), the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Institute of Standards and Technology (NIST) and the National 
Aeronautics and Space Administration (NASA). Frontier research on the 
Earth, energy, and the environment has fueled economic growth, 
mitigated losses and sustained our quality of life. The subcommittee's 
leadership in supporting geoscience-based research is even more 
critical as our Nation competes with rapidly developing countries, such 
as China and India, for energy, mineral, air, and water resources. Our 
Nation needs skilled geoscientists to help explore, assess and develop 
Earth's resources in a strategic, sustainable and environmentally sound 
manner and to help understand, evaluate, and reduce our risks to 
hazards. AGI supports the President's budget request of $7.373 billion 
for NSF, $859.75 million for NIST, and $1.785 billion for Earth science 
at NASA plus $5.3 billion for NOAA.
    AGI is a nonprofit federation of 50 geoscientific and professional 
societies representing more than 250,000 geologists, geophysicists, and 
other Earth scientists. Founded in 1948, AGI provides information 
services to geoscientists, serves as a voice for shared interests in 
our profession, plays a major role in strengthening geoscience 
education, and strives to increase public awareness of the vital role 
the geosciences play in society's use of resources, resilience to 
hazards, and the health of the environment.
    National Science Foundation.--AGI supports an overall budget of 
$7.373 billion for NSF. AGI greatly appreciates the Congress' support 
for science and technology in recent appropriations and through the 
America COMPETES Reauthorization Act of 2010. The forward-looking 
investments in NSF are fiscally responsible and will pay important 
dividends in future development that drives economic growth, especially 
in critical areas of sustainable and economic natural resources and 
reduced risks from natural hazards. Support for science will save jobs, 
create new jobs, support students, and provide training for a 21st 
century workforce.
    National Science Foundation Geosciences Directorate.--The 
Geosciences Directorate (GEO) is the principal source of Federal 
support for academic Earth scientists and their students who are 
seeking to understand the processes that sustain and transform life on 
this planet. About 63 percent of support for university-based 
geosciences research comes from this directorate and more than 14,600 
people will be directly supported through GEO in fiscal year 2013 with 
thousands of others deriving support indirectly.
    The President's request for fiscal year 2013 asks for $264 million 
for Atmospheric and Geospace Sciences; $189 million for Earth sciences; 
$362 million for Ocean sciences; and $91 million for Integrative and 
Collaborative Education and Research within GEO. Much of the 
geosciences research budget is for understanding that is critical for 
current national needs, such as water and mineral resources, energy 
resources, environmental issues, climate change, and mitigation of 
natural hazards. AGI asks the subcommittee to strongly support these 
funding levels.
    GEO supports infrastructure and operation and maintenance costs for 
cutting-edge facilities that are essential for basic and applied 
research. Ultimately the observations and data provide knowledge that 
is used by researchers and professionals in the public, Government and 
private sector. GEO research and infrastructure helps drive economic 
growth in a sustainable manner. Geoscience-based research tools and 
academic expertise helped to end the BP Deepwater Horizon oil spill, 
saving billions of dollars for industry and untold costs to the 
environment. Research funding continues to help the gulf coast recover 
environmentally and economically.
    Among the major facilities that NSF supports, the Academic Research 
Fleet would receive $73 million; EarthScope Operations would receive 
$26 million; Incorporated Research Institutions for Seismology would 
receive $11 million; Ocean Drilling Activities would receive $39 
million; the Ocean Observatories Initiative would receive $40 million; 
and the National Center for Atmospheric Research would receive $92 
million. AGI strongly supports robust and steady funding for 
infrastructure and operation and maintenance of these major facilities.
    NSF's Office of Polar Programs (OPP) funds basic research in the 
Arctic and Antarctica that helps the United States maintain strategic 
plans, international efforts, security goals, natural resource 
assessments, cutting-edge polar technology developments, and 
environmental stewardship of extreme environs. OPP's funding helps 
support researchers and students, the U.S. military, and the private 
sector. OPP is estimated to directly support almost 3,325 people in 
fiscal year 2013 and thousands of others indirectly. AGI supports the 
President's request of $449.7 million for this important program.
    National Science Foundation Support for Earth Science Education.--
The Congress can grow the depleted geosciences workforce; stimulate 
economic growth in the energy, natural resources, and environmental 
sectors; and improve natural resource literacy by supporting the full 
integration of Earth science information into mainstream science 
education at the K-12 and higher education levels. AGI strongly 
supports the Math and Science Partnerships (MSP), the Graduate Research 
Fellowships (GRF) and the Research Experiences for Undergraduates (REU) 
within NSF's Education and Human Resources Division. These programs are 
effective in building a science and engineering workforce for the 21st 
century.
    Improving geoscience education, one of the goals of NSF-EHR, to 
levels of recognition similar to other scientific disciplines is 
important in the following ways:
  --Geoscience offers students subject matter that has direct 
        application to their lives and the world around them, including 
        energy, minerals, water, and environmental stewardship. All 
        students should be required to take a geoscience course in 
        primary and secondary school.
  --Geoscience exposes students to a range of interrelated scientific 
        disciplines. It is an excellent vehicle for integrating the 
        theories and methods of chemistry, physics, biology, and 
        mathematics. A robust geoscience course would make an excellent 
        capstone for applying lessons learned from earlier class work.
  --Geoscience awareness is a key element in reducing the impact of 
        natural hazards on citizens--hazards that include earthquakes, 
        volcanic eruptions, hurricanes, tornadoes, and floods. Informal 
        geoscience education that leads to reducing risks and preparing 
        for natural events should be a life-long goal.
  --Geoscience provides the foundation for tomorrow's leaders in 
        research, education, utilization and policymaking for Earth's 
        resources and our Nation's strategic, economic, sustainable, 
        and environmentally sound natural resources development. There 
        are not enough U.S.-trained geoscientists to meet current 
        demand and the gap is growing. Support for geoscience research 
        and education is necessary to stay competitive and to wisely 
        manage our natural resources.
    NOAA.--AGI supports a budget of $5.3 billion for NOAA, which is 
consistent with the request of other stakeholders and more than the 
President's request of $5.061 billion. We hope the subcommittee will 
continue to support the National Weather Service (NWS); Oceanic and 
Atmospheric Research (OAR); National Ocean Service (NOS); and the 
National Environment Satellite, Data and Information Service (NESDIS). 
These programs are critical for understanding and mitigating natural 
and human-induced hazards in the Earth system while sustaining our 
natural resources. These programs prevent billions of dollars of 
losses, keep the private and public sectors growing, and save lives. 
For example, drought forecasts are worth up to $8 billion to the 
agriculture, transportation, tourism, and energy sectors while NexRad 
radar has prevented more than 330 fatalities and 7,800 injuries from 
tornadoes since the early 1990s. The additional request of AGI and 
stakeholders would bring NWS, OAR, and NOS back to fiscal year 2010 
levels, while supporting nonprocurement needs in NESDIS.
    National Institute of Standards and Technology.--We support the 
President's request of $860 million for NIST in fiscal year 2013. Basic 
research at NIST, conducted by Earth scientists and geotechnical 
engineers, is used by the public and private sector on a daily basis. 
The research conducted and the information gained is essential for 
understanding climate change and natural hazards in order to build 
resilient communities and stimulate economic growth with reduced impact 
from risk. In particular, we support Measurements and Standards to 
Support Increased Energy Efficiency and Reduced Environmental Impact 
and Measurements and Standards to Support Advanced Infrastructure 
Delivery and Resilience. Energy efficiency and reduced environmental 
impact research will improve the health of our planet and reduce energy 
costs. The advanced infrastructure research will help to reduce the 
estimated average of $52 billion in annual losses caused by floods, 
fires, and earthquakes.
    NIST is the lead agency for the National Earthquake Hazard 
Reduction Program (NEHRP), but has received only a small portion of 
authorized and essential funding in the past. AGI strongly supports the 
reauthorization of the National Earthquake Hazards Reduction Program 
(NEHRP) in 2012. We hope the appropriations subcommittee will continue 
to support this effective and cohesive program, even if the authorizing 
legislation takes more time to complete. NEHRP is an excellent example 
of how to coordinate different entities for the safety and security of 
all. NEHRP develops effective practices and policies for earthquake 
loss reduction and accelerates their implementation; improves 
techniques for reducing earthquake vulnerabilities of facilities and 
systems; improves earthquake hazards identification and risk assessment 
methods and their use; and improves the understanding of earthquakes 
and their effects.
    National Aeronautics and Space Administration.--AGI supports the 
vital Earth observing programs within NASA. AGI supports the 
President's request of $1.785 billion for Earth science programs within 
the Science Mission Directorate at NASA. The investments are needed to 
implement the priorities of the National Academies Earth Science and 
Applications from Space Decadal Survey. NASA needs to maintain its 
current fleet of Earth-observing satellites, launch the next tier and 
accelerate development of the subsequent tier of missions. The 
observations and understanding about our dynamic Earth gained from 
these missions is critical and needed as soon as possible. Earth 
observations are used every day, not just for research, but for 
critical information to aid society in mundane tasks, like weather 
forecasting and emergency services, such as tracking volcanic ash 
plumes or oil spills that disrupt the economy and the environment. The 
requested increase for fiscal year 2013 and proposed increases for 
future years are wise and well-planned investments that benefit 
everyone.
    We appreciate this opportunity to provide testimony to the 
subcommittee and would be pleased to answer any questions or to provide 
additional information for the record.
                                 ______
                                 
  Prepared Statement of the American Institute of Biological Sciences
    The American Institute of Biological Sciences (AIBS) appreciates 
the opportunity to provide testimony in support of fiscal year 2013 
appropriations for the National Science Foundation (NSF). We encourage 
the Congress to provide NSF with at least $7.373 billion in fiscal year 
2013.
    The AIBS is a nonprofit scientific association dedicated to 
advancing biological research and education for the welfare of society. 
AIBS works to ensure that the public, legislators, funders, and the 
community of biologists have access to and use information that will 
guide them in making informed decisions about matters that require 
biological knowledge. Founded in 1947 as a part of the National Academy 
of Sciences, AIBS became an independent, member-governed organization 
in the 1950s. Today, AIBS has nearly 160 member organizations and is 
headquartered in Reston, Virginia, with a Public Policy Office in 
Washington, DC.
    The NSF is an important engine that helps power our Nation's 
economic growth. Through its competitive, peer-reviewed research 
grants, NSF is leading the development of new knowledge that will help 
to solve the most challenging problems facing society, and will lead to 
new scientific discoveries, patents, and jobs. The agency's education 
and training programs are helping to ensure that the next generation 
has the scientific, technical, and mathematical skills employers are 
seeking. Investments in research equipment and facilities enable the 
country to continue to innovate and compete globally. These efforts, 
however, require a sustained and predictable Federal investment. 
Unpredictable swings in Federal funding can disrupt research programs, 
create uncertainty in the research community, and stall the development 
of the next great idea.
    The NSF is the primary Federal funding source for fundamental 
research in the nonmedical life sciences at our Nation's universities 
and colleges. The NSF provides approximately 62 percent of extramural 
Federal support for nonmedical, fundamental biological, and 
environmental research at academic institutions.
    NSF is a sound investment that pays dividends. The use of peer-
review to evaluate and select the best proposals means that NSF is 
funding the highest-quality research. Importantly, the fiscal year 2013 
budget request would allow the agency to fund 300 additional research 
grants, thereby supporting roughly 5,000 additional researchers, 
teachers, and students.
    The research supported by NSF is unique from the science funded by 
other Federal agencies. Unlike most Federal agencies, which focus on 
applied research, NSF supports basic research that advances the 
frontiers of our knowledge about biodiversity, genetics, physiology, 
and ecosystems. Recent discoveries that stem from NSF-funded research 
include:
  --Creation of designer enzymes that can convert biomass into biofuels 
        faster, more efficiently, and less expensively.
  --Refined understanding of the mechanism by which the flu virus 
        infects humans. This insight could help to develop more 
        effective treatments for the flu and save lives.
  --Identification of long-term environmental changes in U.S. 
        ecosystems, such as changes in hydrology and nutrient inputs in 
        lakes in the Midwest.
  --Knowledge of the physiological effects of human-caused marine 
        stressors, such as pollution and low oxygen, on crustaceans' 
        ability to fend off bacterial infections. This research has 
        ramifications for several economically important fisheries.
  --Insight into the benefits of antimicrobial plant resins used in 
        beehives on honeybee health. This discovery could have 
        implications for colony collapse disorder, which has devastated 
        bee populations in North America.
                    biological sciences directorate
    The Biological Sciences Directorate (BIO) funds research in the 
foundational disciplines within biology. These fields of study further 
our understanding of how organisms and ecosystems function. 
Additionally, BIO supports innovative interdisciplinary research that 
improves our understanding of how human social systems influence--or 
are influenced by--the environment, such as the NSF-wide Science, 
Engineering, and Education for Sustainability program. In collaboration 
with NSF's engineering, math, and physical science directorates, BIO is 
working to develop new, cutting-edge research fields. For example, the 
BioMaPS program is accelerating understanding of biological systems, 
and applying that knowledge to new technologies in clean energy.
    The fiscal year 2013 budget request for NSF would enable the agency 
to continue to fund highly competitive grant proposals in BIO's five 
core programmatic areas:
  --Environmental biology;
  --Integrative organismal systems;
  --Molecular and cellular biosciences;
  --Biological infrastructure; and
  --Emerging frontiers.
    Each of BIO's program areas also contribute to the education and 
training of undergraduate, graduate, and postdoctoral students.
    Equally important, BIO provides essential support for our Nation's 
place-based biological research, such as field stations and natural 
science collections. The Long-Term Ecological Research program supports 
fundamental ecological research over long-time periods and large 
spatial scales, the results of which provide information necessary for 
the identification and solution of environmental problems.
    The budget request also would sustain an effort to digitize high-
priority specimens in U.S. scientific collections. This investment will 
help the scientific community ensure access to and appropriate curation 
of irreplaceable biological specimens and associated data, and 
stimulate the development of new computer hardware and software, 
digitization technologies, and database management tools.
    The fiscal year 2013 budget would continue efforts to better 
understand biodiversity. Funding is included for the Dimensions of 
Biodiversity program, which supports cross-disciplinary research to 
describe and understand the scope and role of life on Earth. Despite 
centuries of discovery, most of our planet's biodiversity remains 
unknown. This lack of knowledge is particularly troubling given the 
rapid and permanent loss of global biodiversity. Better understanding 
of life on Earth will help us to protect valuable ecosystem services 
and make new bio-based discoveries in the realms of food, fiber, fuel, 
pharmaceuticals, and bio-inspired innovation.
    The budget request includes funding in the Major Research Equipment 
and Facilities Construction account for the continued construction of 
the National Ecological Observatory Network (NEON). Once completed, 
NEON will provide the infrastructure necessary to collect data across 
the United States on the effects of climate change, land use change, 
water use, and invasive species on natural resources and biodiversity. 
This information will be valuable to scientists, resource managers, and 
Government decisionmakers as they seek to better understand and manage 
natural systems.
      science, technology, engineering, and mathematics education
    The requested budget would allow NSF to build upon its central role 
in science, technology, engineering, and mathematics (STEM) education. 
Support for the scientific training of undergraduate and graduate 
students is critically important to our research enterprise. Students 
recruited into science through NSF programs and research experiences 
are our next generation of innovators and educators. In short, NSF 
grants are essential to the Nation's goal of sustaining our global 
leadership in science, technology, engineering and mathematics and 
reigniting our economic engines.
    We encourage the subcommittee to provide the requested funding for 
the successful Graduate Research Fellowship program. The budget request 
would provide funding for 2,000 new fellowships, which are important to 
our national effort to recruit and retain the best and brightest STEM 
students. The budget would also provide a needed $2,000 increase to the 
fellowship's stipend, which has not changed since 2005.
    The agency budget request also would provide important research 
support to early career scientists, helping them to initiate their 
research programs. The Faculty Early Career Development program 
(CAREER) supports young faculty who are dedicated to integrating 
research with teaching and learning. The fiscal year 2013 budget would 
enable NSF to support approximately 40 more CAREER awards than in 
fiscal year 2012.
                               conclusion
    Continued investments in the biological sciences are critical. The 
budget request for NSF will help spur economic growth and innovation 
and continue to build scientific capacity at a time when our Nation is 
at risk of being outpaced by our global competitors. Please support an 
investment of at least $7.373 billion for NSF for fiscal year 2013.
    Thank you for your thoughtful consideration of this request and for 
your prior efforts on behalf of science and NSF.
                                 ______
                                 
 Prepared Statement of the American Indian Higher Education Consortium
    This statement focuses on the National Science Foundation (NSF).
    On behalf of this Nation's 37 tribal colleges and universities 
(TCUs), which compose the American Indian Higher Education Consortium 
(AIHEC), thank you for the opportunity to express our views and 
recommendations regarding the National Science Foundation's Tribal 
Colleges and Universities Program (NSF-TCUP) for fiscal year 2013.
                           summary of request
National Science Foundation--Education and Human Resources Directorate
    Since fiscal year 2001, a TCU initiative has been funded and 
administered under the NSF-Education and Human Resources (EHR). This 
competitive grants program enables TCUs to enhance the quality of their 
science, technology, engineering, and mathematics (STEM) instructional 
and outreach programs. TCUs that have been awarded an NSF-TCUP grant 
have completed comprehensive institutional needs analysis and developed 
a plan for how to address both their institutional and NSF goals, with 
a primary institutional goal being significant and sustainable 
expansion and improvements to STEM programs. Through NSF-TCUP, tribal 
colleges have been able to establish and maintain programs that 
represent a key component of the pipeline for the American Indian STEM 
workforce. We urge the subcommittee to fund the NSF-TCU competitive 
grants program at a minimum of $13,350,000.
 tribal colleges and universities shoestring budgets: ``doing so much 
                            with so little''
    Tribal colleges and universities are accredited by independent, 
regional accreditation agencies and like all U.S. institutions of 
higher education, must periodically undergo stringent performance 
reviews to retain their accreditation status. TCUs fulfill additional 
roles within their respective reservation communities functioning as 
community centers, libraries, tribal archives, career and business 
centers, economic development centers, public meeting places, and child 
and elder care centers. Each TCU is committed to improving the lives of 
its students through higher education and to moving American Indians 
toward self-sufficiency.
    TCUs have advanced American Indian higher education significantly 
since we first began four decades ago, but many challenges remain. 
Tribal colleges and universities are perennially underfunded. In fact, 
TCUs are the most poorly funded institutions of higher education in the 
country.
    The tribal governments that have chartered TCUs are not among the 
handful of wealthy gaming tribes located near major urban areas. 
Rather, they are some of the poorest governments in the Nation. Tribal 
colleges are home to some of the poorest counties in America.
    The Federal Government, despite its trust responsibility and treaty 
obligations, has never fully funded the principal institutional 
operating budgets, authorized under the Tribally Controlled Colleges 
and Universities Assistance Act of 1978. The Tribal College Act 
authorizes basic institutional operations funding on a per Indian 
student basis; yet the funds are not appropriated in the same manner. 
In fiscal year 2011, the Congress proposed level funding for TCU 
institutional operating grants and appropriated the communal pot of 
funds at the same level as fiscal year 2010. However, due to a spike in 
enrollments at the TCUs of more than 1,660 Indian students in a single 
year, the TCUs are receiving funds at $549 less per Indian student 
toward their institutional operating budgets. Fully funding TCUs' 
operating budgets would require $8,000 per Indian student. The tribal 
colleges are currently operating at $5,235 per Indian student. By 
contrast, Howard University located in the District of Columbia, the 
only other minority-serving institution to receive institutional 
operations funding from the Federal Government, is funded at 
approximately $19,000 per student. We are by no means suggesting that 
Howard University does not need this funding, only that the TCUs' 
operating budgets are clearly grossly underfunded.
    While TCUs do seek funding from their respective State legislatures 
for the non-Indian State-resident students (sometimes referred to as 
``nonbeneficiary'' students) that account for 20 percent of their 
enrollments, successes have been at best inconsistent. TCUs are 
accredited by the same regional agencies that accredit mainstream 
institutions, yet they have to continually advocate for basic operating 
support for their non-Indian State students within their respective 
State legislatures. If these nonbeneficiary students attended any other 
public institution in the State, the State would provide that 
institution with ongoing funding toward its operations.
    TCUs effectively blend traditional teachings with conventional 
postsecondary curricula. They have developed innovative ways to address 
the needs of tribal populations and are overcoming long-standing 
barriers to success in higher education for American Indians. Since the 
first TCU was established on the Navajo Nation in 1968, these vital 
institutions have come to represent the most significant development in 
the history of American Indian higher education, providing access to, 
and promoting achievement among, students who might otherwise never 
have known postsecondary education success.
                             justifications
National Science Foundation-Education and Human Resources
    American Indian students have the highest high school drop-out 
rates in the country. On average, more than 75 percent of all TCU 
students must take at least one developmental course, most often 
precollege mathematics. Of these students, our data indicate that many 
do not successfully complete the course in 1 year. Without question, a 
large proportion of the TCUs already limited resources is dedicated to 
addressing the failings of K-12 education systems.
    To help rectify this, TCUs have developed strong partnerships with 
their K-12 feeder schools and are actively working, often with support 
from NSF-TCU grant programs, to engage young students in community and 
culturally relevant science and math programs. These efforts include 
weekend academies and summer STEM camps that reinforce and supplement 
the instructional programs area K-12s are able to provide.
    Beginning in fiscal year 2001, NSF-TCUP has provided essential 
capacity building assistance and resources to TCUs. In the 
approximately 10 years since the program began, NSF-TCUP has become the 
primary Federal program for building STEM capacity at the TCUs. NSF-
TCUP has served as a catalyst for capacity building and positive change 
at TCUs and the program can be credited with many success stories. 
Today, American Indians are more aware of the importance of STEM to 
their long-term survival, particularly in areas such as renewable 
energy and technology-driven economic development.
    The NSF-TCU program, administered by the Education and Human 
Resources Directorate, is a competitive grants program that enables 
TCUs to develop and expand critically needed science and math education 
and research programs relevant to their respective communities. Through 
this program, TCUs that have been awarded an NSF-TCUP grant have been 
able to enhance their STEM instructional offerings, workforce 
development, and outreach programs.
    For example, College of Menominee Nation (CMN) in Keshena, 
Wisconsin has established strong programs in pre-engineering, computer 
science, natural resources, the biological and physical sciences, and 
sustainable development, mainly through support from NSF-TCUP. CMN's 
Sustainable Development Institute now hosts regional and sometimes 
international conferences on sustainable practices and in 2011 hosted 
an important conference for tribes located in the Great Lakes region to 
review current research on, and discuss strategies for responding to 
emerging challenges attributed to, climate change. CMN is an example of 
how TCUs are using their STEM programs as a springboard for taking 
critical leadership roles within their communities. Additionally, 
faculty and students at Haskell Indian Nations University in Lawrence, 
Kansas are using the university's Sequoyah Computer and GIS Lab to 
support their work with the Omaha and Winnebago Tribal Nations in 
collecting and analyzing hydrologic and botanical data necessary to 
support resource management decisionmaking by the tribal leadership.
    Unfortunately, not all of the TCUs have had an opportunity to 
benefit from this program; yet, funding for this vital program has been 
static, and the percentage of proposals funded has declined each year 
beginning in 2004. We strongly urge the subcommittee to fund the NSF-
TCU grants program at a minimum of $13,350,000.
                               conclusion
    Tribal colleges and universities provide access to quality higher 
education opportunities, including STEM-focused programs, for thousands 
of American Indians. The modest Federal investment that has been made 
in TCUs has paid great dividends in terms of employment, education, and 
economic development. Continuation of this investment makes sound moral 
and fiscal sense.
    We greatly appreciate your past and continued support of the 
Nation's tribal colleges and universities and your serious 
consideration of our fiscal year 2013 appropriation request.
                                 ______
                                 
      Prepared Statement of the American Public Power Association
    The American Public Power Association (APPA) supports adequate 
funding for staffing antitrust enforcement and oversight at the 
Department of Justice (DOJ). For the DOJ Antitrust Division we support 
the President's fiscal year 2013 request of $165 million.
    APPA is the national service organization representing the 
interests of more than 2,000 municipal and other State and locally 
owned utilities in 49 States (all but Hawaii). Collectively, public 
power utilities deliver electricity to 1 of every 7 electric consumers 
(approximately 46 million people), serving some of the Nation's largest 
cities. However, the vast majority of APPA's members serve communities 
with populations of 10,000 people or less.
    The DOJ Antitrust Division plays a critical role in monitoring and 
enforcing antitrust laws affecting the electric utility industry. With 
the repeal of the Public Utility Holding Company Act (PUHCA) included 
in the Energy Policy Act of 2005, the electric utility industry has 
experienced an increase in mergers that could result in increased 
market power in certain regions. This development, coupled with the 
volatility and uncertainty continuing to occur in wholesale electricity 
markets run by regional transmission organizations, makes the oversight 
provided by DOJ more critical than ever.
    We appreciate the opportunity to submit this statement outlining 
our fiscal year 2013 funding priority within the Commerce, Justice, 
Science and Related Agencies subcommittee's jurisdiction.
                                 ______
                                 
         Prepared Statement of the American Society of Agronomy
    The American Society of Agronomy (ASA), Crop Science Society of 
America (CSSA), and Soil Science Society of America (SSSA) represent 
more than 18,000 members in academia, industry, and Government, and 
13,000 Certified Crop Advisers. The largest coalition of professionals 
dedicated to the agronomic, crop, and soil science disciplines in the 
United States, ASA, CSSA, and SSSA are dedicated to utilizing science 
in order to meet our growing food, feed, fiber, and fuel needs. With an 
ever-expanding global population and increasing food demands, 
investment in food and agriculture research is essential to maintaining 
our Nation's food, economic and national security. We are pleased to 
submit the following funding recommendations for fiscal year 2013.
    ASA, CSSA, and SSSA understand the budgetary challenges facing the 
Senate Commerce, Justice, Science, and Related Agencies Appropriations 
subcommittee. We also recognize that the Commerce, Justice, and 
Science, and related agencies appropriations spending bill has many 
valuable and necessary components, and we applaud the past efforts of 
the subcommittee to fund critical research through the National Science 
Foundation (NSF). ASA, CSSA, and SSSA urge the subcommittee to support 
an increase in fiscal year 2013 funding for NSF of 5 percent more than 
the fiscal year 2012 enacted level, bringing total funding to $7.4 
billion, the same funding level recommended in the President's fiscal 
year 2013 budget request. This strong level of funding will enable NSF 
to continue valuable projects that promote transformational and 
multidisciplinary research, provide needed scientific infrastructure, 
and contribute to preparing the next generation science, technology, 
engineering, and mathematics workforce.
    Within NSF we support the following programs that help advance our 
understanding of the basic crop and soil sciences. These sciences 
underpin future solutions to many of the most pressing challenges 
including food security, sustainable renewable energy production, and 
environmental protection that confront both our country and the world.
                    biological sciences directorate
Molecular and Cellular Biosciences
    ASA, CSSA, and SSSA support funding Molecular and Cellular 
Biosciences (MCB) at $132.68 million for fiscal year 2013 (an $6.89 
million or 5.5-percent increase more than fiscal year 2012). MCB 
supports fundamental research and related activities designed to 
promote understanding of complex living systems at the molecular, 
subcellular, and cellular levels. The division supports research across 
a broad spectrum of experimental systems, ranging from organisms, such 
as plants and microbes, to the use of in silico approaches.
Integrative Organismal Systems
    ASA, CSSA, and SSSA support increasing Integrative Organismal 
Systems (IOS) funding to $220.52 million (an increase of $8.19 million 
or 3.9 percent more than fiscal year 2012), which would allow 41 
percent of the IOS portfolio to be available for new research grants. 
In order to meet increasing demands and develop more robust crops, 
additional fundamental understanding regarding the basic biology of 
these crops is needed. IOS maintains its commitment to support 
fundamental plant genome research through the Plant Genome Research 
Program (PGRP). In addition, the Developing Country Collaborations in 
Plant Genome Research program links U.S. researchers with partners from 
developing countries to solve problems of mutual interest in 
agriculture and energy and the environment. Additionally, in 
collaboration with the Department of Energy and the Department of 
Agriculture, the PGRP has financed the Maize Genome Sequencing 
Project--a sequencing project for one of the most important crops grown 
globally.
    The PGRP's Basic Research to Enable Agricultural Development 
(BREAD) program supports basic research on early concept approaches and 
technologies for science-based solutions to problems of agriculture in 
developing countries. ASA, CSSA, and SSSA recommend a funding level of 
$6 million for the BREAD program.
    Finally, in 2005 the International Rice Genome Sequencing Project 
published the finished DNA blueprint for rice--a crop fundamental to 
populations worldwide. To continue the discovery of new innovative ways 
to enhance crop production for a growing population, sustained funding 
is needed for similar projects.
                    geological sciences directorate
Division of Atmospheric and Geospace Sciences
    ASA, CSSA, and SSSA support increasing Division of Atmospheric and 
Geospace Sciences (AGS) funding to $264.06 million (an increase of $5.4 
million or 2.1 percent more than fiscal year 2012). Changes in 
terrestrial systems will have great impacts on biogeochemical cycling 
rates, which in turn, greatly affect our agriculture, crops, and soil. 
By providing support for basic science and the acquisition, 
maintenance, and operation of observational facilities and services, 
AGS ensures the presence of modern-day atmospheric and geospace science 
research activities.
Earth Sciences
    ASA, CSSA, and SSSA support increasing Earth Sciences (EAR) funding 
to $189.2 million (an increase of $5.7 million or 3.1 percent more than 
fiscal year 2012). The Earth Sciences division supports the Surface 
Earth Processes section which researches geomorphology and land use, 
hydrologic science, geobiology, geochemistry (particularly the 
Geobiology and Low-Temperature Geochemistry Program), and sedimentary 
geology and paleobiology--all crucial to the areas of agronomy, soil, 
and crops. In addition, EAR supports EarthScope which focuses on 
studying the structure and tectonics of the North American continent 
and an Instrumentation and Facilities program that supports community-
based, shared-use facilities, as well as an education program to 
attract and support students and young investigators to the field of 
Earth science. ASA, CSSA, and SSSA also support strong funding for the 
Critical Zone Observatories that operate at the watershed scale and 
significantly advance our understanding of the integration and coupling 
of Earth surface processes as mediated by the presence and flux of 
fresh water.
             directorate for education and human resources
Division of Graduate Education
    ASA, CSSA, and SSSA support increasing Division of Graduate 
Education funding to $184.82 million (an increase of $5 million or 3.9 
percent more than fiscal year 2012). ASA, CSSA, and SSSA are dedicated 
to the enhancement of education, and concerned about recent declines in 
enrollment for many sciences. ASA, CSSA, and SSSA support science, 
technology, engineering, and mathematics (STEM) education efforts in 
order to prepare the next generation of agronomy, crop, and soil 
scientists.
    In light of this effort, ASA, CSSA, and SSSA recommend strong 
support for the Integrative Graduate Education and Research 
Traineeships program. Graduate students are the next generation of 
scientists, and opportunities for study must be increased with the 
ever-increasing demands of science. Global problems rely on scientific 
discovery for their amelioration and it is critical that the United 
States continue to be a leader in graduate education.
Division of Undergraduate Education
    ASA, CSSA, and SSSA support increasing Division of Undergraduate 
Education (DUE) funding to $246.64 million (an increase of $11 million 
or 4.7 percent more than fiscal year 2012). The entire DUE portfolio 
(Advanced Technological Education, Science, Technology, Engineering, 
and Mathematics Talent Expansion Program, and Transforming 
Undergraduate Education in Science) seeks to anchor a coherent body of 
knowledge on innovative and effective STEM learning environments. This 
core area addresses all levels of transition, including high school to 
undergraduate or community college to 4-year institution shifts. 
Investments in DUE will support the further implementation of STEM 
practices in order to bring learners to the frontiers of science.
         national science foundation-wide/crosscutting programs
Integrated National Science Foundation Support Promoting 
        Interdisciplinary Research and Education
    ASA, CSSA, and SSSA support the budget request of $63 million for 
Integrated NSF Support Promoting Interdisciplinary Research and 
Education (INSPIRE). INSPIRE seeks to increase NSF's support of bold 
high-risk interdisciplinary projects that may fall outside the scope of 
existing NSF programs. This is especially important as NSF seeks to 
encompass improvements in business practices, funding culture, training 
and evaluation.
Expeditions in Education
    ASA, CSSA, and SSSA support the establishment of the Expeditions in 
Education Initiative in order to ``move the dial'' toward achieving 
important national goals in STEM education and human capital 
development. We support NSF's request of $49 million in order to 
achieve the goal of infusing cutting-edge science, engineering, and 
innovation into the preparation of a world-class scientific workforce.
Science, Engineering, and Education for Sustainability
    ASA, CSSA, and SSSA support the budget request of $202.5 million 
for Science, Engineering, and Education for Sustainability . This long-
term investment reflects an effort by NSF to coordinate and grow 
research and education associated with the environment, energy, and 
sustainability. More specifically, we support NSF's efforts to increase 
our understanding of the integrated system of resource and supply 
chains, society, the natural world, and the alterations humans bring to 
Earth.
Partnerships for Enhanced Engagement in Research
    ASA, CSSA, and SSSA support the continued cooperation between NSF 
and USAID. Partnerships for Enhanced Engagement in Research grants 
provide an important opportunity to support scientists in developing 
countries who work with NSF-funded scientists at U.S. institutions.
Graduate Fellowships and Traineeships
    ASA, CSSA, and SSSA support the budget request of $321.67 million 
for NSF's graduate fellowship and traineeship programs. This funding 
will enable NSF to support an estimated 6,950 graduate students, 
including 2,000 new Graduate Research Fellows in 2013.
    As you consider funding levels for NSF, please consider ASA, CSSA, 
and SSSA as supportive resources. We hope you will call on our 
membership and scientific expertise whenever the need arises.
    Thank you for your thoughtful consideration.
                                 ______
                                 
      Prepared Statement of the American Society for Microbiology
    The American Society for Microbiology (ASM) is pleased to submit 
the following testimony on the fiscal year 2013 appropriation for the 
National Science Foundation (NSF). ASM is the largest single-life 
science organization in the world with about 38,000 members. ASM 
endorses the administration's fiscal year 2013 request of $7.373 
billion for NSF, a 4.8-percent increase more than the fiscal year 2012 
level. For more than 60 years, NSF grants have been responsible for 
breakthroughs in science, technology, engineering, and mathematics 
(STEM), sponsoring research with economic benefits and providing 
opportunities to train new generations of STEM professionals.
    U.S. global competitiveness in science and technology can only be 
sustained by increased resources devoted to research and development 
(R&D). In NSF's most recent biennial Science & Engineering Indicators 
report, U.S. investment in R&D declined during the 1999-2009 period 
relative to other nations' investments. It is critical that funding be 
increased for the NSF because it is the primary source of Federal 
research funding in multiple STEM disciplines.
    Each year, NSF distributes funds to about 1,900 colleges, 
universities, and other U.S. institutions. This year NSF will support 
about 285,000 researchers, postdoctoral fellows, and other trainees, 
teachers, and students. In fiscal year 2013, it expects to make more 
than 12,000 new awards selected from more than 55,000 submitted 
research proposals. NSF is responsible for 61 percent of the total 
Federal budget for basic academic research.
    NSF's fiscal year 2013 budget will support the American 
Competitiveness Initiative and the National Bioeconomy Blueprint 
designed to resolve issues in health, food, energy, and the 
environment. NSF has launched several new initiatives to accelerate 
innovation, including the NSF Innovation Corps (I-Corps) program to 
build partnerships between NSF-funded researchers and the private 
sector. The Science, Engineering and Education for Sustainability 
(SEES) program will use sustainability science to generate important 
innovations in clean energy like microbial produced biofuels.
    NSF-funded scientists contribute new information about living 
organisms that benefits public health, our economy, and the 
environment. In the past year, NSF-supported researchers at academic 
institutions have reported the following results, among many others:
  --Electron microscopy and 3-D image reconstruction revealed the 
        seahorse-shaped structure of a protein complex in Escherichia 
        coli that can adapt to defend the bacteria against viruses and 
        other microbial threats, indicating a bacterial immune system 
        analogous in part to the human immune system.
  --In stressful environments, Bacillus subtilis bacteria increase 
        their survival by pulsing genes, like those initiating cell 
        repair, on and off, counter to previous belief that once turned 
        on, the genes remain active.
  --Some patients develop blood infections from implanted cardiac 
        devices because the biofilm bacteria involved have gene 
        mutations that make the bacteria more likely to adhere to 
        device surfaces, according to research partly funded by NSF's 
        Directorate for Geosciences.
  --Viruses known to infect E. coli bacteria (M13 phages) have been 
        tricked into self-assembling as thin films with 3-D features 
        like filaments or ridges, offering a potential nanoscale tool 
        that might eventually lead to tissue regeneration and repair.
  --Genetic sequencing of the bacteria that cause speck disease in 
        tomatoes (Pseudomonas syringae pv. tomato), comparing isolates 
        from 1975 and 2000, revealed that the economically important 
        plant pathogen evolves more rapidly than expected, increasing 
        its resistance to the tomato immune system and becoming more 
        virulent.
  --Novel therapeutics effective against drug-resistant influenza 
        viruses might be developed using new research on the pocket-
        shaped surface cavities of avian influenza viruses that are 
        targeted by flu drugs, based on computer simulations of how 
        these cavities move and change.
  --Scientists have sequenced the genomes of two fungal pathogens 
        responsible for plant diseases that severely impact global food 
        supplies, wheat stem rust and poplar leaf rust, in a 6-year 
        collaborative program involving several universities, NSF, the 
        U.S. Department of Energy, and the U.S. Department of 
        Agriculture (USDA).
   national science foundation funding supports diverse research in 
                          biological sciences
    The fiscal year 2013 budget requests $733.86 million for NSF's 
Directorate for Biological Sciences (BIO), a 3-percent increase more 
than the enacted fiscal year 2012 level. We are concerned that funding 
for the BIO divisions has remained essentially flat since fiscal year 
2010. BIO-supported research contributes important insights and new 
knowledge across the wide spectrum of living organisms and systems, 
with obvious applications to public health. Fiscal year 2013 funding 
will further current BIO strategies that emphasize cross-cutting 
research combining several scientific disciplines or leveraging the 
interfaces between the physical and biological worlds.
    Within its research portfolio, the Directorate invests in the five 
so-called Grand Challenges in Biology:
  --synthesizing life-like systems;
  --understanding the brain;
  --predicting organisms' characteristics from their DNA sequences;
  --elucidating interactions between the Earth, its climate and its 
        biosphere; and
  --understanding biological diversity.
    BIO grant recipients and training programs seek answers to major 
problems like climate change, energy shortages, animal and plant 
diseases, and threats to our environment. In fiscal year 2013, BIO 
funding will be distributed among more than 18,000 scientists, 
students, and K-12 teachers to promote relevant research and education.
    This year, the first test sites in the NSF-funded National 
Ecological Observatory Network (NEON) will be operational. NEON is a 
unique research infrastructure that will study all biological entities 
identified in large geographic areas over extended periods. Included in 
NEON research will be numerous studies of microbial communities, their 
responses to environmental change, and how they can be utilized in 
useful ways. Another large-scale NSF project with microbe-based 
components is the agency wide SEES program, distributing grants in 
bioremediation and microbial genetics.
    BIO provides about 62 percent of Federal funding for nonmedical 
basic research in the life sciences at academic institutions and 
supports important microbial research. Over the past 2 years, BIO has 
awarded more than 580 grants worth about $111 million to microbiology-
related projects, which have advanced basic and applied microbiology, 
such as new ways to produce drugs against infectious diseases and 
potential remediation methods to clean polluted environments.
    The Ecology and Evolution of Infectious Disease (EEID) program is a 
joint BIO effort in partnership with USDA's National Institute of Food 
and Agriculture and National Institutes of Health's (NIH) National 
Institute of General Medical Sciences. The principal focus is the 
dynamics of disease transmission, and the program supports academic 
research on the ecological, evolutionary, and socio-ecological 
processes that determine the spread of diseases. Through this program, 
NSF multidisciplinary research is creating inventive approaches to 
controlling infectious diseases. Potential grantees are encouraged to 
utilize investigative teams of physicians, veterinarians, food 
scientists, virologists, and multiple other specialists in their 
proposals.
    Last year, EEID-funded researchers identified the mosquito and bird 
species most responsible for West Nile virus transmission and linked 
bacteria in human sewage to white pox disease that is killing elkhorn 
coral in the Caribbean. Recently funded EEID projects include studies 
of the transmission of brucellosis among bison in Yellowstone Park, the 
spread of the fungal disease white-nose syndrome among hibernating 
bats, and how wildfires and extreme droughts affect the spread of the 
infectious plant disease called sudden oak death that has attacked 
millions of trees in California and Oregon. EEID's mission encompasses 
the varied factors that determine transmission of diseases to humans, 
nonhuman animals, and plants, enabling research in infectious disease 
not replicated elsewhere.
    national science foundation funding supports basic research in 
            engineering, mathematics, and physical sciences
    NSF supports interdisciplinary studies in all STEM fields as the 
boundaries have become increasingly blurred among biological, physical, 
and computing sciences. The Directorate for Engineering would receive 
$873.33 million, an increase of 6.1 percent; the Directorate for 
Geosciences (GEO), $906.44 million (2.4 percent); and the Directorate 
for Mathematical and Physical Sciences (MPS), $1,345.18 million (2.8 
percent).
    GEO--which provides about 55 percent of Federal funding for basic 
geosciences research--supports diverse academic studies of the global 
environment. GEO-funded research, scientist training, and education 
contribute new knowledge about the oceans, our atmosphere, water 
quality, and other environmental systems. GEO funds help underwrite 
observatories, ocean drilling projects, and other large-scale programs 
that would be unlikely without NSF support. The resulting research also 
has added to our understanding of natural disasters like earthquakes 
and tornadoes. Geochemists' identified microbes in the Gulf of Mexico 
following the Deepwater Horizon oil spill that ingest natural gases 
like methane and ethane at cold temperatures, which should inform 
future contaminant remediation.
    The Directorate of MPS provides one-half of the Federal funding for 
basic research at academic institutions. Its contributions to the SEES 
program include grant awards for sustainable chemistry research. MPS 
recently appointed a committee of external experts, called NSF 
Materials 2022, to develop future research strategies in materials 
science that will undoubtedly utilize biological systems among others. 
In fiscal year 2013, MPS also will continue its partnership with the 
BIO and ENG directorates in the Research at the Interface of the 
Biological, Mathematical and Physical Sciences (BioMaPS) program, which 
integrates biological, engineering, mathematical, and physical sciences 
to study naturally occurring networks. BioMaPS-funded projects generate 
bio-based materials, through new approaches to manufacturing devices 
and platforms. MPS funding for this creative program would increase 50 
percent in fiscal year 2013, recognition of the potential contributions 
from mathematical and physical sciences to technologies like 
bioimaging, renewable fuels, and biosensors.
    The Directorate for Engineering contributes about 35 percent of 
Federal funding for basic engineering research at academic 
institutions. Bioengineering research offers exciting new solutions to 
challenges faced in healthcare, environmental stewardship, and the U.S. 
economy. The Division of Chemical, Bioengineering, Environmental, and 
Transport Systems (CBET) underwrites SEES-related research and 
education aimed toward sustainability in water, climate, and energy. 
The CBET research portfolio includes emerging specialties like 
biosensing and investigations that involve engineers, life scientists, 
and bioinformatics experts.
                               conclusion
    ASM recommends that the Congress approve the administration's 
fiscal year 2013 budget request for the NSF, the Nation's principal 
sponsor of basic research in crucial technical areas. It is important 
that the Congress sustain NSF's proven successes in STEM-related 
research and education. By funding academic research, NSF serves the 
public as a partner in achieving our national imperative to enhance 
discovery and innovation across STEM disciplines.
                                 ______
                                 
   Prepared Statement of the American Society of Mechanical Engineers
    The recent heightened awareness around budget deficits and our 
Nation's fiscal health has catalyzed an important and timely discussion 
regarding how we begin to make the difficult decisions that will 
improve our long-term fiscal outlook. However, even in the frame of 
this discussion, it is critical that research and development remain 
one of the highest priorities for domestic discretionary spending. 
Scientific and engineering research has long been the foundation of our 
Nation's economic growth and prosperity. Our country's economic 
strength comes from our ability to produce the world's best scientists 
and engineers, nurture new ideas and innovation, and develop new 
technologies and industries. If America is to remain a global economic 
leader, we must continue to invest in the scientific and engineering 
enterprise that generates new technologies, industries and jobs.
    The American Society of Mechanical Engineers (ASME) Knowledge & 
Community Sector National Institute of Standards and Technology (NIST) 
Task Force is pleased to have this opportunity to provide comments on 
the fiscal year 2013 budget request for NIST. The NIST Task Force and 
ASME Standards & Certification have a long-standing relationship with 
NIST and thus recognize NIST as a key Government agency that 
contributes significantly to the development and application of 
technology.
    In the President's fiscal year 2013 budget request, the Task Force 
supports the proposed increases for NIST programs, which are consistent 
with the doubling path by fiscal year 2017 identified by the 
administration as a goal for NIST.
Introduction to American Society of Mechanical Engineers and the 
        National Institute of Standards and TechnologyTask Force
    Founded in 1880 as the American Society of Mechanical Engineers, 
ASME is a worldwide engineering society of more than 120,000 members 
focused on technical, educational and research issues. ASME conducts 
one of the world's largest technical publishing operations, holds 
approximately 30 technical conferences and 200 professional development 
courses each year, and sets many industry and manufacturing standards.
    Mechanical engineers play a key role in the research, technology 
development, and innovation that influence the economic well-being of 
the Nation. ASME has supported the mission of NIST since it was founded 
in 1901, as the National Bureau of Standards. In fact, ASME was 
instrumental in establishing the Department of Commerce, NIST's parent 
agency. The technical programs of NIST are unique in that they foster 
Government and industry cooperation through cost-sharing partnerships 
that create long-term investments based on engineering and technology. 
These programs are aimed at providing the technical support so vital to 
our Nation's future economic health.
Overview of NIST's Fiscal Year 2012 Budget Request
    The administration's budget request for NIST in fiscal year 2013 is 
$857 million. This represents a $106.2 million increase more than the 
fiscal year 2012 appropriated amount This year, the administration has 
also identified $1.3 billion in mandatory spending; $300 million to 
support a Wireless Innovation Fund, and $1 billion for a National 
Network for Manufacturing Innovation.
    Although the NIST Task Force is pleased to see the administration 
seeking higher funding for NIST, we remain concerned that the 
cancellation of NIST programs such as the Technology Innovation 
Partnership (TIP) as well as the Baldrige Performance Excellence 
Program may obstruct the path toward a high-technology manufacturing 
economy as envisioned by President Barack Obama. The Task Force would 
also note that the budget increases proposed for fiscal year 2013 would 
come on the heels of a previous discretionary budget cycle that was 
flat overall for NIST.
    This budget includes $648 million for the Scientific and Technical 
Research and Services (STRS), NIST laboratory research, which is $81 
million more than the fiscal year 2012 appropriated amount. The fiscal 
year 2013 budget would provide $572.7 million to support laboratory 
programs, a $54.7 million increase more than the fiscal year 2012 
appropriated amount. This is reflective of the desire expressed by 
Under Secretary of Commerce and Director of NIST Patrick Gallagher last 
year to discontinue the Baldrige program and identify private sector 
funding sources for its continuation. There is no set timetable for 
this to take place.
    A large portion of the NIST budget is devoted to the Industrial 
Technology Services (ITS) programs, which previously consisted of the 
Technology Innovation Program (TIP). Now, ITS is mostly devoted to the 
Hollings Manufacturing Extension Partnership (MEP), which would receive 
$149 million in fiscal year 2013, a $20.6 million increase more than 
the fiscal year 2012 appropriated amount. In more recent years, the 
erosion of U.S. manufacturing jobs has become a key issue for the MEP 
to develop sustainable practices for industries in the United States. 
The MEP incorporates competitive business practices and technologies 
into small- to medium-sized enterprises--companies that create a 
significant number of jobs. The administration's request of $149 
million reflects the importance of NIST as a part of the 
administration's goals for innovation, as well as harkens to the 
bipartisan America COMPETES Act. The NIST Task Force has long supported 
MEP as a catalyst for technological innovation and is pleased with the 
administration's support for this program as NIST seeks to facilitate 
the development of new industries that will catalyze manufacturing and 
industrial practices in the United States. The Task Force supports the 
total request to fund the ITS in fiscal year 2013.
    NIST has again proposed the creation of a new program called the 
Advanced Manufacturing Technology Consortia (AMTech) but has asked for 
$21 million instead of the $12.3 million it requested in fiscal year 
2012, when it did not receive funding from the Congress. According to 
NIST, the program will also be ``based on NIST's experience with the 
Nanoelectronics Research Initiative (NRI) partnership.'' The program 
has been described as a vehicle for aiding private industry seeking to 
develop nanotechnology products for the manufacturing sector. AmTech 
will seek to assemble a consortium of public and private stakeholders 
to identify, and collectively fund, long-term technical challenges to 
this high-technology manufacturing sector. Unlike TIP, there is no cost 
share requirement for AmTech. This program effectively demonstrates the 
value of NIST as a convener of U.S. stakeholders to collectively work 
toward the establishment of groundbreaking new industries like the 
nanotechnology field. Although, difficult fiscal challenges lay ahead, 
the Task Force strongly urges the Congress to honor the request to fund 
AmTech in fiscal year 2013, and the Task Force was disappointed that 
the Congress did not fund AmTech in fiscal year 2012. We believe that 
investment should be made into initiatives such as the AMTech program 
because of their potential for high return on investment and to 
maintain global U.S. competitiveness.
    Finally, the Construction of Research Facilities (CRF), which would 
receive $60 million, a 19-percent increase from the fiscal year 2012 
enacted amount of $48.2 million. This category includes $11.8 million 
for the renovation of the 60-year-old Building 1 of the NIST Boulder 
laboratories. NIST laboratories remain a critical resource that is 
vital to the economic health and national security of the United States 
as outlined in the President's Innovation Agenda, inspired, in part, by 
the original America COMPETES Act of 2007 (Public Law 110-69). The NIST 
engineering laboratory ``promotes the development and dissemination of 
advanced technologies, guidelines, and services to the U.S. 
manufacturing and construction industries through activities including 
measurement science research, performance metrics, tools and 
methodologies for engineering applications, and critical technical 
contributions to standards and codes development.''
NIST's Standards Mission
    Part of the mission of NIST is to promote the use of American 
standards, conformity assessment programs and technology in countries 
and industries around the world as a means of enhancing U.S. 
competitiveness and opening new markets for U.S. products and services. 
Standards provide technical definitions and guidelines for design and 
manufacturing. They serve as a common global language, define quality 
and establish safety criteria. In the United States, standards are 
developed by private-sector organizations such as ASME in close 
collaboration with representatives from industry, government, and 
academia. These standards are used by industry and also frequently 
adopted by Government agencies as a means of establishing regulatory 
requirements. They are vital to the economic health of many industries, 
and--more importantly--they help to ensure the health and safety of the 
American people and of citizens in countless nations around the world.
    Over the years, the Department of Commerce and NIST have played an 
indispensable role in ensuring acceptance by other nations of U.S.-
developed standards that continue to identify and incorporate 
technological advances and that also reflect changing needs for 
industry, regulation, and public safety. The Congress must be aware 
that, unlike in the United States where standards development is 
largely the province of private sector organizations, standards 
development in many other countries is undertaken with strong 
government support. The U.S. voluntary consensus standards process 
enables innovation, reduces redundancy in public and private sector 
research, and reduces Government costs. The governments of many of our 
key trading partners invest significant resources to promote acceptance 
of competing standards (developed by organizations in those countries) 
in the global marketplace. It is therefore essential that the U.S. 
Government, in partnership with private sector standards development 
organizations, strengthen its commitment to ensuring adequate 
representation of U.S. interests in international standards 
negotiations.
    Enabling U.S. manufacturers to design and build to one standard or 
set of standards increases their competitiveness in the world market. 
The ability of NIST to assist U.S. domiciled standards developers in 
their negotiations with international and national standards 
organizations is important to the U.S. business community. The United 
States must be a full participant in global standards development if 
our industries are to compete effectively in a world market. Decisions 
made in standards bodies outside the United States have a profound 
impact on the ability of U.S. companies to compete in foreign markets. 
We believe that NIST plays a unique and crucial role in maintaining, 
and growing, the competitive edge of U.S. industry in the emerging 
landscape of the high technology manufacturing sector.
Conclusion
    The administration's commitment to NIST appears to be strong, as 
demonstrated by their willingness to support increases for key NIST 
initiatives for fiscal year 2013. While the Task Force would prefer to 
see the resurrection of the TIP program, the Task Force remains 
strongly supportive of these initiatives as well as the underlying 
goals of NIST as it relates to advanced manufacturing and technological 
innovation.
    ASME is a nonprofit technical and educational organization with 
more than 120,000 members globally. ASME's members work in all sectors 
of the economy, including industry, academia, and government. This 
position statement represents the views of the NIST Task Force of the 
ASME Technical Communities of the Knowledge & Community Sector and is 
not necessarily a position of ASME as a whole.
                                 ______
                                 
     Prepared Statement of the American Society of Plant Biologists
    On behalf of the American Society of Plant Biologists (ASPB), we 
submit this testimony for the official record to support the requested 
level of $7.373 billion for the National Science Foundation (NSF) for 
fiscal year 2013. ASPB and its members recognize the difficult fiscal 
environment our Nation faces, but believe that investments in 
scientific research will be a critical step toward economic recovery 
and continued global competitiveness.
    ASPB would like to thank the subcommittee for its consideration of 
this testimony and for its strong support for the research mission of 
NSF.
    Our testimony will discuss:
  --Plant biology research as a foundation for addressing food, fuel, 
        environment, and health concerns;
  --The rationale for robust funding for NSF to maintain a well-
        proportioned science portfolio with support for all core 
        science disciplines, including biology; and
  --The rationale for continued funding of NSF education and workforce 
        development programs that provide support for the future 
        scientific and technical expertise critical to America's 
        competitiveness.
    ASPB is an organization of approximately 5,000 professional plant 
biology researchers, educators, graduate students, and postdoctoral 
scientists with members in all 50 States and throughout the world. A 
strong voice for the global plant science community, our mission--
achieved through work in the realms of research, education, and public 
policy--is to promote the growth and development of plant biology, to 
encourage and communicate research in plant biology, and to promote the 
interests and growth of plant scientists in general.
    food, fuel, environment, and health: plant biology research and 
                            america's future
    Plants are vital to our very existence. They harvest sunlight, 
converting it to chemical energy for food and feed; they take up carbon 
dioxide and produce oxygen; and they are the primary producers on which 
all life depends. Indeed, plant biology research is making many 
fundamental contributions in the areas of energy security and 
environmental stewardship; the continued and sustainable development of 
better foods, fabrics, and building materials; and in the understanding 
of biological principles that underpin improvements in the health and 
nutrition of all Americans.
    In particular, plant biology is at the interface of numerous 
scientific breakthroughs. For example, with high throughput 
experimental approaches facilitating extraordinary syntheses of 
information that are supported by the NSF, plant biologists are using 
computer science applications to make tremendous strides in our 
understanding of complex biological systems, ranging from single cells 
to entire ecosystems. Understanding how plants work will ultimately 
result in better and more productive crops, new sources of fuel, and 
the development of better medicines to treat diseases like cancer.
    Despite the fact that foundational plant biology research--the kind 
of research funded by NSF--underpins vital advances in practical 
applications in agriculture, health, energy, and the environment, the 
amount of money invested in understanding the basic function and 
mechanisms of plants is surprisingly small. This is especially true 
considering the significant positive impact plants have on the Nation's 
economy and in addressing some of our most urgent challenges, including 
food and energy security.
    Understanding the importance of these areas and in order to address 
future challenges, ASPB organized the Plant Science Research Summit 
held in September 2011. With funding from the NSF, Departments of 
Agriculture and Energy, and the Howard Hughes Medical Institute, the 
Summit brought together representatives from across the full spectrum 
of plant science research to identify critical gaps in our 
understanding of plant biology that must be filled over the next 10 
years or more in order to address the grand challenges facing our 
Nation and our planet. The grand challenges identified at the Summit 
include:
  --In order to feed everyone well, now and in the future, advances in 
        plant science research will be needed for higher yielding, more 
        nutritious varieties able to withstand a variable climate;
  --Innovations leading to improvements in water use, nutrient use, and 
        disease and pest resistance that will reduce the burden on the 
        environment are needed and will allow for increases in 
        ecosystem services, such as cleaner air, cleaner water, fertile 
        soil, and biodiversity benefits like pest suppression and 
        improved pollination;
  --To fuel the future with clean energy, improvements in current 
        biofuels technologies, including breeding, crop production 
        methods, and processing that will help meet our Nation's fuel 
        requirements for the future are needed; and
  --For all the benefits that advances in plant science bestow--in food 
        and fiber production, ecosystem and landscape health, and 
        energy subsistence--to have lasting, permanent benefit they 
        must be economically, socially, and environmentally 
        sustainable.
    In spring 2012, a report from the Plant Science Research Summit 
will be published. This report will further detail priorities and needs 
to address the grand challenges.
           robust funding for the national science foundation
    The fiscal year 2013 NSF budget request would fund the NSF at 
$7.373 billion. ASPB supports this request and encourages proportional 
funding increases across all scientific disciplines supported by the 
NSF. As scientific research becomes increasingly interdisciplinary with 
permeable boundaries, a diverse portfolio at the NSF is needed to 
maintain transformational research and innovation.
    NSF funding for plant biology specifically enables the scientific 
community to address cross-cutting research questions that could 
ultimately solve grand challenges related to a sustainable food supply, 
energy security, and improved health. This idea is reflected in the 
National Research Council's report ``A New Biology for the 21st 
Century'' and will be addressed comprehensively in the Plant Science 
Research Summit's report.
    The NSF Directorate for Biological Sciences (BIO) is a critical 
source of funding for scientific research, providing 62 percent of the 
Federal support for nonmedical basic life sciences research at U.S. 
academic institutions and beyond. BIO supports research ranging from 
the molecular and cellular levels to the organismal, ecosystem, and 
even biosphere levels. These investments continue to have significant 
payoffs, both in terms of the knowledge directly generated and in 
deepening collaborations and fostering innovation among communities of 
scientists.
    The Biological Sciences Directorate's Plant Genome Research Program 
(PGRP) is an excellent example of a high-impact program that has laid a 
strong scientific research foundation for understanding plant genomics 
as they relate to energy (biofuels), health (nutrition and functional 
foods), agriculture (impact of changing climates on agronomic 
ecosystems), and the environment (plants' roles as primary producers in 
ecosystems). ASPB asks that the PGRP be funded at the highest-possible 
level and have sustained funding growth over multiple years to address 
21st century challenges.
    Without significant and increased support for BIO and NSF as a 
whole, promising fundamental research discoveries will be delayed and 
vital collaborations around the edges of scientific disciplines will be 
postponed, thus limiting the ability to respond to the pressing 
scientific problems that exist today and the new challenges on the 
horizon. Addressing these scientific priorities also helps improve the 
competitive position of the United States in a global marketplace.
    continued support for national science foundation education and 
                     workforce development programs
    NSF is a major source of funding for the education and training of 
the American scientific workforce and for understanding how educational 
innovations can be most effectively implemented. NSF's education 
portfolio impacts students at all levels, including K-12, 
undergraduate, graduate, and postgraduate, as well as the general 
public.
    The Integrative Graduate Education and Research Traineeship (IGERT) 
program is just one example of NSF's commitment to education that has 
been successful in fostering the development of novel programs that 
provide multidisciplinary graduate training. ASPB encourages expansion 
of the IGERT program in order to foster the development of a greater 
number of innovative science leaders for the future.
    Furthermore, ASPB urges the subcommittee to support the fiscal year 
2013 request to expand NSF's fellowship and career development 
programs--such as the Postdoctoral Research Fellowships in Biology, the 
Graduate Research Fellowship and the Faculty Early Career Development 
programs--thereby providing continuity in funding opportunities for the 
country's most promising early career scientists. ASPB further 
encourages the NSF to develop ``transition'' awards that will support 
the most promising scientists in their transition from postdoctoral 
research to independent, tenure-track positions in America's 
universities. The NSF might model such awards after those offered by 
the National Institutes of Health.
    ASPB urges support for NSF to further develop programs aimed at 
increasing the diversity of the scientific workforce by leveraging 
professional scientific societies' commitment to provide a professional 
home for scientists throughout their education and careers and to help 
promote and sustain broad participation in the sciences. Discreet 
focused training and infrastructure support programs for Hispanic 
Serving Institutions, Historically Black Colleges and Universities, and 
Tribal Colleges and Universities remain vitally important, as they 
foster a scientific workforce that reflects the U.S. population.
    ASPB urges support for education research that enhances our 
understanding of how educational innovations can be sustainably 
implemented most effectively in a variety of settings. NSF programs 
such as Transforming Undergraduate Education in STEM, Discovery 
Research K-12, and Widening Implementation and Demonstration of 
Evidence-based Reforms provide opportunities to expand NSF's research 
and evaluation efforts to address scale-up and sustainability. 
Additionally, investigating and supporting effective approaches toward 
rolling out across the K-16 continuum the new vision for undergraduate 
biology education articulated in the 2010 Vision and Change report are 
particularly valuable. ASPB encourages continued support for education 
research programs within NSF's Education and Human Resources portfolio 
with a focus on understanding how previous investments in educational 
strategies can be made most effective.
    Grand research challenges will not be resolved in a year, an 
administration, or a generation, but will take continued attention and 
investment at Federal research agencies, such as the NSF, over decades.
    Thank you for your consideration of our testimony on behalf of the 
American Society of Plant Biologists.
                                 ______
                                 
           Prepared Statement of the Animal Welfare Institute
    We wish to thank the subcommittee for accepting our testimony as 
you consider fiscal year 2013 funding priorities under the Commerce, 
Justice, Science, and Related Agencies appropriations bill. Our 
testimony addresses activities under the Office of Justice Programs 
(OJP) of the Department of Justice (DOJ).
    We are grateful for the DOJ's OJP Bureau of Justice Assistance's 
continuing support for the Association of Prosecuting Attorneys' (APA) 
program of training, technical support, and other assistance for 
prosecutors, law enforcement, and other involved parties to enhance the 
prosecution of animal abuse and animal fighting crimes. This is a very 
exciting development; we are proud to partner with APA in this ongoing 
effort (I would note that Animal Welfare Institute (AWI) does not 
receive any Federal funding for its work with APA), and I am pleased to 
be able to share with you the work that has been done as a result of 
BJA's support.
    APA is currently planning its third national training conference 
for October in Los Angeles, having already held conferences in 
Washington, DC and Colorado. These national meetings bring together 
participants and speakers from many disciplines--law enforcement, 
psychology, animal control, veterinary medicine, the domestic violence 
and juvenile justice communities, etc.--to share their experiences 
dealing with animal cruelty and animal fighting, and to encourage 
cross-pollination among participants. Topics have included the basics 
of conducting an animal cruelty investigation; charging, prosecuting, 
and sentencing in animal cruelty cases; the use of forensics experts in 
court; the relationship between animal cruelty and other forms of 
interpersonal violence; and cutting edge considerations with the use of 
digital evidence. Participants then put theory into practice through a 
mock trial.
    As an example of the impact that such training can have, an 
assistant prosecutor from a large urban county attended the very first 
conference. He and a colleague were taking on animal cruelty cases on 
their own, in addition to their regular caseload, and were feeling very 
much out in the wilderness. Today, their animal protection unit boasts 
four prosecutors who review and handle all animal-related cases (as 
well as other cases) and over the past 3 years has achieved a 98-
percent conviction rate. (Both of the original assistant prosecutors 
are now members of the APA's Animal Cruelty Advisory Council, discussed 
below.) One of the unit's cases resulted in significant jail time for 
two men who set fire to a dog in front of several witnesses, including 
children.
    Training and outreach do not stop with these large meetings, 
however. APA maintains a listserv and also runs a series of successful 
webinars addressing issues of practical concern to prosecutors and the 
many others whose work is connected with animal cruelty crimes. Thus 
far, the sessions have covered obtaining search warrants in animal 
cruelty cases; puppy mills; dog fighting; cockfighting; and veterinary 
forensics in cruelty cases. Three more webinars are scheduled for 2012.
    APA has responded to more than 250 requests for technical 
assistance, either directly or through referral to appropriate experts. 
The Animal Cruelty and Fighting Program section of its Web site makes 
available such valuable resources as training and informational 
manuals; State animal cruelty statutes; animal cruelty case law 
summaries (developed as part of a project with the George Washington 
University School of Law); a library of briefs, motions, search 
warrants, and legal memos; and downloadable versions of the webinars.
    APA also publishes, distributes, and posts on its Web site the 
newsletter Lex Canis, each issue of which (there have been nine so far) 
provides readers with program updates, an in-depth feature, and 
summaries of investigations, cases, changes in the law, and other 
developments. For example, recent features have focused on strategies 
for achieving success in prosecuting cases under State animal cruelty 
laws; dealing with hoarders; the innovative work of the Mayor's Anti-
Animal Abuse Advisory Commission in Baltimore; and, in its very first 
issue in 2009, the effect of the foreclosure crisis on rising abuse and 
abandonment of companion animals.
    APA and AWI have taken advantage of opportunities to address new 
audiences about the relationship between animal cruelty and 
interpersonal violence, and how those audiences can respond both to 
improve prosecutions of such cases and to reduce their incidence. 
Several presentations were made to the National Conference of Juvenile 
and Family Court Judges and to the Pennsylvania Bar Institute.
    Last but not certainly not least, APA has assembled an Animal 
Cruelty Advisory Council composed of prosecutors, investigators, law 
enforcement, veterinarians, psychologists, members of the animal 
protection and domestic violence communities, and others, to identify 
issues, resource needs, and strategies. It brings these same 
professionals together to provide its multidisciplinary training, and 
also calls on them individually for topic-specific web-based training 
and materials.
    We respectfully urge the subcommittee to continue funding the BJA's 
National Animal Cruelty and Fighting Initiative and to encourage DOJ's 
ongoing interest in addressing animal-related crimes because more 
vigorous attention to such crimes is a valuable tool for making 
communities safer overall.
    The connection between animal abuse and other forms of violence has 
been firmly established through experience and through scientific 
studies. Among the most well-documented relationships is that between 
animal cruelty and domestic violence, child abuse, and elder abuse. For 
example, up to 71 percent of victims entering domestic violence 
shelters have reported that their abusers threatened, injured, or 
killed the family pet; batterers do this to control, intimidate, and 
retaliate against their victims. Batterers threaten, harm, or kill 
their children's pets in order to coerce them into allowing sexual 
abuse or to force them into silence about abuse.\1\ Criminals and 
troubled youth have high rates of animal cruelty during their 
childhoods, perpetrators were often victims of child abuse 
themselves,\2\ and animal abusers often move on to other crimes. In 
1997, the Massachusetts Society for the Prevention of Cruelty to 
Animals (MSPCA) released the results of a review of animal cruelty 
cases it had prosecuted between 1975 and 1996. Seventy percent of the 
individuals involved in those cases had been involved in other crimes, 
and animal abusers were five times more likely to commit a violent 
offense against other people.
---------------------------------------------------------------------------
    \1\ The study ``I'll only help you if you have two legs'', or ``Why 
human services professional should pay attention to cases involving 
cruelty to animals'', by Loar (1999), as cited on the Web site of the 
National Coalition Against Domestic Violence (www.ncadv.org).
    \2\ ``Woman's Best Friend: Pet Abuse and the Role of Companion 
Animals in the Lives of Battered Women,'' by Flynn (2000), as cited at 
www.ncadv.org.
---------------------------------------------------------------------------
    More recently, an FBI special agent (who is also a member of the 
APA's Animal Cruelty Advisory Council) is currently overseeing a 
research project that involves ``analyzing the criminal histories of 
offenders who were arrested for active animal cruelty, in order to 
further examine the potential link between animal cruelty and violence 
against persons. According to an initial analysis published in a 
dissertation (Leavitt, 2011), the majority of the 66 offenders examined 
so far ``had prior arrests for other crimes'', including interpersonal 
violence (59 percent), assault (39 percent), and assault of a spouse or 
intimate partner (38 percent); 17 percent had a history of sexual 
offenses.
    Another connection that is all too common exists among animal 
fighting (which includes both dogfighting and cockfighting), gangs, and 
drugs, illegal guns, and other offenses. The Animal Legal and 
Historical Center at the Michigan State University College of Law 
describes dogfighting in these stark terms:

    ``The notion that dogfighting is simply an animal welfare issue is 
clearly erroneous. Until the past decade, few law enforcement officials 
or government agencies understood the scope or gravity of dogfighting. 
As these departments have become more educated about the epidemic of 
dogfighting and its nexus with gang activity, drug distribution rings, 
and gambling networks, many have implemented well-designed, 
sophisticated task forces. The magnitude of criminal activity 
concurrently taking place at the average dogfight is of such a scope as 
to warrant the involvement of a wide range of agencies, including 
local, regional, and Federal law enforcement agencies and their 
specialized divisions such as organized crime units, SWAT teams, and 
vice squads, as well as animal control agencies and child protective 
services.''

    Further evidence of the accuracy of the above assessment comes from 
a Drug Enforcement Administration report on the sentencing of a 
Louisiana drug trafficking kingpin, which described him as ``an avid 
pit bull and cock fighter [who] utilized these illegal events as a 
networking tool in order to recruit members to transport and sell 
marijuana and cocaine for his organization.''
    Animal fighting is barbaric and is a violent crime in the truest 
sense of the term. It causes immense suffering to countless numbers of 
innocent animals and its presence threatens the safety of the entire 
community. It is illegal under both State and Federal law, so it well 
serves the entire community for law enforcement to have the most 
powerful tools possible to eradicate it. In fact, legislation has been 
introduced in the House and Senate that would add to these tools by 
closing a significant loophole in the law. Animal fighting is fueled 
not just by those who train and fight the animals and finance the 
fights, but also by spectators. Spectators are not innocent bystanders; 
they are active participants in and enablers of these criminal 
enterprises--and they also provide ``cover'' during raids by allowing 
the organizers, trainers, etc., to ``blend into the crowd'' to escape 
arrest. The Animal Fighting Spectator Prohibition Act (H.R. 2492 and S. 
1947) makes knowingly attending an animal fight punishable by fines and 
jail time and also makes it a separate offense, with higher penalties, 
to knowingly bring a minor to such an event. Forty-nine States have 
already outlawed attendance at an animal fight.
    At the same time, it must be remembered that animal abuse is more 
than a ``gateway'' behavior. It is also a crime in its own right. It is 
a crime everywhere in the United States, and certain egregious acts are 
felonies in 47 States (it was 46 this time last year) and the District 
of Columbia. Some States have even enacted or are considering 
provisions that enhance the penalty for animal cruelty when it is 
committed in front of a child. Twenty-two States also now allow the 
inclusion of companion animals in domestic violence restraining orders.
    All laws are not created equal, however; activity that constitutes 
a felony in one State may still only be a misdemeanor in another. In 
some States, cruelty rises to a felony only upon a second or third 
offense, or only if the animal dies; if he survives, no matter how 
severe his injuries, it is still a misdemeanor.
    The key to offering animals the most protection possible, however 
weak or strong the statute, lies in ensuring both awareness of the law 
and vigorous enforcement of that law and prosecution of violators. 
While there are many in law enforcement and the courts who recognize 
animal abuse for the violent crime that it is and act accordingly, 
there are those who do not take it seriously, treating it as no more 
urgent than a parking infraction. Others genuinely want to act 
decisively but may lack the necessary resources, support, or expertise. 
Moreover, enforcement can be complicated by the laws themselves--weak 
laws are bad enough, but additional problems may arise from confusion 
over jurisdiction or limitations in coverage--or by pressure to dispose 
of cases quickly.
    BJA's National Animal Cruelty and Animal Fighting Initiative is so 
valuable and forward-thinking in recognizing that animal cruelty and 
animal fighting crimes not only victimize some of the most innocent and 
vulnerable members of society, but also create a culture of violence--
and a cadre of violent offenders--affecting children, families in 
general, and society at large. Therefore, preventing and prosecuting 
these crimes will benefit not only the animals, but also the entire 
community by reducing the overall level of violence.
    OJP/BJA showed great vision in recognizing that by identifying 
precursor crimes, such as animal cruelty and animal fighting, and 
ensuring proper adjudication of such cases, our criminal justice system 
can reduce the incidence of family and community violence and change 
the path of potential future violent offenders. It is especially with 
respect to that latter goal that APA and AWI are also calling attention 
to the impact that experiencing animal cruelty has on children and 
their possible future involvement in the juvenile justice system; many 
youths in juvenile detention facilities have been exposed to community 
and family violence--which arguably includes animal fighting and abuse.
    There are two audiences for the message and resources the BJA 
initiative makes available:
  --those who still need to be convinced of the importance of 
        preventing and punishing animal-related crimes, for the sake 
        both of the animals and of the larger community; and
  --those who are dedicated to bringing strong and effective cases 
        against animal abusers but may need assistance to do so.
    The National Animal Cruelty and Animal Fighting Initiative sends a 
very strong message to prosecutors and law enforcement that crimes 
involving animals are to be taken seriously and pursued vigorously, and 
offenders must be held accountable.
                                 ______
                                 
        Prepared Statement of the California Coastal Commission
    Many of our Nation's most urgent issues--the economy, energy 
policy, environmental protection, and climate change--converge along 
our Nation's coasts. Coastal areas are home to more than one-half of 
the Nation's population and a diversity of natural resources, species, 
and habitats. Our coasts are also critical economic drivers; 
collectively coastal economies contribute almost one-half of the 
Nation's GDP, providing jobs, recreation and tourism, coastal and ocean 
dependent commerce, and energy production.
    In California, for example, the State's ocean-dependent economy is 
estimated at almost $36 billion per year.\1\ Almost 70 percent of 
Californians live and nearly 80 percent of California's jobs exist 
along bay or coastal areas and face hazardous conditions now and in the 
future.\2\ California's coastal tourism and recreation economy, valued 
at $12 billion in 2009 and employs more than 300,000 people, more than 
any other ocean economy industry in California.\1\
---------------------------------------------------------------------------
    \1\ http://www.oceaneconomics.org/Market/coastal/coastalEcon.asp.
    \2\ Griggs, G. (1999). The Protection of California's Coast: Past, 
Present and Future. Shore and Beach 67(1): 18-28.
---------------------------------------------------------------------------
    The U.S. Congress recognized the importance of the Nation's coasts 
by passing the Coastal Zone Management Act (CZMA) in 1972. The act, 
administered by the National Oceanic and Atmospheric Administration 
(NOAA), provides for management of the Nation's coastal resources, 
including the Great Lakes, and balancing economic development with 
environmental conservation. CZMA also establishes a Federal-State 
partnership by giving State's the opportunity to manage coastal 
resources in concert with the Federal Government through federally 
approved State Coastal Management Programs (CMP). California's CMP is 
designed to comprehensively manage coastal resources using a variety of 
planning, permitting, public education, and nonregulatory mechanisms. 
Successful implementation of the CMP depends on cooperation between 
Federal, State, and local agencies and requires that California balance 
the demands for development with the need to conserve natural 
resources, providing for sound, responsible stewardship of one of the 
Nation's most spectacular coastlines.
    Federal approval of a State program also provides the State CMP 
agencies with Federal funding through Coastal Zone Management State 
Grants. For the fiscal year 2013, the California Coastal Commission 
requests that these grants be funded at least $67 million, consistent 
with last year's funding and the fiscal year 2013 President's budget. 
This funding is critically important to the maintaining current 
staffing and operational levels of California's Coastal Management 
Program agencies:
  --the California Coastal Commission;
  --the San Francisco Bay Conservation and Development Commission; and
  --the State Coastal Conservancy.
    Federal funds are matched by the State dollars and are often 
further leveraged by private and local investment in our Nation's 
coasts.
    Maintaining funding for these programs that provide on-the-ground 
services to our local communities and citizens is well worth the 
investment. The Federal funds that California receives will directly 
support processing of hundreds of coastal development permits, 
reviewing approximately 125 Federal consistency determinations, and 
addressing the more than 1,650 pending enforcement cases. These actions 
provide for environmentally sustainable development and related 
economic growth, while recognizing the protections that are needed for 
California's coast to maintain its natural and scenic beauty, ensure 
healthy air and clean water for coastal communities, and support 
coastal tourism that is so critical to the State's economy. In 
addition, this funding will support the work that the California 
Coastal Commission is doing to help communities prepare for and address 
threats from coastal hazards resulting from increased flooding and sea 
level rise.
    The CZMA State grants have essentially remained level-funded for a 
decade, resulting in a decreased capacity in the State coastal zone 
management programs and less funding available to communities. An 
increase in funding to $91 million would mean level funding that 
accounts for inflation over the last decade and would provide an 
additional $300,000 to $800,000 for each State and territory. The 
California Coastal Commission recognizes, however, that the fiscal 
climate makes this type of an increase difficult if not impossible. At 
current funding levels, California will receive approximately 
$2,000,000 to carry out its coastal management program based on a 
formula accounting for shoreline miles and coastal population. Any 
additional funding to the CZMA State grant line item would be welcome, 
especially to account for the recent addition of Illinois as a State 
with an approved coastal program in January 2012.
    The California Coastal Commission also supports funding for the 
National Estuarine Research Reserve System (NERRS)--another Federal 
program authorized under the CZMA that establishes a partnership with 
States and territories to ensure long-term education, stewardship, and 
research on estuarine habitats and provides a scientific foundation for 
coastal management decisions. This unique site-based program around the 
Nation contributes to a systemic research, education, and training on 
the Nation's estuaries. To that end, we request level funding in fiscal 
year 2013 for the National Estuarine Research Reserve System at $22.3 
million. The NERRS in the State of California at San Francisco Bay, 
Elkhorn Slough (Monterey) and Tijuana River are a tremendous 
educational resource for the public and for State and local coastal 
management professionals who directly benefit from the trainings that 
are provided at little or no cost. Given the lack for funding at the 
State and local level, planning professionals at State agencies and 
local governments will likely receive little to no professional 
training on the addressing some of the Nations most pressing coastal 
management issues without level funding for the NERRS.
    The California Coastal Commission greatly appreciates the support 
the subcommittee has provided to these programs in the past, thus 
facilitating the Federal and State governments working together to 
protect our coasts and sustain our local communities. We appreciate 
your taking our requests into consideration as you move forward in the 
fiscal year 2013 appropriations process.
                                 ______
                                 
         Prepared Statement of the Coastal States Organization
    The Coastal States Organization (CSO) is a nonpartisan, nonprofit 
organization in Washington, DC, that represents the interests of the 
Governors of the 35 coastal States, territories, and commonwealths. 
Established in 1970, CSO focuses on legislative and policy issues 
relating to the sound management of coastal, Great Lakes, and ocean 
resources and is recognized as the trusted representative of the 
collective interests of the coastal States on coastal and ocean 
management. For fiscal year 2013, CSO supports the following coastal 
programs and funding levels within the National Oceanic and Atmospheric 
Administration (NOAA):
  --Coastal Zone Management Program (Sec. Sec. 306/306A/309)--$67 
        million;
  --Coastal and Estuarine Land Conservation Program--$20 million;
  --Regional Ocean Partnerships--$10 million; and
  --National Estuarine Research Reserve System--$22.3 million.
    Every American, regardless of where they live, is fundamentally 
connected to U.S. coasts, oceans, and Great Lakes. These valuable 
resources are a critical framework for commerce, recreation, energy, 
environment, and quality of life. The U.S. economy is an ocean and 
coastal economy: though Federal investment does not reflect it, the 
oceans and coasts provide an irreplaceable contribution to our Nation's 
economy and communities. With sectors including marine transportation, 
tourism, marine construction, aquaculture, ship and boat building, 
mineral extraction, and living marine resources, the U.S. ocean-based 
sector alone provides $138 billion to U.S. gross domestic product and 
more than 2.3 million jobs to our citizens. In addition, the annual 
contribution of coastal counties is in the trillions, from ports and 
fishing to recreation and tourism. In 2007, our Nation's coastal 
counties provided $5.7 trillion to the economy and were home to 108.3 
million people on a land area that is only 18 percent of the total U.S. 
land area. If these counties were their own country, they would 
represent the world's second-largest economy. Coasts and oceans also 
add to the quality of life to the nearly one-half of all Americans who 
visit the seashore each year; the nonmarket value of recreation alone 
is estimated at more than $100 billion.
    Today, our Nation's coasts are as vital for our future as they are 
vulnerable. As a result of their increasing recreational and 
residential appeal and economic opportunity, we are exerting more 
pressure on our coastal and ocean resources. This demand, combined with 
an increase in natural hazards such as sea level rise, hurricanes and 
other flooding events, endangers the country by the potential loss of 
these invaluable assets. Despite the difficult budgetary times, 
adequate and sustained funding is needed to support the key programs 
that implement national priorities on the ground by utilizing the 
advances in coastal and ocean science, research, and technology to 
manage our coastal and ocean resources for future generations.
    These programs reside within NOAA and provide direct funding or 
services to the States, territories, and regions to implement national 
coastal and ocean priorities at the State, local, and regional level. 
Programs that are engaged in these important efforts and working to 
balance the protection of coastal and ocean resources with the need for 
sustainable development include the Coastal Zone Management Program, 
Coastal and Estuarine Land Conservation Program, Regional Ocean 
Partnerships and National Estuarine Research Reserves.
Coastal Zone Management (CZM) Program (Sec. Sec. 306/306A/309)
    CSO requests that CZM grants be funded at $67 million, a consistent 
level with last year's funding with a small increase to account for 
Illinois' entrance into the program. This funding will be shared among 
the 34 States and territories that have approved coastal zone 
management programs. Pursuant to the Coastal Zone Management Act 
(CZMA), States partner with NOAA to implement coastal zone management 
programs designed to balance protection of coastal and ocean resources 
with the need for sustainable development of coastal communities. 
States have the flexibility to develop programs, policies and 
strategies that are targeted to their State priorities while advancing 
national goals. Under the CZMA program, the States receive grants from 
NOAA that are matched by the States and are used to leverage 
significantly more private and local investment in our Nation's coastal 
areas. These grants have been used to maintain and grow coastal 
economies by reducing environmental impacts of coastal development, 
resolving conflicts between competing coastal uses, and providing 
critical assistance to local communities in coastal planning and 
resource protection.
    The CZMA State grants have essentially remained level-funded for a 
decade, resulting in a decreased capacity in the State coastal zone 
management programs and less funding available to communities. An 
increase in funding to $91 million would mean level funding that 
accounts for inflation over the last decade and would provide an 
additional $300,000 to $800,000 for each State and territory; however, 
CSO recognizes that the fiscal climate makes this type of an increase 
difficult, if not impossible. At maintained current funding levels, 
States and territories would receive between $850,000 and just more 
than $2,000,000 to carry out their coastal management programs based on 
a formula accounting for shoreline miles and coastal population. Any 
additional funding over current funding levels would account for the 
addition of Illinois as a State with an approved coastal program (which 
just occurred January 2012). Illinois will be eligible to receive the 
maximum allotted funds of $2,000,000. With an increase, States' funding 
would not be diluted with the addition of Illinois into the program and 
could focus on activities that support coastal communities and 
economies such as addressing coastal water pollution, working to 
conserve and restore habitat, helping plan with and educate 
communities, providing for public access to the shore and preparing to 
adapt to changing sea and lake levels and the threat of increasing 
storms.
    Several years ago and appropriate at the time, a cap of 
approximately $2,000,000 was instituted to allow for funding to be even 
across the States and territories. Now, more than one-half of the 
States have met the cap and no longer receive an increase in funding, 
despite increased overall funding for CZMA State grants since that cap 
was introduced. Therefore, CSO requests that language be included in 
the appropriations bill declaring that each State will receive no less 
than 1 percent and no more than 5 percent of the additional funds more 
than previous appropriations. As was provided for in fiscal year 2010, 
CSO requests that language be included in the appropriations bill that 
directs NOAA to refrain from charging administrative costs to these 
grants. This is to prevent any undue administrative fees from NOAA from 
being levied on grants intended for States.
    The following are a few examples of activities in Maryland and 
Texas recently funded through State grants. These types of 
contributions and more can be found around the Nation.
            Maryland
    CZMA funding assisted four communities (Anne Arundel, Queen Anne's, 
and Talbot counties, and the city of Annapolis) in reducing 
vulnerability to future storm events, shoreline change and sea level 
rise and incorporating those considerations into local plans, codes, 
and ordinances. CZMA funding assisted 11 communities in designing 
nonpoint source reduction projects which help the State and local 
communities meet water-quality goals by reducing runoff in the State's 
coastal waterways.
    Maryland's CZM Program worked with land conservation partners to 
preserve 1,150 acres of critical coastal habitat for storm protection, 
water-filtering benefits, fish nurseries, or recreation through 
acquisition and easements. Maryland completed projects that protected 
4,425 linear feet of nearshore habitat from erosion while providing 
critical habitat through the implementation of shoreline management 
techniques such as living shorelines.
            Texas
    The Texas Coastal Resources Program created an oyster shell 
recycling program, called the ``Shell Bank'', for the Texas Coastal 
Bend. This innovative oyster shell reclamation, storage, and recycling 
program creates a repository to collect and decontaminate shucked 
shells, identifies reef restoration sites, performs an economic 
analysis of the shell bank and educates the public. By putting shells 
back into the Bay, new substrate and habitat is created for larval 
recruitment and growth. Oyster reefs are vital to the health of 
ecosystems and economies as they provide habitat for other organisms 
and fish and help improve water quality. Oyster fisheries play a large 
part in the coastal economy of Texas with 6.1 million pounds harvested 
annually generating $11 million in revenue. The project is a success, 
collecting approximately 70 tons of oysters to date.
    The Texas General Land Office (GLO) established guidelines for the 
development of local Erosion Response Plans (ERPs) that can incorporate 
a building set-back line. The guidelines for ERPs include provisions 
for prohibition of building habitable structures seaward of the 
building set-back line, exemptions for certain construction seaward of 
the set-back line, stricter construction requirements for exempted 
construction, improvements to and protection of public beach access 
points and dunes from storm damage, and procedures for adoption of the 
plans. Development of ERPs by several local governments using CZMA 
funding is underway. This will contribute to:
  --reductions in public expenditures due to erosion and storm damages, 
        disaster response and recovery costs, loss of dune area 
        habitats, and biodiversity;
  --protection of critical dunes and dune vegetation that provide 
        protection during storm events;
  --preservation and enhancement of public access and use of beach; and
  --prevention of the loss of human life.
Coastal and Estuarine Land Conservation Program
    CSO requests Coastal and Estuarine Land Conservation Program 
(CELCP) not be terminated, as proposed in the President's budget 
request. Authorized by Congress in 2002, CELCP protects ``those coastal 
and estuarine areas with significant conservation, recreation, 
ecological, historical, or aesthetic values, or that are threatened by 
conversion from their natural or recreational States to other uses.'' 
To date, the Congress has appropriated nearly $255 million for CELCP. 
This funding has allowed for the completion of more than 150 
conservation projects, with more in progress. CELCP projects in 27 of 
the Nation's 35 coastal States have already helped preserve 
approximately 50,000 acres of the Nation's coastal assets. All Federal 
funding has been leveraged by at least an equal amount of State, local, 
and private investments, demonstrating the broad support for the 
program, the importance of coastal protection throughout the Nation, 
and the critical role of Federal funding plays in reaching the 
conservation goals of our coastal communities.
    The preservation of coastal and estuarine areas is critical to both 
humans and the environment. These areas shield us from storms, protect 
us from the effects of sea-level rise, filter pollutants to maintain 
water quality, provide shelter, nesting and nursery grounds for fish 
and wildlife, protect rare and endangered species and provide access to 
beaches and waterfront areas. CELCP is the only program entirely 
dedicated to the conservation of these vital coastal areas.
    The demand for CELCP funding far outstrips what has been available 
in recent years. In the last 3 years, NOAA, in partnership with the 
States, has identified over $270 million of vetted and ranked projects. 
As demand for CELCP funding has grown, the funding has not kept pace. 
Adequate funding is needed to meet the demand of the increasingly high-
quality projects developed by the States and submitted to NOAA. 
Unfortunately, budget constraints at NOAA have forced the agency to 
make a difficult choice not to fund its only land acquisition program. 
Efforts are underway to streamline NOAA's coastal stewardship programs 
to create program efficiencies and lower costs. Eliminating an 
important and successful coastal conservation tool before a 
consolidation plan is in place does not make sense. Therefore, we 
request that the subcommittee restore funding for CELCP until a 
consolidation plan can be developed and implemented.
Regional Ocean Partnerships
    There is an ever-growing recognition that multistate, regional 
approaches are one of the most effective and efficient ways to address 
many of our ocean management challenges. These approaches are producing 
on-the-ground results that are benefitting both the economy and the 
environment.
    Federal investment in Regional Ocean Partnerships (ROP)representing 
every coastal State in the continental United States and potentially 
emerging in the Pacific and Caribbean islands--will enhance economic 
development, grow employment in green technologies, foster sustainable 
use of our oceans, coasts and Great Lakes, and leverage State and 
nongovernmental investments. To meet our ocean and coastal challenges, 
Governors have voluntarily established ROPs and are working in 
collaboration with Federal agencies, tribes, local governments, and 
stakeholders. In the belief that multi-sector, multistate management 
decisions will result in an improved ocean environment and ocean-
related economy, ROPs are working in a variety of manners and 
approaches to address similar challenges, enhance the ecological and 
economic health of the regions, and ultimately the Nation.
    The States and territories with existing partnerships, and those 
under development, request $10 million in grants for ROPs as a step 
toward the funding level needed. These grants will provide essential 
support for the development and implementation of action plans within 
each region. ROPs also request appropriation language stating that 10 
percent of the total funding be divided equally to existing ROPs for 
operations support and the remaining funding broadly support the 
development and implementation of regional priorities as determined by 
the ROPs through competitive solicitations.
    Funding for operations support will ensure that the ROPs become 
enduring institutions that can guide regional efforts over the long 
term. Remaining funds allocated through a competitive grants process 
will support projects that address the priorities identified in the 
regions. Grants to the Partnerships should be awarded and administered 
by NOAA. CSO and the Partnerships are in agreement that this funding; 
however, cannot be at the expense of the CZM program funding. The CZM 
grants to the States provide the infrastructure and support that is 
foundational to the work of the ROPs. Any decreases to CZM funding for 
the purposes of increasing that of the ROPs will only hamper the 
States' ability to implement the National Ocean Policy as well as 
address regional priorities. As partnerships mature and new ones form 
where needed, funding should increase to $60 million as soon as 
possible in order to fully meet their needs.
National Estuarine Research Reserve System
    The National Estuarine Research Reserve System partners with States 
and territories to ensure long-term education, stewardship, and 
research on estuarine habitats. Atlantic, Gulf, Pacific, Caribbean, and 
Great Lakes reserves advance knowledge and stewardship of estuaries and 
serve as a scientific foundation for coastal management decisions. This 
unique site-based national program contributes to systemic research, 
education, and training on the Nation's estuaries.
    These types of partnership programs account for only a small 
portion of the total NOAA Federal budget, but provide dramatic results 
in coastal communities. The funding for these programs is very cost 
effective, as these grants are matched by the States and are used to 
leverage significantly more private and local investment in our 
Nation's coastal zone. Maintaining funding for these programs that 
provide on-the-ground services to our local communities and citizens is 
well worth the investment.
    CSO greatly appreciates the support the subcommittee has provided 
in the past. Its support has assisted these programs in working 
together to protect our coasts and sustain our local communities. We 
appreciate your taking our requests into consideration as you move 
forward in the fiscal year 2013 appropriations process.
                                 ______
                                 
     Prepared Statement of the Earth Institute, Columbia University
    Madam Chair and members of the subcommittee, thank you for this 
opportunity to voice my appreciation for the support this subcommittee 
has steadfastly provided for basic science--particularly in the Earth 
and environmental sciences--at the National Science Foundation (NSF), 
the National Oceanic and Atmospheric Administration (NOAA), and the 
National Aeronautics and Space Administration (NASA). This subcommittee 
is responsible for at least 75 percent of the total Federal support for 
Earth and environmental sciences and the importance of that investment 
is both lifesaving and essential from an economic point-of-view, as I 
will describe in my testimony. Assuming I can make that case to you and 
your colleagues, I hope that even as you are confronted with extremely 
severe budget challenges, you will continue to place a high priority on 
these basic research activities in the fiscal year 2013 appropriations 
process.
    My focus on basic sciences is not because I am a physical or 
natural scientist. I am a political scientist, a scholar of public 
management, and the director of two masters programs at Columbia 
University--a Masters of Public Administration in environmental science 
and policy, and a Master of Science in sustainability management. In 
both programs, students are required to take core courses in 
environmental science. Why do I require management and policy students 
to learn science? I do so because there is a fundamental need to 
understand basic environmental processes in order to effectively manage 
anything in an increasingly challenging world. Decisionmakers must have 
insight into the natural resources and inputs that sustain their 
organization or business--the energy, water, and raw materials needed 
for production. They must also understand the impact of their 
production on the natural environment. Ask BP if they think that is 
important knowledge for management to have. An education that includes 
basic science allows graduates of these programs to serve as managers 
and policymakers with the environmental and Earth science information 
that is increasingly necessary to evaluate complex information and make 
informed decisions.
    When I was growing up in the 1960s, there were 3 billion people on 
the planet; today there are more than 7 billion. With a global 
population that is projected to reach 10 billion by 2050, the crucial 
question emerges--how do we extract our needs from the planet without 
destroying it? In an increasingly crowded planet, the scale of 
production of everything has grown, and with it we see an increased 
draw on the Earth's resources. If we do not develop an economic system 
less dependent on the one-time use of natural resources, then it is 
inevitable that energy, water, food, and all sorts of critical raw 
materials will become more and more expensive. The development of a 
sustainable, renewable resource-based economy has become a necessity. 
The species that really needs healthy ecosystems is not some endangered 
sea turtle or polar bear, but the one you and I belong to--the human 
species. Energy and climate are just some of the first places we see 
the strain on the global biosphere, but they won't be the last.
    In order to maintain and improve our standard of living and those 
of the aspiring middle class in the developing world, we must create a 
high-throughput economy that manages our planet's resources and 
maintains the quality of our air, water, and land. In the United States 
and other wealthy nations, we expect our standards of living to 
continue to rise, enjoying advanced technologies, and reaping the 
benefits of an advanced economy. In order to do this, to grow the 
global economy in the long term, we need to manage the planet more 
effectively. Without a healthy and productive ecosystem, wealth is 
impossible; environmental protection is a prerequisite to wealth. The 
stress on our environment has become apparent to those even in the 
wealthiest nations. The resources of the Earth are fixed and finite, 
and environmental and Earth system processes are complex and not yet 
completely or widely understood. Scientific research is required to 
continue to advance our knowledge of these systems so that we can 
ensure our ability to sustainably utilize them in the long run. We need 
to advance and invest in the science of Earth observation if we are to 
sustainably manage an economy capable of supporting the planet's 
population.
    The fact is that we know far more about the functioning of our 
economy than about the environment. The Gross Domestic Product 
indicator has been around since the 1930s. There is still no such all-
encompassing measure for environmental quality and planetary health--
yet these may end up being key indicators of global well-being and the 
ability for individuals, organizations, and nations to prosper. Basic 
environmental science and Earth observations are the prerequisites for 
such an overall sustainability measure or metric. For these reasons, it 
is imperative that we expand the collective understanding of natural 
resources, Earth and environmental processes, and biological systems. 
We must continue to learn about the resources we have at our disposal, 
the processes that create and sustain them, and, perhaps most 
importantly, the short-term and long-term impacts we are inflicting on 
these resources and systems.
    The support provided by NOAA's extramural competitive climate 
change research program, NSF's research programs--especially in the 
geosciences and biological sciences, and NASA's Earth science programs 
are critical keys to understanding the impacts we are inflicting on our 
natural resources and our complex environmental systems.
    Physical constraints, resource costs, and environmental impacts 
have become routine inputs to decisionmaking across sectors and 
industries. Increasingly, environmental research is needed to drive the 
understanding behind critical public policy decisions. Basic and 
applied scientific research can uncover new policy options, lead to 
cost savings in unexpected ways, and can help make sense of sometimes 
conflicting data or information. Two examples from New York City 
illustrate the important role that basic science plays in fundamental 
policy decisions.
    New York City's drinking water is among the best in the world, 
exceeding stringent Federal and State water quality standards. New 
Yorkers get their water from three upstate reservoir systems that the 
city owns and operates--the Catskill, Delaware, and the Croton 
watersheds. This extensive water system provides more than 1 billion 
gallons of water daily to more than 9 million New York City residents 
and residents in the surrounding counties.\1\ The Catskill and Delaware 
watersheds, which together provide 90 percent of the water to the city, 
are so pristine that their water does not need to be filtered. This is 
a significant accomplishment; in fact, there are only four other major 
American cities that are not required to filter their drinking water:
  --Boston;
  --San Francisco;
  --Seattle; and
  --Portland.
---------------------------------------------------------------------------
    \1\ ``PlaNYC: 2030''. The City of New York. Apr 2007. Web. 3 Mar 
2012. Pg 78.
---------------------------------------------------------------------------
    To keep the sources of water clean, the city works hard to protect 
the watershed from activities that can threaten their water quality. 
New York City actively engages in land acquisition when available and 
feasible, acquiring more than 78,000 acres since 2002.\2\ City 
ownership guarantees that crucial natural areas remain undeveloped, 
while eliminating the threat from more damaging uses. The city enforces 
an array of environmental regulations designed to protect water quality 
while also encouraging reasonable and responsible development in the 
watershed communities. New York City also invests in infrastructure--
such as wastewater treatment facilities and septic systems--that shield 
the water supply, while working with its upstate partners to ensure 
comprehensive land-use best practices that curb pollution at the 
water's source. While these efforts take significant investments of 
time and money, the alternative to maintaining these watersheds is far 
more costly. If the water quality deteriorated, the city would be 
forced to build a filtration plant that could cost as much as $10 
billion to construct, which would mean costs of roughly $1 billion a 
year to pay the debt service and operate the plant. This would also 
cause a water rate increase of at least 30 percent to New Yorkers.\1\
---------------------------------------------------------------------------
    \2\ ``PlaNYC: 2030''. The City of New York. Apr 2007. Web. 3 Mar 
2012. Pg 81.
---------------------------------------------------------------------------
    Most of New York City's water supply is protected and filtered by 
the natural processes of upstate ecosystems. To environmental 
economists, nature's work that protects our water is an ``environmental 
service.'' Because the price of a filtration plant is known, we can 
estimate the monetary value of the services provided to filter our 
water. This comes to $1 billion per year minus the $100 million or so 
we spend each year to protect the upstate ecosystems. This is $900 
million a year of found money that we will lose if we don't protect 
these fragile ecosystems. It's a graphic illustration of the point that 
what is good for the environment will often be good for our bank 
account. However, this is only possible with a strong knowledge of 
these ecosystem services--we cannot assume nature is doing something 
and put a value on that service, if our fundamental understanding of 
the environmental processes involved is flawed or incomplete. This is 
where basic and applied science research is key--providing the 
foundation for critical public policy decisions, often involving 
substantial sums of public dollars. We can see that science is one of 
many critical inputs that managers and leaders need at their disposal 
to process complex problems and arrive at the best solution.
    I will use my hometown, New York City, to demonstrate once more the 
influence that informed science can have on public policy problems and 
the bottom line. The problem of combined sewer overflow remains one of 
the most difficult water-quality issues facing New York City. Combined 
sewer systems are typical of cities with old infrastructure, where the 
sewage from your home is combined with sewage from street sewers before 
it is piped to the local sewage treatment plant. The problem is that if 
a large amount of rain suddenly sends a high volume of water into 
street sewers, it can overwhelm treatment plants and push raw sewage 
into local waterways before it is treated.
    The traditional approach to dealing with the combined sewer 
overflow problem is to build tanks and other facilities to hold storm 
water during storms and then release it into the sewers once the storm 
has ended. In September 2010, New York City released its landmark Green 
Infrastructure Plan, which would make use of vegetation, porous 
pavements and porous streets, green and blue roofs, and even rain 
barrels to augment traditional investment in ``gray infrastructure''. 
These ``green'' low-cost techniques reduce the impact of storms on the 
city's water treatment plants by absorbing or catching water before it 
can enter the sewer system. Green infrastructure can quickly reduce the 
flow of wastewater to treatment plants since it takes much less time to 
plant greenery or put out rain barrels than to site, design, build, and 
operate a traditional holding tank.
    The goal of New York's innovative green infrastructure plan is to 
reduce sewage overflows into NYC waterways by 40 percent by 2030. The 
city's plan estimates costs that are $1.5 billion less than the 
traditional ``gray'' strategy. Not only is green infrastructure cheaper 
than traditional infrastructure (and just as effective), but these 
types of projects provide multiple co-benefits for the city including 
cleaner air, reduced urban heat island effect, improved energy 
efficiency, and enhanced quality of life through increased access to 
green space.
    Recently the State and city signed a draft agreement allowing the 
city to begin implementing its green infrastructure approach. The 
agreement also included a provision to defer making a decision to 
construct two combined sewer overflow tunnels until 2017. The rationale 
behind the postponement is that in 5 years we will know much more about 
the effectiveness of the green techniques. These tunnels are estimated 
to cost approximately $1 billion each, and if we could demonstrate that 
an ecosystems services approach could save most of these funds, it 
would be an exciting and important demonstration of the principles of 
green infrastructure--and the importance of environmental science on 
policymaking.
    Again, we see the importance of utilizing environmental science and 
research in critical decisionmaking that impacts significant 
populations of people. A clear, comprehensive understanding of 
hydrological, biological, and geochemical processes fuels the decisions 
to opt for ``green'' projects versus ``gray'' projects. Scientific 
research is not made for the sake of knowledge itself. Important 
environmental discovery and knowledge form the necessary building 
blocks to important policies. Neither of these innovative cost-saving 
public programs would be possible without a solid understanding of 
science. If we do not make the investment in the basic scientific 
research needed to make these complex decisions regarding the planet's 
finite resources and sensitive services, a reduction in the planet's 
ability to produce goods and services is only a matter of time. We need 
to dramatically increase funding for basic and applied science and 
focus attention on research and development in Earth observation, 
energy, food, water, and other key areas.
    One of the great strengths of this country is our amazing research 
universities. In the post-World War II era, the United States 
established an effective partnership between Government-funded basic 
research and private sector application of fundamental research in 
applied technologies, including computers, cell phones, the Internet, 
and of course a host of breakthroughs in medicine and medical 
technology. Much of the economic growth of the past century and a half 
has been the direct result of this type of technological development. 
Government is especially crucial in funding basic science that is too 
far from products and profits to generate private research and 
development investment. Government is also needed to help bridge the 
sometimes wide gap between basic and applied research.
    Support for basic environmental science research should not be seen 
as a partisan or political issue. It is about the discovery of 
fundamental knowledge that has allowed us to improve our standard of 
living and holds the promise of a sustainable planet, free from extreme 
poverty. Support for basic scientific and engineering research and 
education--particularly the university-based research that the agencies 
under the jurisdiction of this subcommittee support--is a fundamental 
role of Government similar to national security, emergency response, 
infrastructure, and criminal justice. Reducing this funding is a threat 
to our long-term economic growth.
    Thank you for this opportunity to appear before the subcommittee. I 
would be happy to answer any questions the members of the subcommittee 
may have.
                                 ______
                                 
         Prepared Statement of David Engels and Leni Engels, RN
    We are writing to you because we are very upset by the Department 
of Justice (DOJ) trampling on the civil rights of some severely 
disabled individuals. For the last several years the DOJ has adopted an 
ideological agenda that assumes ``one size fits all'' and that all 
disabled people, regardless of their physical or mental disabilities, 
should be living ``in the community.'' DOJ has been intimidating and 
suing State governments, causing them to accept agreements which they 
would otherwise not accept. We are referring to both the 
``settlements'' recently accepted by Georgia and Virginia. This is a 
very disturbing trend. The Olmstead law does not direct States to close 
State centers, but rather it directs States to provide for the least 
restrictive setting--which may be, in fact, an Intermediate Care 
Facility for the Mentally Retarded (ICF/MR) or similar care setting. 
Although the actions of the DOJ are insulting to parents and guardians 
who have made careful, albeit difficult decisions, looking out for the 
welfare of their children, this is not their only violation. Their 
actions blatantly disregard both the spirit and the letter of the 
Olmstead decision. The law clearly states:

    ``Federal Medicaid policy supports an individual's right to choose 
where they receive Medicaid services for which they are eligible. For 
example, States are required by Federal law to offer individuals who 
are eligible for Medicaid home and community based waiver services the 
choice between community-based care under the waiver program or 
institutional services.
    ``Individuals with developmental disabilities and their families 
are the primary decisionmakers regarding the services and support such 
individuals and their families receive. Including regarding choosing 
where the individuals live from available options, and play 
decisionmaking roles in policies and programs that affect the lives of 
such individuals and their families.''----Developmental Disabilities 
Assistance and Bill of Rights Act, 423 U.S.C. 2001(c)(3) Note: the DD 
Act is the Federal authorizing statute for the Advocacy Center.

    How can the DOJ ignore this integral part of the law?
    On February 10, 2012, at a White House meeting with ARC, Attorney 
General Tom Perez stated, ``Olmstead . . . is about people who want to 
live in the community and who can live in the community with the 
appropriate supports.'' But my concern is for those who don't want to 
live in the community, and those who are forced by DOJ actions to leave 
their safe homes--those who can't live safely in the community. At the 
same meeting, Mr. Perez also said the recent settlement agreements 
between the DOJ and the States of Virginia and Georgia will ``enable 
individuals to live, work and participate fully in community life.'' 
Really? Can he explain how a 33-year-old individual, with the physical 
and cognitive function of an infant, will be able to ``participate'' in 
community life? By dismantling ICFs, and placing some higher-
functioning individuals with developmental disabilities (DD) into the 
community, at the expense of those who can't live there, Mr. Perez is 
effectively throwing the baby out with the bath water. In real life, 
he's placing them in jeopardy. Isn't DOJ's Civil Rights Division 
charged with protecting everyone's civil rights--not just those who are 
willing and able to ``participate fully in community life''?
    Therefore, we are writing to you with an urgent request; that you 
ensure that no Federal funds be used, to engage in any agenda, which 
dismantles and/or eliminates the option of intermediate care facilities 
(ICFs/MR/DD) for those individuals with the most severe/profound levels 
of disability. They are entitled to this option as outlined in the 
statutes listed above. I note that there is a request for an additional 
$5.1 million for 25 attorneys for the Civil Rights Division which 
includes Civil Rights of Institutionalized Persons Act enforcement. 
Unless DOJ is going reverse course and actually uphold the Olmstead 
decision, and abide by all the statutes therein--we strongly urge you 
to deny the request for additional funding.
                      additional specific requests
Subcommittee on Commerce, Justice, Science and Related Agencies--Re: 
        Department of Justice/Civil Rights Division Policies
    We object to the Civil Rights Division's ADA/Olmstead Enforcement 
policies, the effect of which is to eliminate intermediate care 
programs/licensed congregate care facilities for persons with severe/
profound cognitive-developmental disabilities.
    We recommend to the subcommittee that it place restrictions on the 
Civil Rights Division's fiscal year 2013 budget, so that funds may not 
be used to undermine and/or eliminate licensed facilities for persons 
with cognitive-developmental disabilities.
Subcommittee on Labor, Health and Human Services, Education, and 
        Related Agencies--Re: DHHS/Administration on Children and 
        Families/Administration on Developmental Disabilities policies
    We object to the activities of the Administration on Developmental 
Disabilities (``DD Act'' programs) policies, the effect of which is to 
eliminate intermediate care programs/licensed congregate care 
facilities for persons with severe/profound cognitive-developmental 
disabilities.
    We recommend to the subcommittee that it place restrictions on the 
Administration on Developmental Disabilities' fiscal year 2013 budget, 
so that program funds may not be used to undermine and/or eliminate 
licensed facilities for persons with cognitive-developmental 
disabilities.
    Thank you.
                                 ______
                                 
Prepared Statement of Federation of American Societies for Experimental 
                                Biology
    The Federation of American Societies for Experimental Biology 
(FASEB) respectfully requests an appropriation of at least $7.3 billion 
for the National Science Foundation (NSF) in fiscal year 2013. This 
funding level matches the recommendation made in the President's fiscal 
year 2013 budget request. As you know, NSF funding in recent years has 
failed to reach the levels authorized in the America COMPETES Acts of 
2007 and 2010. FASEB's broader goal is to support sustainable growth 
and a return to a funding trajectory reflective of the COMPETES 
reauthorization.
    As a federation of 26 scientific societies, FASEB represents more 
than 100,000 life scientists and engineers, making it the largest 
coalition of biomedical research associations in the United States. 
FASEB's mission is to advance health and welfare by promoting progress 
and education in biological and biomedical sciences through service to 
its member societies and collaborative advocacy. FASEB enhances the 
ability of scientists and engineers to improve--through their 
research--the health, well-being, and productivity of all people.
    With just 4 percent of the Federal research and development (R&D) 
budget, NSF sponsors 40 percent of federally funded basic academic 
research in the physical sciences and serves as the primary Federal 
funding source for research in disciplines such as computer science, 
nonhealth-related biology, and the social sciences. NSF also plays a 
significant role in advancing biomedical research; 42 Nobel Prizes have 
been awarded to NSF-funded scientists for contributions in physiology 
or medicine.
    At a time when the U.S. faces many challenges, scientific and 
technological advances are the key to keeping our Nation globally 
competitive and protecting our standard of living. The broad portfolio 
of fundamental research supported by NSF expands the frontiers of 
knowledge, fuels future innovation, and creates a well-developed 
research infrastructure capable of supporting paradigm-shifting 
research projects. NSF grants, awarded to projects of the highest 
quality and greatest significance in all 50 States, are selected using 
a rigorous merit-review process that evaluates proposals on both 
scientific and societal value. For example, one recent NSF research 
project utilized mathematics and computer modeling to understand 
structural characteristics of stents used to treat coronary artery 
disease. The results of this research will allow manufacturers to 
optimize stent design and help doctors determine the best kind of stent 
for each patient and medical procedure. Another team of NSF-funded 
scientists is studying the unique properties of sundew plants to 
develop new materials with potential medical applications. Adhesive 
fibers, like those secreted by the plant, could one day be incorporated 
into bandages that accelerate tissue repair or applied to artificial 
hip and knee replacements to stimulate compatibility with human tissue. 
NSF researchers are also exploring scientific questions that reveal the 
nature of our universe. Using new data collection capabilities not 
available a few years ago, astronomers recently discovered the most 
massive black holes ever observed in outer space.
    NSF is also committed to achieving excellence in science, 
technology, engineering, and math education at all levels. The agency 
supports a wide variety of initiatives aimed at preparing science 
teachers, developing innovative curricula, and engaging students in the 
process of scientific inquiry. One of many NSF efforts to prepare 
future scientists and engineers, the Graduate Research Fellowship 
Program (GRFP) annually awards approximately 2,000 3-year fellowships 
to outstanding graduate students pursuing advanced degrees in science, 
technology, engineering, or mathematics. NSF graduate research fellows 
are making important scientific contributions, and past GRFP award 
recipients have gone on to become leading scientists and Nobel Prize 
winners. Through its education and training initiatives, NSF ensures 
the development of a workforce well-prepared to advance knowledge and 
achieve new breakthroughs in science and engineering.
    NSF-funded research has produced revolutionary discoveries and 
innovations through its broad-based, long-term investment in R&D. These 
are the types of investments that no individual or private business 
could afford to undertake. If the public did not support it, it would 
not be done. The recently released National Science Board Science and 
Engineering Indicators 2012 report indicates that while growth of 
United States R&D expenditures has slowed in recent years, China's R&D 
expenditures have risen sharply, increasing by 28 percent in 2009. 
Failure to build on prior investments in NSF would slow the pace of 
discovery, sacrifice our position as the global leader in innovation, 
and discourage young scientists and engineers. Strong and sustained NSF 
appropriations enable the groundbreaking research and training critical 
to the future success and prosperity of the United States.
    Thank you for the opportunity to offer FASEB's support for NSF.
    FASEB is composed of 26 societies with more than 100,000 members, 
making it the largest coalition of biomedical research associations in 
the United States. Celebrating 100 Years of Advancing the Life Sciences 
in 2012, FASEB is rededicating its efforts to advance health and well-
being by promoting progress and education in biological and biomedical 
sciences through service to our member societies and collaborative 
advocacy.
                                 ______
                                 
    Prepared Statement of the Families and Friends of Care Facility 
                               Residents
    Chairman Mikulski and members of the subcommittee: Thank you for 
the opportunity to testify regarding appropriations for the Department 
of Justice (DOJ)/Civil Rights Division (CRD). DOJ is requesting 
additional personnel of 50 positions and resources of $5.1 million to 
strengthen civil rights enforcement efforts that the Attorney General 
has identified as part of his Vulnerable People Priority Goal. My 
testimony is limited to DOJ's activities under Civil Rights of 
Institutionalized Persons Act (CRIPA) and the Americans with 
Disabilities Act (ADA), which are included in this program area.
    I represent the Arkansas statewide parent-guardian association, 
Families and Friends of Care Facility Residents (FF/CFR), a 501(c)(3) 
organization. I am a volunteer advocate. My interest in the 
appropriations for the DOJ/CRD is that of mother and co-guardian of an 
adult son, aged 43, whose severe brain injuries occurred at birth. 
CRD's programs called ``Enforcement of the Integration Mandate of the 
Americans with Disabilities Act (ADA) and Olmstead v. L.C.'' are 
aggressive legal actions against States which operate licensed, 
Medicaid-certified congregate care programs for individuals who have 
been adjudicated incompetent and whose continuous care is beyond their 
families' capacities. CRD's mission is to eliminate the option of 
State-operated congregate care for individuals with disabilities in the 
misguided notion that CRD knows what is best for my son and other 
individuals with severe and profound disabilities rather than their 
legal guardians who have made the residential decisions for their 
family members.
    Our son, a middle-aged man, has a medical diagnosis of profound 
mental retardation and autism. John functions on the level of a 
toddler. He is basically nonverbal, with occasional echolalia (he may 
repeat in short words or phrases what another says directly to him) and 
exhibits pica (an intense desire to consume inedibles). He has a 
toddler's sense of danger (without close supervision, he might walk 
into a busy street; and he would not recognize a toxic cleaning product 
as something harmful to ingest, for example).
    John can be frightening to an untrained person. A large mobile man 
when he is frustrated or experiences disappointment or discomfort, he 
might come too close to others, and in a full-blown meltdown, he might 
howl, slap his face, and chew on his right wrist. At such times, he is 
vulnerable to over-reaction by untrained, unsupported staff. Our son's 
care is beyond our family's capacities. All of his life, John and 
others similarly situated will rely on the humanity of others for 
health and safety. In particular, they will require residential 
programs with high standards when there are no living or active family 
members involved in their lives. For many years our son's safe home has 
been a State-operated congregate-care, Medicaid-certified intermediate 
care facility. Through costly litigation and arbitration, DOJ/CRD is 
systematically dismantling the residential living facilities for these 
fragile persons, removing the most defenseless among us from their 
protected environment without respect for the wishes of guardians and 
with no clear underlying, peer-reviewed rationale. CRD's actions have 
caused and continue to cause enormous stress and anxiety for families 
and guardians.
    Federal tax dollars should not be spent in undermining and 
dismantling a system of care that is absolutely essential to many 
persons with disabilities. What is often overlooked, particularly by 
those in authority who are far away from the daily responsibilities of 
care and who are not responsible for providing the close care required, 
is that the population with disabilities involved in CRD's legal 
actions is extremely difficult to care for and to support, wherever 
they may live. It is our position (including those like my family who 
are parents and families of the critically disabled individuals at 
risk) that congregate care facilities, adequately funded, offer the 
most suitable settings and programs for a particular group of those 
suffering from some of the most severe forms of cognitive--
developmental disabilities.
department of justice/civil rights cases in arkansas and similar cases 
                          in the united states
    DOJ policies, under the mask of ``civil rights'', were played out 
in a Federal lawsuit in Arkansas (United States of America v. State of 
Arkansas/Conway Human Development Center, Eastern District of Arkansas, 
Case No. 4:09-cf-00033-JLH (2011)). DOJ began investigating the center 
in 2003 and spent millions of dollars with about 15 attorneys committed 
to the case (at trial) after an 8-year investigation, and a 6-week 
Federal trial challenging our State over one of its intermediate care 
facilities, which during the long years of investigation was at all 
times in compliance with its Federal Medicaid certification 
regulations.
    Arkansas defended its developmental center, and to our great 
relief, the substantive DOJ claims were denied and the case was 
dismissed (June 2011).
    As the parties prepared for trial, DOJ filed a second law suit 
against Arkansas, naming all of the State's licensed facilities, 
including my son's home, alleging ADA violations. DOJ's ADA case 
against all of the centers was dismissed, and the Federal trial by DOJ 
against the Conway Human Development Center proceeded in early 
September 2010. I was a spectator and observer through most of the 6-
week trial in Little Rock, Arkansas. Not one family from the more than 
400 Conway center residents supported DOJ's claims that their family 
members' civil rights were violated; not one medical provider or 
hospital representative familiar with the center's residents and their 
complex medical needs testified to support DOJ's claims of poor care.
    The Federal Court dismissed the Justice Department's lawsuit 
against the Arkansas center (June 8, 2011). In an 85-page decision, the 
Court began its findings as follows:

    ``Most lawsuits are brought by persons who believe their rights 
have been violated. Not this one . . . All or nearly all of those 
residents have parents or guardians who have the power to assert the 
legal rights of their children or wards. Those parents and guardians, 
so far as the record shows, oppose the claims of the United States. 
Thus the United States [Department of Justice] is in the odd position 
of asserting that certain persons' rights have been and are being 
violated while those persons--through their parents and guardians 
disagree.'' See Case decision, 1st para., p. 1.

    In the Arkansas case, DOJ was assessed $150,585.01 in court costs 
to be paid to the State, but DOJ was not required to pay the more than 
$4.3 million in attorney's fees and litigation costs Arkansas spent for 
defending the center. These fees were not reimbursed and they came from 
several places including the sale of timber and mineral rights on 
board-owned properties and donations and bequests accumulated in more 
than 50 years to the State-operated centers for the purpose of 
enhancing services for their vulnerable residents.
    States across the Nation have been confronted with DOJ's misguided 
ADA/Olmstead Enforcement Policies. The latest example is in the State 
of Virginia. Simultaneously, with no opportunity for public review, DOJ 
filed both a complaint and a settlement agreement in January of this 
year. We know from hard experiences in other States, that DOJ 
objectives to close State-operated centers are usually not identified 
clearly in the documentation of an investigation of a case, but the 
intentions become clearer as implementation of the settlement 
agreements is carried out. A settlement in Texas, for example, requires 
the State's centers to undergo additional reviews by DOJ approved court 
monitors. None of the Texas centers is likely to achieve the goals set 
by the monitors. In a recent editorial, a Texas newspaper commented 
that based on its first-hand knowledge of a center, the complex 
population it serves and the staff, ``the demands are not reachable.'' 
(Lufkin Daily News, 2/26/2012).
    In a settlement agreement with the State of Georgia, which was 
entered contemporaneously with filing of the lawsuit and without public 
review, all persons with developmental disabilities in the 
developmental centers are required to move from their licensed 
facilities. The Assistant Attorney General for CRD described the 
Georgia Settlement Agreement as a ``template for our enforcement 
efforts across the country.'' In a teleconference, he described his 
role in the settlement which included going directly to the Governor of 
Georgia to press for an agreement rather than costly litigation.
                               conclusion
    It is not in the public interest for a federally funded entity 
through power of its office and out of the public view to coerce a 
State to cease operating programs which have historically proven 
successful in assuring the health and safety of persons with lifelong, 
severe cognitive disabilities. It is deeply offensive to me, my family 
and many others that our Federal Government through the DOJ is 
empowered to intimidate State authorities into unfair settlement 
agreements resulting in closures of our children's safe homes. It is 
especially egregious that this activity continues when DOJ's legal 
claims have been found so weak in Federal court and the outcomes are so 
dangerous to the health and safety of the most vulnerable among us.
    DOJ does not reference the Arkansas case on its Web site; however, 
it does have a document entitled ``Statement of the Department of 
Justice on Enforcement of the Integration Mandate of Title II of the 
Americans with Disabilities Act and Olmstead v. L.C.'' This document 
omits the Federal laws which recognize that individuals with 
developmental disabilities and their families are the primary 
decisionmakers in placement choices; it omits the Medicaid rule which 
provides that eligible persons may choose between home and community 
based care and institutional care. The DOJ statement presents an 
incomplete interpretation of the Olmstead decision and ignores critical 
parts, for example: In the Olmstead majority opinion, Justice Ginsberg 
wrote that ``[w]e recognize, as well, the States' need to maintain a 
range of facilities for the care and treatment of persons with diverse 
mental disabilities, . . . .'' 527 U.S. 597. The Court further held 
that ``[w]e emphasize that nothing in the ADA or its implementing 
regulations condones termination of institutional settings for persons 
unable to handle or benefit from community settings.'' 527 U.S. 601.
    Justice Kennedy, joined by Justice Breyer, wrote in his concurring 
opinion, joining the majority of four: ``it would be unreasonable, it 
would be a tragic event, then, were the Americans with Disabilities Act 
of 1990 (ADA) to be interpreted so that States had some incentive, for 
fear of litigation, to drive those in need of medical care and 
treatment out of appropriate care into settings with too little 
assistance and supervision.'' 527 U.S. 610. Justice Kennedy's 
prognostic fear is a present day reality.
    DOJ should re-examine its programs under Olmstead, which the 
Department calls an ``integration mandate,'' and answer for the very 
serious consequences of its actions. Most important, how many former 
residents of congregate care facilities have died from preventable 
causes since being displaced from their ICF/MR (Intermediate Care 
Facilities for persons with Mental Retardation) homes? What are the 
actual facts on quality of care and comparative costs?
                                request
    The comprehensive and devastating reach of the Civil Rights 
Division agenda on the most vulnerable among us requires active, 
vigilant congressional oversight. We respectfully request this 
subcommittee's review and action by:
  --halting the misguided mission of the Civil Rights Division of the 
        Department of Justice, as described above;
  --discontinuing to fund the de-institutionalization programs of the 
        of the Civil Rights Division of the Department of Justice; and
  --placing restrictions on the Civil Rights Division's programs, 
        limiting its funds to bring actions that drive States out of 
        their roles in providing care for our most severely impaired 
        developmentally disabled citizens, all under the mask of 
        ``civil rights.''
                                 ______
                                 
     Prepared Statement of the IACP/DuPont Kevlar Survivors' Club
    Chairwoman Mikulski and Ranking Member Hutchison, members of the 
subcommittee, I genuinely appreciate this opportunity to submit 
testimony in support of a program key to law enforcement officer 
safety: the Bulletproof Vest Partnership Act (BVPA). I thank the 
subcommittee for supporting BVPA funding in the past and ask that the 
program be funded at or more than the level recommended in the 
President's fiscal year 2013 budget, or $24 million. Program demand 
continues to be very high: the 5-year average for combined small and 
large agency requests for BVPA funds is $114 million, compared to 
average annual funds of $28 million allocated the BVPA (according to 
the Bureau of Justice Assistance [BJA]).
    By way of brief background, I served as a police officer for 35 
years, 20 of which were as chief of police. Following that, I have 
documented the benefits of wearing body armor for thousands of officers 
across the country over the last decade through the IACP/DuPont Kevlar 
Survivors' Club as created by the International Association of Chiefs 
of Police (IACP) and DuPont in 1987. Key functions of the IACP/DuPont 
partnership are encouraging law enforcement officers to wear personal 
body armor and celebrating the lives of officers who, as the result of 
wearing ballistic protection, were protected from being disabled or 
killed. The data collected from police survivors is shared with the 
noncommercial research community for the exclusive purpose of improving 
the next generation of body armor.
    I am able to provide reported preliminary and verified saves for 
every State upon request. For the purposes of this testimony, the saves 
for Maryland are 10 and for Texas, 60. I call to your attention that we 
are unable to capture all saves. Agencies and officers for a variety of 
reasons often prefer not to submit information about an incident.
    Background and Need.--Law enforcement is a field that carries 
inherent risks, with the past 2 years being especially lethal years for 
law enforcement officers. Numbers from the Officer Down Memorial Page 
(www.odmp.org) note that 164 line-of-duty deaths were reported in 2011 
and 162 line-of-duty deaths in 2010. Although we are at the beginning 
of 2012, line-of-duty deaths are already at 22--with the first being 
that of a female officer--United States Park Ranger Margaret Anderson.
    Considering only police line-of-duty deaths resulting from 
felonious attacks, the numbers are stunning. The table below reflects 
final Federal Bureau of Investigation Law Enforcement Officers Killed 
and Assaulted (FBI LEOKA) data for the years 2009 and 2010. Although 
the data for 2011 is incomplete as reported by FBI LEOKA on December 
27, 2011,\1\ the number of officers feloniously killed increased 35.4 
percent from 2009 to 2011. This begs the question, if the reports of 
homicide in the country are generally decreasing, why are police 
homicides up?
---------------------------------------------------------------------------
    \1\ FBI LEOKA preliminary report felonious deaths as of December 
27, 2011; final 2011 Law Enforcement Officers Killed and Assaulted 
report will be published by the FBI in 2012; visit FBI LEOKA data at 
http://www.fbi.gov/about-us/cjis/ucr/leoka/leoka-2010.

            FBI LEOKA REPORTS OF OFFICERS FELONIOUSLY KILLED
------------------------------------------------------------------------
          Type of weapon               2009         2010         2011
------------------------------------------------------------------------
Number of victim officers........           48           56           65
Type of firearms used to kill law
 enforcement officers:
    Handgun......................           28           38  ...........
    Rifle........................           15           15  ...........
    Shotgun......................            2            2  ...........
    Type of firearm not reported.  ...........  ...........  ...........
                                  --------------------------------------
      Total officers feloniously            45           55           56
       killed by firearm.........
                                  ======================================
Weapons other than firearm used
 to kill law enforcement
 officers:
    Knife or other cutting         ...........  ...........            1
     instrument..................
    Bomb.........................  ...........  ...........  ...........
    Blunt instrument.............  ...........  ...........  ...........
    Personal weapons (hands and    ...........  ...........            2
     feet).......................
    Vehicle......................            3            1            6
    Other........................  ...........  ...........  ...........
------------------------------------------------------------------------

    The American police community is facing incredible challenges, not 
the least being officer safety. Police officers are encountering 
criminals armed with high-powered weapons including fully automatic 
rifles. Criminals are routinely wearing body armor while engaged in 
violent acts. Even so, men and women of American law enforcement are 
the first responders charged to prevent, interrupt, mitigate, and 
recover from a criminal act, be it a minor crime in progress or the 
action of a terrorist. It is vital to ensure that they are provided the 
tools and equipment to carry out their duties safely. This includes 
adequate comfort and coverage with respect to body armor.
    Body armor continues to serve as an effective piece of equipment to 
save officers from disabilities and death--with FBI data showing 
relative risk of fatality for officers who did not wear body armor at 
14 times greater than those who did.\2\ Documented saves include more 
than 3,100 officers over the past 30 years \3\--a number that is likely 
far higher considering that many incidents go unreported in the regular 
course of law enforcement work. However, BJS estimates that only 67 
percent of departments require the officers to wear protective armor at 
all times. \4\
---------------------------------------------------------------------------
    \2\ FBI LEOKA data.
    \3\ International Association of Chiefs of Police (IACP)/DuPont 
Survivors' Club.
    \4\ Bureau of Justice Statistics Web site, based on Law Enforcement 
Management and Administrative Statistics survey, and the Census of 
State and Local Law Enforcement Agencies: http://bjs.ojp.usdoj.gov/
index.cfm?ty=tp&tid=71.
---------------------------------------------------------------------------
    Body armor protects scores of officers from injuries--both 
ballistic and nonballistic--every year. However, although the National 
Institute of Justice (NIJ) has worked to ensure certain levels of 
protection for ballistic vests, the policy insufficiently addresses 
issues of fit, measurement, and maintenance--which has produced wide 
variation in the treatment of these issues by manufacturers that has 
led to a decreased level of safety for officers using body armor. For 
example, BJA policy fails to set standards for those taking 
measurements for fit and coverage, leaving room for great levels of 
discretion and error. Ideally, fit would be verified at time of 
delivery, at a specific period of time after delivery to provide for 
adjustments required after a break-in period, and annually thereafter 
until the armor is removed from service.
    The FBI reports that from 1996 to 2005, 132 officers were killed 
while wearing body armor from ballistic penetration of areas not 
covered by body armor. Of those killed, 26 percent were wounded between 
side vest panels, 35 percent around the armholes or shoulder, 25 
percent above the vest, and 14 percent below the vest. The actual 
numbers are much greater as this information is limited to felonious 
deaths and does not include assaults where the officer survived. These 
numbers highlight the importance of ensuring good fit and measurement 
to provide officers with equipment that provides maximum safety.
    Special Issue Concerning Female Body Armor.--Law enforcement is no 
longer a men-only occupation. Numbers show that for the past few 
decades, the number of women in law enforcement has consistently 
increased--for all levels of law enforcement: \5\
---------------------------------------------------------------------------
    \5\ Bureau of Justice Statistics Crime Data Brief: Women in Law 
Enforcement, 1987-2007: http://www.bjs.gov/content/pub/pdf/wle8708.pdf.
---------------------------------------------------------------------------
  --By 2008, about 100,000 women served as Federal, State, or local law 
        enforcement officers.
  --The number of women in local enforcement grew from 7.6 percent in 
        1987 to 12 percent by 2007.
  --Among local law enforcement agencies, women represented more than 
        double the percent of sworn personnel in large agencies than 
        compared to small agencies.
  --In 2007, women made up 18 percent of sworn officers in 12 of the 13 
        largest local police departments.
    Regrettably, when it comes to body armor for women, usage of body 
armor specifically designed to fit the female torso is limited. Much of 
the armor currently offered is designed for male officers and does not 
take into account the anatomical differences between male and female 
officers. In one survey, female officers complained that the poor fit, 
especially in the bust, made it ``hard to breathe,'' and another noted 
that the tight fit made her feel ``squashed''--hardly top conditions 
under which female officers should operate. A survey conducted by the 
Institute for Women in Trades, Technology, and Science found that 33 
percent of female officers reported fit problems, compared to 6 percent 
of their male counterparts. Even so, many female officers shun the 
stigma surrounding perceived ``special treatment'' by superiors and, 
therefore, fail to request equipment made to suit them even though it 
may only run $100-$150 more than male armor. Many end up requesting 
body armor designed for a male body, to keep up with their male peers, 
but find it impractical to use. Clearly, the level of education and 
awareness concerning this type of protective equipment must be 
elevated.
    BVPA.--Some of these issues related to fit and coverage were 
studied by the Government Accountability Office (GAO), which released a 
report (GAO12-353) on February 15, 2012, entitled, ``Law Enforcement 
Body Armor: DOJ Could Enhance Grant Management Controls and Better 
Ensure Consistency in Grant Program Requirements''. According to the 
report's highlights, here are key findings and recommendations:

    ``The Department of Justice (DOJ) has a number of initiatives to 
support body armor use by State and local law enforcement, including 
funding, research, standards development, and testing programs. Two 
Bureau of Justice Assistance (BJA) grant programs provide funding to 
State and local law enforcement to facilitate their body armor 
purchases. The Bulletproof Vest Partnership (BVP) program offers 2-year 
grants on a reimbursable basis . . .''
    ``DOJ designed several internal controls to manage and coordinate 
BJA's and NIJ's body armor activities, but could take steps to 
strengthen them, consistent with standards for internal control. For 
example, the BVP program has not deobligated about $27 million in 
undisbursed funds from grant awards whose terms have ended. To 
strengthen fund management, DOJ could deobligate these funds for grants 
that have closed and, for example, apply the amounts to new awards or 
reduce requests for future budgets. Also, unlike the BVP program, the 
JAG program does not require that the body armor purchased be NIJ 
compliant or that officers be mandated to wear the armor purchased. To 
promote officer safety and harmonize the BVP and JAG programs, DOJ 
could establish consistent body armor requirements . . .
    ``GAO recommends that among other actions, DOJ deobligate 
undisbursed funds from grants in the BVP program that have closed, 
establish consistent requirements within its body armor grant programs, 
and track grantees' intended stab-resistant vest purchases. DOJ 
generally agreed with the recommendations.''

    The recommendation by GAO to deobligate unused funds warrants 
judicious consideration. It is my understanding that the unused funds, 
referenced in the GAO report, were not drawn down by the requesting 
jurisdictions during the period of 2004 through 2009. As I understand 
it, beginning with 2008 BPVA awards, BJA reduced the amount of new 
awards equal to unused/expired funds in a jurisdiction's account and 
decreased the eligibility period for use of funds from 4 years to 2. 
Deobligating funds as recommended by GAO could have a detrimental 
effect on jurisdictions requiring more time to spend down the remainder 
of their grants.
    Thus, in addition to funding the BVPA at a level equal to or higher 
than the President's fiscal year 2013 request of $24 million, I urge 
the subcommittee to not approve deobligation of BVPA funds as 
recommended by GAO and allow more time for grantees to use those monies 
to purchase body armor for officers. Hopefully this will also be body 
armor that fits well, covers areas adequately, and is comfortable 
enough to allow the officer to properly do his or her job.
                                 ______
                                 
      Prepared Statement of the Institute of Makers of Explosives
           interest of the institute of makers of explosives
    Interest of the Institute of Makers of Explosives (IME) is a 
nonprofit association founded in 1913 to provide accurate information 
and comprehensive recommendations concerning the safety and security of 
commercial explosive materials. IME represents U.S. manufacturers, 
distributors, and motor carriers of commercial explosive materials and 
oxidizers as well as other companies that provide related services. The 
majority of IME members are ``small businesses'' as determined by the 
Small Business Administration.
    Millions of metric tons of high explosives, blasting agents, and 
oxidizers are consumed annually in the United States. These materials 
are essential to the U.S. economy. Energy production, construction, and 
other specialized applications begin with the use of commercial 
explosives. IME member companies produce 99 percent of these 
commodities. These products are used in every State and are distributed 
worldwide. The ability to manufacture, distribute, and use these 
products safely and securely is critical to this industry.
    Commercial explosives are highly regulated by a myriad of Federal 
and State agencies. Alcohol, Tobacco, Firearms and Explosives (ATF) 
plays a predominant role in assuring that explosives are identified, 
tracked, purchased, and stored only by authorized persons. We have 
carefully reviewed the administration's fiscal year 2013 budget request 
for ATF and have the following comments about its potential impact on 
the commercial explosives industry.
alcohol, tobacco, firearms and explosives explosives regulatory program 
                             budget request
    The administration's fiscal year 2012 budget request proposes to 
decrease resources devoted to ATF's regulation and oversight of 
explosives industries by 24 full-time equivalent (FTE), a 7-percent 
reduction, from 335 FTE to 311 FTE, for a savings of $940,000.\1\ This 
FTE reduction represents nearly one-half of the staffing reduction the 
Bureau's Arson and Explosives Program is being asked to absorb.
---------------------------------------------------------------------------
    \1\ Fiscal Year 2013 ATF Budget Submission, page 49.
---------------------------------------------------------------------------
    We understand the current urgency to address the Federal budget 
deficit. We understand the shared sacrifice that all segments of the 
Government are asked to make to help the economy recover by spurring 
job growth and investment. Yet, budgetary cuts to the bureaucracy 
should not cut essential services. By law, ATF must inspect explosives 
licensees and permittees at least once every 3 years and conduct 
background checks of so-called ``employee possessors'' of explosives 
and ``responsible persons.'' During the last full fiscal year, ATF 
conducted more than 4,000 such compliance inspections and identified 
1,392 public safety violations.\2\ In addition to this workload, ATF 
must process applications for new explosives licenses and permits as 
well as those submitted for renewal of existing licenses and permits. 
More than 2,700 such applications were processed during the last full 
fiscal year.\2\ ATF must also conduct inspections of all new 
applicants. More than 56,000 background checks were completed for 
employee possessors and more than 9,000 for responsible persons.\2\ 
These are significant workload indicators.
---------------------------------------------------------------------------
    \2\ Fiscal Year 2013 ATF Budget Submission, page 42.
---------------------------------------------------------------------------
    ATF recognizes that its ability to perform its statutory 
responsibilities will be negatively impacted by these resource cuts. 
ATF estimates that, in fiscal year 2010, it met its statutory 
responsibilities 95.8 percent of the time. In fiscal year 2012, it 
estimates that this performance rate will fall to 88 percent. And, with 
the resource cuts anticipated in fiscal year 2013, this competency rate 
will fall to 85 percent. The Bureau's falling productivity cannot help 
but have adverse impacts on our industry. Without approved licenses and 
permits from ATF, our industry cannot conduct business. Delays in 
servicing the needs of our industry may lead to disruptions in other 
segments of the economy that are dependent on the products and 
materials we provide.
    At the same time, duplication between Government programs wastes 
resources. Last year, the Government Accountability Office (GAO) 
highlighted areas of duplication between the ATF and the Federal Bureau 
of Investigation (FBI) that relate to explosives incidents.\3\ As early 
as 2004, duplication and overlap were identified in the areas of 
investigations, training, information sharing, and use of databases and 
laboratory forensic analysis. While ATF's budget request provides 
updates of plans for consolidating and eliminating these redundancies, 
we continue to watch for other potential areas of overlap. In 
describing its role as the sole repository of data on explosives 
incidents, ATF states that ``8 billion pounds of ammonium nitrate are 
produced, of which half is used for explosives.'' \4\ In fact, the 
percentage used by the explosives industry has been rising and 
currently stands at 70 percent. As a regulatory matter, the security of 
ammonium nitrate (AN), along with other explosives precursors, has been 
delegated to the Department of Homeland Security (DHS). We believe that 
DHS could learn from ATF's regulation of commercial explosives as it 
finalizes rules to secure the commerce of AN. In particular, DHS should 
recognize that employees who have been vetted and cleared by ATF to 
possess explosives should not have to be vetted again in order to 
engage in the commerce of AN.
---------------------------------------------------------------------------
    \3\ ``Opportunities to Reduce Potential Duplication in Government 
Programs, Save Tax Dollars, and Enhance Revenue'', GAO, March 2011, 
pages 101-104, http://www.gao.gov/new.items/d11318sp.pdf.
    \4\ Fiscal Year 2013 ATF Budget Submission, page 38.
---------------------------------------------------------------------------
    As the subcommittee considers ATF's budget request, we ask that the 
Bureau's ability to perform its regulatory oversight of the explosives 
industry in a timely fashion not be compromised in the push for fiscal 
discipline when other areas of duplication and overlap are ripe for 
reform.
     alcohol, tobacco, firearms and explosives regulatory workload
    In the last 10 years, ATF has issued eight rulemakings of 
importance to IME (including two interim final rules). It has finalized 
three and withdrawn two. Of the three rulemakings still pending, two 
are interim final rules and the oldest dates to 2003. In the absence of 
a process to ensure timely rulemaking that is capable of keeping up 
with new developments and safety practices, industry must rely on 
interpretive guidance and variances from outdated requirements in order 
to conduct business. While we greatly appreciate the Bureau's 
accommodations, these stop-gap measures do not afford the continuity 
and protections that rulemaking would provide the regulated community, 
nor allow the oversight necessary to ensure that all parties are being 
held to the same standard of compliance. These regulatory tasks are 
critical to the lawful conduct of the commercial enterprises that the 
Bureau controls. ATF should be providing the resources to make timely 
progress in this area.
                           industry standards
    We take seriously the statutory obligation that ATF take into 
account industry's standards of safety when issuing rules and 
requirements.\5\ We continue to fulfill this obligation through our 
development of industry best practices for safety and security, 
membership in relevant standard-setting organizations, and active 
participation in forums for training. We have offered ATF 
recommendations that we believe will enhance safety and security 
through participation in the rulemaking process, in the Bureau's 
important research efforts, and in other standard-setting activities.
---------------------------------------------------------------------------
    \5\ 18 U.S.C. 842(j).
---------------------------------------------------------------------------
    In this regard, IME has spent years developing a credible 
alternative to strict interpretation of quantity distance tables used 
to determine safe setback distances from explosives. IME collaborated 
in this development with the Department of Defense Explosives Safety 
Board (DDESB) as well as Canadian and United States regulatory 
agencies, including ATF. The result is a windows-based computer model 
for assessing the risk from a variety of commercial explosives 
activities called Institute of Makers of Explosives Safety Assessment 
for Risk (IMESAFR).\6\ ATF and other regulatory agencies are 
recognizing the value of IMESAFR and are participating in development 
meetings for version 2.0. ATF is also evaluating existing licensed 
locations with this risk-based approach. These efforts are vital for 
ATF to remain on the forefront of public safety and we strongly 
encourage ATF's continued support. The benefits of risk-based modeling 
should be officially recognized by ATF and resources should be provided 
to develop policies that allow the use such models to meet regulatory 
mandates.
---------------------------------------------------------------------------
    \6\ IMESAFR was built on the DDESB's software model, SAFER. The 
DDESB currently uses SAFER and table-of-distance methods to approve or 
disapprove Department of Defense explosives activities. Not only can 
IMESAFR determine the amount of risk presented, but it can also 
determine what factors drive the overall risk and what actions would 
lower risk, if necessary. The probability of events for the activities 
were based on the last 20 years experience in the United States and 
Canada and can be adjusted to account for different explosive 
sensitivities, additional security threats, and other factors that 
increase or decrease the base value.
---------------------------------------------------------------------------
                               leadership
    The resolution of these issues may have to wait the appointment of 
a new ATF Director. The Bureau has been without a Director since August 
2006. We support President Obama's nomination of Andrew L. Traver for 
this position.\7\ We hope that the Senate will timely act on this 
nomination. ATF has been too long without permanent leadership.
---------------------------------------------------------------------------
    \7\ Received in the Committee on the Judiciary, United States 
Senate, January 5, 2011, PN44.
---------------------------------------------------------------------------
                               conclusion
    The manufacture and distribution of explosives is accomplished with 
a remarkable degree of safety and security. We recognize the critical 
role ATF plays in helping our industry achieve and maintain safe and 
secure workplaces. Industry and the public are dependent on ATF having 
adequate resources to fulfill its regulatory responsibilities. It is up 
to the Congress and, in particular, this subcommittee to ensure that 
ATF has the resources it needs. We strongly recommend full funding for 
ATF's explosives program.
                                 ______
                                 
              Prepared Statement of the Innocence Project
    On behalf of the Innocence Project, thank you for allowing me to 
submit testimony to the Senate Committee on Appropriations Subcommittee 
on Commerce, Justice, Science, and Related Agencies as it considers 
budget requests for fiscal year 2013. I write to request the continued 
funding of the following programs at the described levels:
  --The Paul Coverdell Forensic Sciences Improvement Grant Program (the 
        ``Coverdell Program'') at $20 million through the Department of 
        Justice, National Institute for Justice (NIJ);
  --The Kirk Bloodsworth Post-Conviction DNA Testing Program (the 
        ``Bloodsworth Program'') at the fiscal year 2012 level of $4 
        million through the NIJ; and
  --The Wrongful Conviction Review Program, which is a part of the 
        Capital Litigation Improvement Program, at $2.5 million, for a 
        total Capital Litigation Improvement Program allocation of $5 
        million through the Department of Justice, Bureau of Justice 
        Assistance (BJA).
    Freeing innocent individuals and preventing wrongful convictions 
through reform greatly benefits public safety. Every time DNA 
identifies a wrongful conviction, it enables the identification of the 
real perpetrator of those crimes. True perpetrators have been 
identified in 45 percent of the DNA exoneration cases. To date, 289 
individuals in the United States have been exonerated by DNA testing, 
with these innocents serving on average 13 years in prison. However, I 
want to underscore the value of Federal innocence programs, not to just 
these exonerated individuals, but also to public safety and justice. It 
is important to fund these critical innocence programs because reforms 
and procedures that help to prevent wrongful convictions enhance the 
accuracy of criminal investigations, strengthen criminal prosecutions, 
and result in a stronger, fairer system of justice.
The Coverdell Program
    Recognizing the need for independent government investigations in 
the wake of forensic scandals, the Congress created the forensic 
oversight provisions of the Coverdell Program, a crucial step toward 
ensuring the integrity of forensic evidence. Specifically, in the 
Justice for All Act, the Congress required that ``[t]o request a grant 
under this subchapter, a State or unit of local government shall submit 
to the Attorney General . . . a certification that a government entity 
exists and an appropriate process is in place to conduct independent 
external investigations into allegations of serious negligence or 
misconduct substantially affecting the integrity of the forensic 
results committed by employees or contractors of any forensic 
laboratory system, medical examiner's office, coroner's office, law 
enforcement storage facility, or medical facility in the State that 
will receive a portion of the grant amount.'' \1\
---------------------------------------------------------------------------
    \1\ 42 U.S.C. 3797k(4).
---------------------------------------------------------------------------
    The Coverdell Program provides State and local crime laboratories 
and other forensic facilities with much needed Federal funding to carry 
out their work both efficiently and effectively. Now, more than ever, 
as forensic science budgets find themselves on the chopping block in 
States and localities nationwide, the very survival of many crime labs 
may depend on Coverdell funds. As the program supports both the 
capacity of crime labs to process forensic evidence and the essential 
function of ensuring the integrity of forensic investigations in the 
wake of serious allegations of negligence or misconduct, we ask that 
you fund the Coverdell Program at $20 million in fiscal year 2013.
The Bloodsworth Program
    The Bloodsworth Program provides hope to innocent inmates who might 
otherwise have none by helping States more actively pursue 
postconviction DNA testing in appropriate situations. These funds have 
had a positive impact that has led to much success. Many organizational 
members of the national Innocence Network have partnered with State 
agencies that have received Bloodsworth funding.\2\
---------------------------------------------------------------------------
    \2\ The Innocence Network is an affiliation of organizations 
dedicated to providing pro bono legal and investigative services to 
individuals seeking to prove innocence of crimes for which they have 
been convicted and working to redress the causes of wrongful 
convictions.
---------------------------------------------------------------------------
    It is worth noting that the Bloodsworth Program does not fund the 
work of Innocence Projects directly, but State applicants which seek 
support for a range of entities involved in settling innocence claims, 
including law enforcement agencies, crime laboratories, and a host of 
others--often in collaboration. Additionally, the Bloodsworth Program 
has fostered the cooperation of innocence projects and State agencies. 
For example, with the $1,386,699 that Arizona was awarded for fiscal 
year 2008, the Arizona Justice Project, in conjunction with the Arizona 
Attorney General's Office, began the Post-Conviction DNA Testing 
Project. Together, they have canvassed the Arizona inmate population, 
reviewed cases, worked to locate evidence and filed joint requests with 
the court to have evidence released for DNA testing. In addition to 
identifying the innocent, Arizona Attorney General Terry Goddard has 
noted that the ``grant enables [his] office to support local 
prosecutors and ensure that those who have committed violent crimes are 
identified and behind bars.'' \3\ Such joint efforts have also been 
pursued in Connecticut, Louisiana, Minnesota, North Carolina, and 
Wisconsin.
---------------------------------------------------------------------------
    \3\ Arizona receives Federal DNA grant, http://
community.law.asu.edu/news/19167/Arizona-receives-federal-DNA-grant.htm 
(last visited March 13, 2012).
---------------------------------------------------------------------------
    The Bloodsworth Program is a relatively small yet powerful 
investment for States seeking to do critically important work: to free 
innocent people who were erroneously convicted and to identify the true 
perpetrators of crime. The Bloodsworth Program has resulted in the 
exonerations of nine wrongfully convicted persons in six States, and 
the true perpetrator was identified in three of those cases. For 
instance, Virginian Thomas Haynesworth was freed thanks to Bloodsworth-
funded testing that also revealed the real perpetrator. As such, we ask 
that you continue to fund the Bloodsworth Program at its current fiscal 
year 2012 funding level of $4 million.
Wrongful Conviction Review Program
    Particularly when DNA isn't available, or when it alone isn't 
enough to prove innocence, being able to prove one's innocence to a 
level sufficient for exoneration is even harder than ``simply'' proving 
the same with DNA evidence. These innocents languishing behind bars 
require expert representation to help navigate the complex issues that 
invariably arise in their bids for postconviction relief. And the need 
for such representation is enormous when only a small fraction of cases 
involve evidence that could be subjected to DNA testing. (For example, 
it is estimated that among murders, only 10 percent of cases have the 
kind of evidence that could be DNA tested.)
    Realizing the imperative presented by such cases, the BJA dedicated 
part of its Capital Litigation Improvement Program funding to create 
the Wrongful Conviction Review program.\4\ The program provides 
applicants--nonprofit organizations and public defender offices 
dedicated to exonerating the innocent--with funds directed toward 
providing high-quality and efficient representation for potentially 
wrongfully convicted defendants in postconviction claims of innocence.
---------------------------------------------------------------------------
    \4\ Reauthorization of the Innocence Protection Act. 111th Cong., 
1st Sess., 8 (2009) (testimony of Lynn Overmann, Senior Advisor, Office 
of Justice Programs).
---------------------------------------------------------------------------
    The program's goals, in addition to exonerating the innocent, are 
significant: to alleviate burdens placed on the criminal justice system 
through costly and prolonged postconviction litigation and to identify, 
whenever possible, the actual perpetrator of the crime. Above all, 
though, this program forms a considerable piece of the comprehensive 
Federal package of innocence protection measures created in recent 
years; without it, a great deal of innocence claims might otherwise 
fall through the cracks.
    Numerous local innocence projects have been able to enhance their 
caseloads and representation of innocents as a result of the Wrongful 
Conviction Review Grant Program, including those in Alaska, Minnesota, 
Pennsylvania, and at the University of Baltimore. During the past year, 
the Florida Innocence Project was able to achieve the exoneration of 
Derrick Williams through the support of this program, and the Mid-
Atlantic Innocence Project helped secure the exoneration of Thomas 
Haynesworth in Virginia. Grant funds enabled the Northern California 
Innocence Project to hire staff to screen cases, thereby permitting 
their existing attorneys to commit to litigation, which resulted in the 
exonerations of three innocent Californians, Obie Anthony, Maurice 
Caldwell, and Franky Carillo. With Wrongful Conviction Review funding, 
the Innocence Project of Minnesota was able to prove that Michael 
Hansen did not kill his 3-month-old. To help continue this important 
work, we urge you to fund the Wrongful Conviction Review Program at 
$2.5 million, for a total allocation of $5 million for the Capital 
Litigation Improvement Program line.
Additional Notes on the Department of Justice's Requested Budget for 
        Fiscal Year 2013
    The Department of Justice's fiscal year 2013 budget request defunds 
two of the above programs--the Coverdell and Bloodsworth programs. 
These programs potentially would be rolled into a much broader ``DNA 
Initiative'' for a requested fiscal year 2013 funding level of $100 
million, or perhaps not supported at all.
    We are concerned about the impact that zeroing out the Bloodsworth 
and Coverdell programs would have on the requirements and incentives 
that they currently provide for States to prevent wrongful convictions 
and otherwise ensure the integrity of evidence. These incentives have 
proven significant for the advancement of State policies to prevent 
wrongful convictions. Indeed, the Coverdell Program forensic oversight 
requirements have created in States entities and processes for ensuring 
the integrity of forensic evidence in the wake of the forensic scandals 
that have undermined public faith in forensic evidence. The Coverdell 
Program oversight requirements are essential to ensuring the integrity 
of forensic evidence in the wake of identified acts of forensic 
negligence or misconduct.
    The Innocence Project recommends that the Congress maintain and 
fund these two programs by name, in order to preserve their important 
incentive and performance requirements. Doing away with these 
requirements would thwart the intent of the Congress, which was to 
provide funding only to States that demonstrate a commitment to 
preventing wrongful convictions in those areas. Additionally, funding 
these programs would help to achieve their unique goals of providing 
access to postconviction DNA testing for those who have been wrongfully 
convicted, and helping State and local crime labs process the 
significant amount of forensic evidence critical to solving active and 
cold cases, which helps to ensure public safety.
Conclusion
    Thank you so much for your time and consideration of these 
important programs, and the opportunity to submit testimony. We look 
forward to working with the subcommittee this year.
                                 ______
                                 
     Prepared Statement of the Independent Tribal Court Review Team
    Thank you for the opportunity to testify today and address the 
serious funding needs that have limited and continue to hinder the 
operations of tribal judicial systems in Indian country. I am the lead 
judge of the Independent Tribal Court Review Team. I am here today to 
request funding for tribal courts in the Department of Justice, Office 
of Justice Programs for the Tribal Courts Assistance Program.
    Budget priorities, request and recommendations:
  --Increase funding for tribal courts by $10 million;
  --Maintain the set-aside for tribal courts;
  --Fully fund all provisions of the Tribal Law and Order Act of 2010 
        (TLOA); and
  --$58.4 million authorized under the Indian Tribal Justice Act of 
        1993, Public Law 103-176, 25 U.S.C. 3601 and re-authorized in 
        year 2000 Public Law 106-559 (no funds to date).
    We support the 7 percent tribal set-aside ($81,375,000) from all 
discretionary Office of Justice Programs to address Indian country 
public safety and tribal criminal justice needs. However, this is not 
sufficient to address the need in terms of equity for Indian country 
relative to funding appropriated for State, local, and other Federal 
justice assistance programs. On behalf of the Review Team, I ask that 
you give every consideration to increasing this program to the fiscal 
year 2010 enacted level for the Tribal Assistance Account and allow for 
greater flexibility for tribes to use these funds at the local level.
    We support an increase in funding for:
      Hiring and Training of Court Personnel.--Tribal courts make do 
        with underpaid staff, underexperienced staff, and minimal 
        training. (We have determined that hiring tribal members limits 
        the inclination of staff to move away; a poor excuse to 
        underpay staff.)
      Compliance With Tribal Law and Order Act.--To provide judges, 
        prosecutors, public defenders, who are attorneys and who are 
        bared to do ``enhanced sentencing'' in tribal courts.
      Salary Increases for Existing Judges and Court Personnel.--
        Salaries should be comparable to local and State court 
        personnel to keep pace with the nontribal judicial systems and 
        be competitive to maintain existing personnel.
      Tribal Courts Need State-of-the-Art Technology--(Software, 
        Computers, Phone Systems, Tape Recording Machines).--Many 
        tribes cannot afford to purchase or upgrade existing court 
        equipment unless they get a grant. This is accompanied by 
        training expenses and licensing fees which do not last after 
        the grant ends.
      Security and Security Systems To Protect Court Records and 
        Privacy of Case Information.--Most tribal courts do not even 
        have a full-time bailiff, much less a state-of-the-art security 
        system that uses locked doors and camera surveillance. This is 
        a tragedy waiting to happen.
      Tribal Court Code Development.--Tribes cannot afford legal 
        consultation. A small number of tribes hire on-site staff 
        attorneys. These staff attorneys generally become enmeshed in 
        economic development and code development does not take 
        priority. Tribes make do with underdeveloped codes. The Adam 
        Walsh Act created a hardship for tribes who were forced to 
        develop codes, without funding, or have the State assume 
        jurisdiction. (States have never properly overseen law 
        enforcement in a tribal jurisdiction.)
      Financial Code Development.--We have rarely seen tribes with 
        developed financial policies. The process of paying a bond, for 
        example, varies greatly from tribe to tribe. The usual process 
        of who collects it, where it is collected, and how much it is, 
        is never consistent among tribes.
    Nationwide, there are 184 tribes with courts that receive Federal 
funding. For the past 6 years, the Independent Court Review Team has 
been traveling throughout Indian country assessing how tribal courts 
are operating. During this time, we have completed some 84 court 
reviews. There is no one with more hands-on experience and knowledge 
regarding the current status of tribal courts than our Review Team.
    We have come into contact with every imaginable type of tribe; 
large and small; urban and rural; wealthy and poor. What we have not 
come into contact with is any tribe whose court system is operating 
with financial resources comparable to other local and State 
jurisdictions. Our research indicates tribal courts are at a critical 
stage in terms of need.
    There are many positive aspects about tribal courts. It is clear 
that tribal courts and justice systems are vital and important to the 
communities where they are located. Tribes value and want to be proud 
of their court systems. Tribes with even modest resources tend to send 
additional funding to courts before other costs. After decades of 
existence, many tribal courts, despite minimal funding, have achieved a 
level of experience and sophistication approaching, and in some cases 
surpassing, local non-Indian courts.
    Tribal courts, through the Indian Child Welfare Act, have mostly 
stopped the wholesale removal of Indian children from their families. 
Indian and non-Indian courts have developed formal and informal 
agreements regarding jurisdiction. Tribal governments have recognized 
the benefit of having law-trained judges, without doing away with 
judges who have cultural/traditional experience. Tribal court systems 
have appellate courts, jury trials, well-cared-for courthouses (even 
the poorer tribes), and tribal bar listings and fees. Perhaps most 
importantly, tribes recognize the benefit of an independent judiciary 
and have taken steps to insulate courts and judges from political 
pressure. No longer in Indian country are judges automatically fired 
for decisions against the legislature.
    Assessments have indicated that the Bureau of Indian Affairs (BIA) 
only funds tribal courts at 26 percent of the funding needed to 
operate. The remainder is funded by the tribes. Tribes who have 
economic development generally subsidize their tribal courts. On the 
flip side, tribes who cannot afford to assist in the financial 
operations of the court are tasked with doing the best they can with 
what they have even at the expense of decreasing or eliminating 
services elsewhere. This while operating at a disadvantage with already 
overstrained resources and underserved needs of the tribal members. The 
assessment suggests that the smaller courts are both the busiest and 
most underfunded.
    We thank this subcommittee for the additional $10 million funding 
in fiscal year 2010. These funds were a godsend to tribes. Even minimal 
increases were put to good use. The additional funding in fiscal year 
2013 will be a big asset and coupled with tribes having flexibility on 
how to use these funds will greatly improve access to funding for 
tribal courts.
    The grant funding in the Department of Justice (DOJ) is intended to 
be temporary, but instead it is used for permanent needs; such as 
funding a drug court clerk who then is used as a court clerk with drug 
court duties. When the funding runs out, so does the permanent 
position. We have witnessed many failed drug courts, failed court 
management software projects (due to training costs), and incomplete 
code development projects. When DOJ funding runs out, so does the 
project.
    As a directive from the Office of Management and Budget, our 
Reviews specifically examined how tribes were using Federal funding. In 
the past several years, there were only two isolated incidents of a 
questionable expenditure of Federal funds. It is speculated that 
because of our limited resources, we compromise one's due process and 
invoke ``speedy trials'' violations to save tribal courts money. 
Everyone who is processed through the tribal judicial system is 
afforded their constitutional civil liberties and civil rights.
    We do not wish to leave an entirely negative impression about 
tribal courts. Tribal courts need an immediate, sustained, and 
increased level of funding. True. However, there are strong indications 
that the courts will put such funding to good use.
    There are tribes like the Fort Belknap Tribe of Montana whose chief 
judge manages both offices and holds court in an old dormitory that 
can't be used when it rains because water leaks into the building and 
the mold has consumed one wall. Their need exceeds 100 percent.
    There are several courts where the roofs leak when it rains and 
those court houses cannot be fixed due to lack of sufficient funds. The 
Team took pictures of those damaged ceilings for the BIA hoping to have 
additional funds for the tribes to fix the damaged ceilings.
    Tribal courts have other serious needs. Tribal appellate court 
judges are mostly attorneys who dedicate their services for modest fees 
that barely cover costs for copying and transcription fees. Tribal 
courts offer jury trials. In many courts, one sustained jury trial will 
deplete the available budget. The only place to minimize expenses is to 
fire staff. Many tribal courts have defense advocates. These advocates 
are generally law trained and do a good job protecting an individual's 
rights (including assuring that speedy trial limitations are not 
violated.) This is a large item in court budgets and if the defense 
advocate, or prosecutor should leave, the replacement process is slow.
    Now the need is greater if the tribal courts follow the TLOA, that 
requires barred attorneys to sit as judges, prosecutors, and defense 
attorneys, when using the ``enhanced sentencing'' and enhanced jail 
detention, options of this act. Partial funding for TLOA is not an 
option if Indian country is expected to benefit from the intent of the 
Congress. We ask that you fully fund the investment you made in tribal 
justice systems by authorizing both the TLOA and the Indian Tribal 
Justice Act of 1993. Otherwise the continued lack of resources for 
tribal justice systems will continue to pose a threat to Native 
citizens and the future of Indian country.
    I am here today to tell the Congress these things. We feel it is 
our duty to come here on behalf of tribes to advocate for better 
funding. Tribes ask us to tell their stories. They open their files and 
records to us and say, ``We have nothing to hide''. Tell the Congress 
we need better facilities, more law enforcement, more detention 
facilities, more legal advice, better codes--the list goes on and on. 
But, as we have indicated, it all involves more funding. This Congress 
and this administration can do something great. Put your money where 
your promises have been.
    Finally, we support the requests and recommendations of the 
National Congress of American Indians.
    On behalf of the Independent Review Team, thank you.
                                 ______
                                 
        Prepared Statement of the Lummi Indian Business Council
    Good morning to the distinguished committee members. Thank you for 
this opportunity. I am honored to present the appropriations request of 
the Lummi Nation for fiscal year 2013 to the Department of Commerce. 
Today, I am presenting a long-term, strategic plan described in a 
sustainable set of coordinated proposals to address the prolonged 
economic and cultural disaster and the suffering of our people. This 
strategy is a comprehensive approach combining habitat restoration, 
environmental monitoring and assessment, with Lummi Hatchery 
infrastructure improvements. Our treaty rights are at risk and 
immediate and sustained action is needed to ensure our continued 
ability to exercise our Schelangen (``way of life'').
Lummi Nation Specific Total Request is $11,650,000
    This funding is being requested under the 1855 Treaty of Point 
Elliot, Secretarial Order No. 3206, entitled ``American Indian Tribal 
Rights, Federal-Tribal Trust Responsibilities, and the Endangered 
Species Act'', and section 312(a) of the Magnuson-Stevens Fishery 
Conservation and Management Act.
    Lummi Nation 2013 budget requests:
  --+$750,000 Monitoring and Assessment Program to include:
    --Habitat restoration program support;
    --Environmental and fisheries monitoring program; and
    --Lummi Natural Resources Department policy staff support.
  --+$10.9 million--Salmon/Shellfish Hatcheries
    --$6,716,000 Lummi Bay and Skookum Hatchery Improvements; and
    --$4,184,000 Lummi Shellfish Hatchery Improvements.
Department of Justice Lummi Nation Specific Requests
    Eliminate Expensive Granting Systems in Favor of Transfers of 
Funds.--Title IV and V of Public Law 93-638 provide a process for 
federally recognized tribes to negotiate and annual funding agreement 
with the Federal Government to receive transfers of funds on a 
continuing basis. The tribes and the Federal Government benefit through 
the reduction of the costs of the formal granting systems. In most 
cases these additional costs are sufficient to significantly increase 
services at the reservation level, without an increase in Federal 
expenditures. Continued reliance on the grant process increases 
administrative costs without increasing services to tribal members.
Justification of Requests--Lummi Nation Specific Total Request is 
        $11,650,000
  --+$750,000 Monitoring and Assessment Program
  --+$10.9 Million for Lummi Hatchery Infrastructure--Stock Re-Building 
        Program
    The Lummi Nation requests funding to support a strategic plan to 
increase production of salmon from our hatcheries to offset lost 
fishing opportunities imposed by the listing of Chinook salmon and 
Southern Resident Orca whales under the Endangered Species Act (ESA). 
The Lummi Nation appropriation requests represent an investment in a 
sustainable strategy to maintain a future moderate living for fishermen 
as guaranteed by the treaty 1855 Point Elliot Treaty, affirmed by the 
U.S. Supreme Court (1979). Nontribal fishers will also benefit from the 
implementation of this strategy.
    The Lummi Nation currently operates two salmon hatcheries and one 
shellfish hatchery that support tribal and nontribal fisheries in the 
region. Lummi Nation hatcheries were originally constructed utilizing 
Department of Commerce funding appropriated from 1969-1971. Since that 
time hatchery operations and maintenance funding from the Bureau of 
Indian Affairs has been used. At the time of construction, those 
hatcheries were cutting edge. However, with the passage of time and 
limited financial resources, the original hatchery infrastructure needs 
to be repaired, replaced or completely modernized. Lummi Nation fish 
biologists estimate that these facilities are now operating at 40 
percent of their productive capacity. Through the operation of these 
hatcheries, the Lummi Nation annually produces 1 million fall Chinook 
salmon, 2 million Coho salmon, and 6.5 million shellfish seed and 
300,000 pounds of clams. These production levels simply do not provide 
the fishing opportunity and associated economic benefits necessary to 
offset the financial loss caused by the Sockeye Salmon fisheries 
disaster. To provide sufficient salmon stock resources and shellfish 
harvest opportunities on an annual basis to the Lummi fishing fleet 
(and nontribal fishers), the hatchery operations and associated 
infrastructure require rehabilitation.
    The hatchery infrastructure improvement plan represents an 
investment that increases the immediate annual return and is a long-
term sustainable activity.
    Detailed hatchery line item descriptions are listed below:
  --Lummi Nation Skookum Creek Hatchery--$725,000
    --$725,000 New Raceways.--Replace originally constructed 
            infrastructure that is deteriorating and falling apart.
  --Lummi Bay Hatchery--$5,991,000
    --$5,536,000 Nooksack River Pump Station and Transmission Water 
            Line.--The project will increase annual production by 300 
            percent by providing additional water to the hatchery. The 
            major limiting factor to production at this facility is 
            lack of freshwater. This project will ensure adequate water 
            supply to achieve needed production levels.
    --$455,000 Rearing Pond Improvements.--Repair and pave juvenile 
            rearing pond and restructure adult ladder and attraction 
            complex.
  --Lummi Shellfish Hatchery--$4,184,000
    --$484,000 Improvements at Shellfish Hatchery.--Repair and expand 
            current facility to increase seed production by improving 
            heating and cooling systems, live feed production, and grow 
            out tank space.
    --$2.4 Million to Build a Geoduck-Specific Hatchery.--A new 
            geoduck-specific hatchery would allow for the current 
            facility to be dedicated to oyster and manila clam 
            production. Increased seed production will increase 
            enhancement activities on Lummi tidelands to create jobs 
            for tribal harvesters and support the west coast shellfish 
            industry and associated businesses.
    --$1.3 Million Repair the Seapond Tidegates.--A feasibility level 
            engineering study indicated that $1.3 million is needed to 
            repair the Seapond tidegates, which will both improve 
            circulation within the Lummi Bay seapond to increase 
            production at both the shellfish and Lummi Bay salmon 
            hatcheries and production of manila clams in the seapond 
            and also help protect the facility in the event of an oil 
            spill from the two petroleum oil refineries located 
            immediately north of the reservation.
Background Information
    The Lummi Nation is located on the northern coast of Washington 
State, and is the third-largest Tribe in the State, serving a 
population of more than 5,200 people. The Lummi Nation is a fishing 
tribe and is the largest fishing tribe in the United States. We have 
drawn our physical and spiritual subsistence from the rivers, marine 
tidelands, and marine waters since time immemorial. Lummi has rights 
guaranteed by the 1855 Treaty of Point Elliot to harvest fish, 
shellfish, and game in our Usual and Accustomed area. The Boldt 
decision of 1974 re-affirmed that right, and designated Lummi as a co-
manager of a once abundant salmon fishery. Now, the abundance of wild 
salmon is gone. In 1985, the Lummi fishing fleet landed more than 15 
million pounds of finfish and shellfish. In 2001, the combined harvest 
was approximately 3.9 million pounds. The remaining salmon stocks do 
not support tribal fisheries, and the Nation is suffering both 
spiritually and economically. Our treaty rights are at risk--we must 
act to preserve, promote, and protect our Schelangen (``way of life'') 
or our culture will disappear.
    In 1973, the ESA was passed. ESA should have resulted in improved 
salmon habitat and more resources for salmon habitat restoration, but 
ESA has become a ``double-edged sword''. Today, ESA has impacted tribal 
hatchery production and tribal harvests for commercial, subsistence, 
and ceremonial purposes. Tribal dependence on salmon and the timing of 
economic development results in tribal members and tribal governments 
bearing a disproportionate burden for the conservation of listed 
species. Lummi treaty fishers are directly impacted by the listing of 
Puget Sound Chinook, Bull trout, Puget Sound steelhead, and Southern 
Resident Orca whales. Secretarial Order 3206, entitled ``American 
Indian Tribal rights, Federal-Tribal Trust Responsibilities, and the 
Endangered Species Act'', specifically states that ``. . . the 
Departments will carry out their responsibilities in a manner that . . 
. strives to ensure that Indian Tribes do not bear a disproportionate 
burden for the conservation of listed species . . .''. The Lummi Nation 
is actively engaged in recovering listed salmon species in our 
watershed, restoring critical habitat, and monitoring listed population 
to determine which factors adversely affect those populations and other 
critical but nonlisted species. The Lummi Nation cannot; however, 
continue to recover salmon and maintain our way of life without funding 
support/appropriations from the Federal Government.
Continuous Sockeye Fisheries Disaster Declaration
    In 2008, the Department of Commerce reissued the sockeye fishery 
disaster declaration in a statement contained in a letter to Lummi 
Nation, (see letter from Secretary, Department of Commerce, November 3, 
2010). The declaration conforms with the findings of the Congressional 
Research Services (CRS)--CRS Report to Congress, Commercial Fishery 
Disaster Assistance, (RL-34209). For more information, see CRS Report 
RS21312, by Eugene H. Buck.
    In 2010, the Fraser River sockeye salmon run was the largest is 
recorded history. After years of sitting on the beach, the Lummi 
sockeye fleet was able to harvest sockeye salmon again. One good year, 
however, does not make up for the previous years of continuous 
fisheries disasters and associated loss of financial and cultural 
benefits. To account for the lack of a consistent sockeye salmon 
fishery and to make up for the lost fishing opportunity attributed to 
habitat degradation and subsequent salmon population crashes, the Lummi 
Nation plans to bolster both finfish and shellfish production from its 
facilities.
    Hatcheries ensure future salmon populations large enough to support 
our families and our way of life, until such time as the habitat is 
able to sustain harvestable levels of salmon. The Lummi Nation 
recognizes that hatcheries alone will not restore salmon stocks to 
historical levels. The Lummi Natural Resources Department allocates a 
substantial amount of time, effort, and funding to improve and monitor 
freshwater habitat, manage and monitor tribal harvest activities, and 
restoring ecosystem functions in the Nooksack River Basin.
    By increasing hatchery production of shellfish, chum salmon, coho 
salmon, and Chinook salmon, the Lummi Nation will create a reliable 
backup resource to salmon fishers and decrease Tribal dependence on the 
sockeye fishery. Additionally, we seek to raise the value of these 
harvests through advanced marketing, the introduction of a fisher's 
market, and the shellfish grow out operations for shellfish products.
Lummi Specific Requests--Bureau of Indian Affairs
    +$2 million--Phase 1. New Water Supply System.--Increase in funding 
for hatchery construction, operation, and maintenance. Funding will be 
directed to increase hatchery production to make up for the shortfall 
of wild salmon.
    The Lummi Nation currently operates two salmon hatcheries that 
support tribal and nontribal fishers in the region. The tribal hatchery 
facilities were originally constructed utilizing Federal funding from 
1969-1971. Predictably some of the original infrastructure needs to be 
repaired, replaced, and/or modernized. Lummi Nation fish biologists 
estimate that these facilities are currently operating at 40 percent of 
their productive capacity. Through the operation of these hatcheries 
the tribe annually produces 1 million fall Chinook and 2 million Coho 
salmon. To increase production, we would like to implement a ``phased 
approach'' that addresses our water supply system. The existing system 
only provides 850 gallons per minute to our hatchery. To increase 
production to a level that will sustain tribal and nontribal fisheries 
alike, we need to increase our water supply fourfold. A new pump 
station and water line will cost the tribe approximately $6 million. We 
are requesting funding for the first phase of this project. Our goal is 
to increase fish returns by improving aquaculture and hatchery 
production and create a reliable, sustainable resource to salmon 
fishers by increasing enhancement.
            Regional Requests
    The Lummi Nation supports the fiscal year 2013 requests of the 
Northwest Indian Fisheries Commission and the Treaty Rights and Risk 
Initiative.
            National Requests
    The Lummi Nation supports the fiscal year 2013 requests of the 
National Congress of American Indians.
                                 ______
                                 
        Prepared Statement of the Marine Conservation Institute
    Madam Chairwoman and members of the subcommittee: Marine 
Conservation Institute, based in Bellevue, Washington, is a nonprofit 
conservation organization that uses the latest science to identify 
important marine ecosystems around the world, and then advocates for 
their protection. I wish to thank the members of the subcommittee for 
the opportunity to submit written testimony on the fiscal year 2013 
appropriations and request $5.3 billion for National Oceanic and 
Atmospheric Administration (NOAA). This level of funding would support 
satellite acquisition, while restoring funding for the ocean, coastal, 
and fisheries programs to the fiscal year 2010 enacted level.
    America's oceans play a vital role in our Nation's economy. 
According to the National Ocean Economics Program, the U.S. ocean 
economy contributes more than $130 billion to our Nation's Gross 
Domestic Product from living marine resources, tourism, recreation, 
transportation, and construction. Additionally, more than 2.4 million 
jobs in the United States depend on the marine environment. NOAA's 
programs are critical to fostering this activity and protecting ocean 
health for sustained use. I would like to highlight a few programs 
which focus on NOAA's conservation mandate.
Hawaiian Monk Seal Recovery
    NOAA has responsiblity for recovering the Hawaiian monk seal, one 
of the most critically endangered marine mammals in the world. It is 
also the only marine mammal whose entire distribution range lies within 
our national jurisdiction; thus the United States has sole 
responsibility for its continued survival. Over the last 50 years, the 
Hawaiian monk seal population has declined to less than 1,200 
individuals. The majority of the population resides in the remote 
Papahanaumokuakea Marine National Monument; however, a smaller (but 
growing) population resides in the Main Hawaiian Islands.
    NOAA is making progress implementing the monk seal recovery plan, 
and needs additional resources to stay on track. It has been 
conservatively estimated that 30 percent of the monk seals alive today 
are due to direct actions by NOAA and its partners.\1\ The Congress' 
decision to more than double the program funds to approximately $5.6 
million in fiscal year 2009 and fiscal year 2010 created crucial 
momentum to protect the Hawaiian monk seal from extinction. NOAA 
conducts annual research field camps in the Northwestern Hawaiian 
Islands (NHI), conducts outreach to fishermen and the general public 
concerning the seal's ecological and cultural importance, intervenes to 
rescue entangled or wounded seals, investigates seal deaths, and 
conducts vital research studies on disease and mortality mitigation.
---------------------------------------------------------------------------
    \1\ McAvoy, Audrey. ``Feds--Efforts to rescue monk seals helping 
species''. Associated Press in West Hawaii Today, January 26, 2012.
---------------------------------------------------------------------------
    However, funding levels were cut in half to about $2.7 million for 
fiscal year 2011 and fiscal year 2012. Maintaining this level of 
reduced funding will continue to restrain the rollout of recovery 
actions, including the translocation of seals to areas where they can 
mature with greater likelihood of survival. Marine Conservation 
Institute (MCI) strongly recommends the subcommittee reinstate funding 
to $5.5 million in fiscal year 2013.
Deep Sea Coral Research and Technology Program
    The discovery of widespread deep sea coral ecosystems within U.S. 
waters has challenged scientists to learn the extent of these important 
ecosystems and develop strategies on how to protect them. The Deep Sea 
Coral Research and Technology Program was established by NOAA under the 
Magnuson-Stevens Fishery Conservation and Management Reauthorization 
Act of 2006. NOAA is charged with mapping and monitoring locations 
where deep sea corals are likely to occur, developing technologies 
designed to reduce interactions between fishing gear and deep sea 
corals, and working with fishery management councils to protect coral 
habitats.
    MCI was pleased to see increased funding for the National Marine 
Fisheries Service's (NMFS) Deep Sea Coral Program to a level of $2.5 
million in fiscal year 2010; we recommend that level be sustained in 
fiscal year 2013. Previous funding has allowed for coral habitat 
mapping and analysis along the west coast and in Southeastern U.S. 
waters. Sustained funding will permit the continued mapping of coral 
areas off the west coast and in Alaska, as well as the initiation of 
coral mapping in Mid-Atlantic waters. There is a great need for habitat 
assessments to inform fisheries management and development decisions. 
Reduced funding levels would hamper the compilation of this 
information.
Marine Debris Program
    Marine trash has become one of the most widespread pollution 
problems affecting the world's oceans and waterways. An estimated 8.6 
million pounds of debris was recovered worldwide in 2010. Recently, 
much attention has been given by the press to the debris generated by 
the Japanese tsunami tragedy, and its impacts on ocean life and tourism 
in Hawaii and along the west coast. Research has shown that debris has 
serious effects on the marine environment, wildlife, the economy, and 
human health and safety. It is estimated that as much as 1,250,000 tons 
of tsunami debris could reach the United States over the next several 
years.\2\
---------------------------------------------------------------------------
    \2\ McAvoy, Audrey. ``Tsunami debris spreads halfway across 
Pacific''. Associated Press in Seattle Times, February 28, 2012.
---------------------------------------------------------------------------
    The Marine Debris Research, Prevention and Reduction Act was 
enacted in 2006 to identify, assess, reduce, and prevent marine debris 
and its effects on the marine environment. The Marine Debris Program 
received a much needed increase in fiscal year 2012 to a level of $5 
million to address the incoming tsunami debris. The President's fiscal 
year 2013 budget recommends relocating the Marine Debris Program to 
NMFS, Office of Habitat Conservation. While understanding the need to 
improve efficiency, MCI believes the program would be more effective if 
it remained under the National Ocean Service at the current funding 
level of $5 million. Current placement allows the program to leverage 
resources available to the Office of Response and Restoration and work 
in better collaboration with fisherman since the program is currently 
housed under the National Ocean Service and not together with the 
regulators of NMFS.
National Marine Sanctuaries
    Presently, the Office of National Marine Sanctuaries (ONMS) is 
responsible for managing the Nation's 13 marine sanctuaries and 
Papahanaumokuakea Marine National Monument in the NHI. Collectively, 
these 14 units cover more area than the National Park System.
    MCI recommends $54.5 million in fiscal year 2013. This amount 
includes $49 million for the operations and research account, and $5.5 
million for the construction account. This would allow ONMS to better 
fulfill its responsibilities as a leader in ocean management and 
conservation. The funding would allow ONMS to maintain current 
management capabilities and complete current construction projects. 
Less funding would likely require the termination of contractors 
performing full-time equivalents duties, eliminate most vessel days at 
sea, and reduce operations at many visitor centers, thereby reducing 
local community benefits.
    The President's fiscal year 2013 budget recommends merging the 
Marine Protected Areas Center with the National Marine Sanctuaries 
Program. If this merger were to occur, I recommend funding for the ONMS 
be increased by $4 million to ensure the MPA Center mission and 
projects continue.
Regional Ocean Partnerships
    Regional Ocean Partnerships (ROP) facilitate the cooperation and 
integration of ocean and coastal resources management between local, 
State, and Federal agencies. Coastal States Governors have already 
established several regional ocean partnerships to collaboratively 
address priority marine and coastal issues.
    The President's fiscal year 2013 budget requests $4 million in 
fiscal year 2013 to provide competitive grants to address issues within 
each U.S. region. While this amount is $0.5 million more than enacted 
fiscal year 2012 levels, it is $3.5 million less than the fiscal year 
2011 enacted level. MCI recommends a minimum funding level of $7.5 
million to assist these important collaborative efforts.
Ocean Acidification
    Ocean acidification is the process by which seawater becomes 
corrosive to calcium carbonate structures found in many of the shells 
and skeletons of marine organisms, such as shellfish, corals, and fish. 
It is a major marine impact associated with elevated carbon dioxide 
levels in the atmosphere. Ocean acidification has already begun to 
negatively impact commercial and recreational fishing, as well as 
coastal communities and economies.
    The Federal Ocean Acidification Research and Monitoring Act that 
passed in 2009 calls upon NOAA to coordinate research, establish a 
monitoring program, identify and develop adaptation strategies and 
techniques, encourage interdisciplinary and international understanding 
of the impacts associated with ocean acidification, improve public 
outreach, and provide critical research grants to increase 
understanding of the ecosystem impacts and socioeconomic effects of 
ocean acidification. Ocean acidification research received $6.4 million 
in fiscal year 2012. MCI recommends a level of $11.6 million in fiscal 
year 2013 to more fully understand the impacts of ocean acidification 
on our coastal communities and economy.
Law Enforcement
    NOAA's Office of Law Enforcement (OLE) is responsible for enforcing 
the laws that conserve and protect our Nation's fisheries, protected 
species, and national marine sanctuaries and monuments. The office is 
also responsible for enforcing the United States' international 
commitments to fight illegal, unregulated, and unreported fishing, a 
practice that threatens to undermine global fish stocks, such as the 
Pacific tuna fishery in which the United States participates. In 
addition, the Office of General Counsel Enforcement Section provides 
legal services and guidance to NOAA's OLE.
    NOAA's jurisdiction spans 3.4 square million miles of coastal and 
marine environments, including the Nation's 13 marine sanctuaries and 
four marine national monuments. The Pacific region alone poses a 
challenge for NOAA law enforcement as it spans 1.5 million square 
miles, nearly one-half of the U.S. Exclusive Economic Zone.
    MCI strongly supports the President's fiscal year 2013 budget 
request of $67.1 million for NOAA's OLE. This will allow OLE to 
maintain current capabilities, while potentially adding additional 
resources in the Pacific region. MCI also recommends an additional 
$150,000 for another attorney in the Pacific Islands Office of General 
Council Enforcement Section, as there is currently only one attorney 
with no support staff.
Marine Operations and Maintenance
    The Office of Marine and Aviation Operations (OMAO) operates NOAA's 
fleet of specialized ships to fulfill the agency's environmental and 
scientific missions. OMAO provides vessels for fisheries research, 
oceanographic and atmospheric research, and hydrographic surveys. Ships 
are also used for monitoring marine sanctuaries and monuments, and 
servicing the early warning tsunami and weather system equipment.
    Not since 2007 has OMAO operated its ships at full capacity, 
largely due to budget constraints. In 2011, OMAO allocated base ship 
time for each of its 17 vessels at about 135 days at sea, which is 
about 55 percent of the fleet's operational capability (max = 220 days 
per vessel). NOAA's program offices have had to ``buy'' additional days 
to fulfill some of their basic mandates. For instance, NMFS purchased 
an additional 542 days in fiscal year 2011. Unfortunately, the line 
offices are experiencing budget constraints as well.
    It makes no sense for NOAA's ships to be partially idle when one of 
NOAA's primary missions is to manage and restore our oceans. MCI 
supports the President's request of $166 million for OMAO in fiscal 
year 2013. It is a step toward more fully funding NOAA's fleet to 
fulfill its mandates.
    In summary, MCI respectfully requests that the subcommittee 
maintain or slightly augment funding for the conservation side of the 
NOAA budgets.
                                 ______
                                 
                 Prepared Statement of Mary P. Paulsen
    Today, I am writing to share my story with you; but most of all I 
am writing to you as elected officials to ask you to please stop the 
egregious use of taxpayer dollars allocated to Governmental agencies 
and used to promote an agenda to close Medicaid certified care programs 
across our country. Care is provided for people with significant 
disabilities in what are now called Intermediate Care Facilities/
Intellectual Disabilities (ICF/DD) that are operated both by States and 
by private business. I am concerned with the budget request for the 
Civil Rights Division (CRD) in the Department of Justice (DOJ) for an 
additional $5.1 million. The request states that they need this money 
to strengthen civil rights enforcement efforts on behalf of vulnerable 
people (CRIPA). The most unfortunate thing about CRIPA is that it 
cannot be used to enforce proper care in private facilities where 
significant abuse/neglect issues occur but only in institutions 
operated by States (public).
    My son is a vulnerable adult. He is 47 years old and has severe 
autism, epilepsy and Obsessive-Compulsive Disorder. He is also 
nonverbal. I am his legal guardian. Our life journey has been long and 
difficult. As a parent, I was always hoping that someone, something, 
somewhere would make a difference for him and he would become more 
functional and normal. Parents live on hope and are easily convinced by 
philosophical and ideological ideas. I now realize that this can be an 
extremely false hope. When we could not provide him with the care he 
required due to a death in the family, he was placed in our State 
institution. Autism has a level of hyperactivity that people cannot 
understand who have not lived it. You must know where the child is and 
what he is doing every minute of the day. I have been a volunteer 
advocate for more than 40 years so I am aware of what is and has been 
going on with regards to services for people with disabilities. I 
succumbed to the ``normalization'' concept and moved my son from our 
State facility to a privately managed group home when he was in late 
adolescence, age 20, and had become assaultive. The transition was 
difficult and many changes and moves were involved. Nothing has ever 
been easy for us.
    The popular idea of promoting independence and self-determination 
for people with disabilities nearly resulted in my son's death in 2006. 
The group home system lacks oversight and abuse and neglect happens. In 
our case the provider violated the agreement (contract) with regard to 
my son having one-on-one staffing. He was left alone in the kitchen of 
the home. His shirt caught on fire (gas stove) and he had second- and 
third-degree burns on his back from his waist to his shoulder blades. 
His care and recovery was a long and difficult road. I realized that he 
was not safe and could not be kept safe in a group home environment. 
After a battle with our State bureaucracy, I have succeeded in placing 
him back in our State operated developmental center (ICF/ID) with all 
the Medicaid regulations and oversight. Federal law supports my right 
as his legal guardian so choose where he will receive services (care), 
but I had to fight the system here in Utah to have my choice honored. 
My son needs a restricted campus with many well-trained people around 
him in order to keep him safe--a place where everyone knows him. It is 
unfortunate that we had to learn this the hard way.
    Advocates who have pursued closure of congregate care facilities 
have chosen to ignore the cases of abuse, neglect, and even death that 
occur in the group homes and apartments. For many people with 
disabilities, the level of care to minimize the risk of injury can best 
be provided in adequately funded and properly monitored congregate care 
facilities (ICF/ID) where the staff is well-trained.
    I believe it is a violation of my son's civil rights and mine as 
his guardian for us to be subjected to misinterpretations of the 
Olmstead decision as well as Americans with Disabilities Act to force 
the agenda of closure of public congregate care facilities in this 
country. There are many people with significant disabilities who need 
more care than can be provided in the Home and Community Based Waiver 
system. With the population increase, the most severely impaired are in 
the minority and often our voices are simply not heard. The number of 
adherents for an idea should not be the determining criterion for its 
truth or falsehood. If the closure of large facilities is based on 
majority rule, then those of us composing the minority will be the 
losers--often the losers of life itself.
    I am asking you to stop funding to the CRD of DOJ that allows them 
to pursue de-institutionalization efforts.
                                 ______
                                 
 Prepared Statement of the National Association of Latino Elected and 
                          Appointed Officials
    Chairwoman Mikulski, Ranking Member Hutchison, and members of the 
subcommittee: I am Arturo Vargas, the Executive Director of the 
National Association of Latino Elected and Appointed Officials (NALEO) 
Educational Fund. I also serve as Co-Chair of The Leadership Conference 
on Civil and Human Rights Census Task Force, which brings together 
leading civic and civil rights organizations to address pressing census 
issues. Thank you for the invitation to appear before you today on 
behalf of the NALEO Educational Fund and The Leadership Conference 
Census Taskforce to support the President's fiscal year 2013 request to 
the Congress of $970.4 million in discretionary funding for the U.S. 
Census Bureau.
    The NALEO Educational Fund is a nonprofit, nonpartisan organization 
that facilitates full Latino participation in the American political 
process, from citizenship to public service. Our constituency includes 
the more than 6,000 Latino elected and appointed officials nationwide. 
Our Board members and constituency include Republicans, Democrats, and 
independents. The NALEO Educational Fund is one of the Nation's leading 
organizations in the area of Census policy development and public 
education, and we are deeply committed to ensuring that the Census 
Bureau provides our Nation with the most accurate count of its 
population. Since 2000, the NALEO Educational Fund has served on the 
Secretary of Commerce's 2010 Census Advisory Committee, or its 
predecessor, the Decennial Census Advisory Committee, and we actively 
participated in the committee's discussions surrounding the planning 
for the 2010 enumeration. In October 2009, we launched the ``ya es 
hora, ;HAGASE CONTAR! (Make Yourself Count!)'' campaign, which focused 
on promoting the importance of the census, educating individuals about 
filling out their census forms, and encouraging households to mail back 
their responses.
    The Leadership Conference is ideally positioned to address many of 
the most pressing issues affecting the successful implementation of 
Census Bureau programs, surveys, and initiatives. The Leadership 
Conference's coordinating role among so many diverse organizations 
allows for the sharing of different perspectives, as well as the 
development of broader strategies that occur within the purview of any 
individual organization. All of its work draws on the expertise of the 
cross-section of national organizations, and examines the impact of 
civil rights policy on a broad range of constituencies.
    Mrs. Chairwoman, as your committee prepares to consider the fiscal 
year 2013 Commerce, Justice, and Science, and Related Agencies (CJS) 
appropriations bill, we urge your support for the administration's 
fiscal year 2013 request to the Congress for the Census Bureau. We 
believe this amount is the minimum necessary to preserve core 
statistical programs and ensure the continued reliability of data vital 
for public, private, and nonprofit sector decisionmaking now and in the 
future. In particular, reliable and accurate data about the Latino 
community are critical for the prosperity and well-being of the entire 
country. The results of the 2010 census demonstrated the importance of 
the decennial enumeration for charting the dramatic growth of our 
Nation's Latino community and the implications of that growth for the 
future of our economy and democracy. The Latino population in the 
United States was 50.5 million in 2010, and Latinos are the Nation's 
second-largest and fastest-growing population group. Between 2000 and 
2010, the Latino share of the population increased from 12.5 percent (1 
in 8 Americans) to 16.3 percent (1 in 6 Americans).
    For fiscal year 2013, the President proposed a total budget of 
$970.4 million in discretionary funding for the Census Bureau, a 3-
percent increase more than the fiscal year 2012 funding level of $942 
million. In this testimony, I will address how the administration's 
request is necessary to maintain the reliability of American Community 
Survey (ACS) data, begin planning for a cost-effective 2020 decennial 
census, and effectively meet the constitutional responsibilities of the 
Bureau. I would like to start by providing detailed information about 
the President's request regarding two critical programs:
  --the ACS; and
  --the planning for the 2020 census.
    ACS.--For fiscal year 2013, the President requested $252.7 million, 
which represents a decrease of $10.9 million for the ACS program. ACS 
is implementing several changes in fiscal year 2013, including an 
Internet response option and a reduction in the scale of the Failed 
Edit Follow-up Operation.
    We believe the fiscal year 2013 budget request sufficiently invests 
in the ACS program to ensure that the sample size is large enough to 
produce reliable and useful data for less populated geographic areas, 
such as towns and rural counties, and especially less populous 
subgroups. This funding also would allow for improved telephone and 
field data collection; sufficient follow-up of unresponsive households 
in remote areas; and a comprehensive review of 3-year and 5-year ACS 
estimates. These activities are imperative for ensuring the ACS can 
continue to provide valid data about the socio-economic and demographic 
characteristics of the American people on an ongoing, annual basis.
    Policymakers at all levels of government rely on ACS data to make 
important decisions that affect the lives of all Americans. These data 
help make such determinations as the number of teachers that are needed 
in classrooms, the best places to build roads and highways, and the 
best way to provide health and public safety services to our 
neighborhoods and communities. According to a July 2010 report by 
Andrew Reamer of the Brookings Institute which analyzed fiscal year 
2008 Federal Government spending, 184 Federal domestic assistance 
programs used ACS-related datasets to help guide the distribution of 
$416 billion, 29 percent of all Federal assistance. ACS-guided grants 
accounted for $389.2 billion, 69 percent of all Federal grant funding. 
Most of ACS-guided Federal assistance goes to State governments through 
a few large grant programs which support highway infrastructure and aid 
low-income households. The 10 largest ACS-guided assistance programs 
include several that help ensure that Latino families and their 
children receive quality healthcare, and housing, including Medicaid, 
section 8 housing programs, and school education grants.
    Other Federal programs also rely on the ACS for implementation of 
the programs and priorities of the Federal Government. For example, the 
Department of Defense uses ACS data for the implementation of the 
procurement technical assistance it provides to businesses. The 
Department of Agriculture uses the data for water and waste disposal 
system planning in rural communities, where a significant number of 
Latino families live. In addition, sound implementation of the 
protections of the Voting Rights Act of 1965 relies on ACS data, 
because those data are used to make determinations under section 203, 
which requires jurisdictions with a high percentage of people who are 
not yet English language proficient to offer language assistance to 
citizens during the electoral process.
    High-quality, objective, and universal ACS data are also critical 
for our Nation's private sector. Without these data, businesses and 
nonprofit organizations will lose the ability to understand their 
customers and the communities they serve, and allocate their fiscal and 
human resources prudently. American companies rely on ACS data every 
day to make vital decisions about where to locate and expand; what 
goods and services to offer; the scope of employee training needed; and 
long-term investment opportunities. Thus, fiscal year 2013 funding to 
support reliable ACS data is critical for sound government and business 
profitability, and the pursuit of national economic prosperity.
    2020 Census.--As 2010 census activities wind down with final 
evaluations and data products, planning for the next decennial 
enumeration is on its cyclical upswing. The President's fiscal year 
2013 request for 2020 census activities is nearly double the fiscal 
year 2012 funding level, from $66.7 million in fiscal year 2012 to 
$131.4 million in fiscal year 2013. We strongly support this important 
funding increase. As the Government Accountability Office (GAO) has 
consistently documented, reasonable investments in census planning in 
the early part of the decade will help save millions, and perhaps 
billions, of dollars in census costs down the road.
    We know from experience that insufficient funding for early 
decennial census planning leads to ballooning costs later in the 
decade. The Census Bureau must invest resources early in the decade to 
ensure cost-effective, successful implementation of census operations 
in the future. The pace of technological change and rapid evolution of 
communication modes make ongoing research and testing essential. 
Similarly, keeping up with changes in the Nation's housing stock and 
roads could save hundreds of millions of dollars during census 
preparations in 2018-2019, allowing the Bureau to confine final address 
checking to areas in frequent transition. As Director Groves has 
stated, the vision is, ``An efficient and quality census that counts 
people once, only once, and in the right place.'' The fiscal year 2013 
budget also supports another critical Bureau central focus of the 2020 
census planning: To design programs and operations for the 2020 census 
that have residual benefits for other Census Bureau data collections.
    In this spirit, we are working with the Census Bureau to continue a 
robust Partnership Program in preparation for the 2020 census. During 
the decennial enumeration, the Census Bureau used the Partnership 
Program to engage community-based organizations, religious leaders, 
educators, local businesses, and media outlets who had strong 
relationships with hard-to-count populations and were familiar with the 
barriers they face in census participation. The Bureau utilized the 
assistance of Partnership Program stakeholders in educating residents 
about the importance of returning their census questionnaires, and 
helping them surmount the barriers in completing and returning their 
forms. In short, the Partnership Program ensured that timely and 
locally relevant information from the Bureau reached community leaders, 
and that local enumeration efforts were able to use limited resources 
efficiently. We believe that the program, which proved to be an 
integral component of the census 2010 outreach efforts, remains 
critical for reaching hard-to-count populations and ensuring their 
participation in future surveys and censuses. However, the severe 
limitations being placed on the Bureau's budget have proven to be an 
impediment to guaranteeing that this important initiative will 
continue. The President's fiscal year 2013 budget request may allow for 
the resumption of this critical program.
    Support for the full amount of census funding in the President's 
2013 budget is particularly crucial in light of past experiences with 
census expenditure reductions in postenumeration years. Unfortunately, 
the Congress has often turned to the Census Bureau's budget as a source 
of expendable funds after each decennial census, overlooking the 
important work the agency does year in and year out and starving the 
critical research and testing phases of the next enumeration. The 
fiscal year 2012 budget was no exception.
    In fiscal year 2012, this subcommittee $88 million more than the 
House version of this bill. Fortunately, the final appropriation 
legislation offered just enough funding for the Bureau to proceed with 
its core activities. The so-called ``minibus'' appropriations bill--
encompassing 3 of 12 Federal appropriations accounts, including the CJS 
appropriations bill--allocated $942 million for the Census Bureau. 
However, we strongly caution against relying on money from the Working 
Capital Fund to pay for ongoing core activities.
    As a result of fiscal year 2012 and fiscal year 2011 budget cuts--
and on its own accord--the Census Bureau has committed to reducing 
costs by taking bold steps to streamline operations. In fiscal year 
2012, it realigned its national field office structure by permanently 
closing six regional offices. Last year, the Bureau eliminated a number 
of lower-priority programs. In addition, the Bureau has demonstrated 
its determination to make modest investments in required activities to 
help save billions of dollars.
    We understand the fiscal environment requires the Congress to make 
difficult decisions and curtail current spending. We recognize that 
there are many worthy programs funded through the CJS appropriations 
bill. Yet, we believe that making cuts in the President's fiscal year 
2013 budget request for the Census Bureau will be counterproductive to 
an agency whose data are essential to running our government, informing 
our policies, and influencing economic productivity.
    I thank the Chairwoman, the Ranking Member, and the subcommittee 
once again for providing us with the opportunity to share our views 
today in support of the President's fiscal year 2013 budget request for 
the Census Bureau.
                                 ______
                                 
 Prepared Statement of the National Association of Marine Laboratories
    Madam Chair and members of the subcommittee, my name is Shirley 
Pomponi and I direct the National Oceanic and Atmospheric 
Administration (NOAA) Cooperative Institute for Ocean Exploration, 
Research and Technology at Florida Atlantic University. I submit this 
statement on behalf of more than 100 marine labs that make up the 
National Association of Marine Laboratories (NAML). On behalf of all of 
my fellow marine lab directors, I thank this subcommittee for the 
support it is has provided for ocean, coastal, and Great Lakes research 
and education through NOAA, the National Science Foundation (NSF), and 
the National Aeronautics and Space Administration (NASA).
    NAML is a nonprofit organization of member institutions 
representing coastal, marine, and Great Lakes laboratories in every 
coastal State, from Guam to Bermuda and Alaska to Puerto Rico. Member 
laboratories serve as unique ``windows on the sea,'' connecting 
scientists and citizens with the rich environmental mosaic of coastal 
habitats and offshore oceanic and Great Lakes regions. NAML 
laboratories conduct research and provide academic, education, and 
public service programs to enable local and regional communities to 
better understand and manage their ocean, coastal and Great Lakes 
cultural and natural resources.
    NAML has two key priorities relevant to this subcommittee as part 
of its fiscal year 2013 public policy agenda:
  --to maintain strong support for extramural marine research and 
        education programs at NOAA and the NSF; and
  --a recommendation for a cost-saving national partnership program 
        aimed at co-locating NOAA and other Federal agency marine 
        science personnel and facilities at the more than 100 NAML 
        laboratories located all over the country.
    I am here today to present the case for the restoration of funding 
within the NOAA appropriation that this subcommittee will draft in the 
near future. These funds provide vital and irreplaceable support for 
extramural research, education, and conservation programs, and are 
among the most well-spent and highly leveraged Federal dollars.
    The coastal population of the United States increased by nearly 51 
million people from 1970 to 2010, with 52 percent of the Nation's total 
population living in coastal watersheds. By 2020, the coastal 
population is expected to grow by another 10 percent or 15.6 million. 
In 2009, the coastal economy contributed $8.3 trillion to the Nation's 
Gross Domestic Product resulting in 66 million jobs and wages worth an 
estimated $3.4 trillion. Recreational coastal fishing contributed about 
$73 billion in total economic impact supporting more than 320,000 jobs. 
For commercial fishing, the average annual value of all U.S. marine 
fisheries from 2008 to 2010 is estimated at $4 billion, providing about 
1 million jobs and generating more than $32 billion in income. Our 
Nation's ports, often located in the heart of sensitive coastal 
ecosystems, are an essential driver of the U.S. economy. About $1.9 
trillion worth of imports came through U.S. ports in 2010, supporting 
an estimated 13 million jobs. More than 50 percent of the total energy 
produced domestically occurred in coastal States, including natural gas 
production, electricity generation, and oil and gas production. Coastal 
areas are providing opportunities for renewable energy development with 
projects that seek to extract energy from the movement of ocean water 
due to tides, currents, or waves; from the temperature differential 
between hot and cold ocean water; and from strong winds in offshore 
ocean environments.
    Meeting stewardship responsibilities for the oceans, coasts, and 
Great Lakes requires a robust science and education enterprise. Coastal 
areas face challenges that threaten fisheries resources, impact 
recreational and commercial resources and affect the health of 
ecosystems. The Deepwater Horizon oil spill in the Gulf of Mexico and 
its continuing impact on the natural resources of the region illustrate 
the need for a robust and responsive ocean and coastal sciences 
enterprise. We must continue to invest in the Nation's research 
enterprise that has been responsible for our long-term prosperity and 
technological pre-eminence through interdisciplinary research spanning 
a landscape of disciplines, from physics to geology, chemistry to 
biology, engineering to economics, and modeling to observation.
                      national science foundation
    NAML is highly supportive of the NSF and its fiscal year 2013 
budget request. NSF funds vital basic and translational research that 
enhances the understanding and governance of the Nation's oceans, 
coasts, and Great Lakes. More than 90 percent of NSF's budget directly 
supports research at universities and laboratories in all 50 States. A 
robust NSF fuels the economy, boosts national competitiveness, supports 
a scientific and technologically literate workforce and provides new 
knowledge--all of which are essential for national and economic 
security. Science and engineering research, education, and related 
infrastructure support, such as the core research programs in the 
geosciences, the Ocean Observatories Initiative, and the Field Stations 
and Marine Lab infrastructure program, are especially important in 
enabling our national network of nongovernment marine laboratories to 
serve their vital, cost-effective role as community-based research 
enterprises.
    NAML strongly supports the Science, Engineering, and Education for 
Sustainability (SEES) initiative. SEES focuses on targeted programs 
that promote innovative interdisciplinary research to address pressing 
societal issues of clean energy and sustainability. In fiscal year 
2013, SEES includes five programs that contain translational themes:
  --Coastal SEES;
  --Arctic SEES;
  --Sustainable Chemistry, Engineering, and Materials;
  --Creating a More Disaster-Resilient America; and
  --a program on the Role of Information Sciences and Engineering in 
        SEES.
    NSF's support for ocean science education should continue to build 
on past successes, such as the Centers for Ocean Science Excellence in 
Education, and should also continue to integrate new approaches and 
themes, for example, through the new Expeditions in Education 
initiative.
            national oceanic and atmospheric administration
    NOAA's fiscal year 2013 budget plan will eliminate funding for the 
National Undersea Research Program (NURP), the National Estuarine 
Research Reserve Construction program, the Marine Sanctuaries 
Construction, the John H. Prescott Marine Mammal Rescue Assistance 
Grant Program, Ocean Education Partnerships, and Competitive Education 
Grants.
    Additionally, NOAA's 2013 budget plan will drastically reduce 
funding for other extramural programs, including the Integrated Ocean 
Observing System, the Coastal Services Center, the Center for Sponsored 
Coastal Ocean Research, and the National Estuarine Research Reserve 
program. All of these programs directly connect the NOAA mission to 
coastal communities, to jobs, schools, recreation and other important 
values. They also connect communities back to NOAA, helping to ensure 
that NOAA is responding to real needs.
    In the past, NOAA has benefited enormously from its extramural 
partnerships, engaging hundreds of scientists and other agencies (e.g., 
NSF) in issues of direct and critical relevance to the Nation, at 
remarkably low cost. The extramural programs have been dollars well 
spent. In 2004 the NOAA Science Advisory Board's Research Review Team 
report concluded:

    ``. . . Extramural research is critical to accomplishing NOAA's 
mission. NOAA benefits from extramural research in many ways, 
including: access to world class expertise not found in NOAA 
laboratories; connectivity with planning and conduct of global science; 
means to leverage external funding sources; facilitate multi-
institution cooperation; access to vast and unique research facilities; 
and access to graduate and undergraduate students. Academic scientists 
also benefit from working with NOAA, in part by learning to make their 
research more directly relevant to management and policy. It is an 
important two-way street . . . NOAA cannot accomplish its goals without 
the extramural community, specifically the universities and 
institutions that represent the broad range of expertise and resources 
across the physical, biological, and social sciences. Moreover, there 
is the important issue of maintaining a scientific and technologically 
competent workforce in NOAA and the workforce is another `product' of 
the extramural research community . . . Also it is important that 
during difficult budget periods that NOAA not disproportionately target 
the extramural research for budget cuts.''

    NAML fully recognizes the constraints facing the Federal Government 
and the Congress and the necessary limitations on Federal discretionary 
spending. For that very reason, NAML believes that extramural programs 
should be supported to the maximum extent. External programs are 
flexible, responsive to local and regional needs, and can leverage 
local and regional investments, as well as funds from other agency 
investments. They are often at the cutting edge, supporting innovation 
and nurturing the scientists of the future. These advantages are 
enhanced in programs for which peer-reviewed competition and overall 
merit determine the funding decisions.
    Through engagement with the extramural research community and the 
agencies that support it, NOAA can enhance its research priorities and 
address the Nation's critical scientific problems. The place-based 
extramural programs also contribute to local and regional economic 
development and engage citizens in wise use of their coastal and ocean 
resources. Finally, extramural research helps educate and train the 
next generation of marine scientists and engineers, expanding the 
impact of the Federal dollars toward building a globally competitive 
science, technology, engineering, and math workforce.
    As the Federal agency responsible for managing living marine and 
coastal resources, NOAA must have a presence beneath the sea to better 
understand the systems under its management. With Public Law 111-11, 
the Congress authorized NURP to provide NOAA with enhanced scientific 
access to the undersea environment. NURP has cost-effectively provided 
human access with submersibles and technical diving, and virtual access 
using robots, seafloor observatories, and innovative new technologies. 
NURP has provided scientists with the tools and expertise they need to 
investigate the seafloor and water column, allowing for unique new 
insights and data to address NOAA's diverse mission. NURP is comprised 
of a network of regional centers and institutes of undersea science and 
technology excellence located at major universities. This extramural 
network facilitates collaborations with programs outside NOAA, 
leverages external funds and infrastructure, and provides access to 
world-class expertise and students. NURP projects are selected by a 
rigorous peer-review process based on scientific merit and relevance to 
NOAA and national research priorities.
    The John H. Prescott Marine Mammal Rescue Assistance Grant Program 
has also been eliminated from NOAA's fiscal year 2013 Federal budget 
request. Marine mammals are sentinel species that inform our knowledge 
of the health of marine food webs. Marine mammal stranding response 
networks nationwide are run primarily through nonprofits and other 
nongovernment entities including, in many cases, marine labs affiliated 
with educational institutions. They coordinate their work with NOAA's 
National Marine Fisheries Service (NMFS) and often engage large numbers 
of volunteers and students, making the program very cost effective. 
Consistent funding is necessary to maintain basic operational needs, 
volunteer engagement, and the continued success of these essential 
stranding networks. In addition to support for the stranding networks, 
NMFS reserves a portion of Prescott funds for emergency responses to 
catastrophic events, including oil spills, mass strandings, and 
hurricanes.
    Stranding networks are the Nation's first responders to both live 
and dead marine mammals that come ashore, often in developed coastal 
communities. They perform important outreach functions for NOAA and 
collect data and samples that enable important population and ocean 
health assessment. This includes basic information on marine mammal 
diseases that are anthropogenic in nature, as well as those that can be 
spread to humans via contact with stranded animals. If NOAA is 
permitted to eliminate this program, it is unlikely that NMFS will be 
able to meet congressional mandates stipulated in the Marine Mammal 
Protection Act.
    To demonstrate the economic and environmental value of extramural 
programs to the Nation, consider the National Sea Grant College 
Program, a stellar example of NOAA's ability to support extramural 
research that is locally and nationally prominent. In the last 2 years, 
Sea Grant has delivered the following benefits to the Nation:
  --Nearly $243 million in direct economic benefits, which represents 
        nearly a 4 to 1 return on the Federal investment;
  --An estimated additional $146 million in other Federal, State, and 
        nongovernmental resources leveraged for research, extension, 
        and other services that support the ocean and coastal 
        enterprise;
  --144 new businesses created, 1,271 businesses retained, and more 
        than 8,100 jobs created or retained;
  --768 communities across the Nation adopted more sustainable economic 
        or environmental development practices and policies;
  --340 communities adopted hazard resiliency practices to make them 
        better prepared to cope with or respond to hazardous coastal 
        events;
  --5,000 individuals or businesses received new certifications in 
        hazard analysis and critical control point handling of seafood 
        products, improving the safety of seafood consumption by 
        Americans across the country;
  --40,000 acres of degraded ecosystems were restored; and
  --1,700 undergraduate students, 1,400 graduate students, and 800,000 
        K-12 students were reached with information about marine and 
        Great Lakes science and resources.
    Besides the programs singled out in this presentation, a great deal 
of extramural research that supports NOAA's overall mission is in 
specific programs such as the Integrated Ocean Observing System (IOOS), 
the Coastal Services Center, the Center for Sponsored Coastal Ocean 
Research (CSCOR), and the National Estuarine Research Reserve System 
(NERRS) program. For instance, CSCOR is a multi-topic competitive 
research program that supports longer-term research on important 
coastal issues of harmful algal blooms, hypoxia in the northern Gulf of 
Mexico and other U.S. waters, and multiple stressors. The NERRS 
programs are effectively aligned with academic institutions and 
especially marine labs, and they support significant research 
activities funded by other agencies. The IOOS has observing 
instrumentation in the water around the United States (and including 
the Gulf of Mexico) that currently provides real-time oceanographic 
data to users, including the U.S. Coast Guard, maritime transportation, 
oil spill response agencies (State and Federal), and fisheries 
managers, as well as local fishing and other businesses. Much of the 
data comes from academic scientists at no cost to the Federal budget. 
In all, these extramural programs provide NOAA with capabilities that 
far exceed what is possible in-house, enabling the agency to carry out 
its mission more effectively and more efficiently.
    The examples above demonstrate the unique value, cost 
effectiveness, and contribution that extramural programs make to the 
agency's missions of science, service and stewardship. And last, but by 
no means least, NOAA extramural funding for colleges and universities 
fosters the integration of education and training into research, 
helping to create the next generation of scientific and technical 
talent that the Nation must have to remain competitive into the future.
    We urge the subcommittee to restore funding to these extramural 
programs when the subcommittee marks up the fiscal year 2013 Commerce, 
Justice, Science, and related agencies appropriations bill.
    On behalf of my colleagues at NAML, thank you very much for the 
opportunity to express our concerns. We would be happy to provide 
additional information if it would be helpful to the subcommittee.
                                 ______
                                 
   Prepared Statement of ASME Technical Communities' NASA Task Force
   introduction to american society of mechanical engineers and the 
        national aeronautics and space administration task force
    The National Aeronautics and Space Administration (NASA) Task Force 
of the American Society of Mechanical Engineers (ASME) Knowledge and 
Community Aerospace Division is pleased to have the opportunity to 
provide its views on the fiscal year 2013 budget request for NASA. ASME 
is a nonprofit, worldwide engineering society serving a membership of 
more than 120,000 people. It conducts one of the world's largest 
technical publishing operations, holds more than 30 technical 
conferences and 200 professional development courses each year, and 
sets many industrial and manufacturing standards. The Aerospace 
Division represents approximately 15,000 members from industry, 
academia, and government. Aerospace Division members are involved in 
all aspects of aeronautical and aerospace engineering at all levels of 
responsibility. They have a long-standing interest and expertise in the 
Nation's federally funded aeronautics, exploration, space operations, 
and aerospace research and development (R&D) activities at NASA, and 
the agency's efforts to create a pipeline of young engineers interested 
in aerospace and aeronautics. In this statement, the Task Force will 
address programs that are critical to the long-term health of the 
Nation's aerospace workforce and the global economic competitiveness of 
the U.S. aerospace industry.
    Key recommendations for fiscal year 2013:
  --The Aerospace Division is concerned about proposed flat and reduced 
        funding for key research and education accounts within NASA. 
        Flat funding amounts to effective reductions in funding when 
        adjusted for inflation and would have a particularly negative 
        effect on NASA's aeronautics research programs. NASA's R&D and 
        educational activities will require sustained increases in 
        funding in order to maintain and enhance space exploration 
        outcomes and competitiveness in the U.S. aeronautics industry 
        and workforce against emerging countries entering space 
        exploration.
  --The Task Force highly recommends that the Congress and the 
        administration work to increase the aeronautics portion of 
        NASA's research budget to maintain funding and activities for 
        aeronautics research at the fiscal year 2012 level of $569.4 
        million. Achieving this goal will help maintain the research 
        programs needed to support and maintain a world-class 
        aeronautics and aerospace industry and globally competitive 
        research workforce.
     national aeronautics research and development policy and plan
    The National Science and Technology Council (NSTC) released their 
``National Aeronautics Research and Development Policy'' in December 
2006, to establish long-term goals for U.S. aeronautics R&D endeavors. 
The NSTC followed this policy with a ``National Aeronautics Research 
and Development Plan,'' updated by the Obama administration in 2010. 
This plan noted the continued importance of aeronautics R&D to U.S. 
national security and global economic competitiveness. These policy 
documents recognize the necessity for Federal leadership in advanced 
R&D and emphasize the Federal role in advanced aircraft technologies 
and systems research but also call for private sector contributions in 
identifying and applying technological innovations. However, these 
policies alone cannot provide the necessary gains in aeronautics 
technology without the proper amount of funding and the sustained 
commitment on the part of the administration and the Congress.
overview of the national aeronautics and space administration's fiscal 
                        year 2013 budget request
    The Task Force recognizes the unprecedented fiscal challenges our 
country faces and supports the administration's strategy of promoting 
fiscal discipline in a smart way--strategically cutting programs where 
possible and investing in programs which improve our long-term economic 
competitiveness. In accordance with the terms of the NASA Authorization 
Act of 2010 (Public Law 111-267), the administration is continuing the 
implementation of significant changes to NASA's programming in fiscal 
year 2013, including the continuation of a series of new exploration, 
R&D, and technology demonstration programs and several programs geared 
towards partnerships between NASA Centers and commercial sector 
aeronautics and aerospace companies.
    The administration's overall budget request of $17.7 billion for 
NASA in fiscal year 2013, compared to $17.77 billion in fiscal year 
2012, is significant considering the current fiscal environment, but 
the Task Force has severe reservations about the administration's 
proposed budget freeze at this reduced level over the next 5 fiscal 
years, through fiscal year 2017.
    NASA is already struggling to support several new research and 
technology initiatives needed to serve the Nation's long-term space 
exploration needs. Constrained research funding will force NASA to 
abandon worthy research endeavors, including proven and promising 
research programs and technology development efforts such as NASA's 
Mars science programs. Due to recurrent under-funding of NASA's 
research and development focused directorates over the last several 
years, NASA became an agency focused on operations and execution to the 
detriment of its concurrent mission to develop and research the 
aeronautics and aerospace platforms of tomorrow. Given the challenges 
faced by NASA as it transitions to new mandates from the Congress--
mandates which assume significant out-year budget growth--and the 
current challenges faced by the broader U.S. aeronautics industry and 
aeronautics workforce, the Task Force urges the administration to 
reassert its commitment to revitalizing research and development at 
NASA, particularly through proposals to engage U.S. industry in a 
variety of new space technology development and demonstration programs 
in NASA's new ``Space Technology'' budget portfolio.
    NASA's ``Space Technology'' development proposal reflects one of 
the most important recommendations from the Review of U.S. Human Space 
Flight Plans Committee, also known as the ``Augustine Committee'', that 
is, the revitalization of NASA's innovative space technology 
development efforts. The U.S. record on space exploration stands among 
the greatest achievements of humankind and one of our greatest 
achievements as a Nation, and maintaining this mission is critical to 
U.S. leadership in space.
    At a time when America faces unprecedented challenges to its 
economic leadership, NASA must continue to play a leading role in 
funding engineering-related research, particularly for aeronautics and 
aerospace programs, if we are to continue our leadership in activities 
ranging from commercial aeronautics and aerospace activities to 
national space exploration priorities. Therefore, the Task Force views 
the administration's notional freeze on NASA's budget as detrimental to 
encouraging new research and technology demonstration programs critical 
to placing NASA and the U.S. aeronautics and aerospace industries back 
on course to developing space exploration programs which are truly 
``worthy of a great Nation''.
                  need to expand aeronautics research
    The Task Force has consistently noted the value of NASA's 
aeronautics research and technology (R&T) programs contained within the 
Aeronautics Research Mission Directorate (ARMD). This portion of the 
NASA budget offers immediate and practical benefits for the Nation, and 
the Task Force is concerned about the administration's proposed $551.5 
million budget for ARMD in fiscal year 2013, a -3.1-percent decrease 
from fiscal year 2012. In light of this reduced funding path, the 
administration's out-year budget plan for ARMD will be insufficient to 
support the development of important aeronautics research missions if 
ARMD is to ramp up work on its Integrated Systems Research Program 
(ISRP), and also force NASA to abandon much of its hypersonic aviation 
research efforts.
    Aeronautic products represent our greatest single national export. 
These exports are now being threatened by foreign competition whose 
governments are largely supportive of their aeronautics enterprises. 
This represents not only a commercial threat, but a potential threat to 
our national security as well. Strong investment in fundamental 
engineering research in aeronautics will ensure that the United States 
will retain its long-term leadership in this field.
    NASA's proposed investment in aeronautics research for fiscal year 
2013 represents less than 1 percent of the more than $53.7 billion in 
net U.S. exports of aeronautics products in 2011. The Task Force 
recommends that the aeronautics portion of the NASA budget be increased 
to $1 billion over the next 5 years, with a long-term target of 
attaining a level of 10 percent of the total NASA budget. Achieving 
this target would re-establish aeronautics funding, as a percentage of 
the NASA budget at its pre-1990 level, and put U.S. aeronautics R&D 
funding at levels commensurate with the needs of a world-class 
aeronautics and aerospace industry.
    An increase in R&D funding for Aeronautics could provide immediate 
and strategic benefits to the U.S. economy. More funding will allow 
rapid improvements in fuel economy and noise abatement technology 
development through full-scale or sub-scale flight demonstrations that 
speed transition of these technologies into production aircraft, and 
leverage current Aeronautics investments in environmentally responsible 
aviation technologies. Strategically, more R&D funding could allow the 
ARMD to take a greater role in Next Gen technology development for air 
traffic control, and to possibly take a lead role in the National 
Airspace System, leading the way to safely flying unmanned vehicles in 
our national airspace and maintaining U.S. leadership in this critical 
technology.
                u.s. aeronautics and aerospace workforce
    Several interrelated critical challenges confront the U.S. 
aeronautics enterprise--a sharp decrease in the number of new 
commercial and military aircraft programs, a decline in the quality of 
the research infrastructure, and erosion in the technologically 
literate workforce needed to ensure pre-eminence in an increasingly 
competitive marketplace. Robust investment by NASA in aeronautics 
research and space technology development addresses all these problems 
and will help balance NASA's portfolio to reflect the importance of 
aeronautics and aerospace to the global economy.
    Aeronautics faces the same pressures being felt by the space 
industries, where fewer research dollars over time has resulted in 
fewer companies with skilled workers capable of designing and building 
complex aeronautical systems. As result, the United States is 
increasingly dependent on immigration and outsourcing to meet its 
technical workforce needs. In fact, the NSF's 2012 S&T Indicators 
report found that more than 50 percent of doctorate-level engineers 
working in the U.S. engineering fields, including aeronautical and 
aerospace engineering, came from foreign backgrounds, an increase from 
41 percent in 2000. Investment in aeronautics is a matter of strategic 
importance, as it creates highly skilled manufacturing jobs and helps 
create a foundation for a strong national defense. Additionally, the 
same report found that both the number and percentage of science and 
engineering doctoral degree recipients with temporary visas reporting 
plans to stay in the United States peaked in 2007 and declined in 2009 
after rising since 2002, indicating that the United States cannot take 
its scientific workforce for granted during tough economic times.
    While regional economies differ, the aerospace industry overall 
suffers from a lack of available young workers with advanced technology 
degrees who can step in to replace retiring, experienced workers. The 
aerospace industry looks to NASA to create a demand for long-term R&D 
to encourage students to go to graduate school and on to companies who 
are doing aeronautical R&D. There is a clear correlation between 
research dollars and the number of graduate students in a particular 
field. Therefore, as the funding for aeronautics has decreased by more 
than one-half over the last decade, the number of younger faculty and 
graduate students decreased. There is a lag between funding increases 
and student enrollment increases, and this decade-long erosion must 
begin to be reversed now. Accordingly, the Task Force reiterates its 
support for a revitalization of aeronautics and aerospace research and 
development efforts at NASA.
  recommendations concerning international traffic in arms regulation-
                          restricted research
    The Task Force again recommends that NASA receive increased funding 
for research programs conducted through academic partnerships, and 
recommends maintaining NASA's education budget at a minimum fiscal year 
2012 level of $136 million. In this context, the Congress should 
consider having a broad range of technologies reviewed and declared 
non-International Traffic in Arms Regulation (ITAR) restricted in order 
to reduce costs and barriers to performing research in academic 
laboratories.
    While basic research does not face ITAR restrictions, many applied 
and advanced categories of research on space-related technologies face 
significant barriers for foreign nationals at academic institutions. At 
present almost all space launch technologies are ITAR restricted, 
eliminating the possibility for many foreign students to participate in 
the research at many universities. Recognizing that many aerospace 
companies perform restricted work and need to hire legal residents or 
U.S. citizens, the Task Force recommends that a process be established 
to screen new foreign engineering students and start the green card 
process and path to citizenship as a part of their student employment 
through U.S. taxpayer-funded grants working on technology in the 
aerospace and astronautics fields. This would restrict funding to 
individuals that would later be eligible for employment in the United 
States after conclusion of their Ph.D., allowing for easier entry into 
the U.S. aeronautics workforce. This would also reduce the cost to 
small business hiring new non-U.S. graduates and streamline the U.S. 
aeronautics workforce development pipeline.
                               conclusion
    Our Nation is facing an ongoing struggle in two areas that are 
interrelated, which are:
  --declining technical workforce; and
  --foreign competition for aeronautics and space exploration 
        leadership.
    We believe one element of the solution to both problems is 
investment in aeronautics research and development. There is a strong 
correlation between technical degrees being awarded and consistent 
funding for research and development. NASA can help its own workforce 
problems as well as some of the same problems facing the rest of the 
country by increasing, in a persistent fashion, research in 
aeronautics. This in turn would have a positive effect on the U.S. 
economy in the long run by enabling our country to better compete in 
the future global marketplace.
    The administration's proposed NASA budget for fiscal year 2013 
indicates an overall philosophical commitment to revitalizing space 
technology R&D efforts, which the Task Force fully supports. However, a 
strong aeronautics R&D program is also essential for the national 
necessity of retaining a U.S. world-class aeronautics workforce and the 
administration's 5-year (fiscal year 2013-fiscal year 2017) funding 
freeze for NASA is incongruent with the administration's overall goal 
of spurring a revitalization of R&D at NASA and in the U.S. aeronautics 
industry. Aeronautics is a vital industry that produces tangible 
economic and security benefits for the nation. NASA's charter for 
aeronautics and space means that it must address both. Therefore, the 
Task Force reiterates its support for an expansion in NASA's overall 
ARMD's budget portfolio to ensure support for existing long-term 
aviation research and infrastructure goals as well as the development 
of new space technology R&D capabilities.
    As other nations seek to expand their efforts in aeronautics and 
space exploration, there is a strong rationale for the Congress to 
consider real increases to the NASA aeronautics and space technology 
budgets. The Congress must help the United States remain competitive 
and innovative in this vital area by providing adequate funds and 
consistent support for NASA's missions. Furthermore, NASA's aeronautics 
budget should reflect the priorities laid out in the NSTC National 
Aeronautics Research and Development Policy, which supports stable and 
long-term foundational research. Only a robust aeronautics budget will 
meet this goal. The -3.1-percent decrease in NASA's aeronautics budget 
is a step in the wrong direction. The United States must maintain and 
expand its investments in scientific research to ensure continued U.S. 
leadership in space exploration and aeronautics and aerospace 
technological development.
    This testimony represents the considered judgment of the NASA Task 
Force of the Aerospace Division of ASME's Technical Communities of the 
Knowledge and Communities Sector and is not necessarily a position of 
ASME as a whole.
                                 ______
                                 
Prepared Statement of the National Ecological Observatory Network, Inc.
    Chairman Mikulski, Ranking Member Hutchison, and members of the 
subcommittee, thank you for the opportunity to testify on the fiscal 
year 2013 budget for the National Science Foundation (NSF). My name is 
Tom Jorling, and I serve as the interim CEO of the National Ecological 
Observatory Network (NEON), Inc. a 501(c)(3) corporation established to 
implement the NEON Project supported by the Major Research Equipment 
and Facilities Construction (MREFC) program of the NSF. We are deeply 
appreciative of the support this subcommittee has provided the MREFC 
account, and NEON in particular, in previous years and hope it will 
continue as you consider the fiscal year 2013 budget request for the 
NSF MREFC account in the amount of $196.17 million. This funding 
recommendation is essentially level with the fiscal year 2012 
appropriation for this account and will allow the continued 
construction of NEON consistent with the 5-year construction schedule 
developed by the NSF and NEON, Inc. and approved by the National 
Science Board.
                             the challenge
    Maintaining this Nation's Science and Engineering (S&E) leadership 
is increasingly seen as a precondition for maintaining U.S. 
competitiveness on the world stage. In February 2003, the National 
Science Board said:

    There can be no doubt that a modern and effective research 
infrastructure is critical to maintaining U.S. leadership in Science 
and Engineering (S&E). New tools have opened vast research frontiers 
and fueled technological innovation in fields such as biotechnology, 
nanotechnology, and communications . . . Recent concepts of 
infrastructure are expanding to include distributed systems of 
hardware, software, information bases, and automated aids for data 
analysis and interpretation. Enabled by information technology, a 
qualitatively different and new S&E infrastructure has evolved, 
delivering greater computational power, increased access, distribution 
and shared use, and new research tools, such as data analysis and 
interpretation aids, Web-accessible databases, archives, and 
collaboratories. Many viable research questions can be answered only 
through the use of new generations of these powerful tools.
    . . . In an era of fast-paced discovery, it is imperative that 
NSF's infrastructure investments provide the maximum benefit to the 
entire S&E community. NSF must be prepared to assume a greater S&E 
infrastructure role for the benefit of the Nation.

    Pushing the frontiers of science requires a sustained effort to 
ascertain the scientific grand challenges that beckon our brightest 
minds, to determine how science and technology can best address 
emerging challenges, and to develop the leadership in turning knowledge 
into technologies and benefits for society. In order to conduct basic 
research in every field of S&E, students, teachers, and researchers 
must have access to powerful, state-of-the-art scientific 
infrastructure--the type of infrastructure that has a major impact on 
broad segments of S&E disciplines. Large and up-to-date research 
equipment and facilities are essential to the fundamental process of 
basic research.
    We are entering an era of large-scale, interdisciplinary science 
fueled by large data sets that will be analyzed by current and future 
generations of scientists. The rapid pace of changes around the globe 
has underscored the value of long-term data sets for understanding the 
context of scientific observations, and for forecasting future 
conditions. Natural and human-managed landscapes are subject to events 
and processes that play out over different scales of time and space. 
Some are rapid and visible, like extreme precipitation, wind, and 
wildfire events, while others are subtle and play out over decades, 
like changing ocean temperatures and pH that affect the world's 
fisheries. Dealing with these challenges calls for a new generation of 
tools and observational capabilities.
                        rising to the challenge
    There is no better generation to handle these long-term challenges 
than the cadre of early career scientists, engineers, and educators 
that we have in this country. These individuals have trained for 
professional and academic careers in a highly connected, fast-changing, 
digital world. Many are eager and ready to tackle data-intensive, data-
driven scientific challenges if provided the opportunity and the 
requisite data. We need modern scientific tools that will allow this 
generation of scientists to listen to the heartbeat of an entire 
continental ecosystem, to observe the changing patterns of large-scale 
oceanic patterns that affect our weather, and to use powerful 
scientific analysis and visualization techniques to understand the 
connectivity between the atmosphere, land, and oceans.
    The successful nurturing of these capabilities depends on the 
availability and accessibility of data characterizing the structure and 
function of natural systems. Publicly accessible data represents a 
potent democratization of science--it opens up the marketplace of ideas 
and enables participation by constituencies that were previously 
excluded because of barriers related to the capital costs of scientific 
infrastructure. The MREFC account funds transformational scientific 
infrastructure entirely consistent with NSF's vision of science 
entering into an ``Era of Observations'' and an ``Era of Data and 
Information''.
    the major research equipment and facilities construction account
    NSF describes the NSF MREFC account as providing ``unique, 
transformational research capabilities at the frontiers of science and 
engineering''. Such multi-user facilities are identified through 
extended engagements with the scientific community, designed using 
processes that National Aeronautics and Space Administration, 
Department of Energy, and others have developed over decades, and 
constructed using state-of-the-art technology. As members of this 
subcommittee are aware, the Congress, the NSF Inspector General, the 
National Science Board, and NSF provide stringent oversight of the 
planning, construction, and operations of all MREFC projects to ensure 
that taxpayer dollars are spent wisely.
    We would like to applaud NSF's stewardship of these facilities. The 
agency has defined processes that it requires all MREFC projects, 
including NEON, to follow. These defined processes and an expectation 
of the timeframes allow us to engage with our user-communities to 
prepare them for the use of the facility as it gets built, and for when 
it comes on-line. This allows universities to strategize their hiring 
strategies, and for our early career scientists to acquire the 
necessary skills that will allow them to participate in these new 
scientific enterprises. One such enterprise that we wish to highlight 
in this testimony is NEON.
         why the national ecological observatory network, inc.
    Living systems interact with each other and with the rest of the 
Earth System at many scales. At a small scale, individual plants 
exchange energy and matter with the atmosphere to support growth. At a 
large scale, like that of an entire continent, exchange between biotic 
components, the atmosphere, and surface water affects climate and 
hydrology. NEON is the Nation's and the world's first science facility 
designed to enable understanding and predicting the way ecosystems work 
and respond to changes, especially at large scales; understanding how 
ecosystem processes feedback to alter Earth system processes, including 
climate and hydrology; and understanding the implications of these 
processes and feedbacks for the human endeavor.
    The project is designed to fill a void in observing systems that 
collect the range of variables needed for a complete view of ecosystem 
responses to multiple interacting environmental stressors, essential if 
we are to maintain the ecosystems that support humans and all life.
    The concept for the ecological observatory was initiated in 1998 by 
the National Science Board's Task Force on the Environment. This was 
followed by workshops conducted by a large segment of the ecological 
community and a succession of competitive planning grants from NSF. 
This process culminated in a proposal to construct what was to become 
the NEON project. There followed a multi-year process involving more 
than a dozen outside expert review panels convened by NSF, including a 
Conceptual Design Review, Preliminary Design Reviews and a Final Design 
Review in 2010. These successful reviews led to approval by the 
National Science Board and finally authorization for construction from 
the Congress in 2010 as part of the MREFC program of NSF.
 the national ecological observatory network, inc. in the fiscal year 
                  2013 budget request to the congress
    The total NSF MREFC request for NEON for fiscal year 2013 is $91 
million. This level of funding would support continuation of civil and 
facility construction and instrumentation deployment across six 
geographical regions, and commissioning of the infrastructure in three 
others. Biological sampling and analysis activities will commence in 
all constructed and accepted Observatory sites. The funds will also 
support continuation of the NEON cyberinfrastructure in preparation for 
serving the freely accessible data to the scientific community. The 
first NEON airborne remote sensing platform is expected to be 
completed, fully instrumented, and flight-tested in preparation for 
delivery to Observatory operations in fiscal year 2014.
    The NEON project received its first funding from the MREFC program, 
$12.58 million in fiscal year 2011 and $60.3 million in fiscal year 
2012. The National Science Board approved plan for the full 
construction of the Observatory calls for $98.2 million in fiscal year 
2014, $91 million in fiscal year 2015, and $80.66 million more than 
fiscal year 2016. The National Science Board approved total cost for 
the construction of the Observatory is $433 million.
                                summary
    We strongly support the fiscal year 2013 appropriations request for 
the MREFC account, including the request for NEON, because the cutting 
edge infrastructure is an essential component of the national effort to 
keep U.S. scientific enterprise at the leading edge. This is vital for 
advancing science and maintaining the United States as the leader in 
understanding the natural world and all the benefits that can flow from 
that understanding. Long-term observational data generated by MREFC 
facilities will open up new opportunities for innovation and discovery 
that will benefit scores of scientists, engineers, and educators by 
lowering barriers to participation at the very edges of science. We 
appreciate the constraints within the budget process, but urge the 
subcommittee to consider the NSF investment in major research equipment 
and related facilities construction as a critical investment in the 
future health and well being of the research enterprise--an enterprise 
that will fuel this Nation's long-term economic competitiveness.
    Thank you for this opportunity to present these views.
                                 ______
                                 
     Prepared Statement of the National Estuarine Research Reserve 
                              Association
    The National Estuarine Research Reserve Association (NERRA) is a 
not-for-profit scientific and educational organization dedicated to the 
protection, understanding, and science-based management of our Nation's 
estuaries and coasts. Our members are the 28 reserves that make up the 
National Estuarine Research Reserve System (NERRS). Established in 
1987, NERRA facilitates its members' mission to protect our Nation's 
estuaries and to promote conservation-based research, education, and 
stewardship through the reserves. For fiscal year 2013, NERRA strongly 
recommends the following reserve system programs and funding levels 
within the National Oceanic and Atmospheric Administration (NOAA):
  --NERRS Operations--$22.3 million; and
  --NERRS Procurement, Acquisition, and Construction (PAC)--$1.69 
        million.
    Additionally, NERRA also requests appropriation language directing 
NOAA to ensure that every reserve will get no less than the fiscal year 
2012 allocation. This will enable all reserves to meet obligations for 
core operations associated with research, education, stewardship, and 
coastal training responsibilities.
    In 28 beautiful coastal locations around our country, 22 States and 
Puerto Rico have protected--in perpetuity--more than 1.3 million acres 
of land for education, long-term research, science-based stewardship, 
recreation, and sustainability of the coastal economy. The States have 
been entrusted to operate and manage NOAA's program as created by the 
Congress in the Coastal Zone Management Act (CZMA) nearly 40 years ago. 
What sets this program apart from other place-based Federal programs, 
like the National Marine Sanctuaries or National Wildlife Refuges for 
example, is that the reserves manage a Federal partnership program, 
implemented locally by States or universities.
    The reserves have a tremendous positive impact on our economy 
including work to maintain clean water, keep the seafood and fishing 
industry viable, and provide communities with practical help and 
science-based information to address coastal hazards and maintain the 
area's tourism. Estuaries, where rivers meet the sea, provide nursery 
ground for two-thirds of commercial fish and shellfish: in NERRS 
States, the shellfish (wholesale market value) and seafood industry 
(total sales generated by the seafood industry) contributed more than 
$2.7 billion to the economy in 2010 (Source.--National Ocean Economic 
Program and NOAA Fisheries, Office of Science and Technology). 
Protection of these important estuaries within the NERRS can have a 
significant impact on specific species. For example, in Florida, 
Apalachicola Reserve is 1 of 3 reserves in the State: approximately 90 
percent of Florida's oyster harvest and 10 percent of United States 
total harvest comes from Apalachicola Bay (Source.--Wilber, 92).
    The work at each reserve goes beyond its property boundaries and 
creates a number of environmental and economic benefits for the 
communities and regions where they exist. For example, in 2010, NERRS 
coastal counties provided 4.4 percent of total wages earned in the 
United States and 4.2 percent of the Nation's jobs contributing more 
than $26 billion in economic output (measured in gross State product) 
and supporting more than 468,000 jobs in ocean-dependent industries 
(Source.--Bureau of Labor Statistics; NOAA).
About NERRS
    Since 1974, beginning with the designation of the South Slough 
National Estuarine Research Reserve in Oregon, the coastal States and 
the Federal Government have collaborated to create a unique network of 
estuarine areas protected for long-term research and education. The 
NERRS added its 28th reserve on Lake Superior, Wisconsin in October 
2010.
    Pursuant to the CZMA, each reserve is chosen because it is a 
representative estuarine ecosystem able to contribute to the 
biogeographical and typological balance of the NERRS and because the 
area within the reserve is protected in perpetuity and is available for 
suitable public purposes such as education and interpretive use. The 
reserves are a network of protected areas established for long-term 
research, education, training, and stewardship.
    The NERRS's priorities are developed through a collaborative 
approach between the States and NOAA to address both national and local 
concerns. The reserves have a mandate pursuant to section 315 of the 
CZMA to support the coastal States through research and education as 
the States address today's most pressing coastal issues such as impacts 
from changes in sea and lake levels and increased nutrient loading. The 
reserves conduct research, monitoring, restoration, education, and 
training designed to improve our understanding and management of coasts 
and estuaries. The reserves are public places that have significant 
local, regional, and national benefits because the lands are publicly 
owned and function as living laboratories and classrooms that are used 
by scientists, decisionmakers, educators, and people of all ages. They 
are located in pristine coastal areas that serve as ``sentinel sites'', 
places where early indicators of environmental change are 
scientifically measured to provide up-to-date information to local 
officials and the public to support environmental decisionmaking, and 
inform assessment of trends at the regional and national levels.
NERRS Operations
    NERRA requests that program operations be funded at a level of 
$22.3 million, an amount level with Congressional Appropriations Act 
fiscal year 2012 level. This funding will be shared by the 28 programs 
to enable the NERRS to manage and maintain healthy estuaries. Healthy 
estuaries support fishing, seafood, ecotourism, recreation, clean 
water, and communities. Beyond the economic impact to our National, 
State, and local economies, reserves have national infrastructure that 
support bringing science to the management of our coasts. This was most 
recently evidenced in the Deep Water Horizon oil spill of 2010, a 
coastal area that is home to five reserves. We know that the $1 billion 
tourism and seafood industries depend upon on clean water, and during 
the Deep Water Horizon Oil Spill crisis the communities and industries 
along the gulf coast relied on disaster support efforts including data 
supplied by some of the five gulf coast National Estuarine Research 
Reserves, some of which continues today.
    Each reserve receives operation funds from NOAA that are matched by 
the States and that are used to leverage significantly more private and 
local investments that results in each reserve having on average more 
than five program partners assisting to implement this national 
program. In addition, the program significantly benefits from 
volunteers that are engaged in habitat restoration, education and 
science which offset operation costs at reserves by donating thousands 
of hours. Between fiscal year 2006 and fiscal year 2010, volunteers 
have contributed more than 460,400 hours to the NERRS. In fiscal year 
2010 volunteers contributed more than 100,000 hours to the NERRS 
(Source.--NOAA).
    NERRS have made countless economic contributions to their local 
communities, States, and Nation. In the category of eco-tourism, more 
than 2 million people annually visit the NERRS: an estimated more than 
$20 million annually in direct benefit from these visitor use 
opportunities (estimated using Federal, State, and local park entry 
fees). Visitors to our reserves walk the trails, paddle the waterways, 
bird watch, snowshoe, and participate in activities and events at each 
of our 28 reserves.
    In 2011, NERRS contributed more than $10 million to science and 
research. One example of this is NERRS water and weather monitoring 
programs are used at the local, State, and national levels to support 
assessment of water quality and guide and track remediation strategies, 
aid in weather and marine forecasts, support emergency response, and 
aid the water dependent and insurance industries. NERRS land 
conservation ensures that 1.3 million acres of coastal property worth 
more than $6.5 billion are protected. (Estimated based on the average 
cost of Federal investment per acre of land added to reserves over the 
last 10 years.)
    In addition, NERRS contributes more than $4.9 million in education 
relief offsets, educating more than 83,000 children annually through 
school-based programs grades K-12. This is a major benefit in some 
communities where local school districts have been forced to cut 
programs in these economic times. Likewise, NERRS offsets more than 
$13.4 million in training for more than 66,000 people. This is a direct 
benefit of the Coastal Training Program that provides knowledge, tools, 
and resources to assist communities in protecting our coasts and aiding 
in sustainable development.
NERRS PAC
    NERRA requests $1.69 million for land conservation and facilities 
to maintain, upgrade, and construct reserve facilities and acquire 
priority lands. This competitive funding program is matched by State 
funds and has resulted in not only the preservation of critical coastal 
lands as described above, but also in the increase of construction 
jobs. For example, NERRS creates more than 60 jobs for each $1 million 
of Federal PAC money spent. In addition, NERRS leveraged investments of 
more than $114 million to purchase 30,000+ acres of coastal property 
over the last 10 years. A recent assessment of construction and 
acquisition priorities at the reserves shows that the NERRS have needs 
for more than $60 million for fiscal years 2011 through 2015.
President's Fiscal Year 2013 Budget
    The President's fiscal year 2013 budget, if enacted, would reduce 
the NERRS program funding by 15 percent from fiscal year 2012 omnibus 
bill levels of $22.259 million to $18.979 million and would reduce 
Procurement, Acquisition, and Construction (PAC) funding by 100 percent 
from fiscal year 2012 omnibus bill levels of $1.7 million to zero. 
According to the NOAA ``blue book'' language, ``At this funding level, 
NOAA will eliminate the NERRS graduate fellowship program and decrease 
funding to each of the 28 reserves across the United States.'' As 
stated previously, NERRA requests appropriation language directing NOAA 
to ensure that every reserve will get no less than the fiscal year 2012 
allocation. This will enable all reserves to meet obligations for core 
operations associated with research, education, stewardship, and 
coastal training responsibilities.
    NERRA's assessment of the potential funding cut impacts assumes 
that program operations in the States, at the 28 sites, would absorb 
the majority of the program cuts and thereby result in the greatest 
impacts being felt locally, even though it is believed that all aspects 
of the program--locally and systemwide--would receive reductions. The 
States suffer the greatest from the funding cuts. Program cuts proposed 
by the President would put at risk the more than $26 billion of 
economic output contributed by NERRS coastal counties in 2010, as well 
as the more than more than 468,000 jobs in ocean-dependent industries 
supported in these communities. Insufficient funding would impact State 
and local seafood and fishing industries that are a $2.7 billion 
economic contributor for States that have a reserve because reserve 
sites would suffer adverse economic impacts from reduced water quality 
and water quality data. In addition, NERRA believes that the NERRS 
program for Graduate Research Fellowships, providing advance degree 
educational opportunities for up to 56 university marine science-
related students per year, will be eliminated.
Support Requested for Coast and Ocean and Management
    NERRS are connected to the coast and ocean management work done by 
its State and Federal partners. Specifically, in the States, reserves 
primary partners are the State coastal management programs in the 
majority of the States. NERRA requests subcommittee support for Coastal 
Zone Management (CZM) grants at $67 million. In addition, many reserves 
rely on congressionally appropriated Bay Watershed Estuary Training (B-
WET) funds to augment educational funds. Therefore, NERRA request your 
support for this program in the appropriation of $9.7 million for B-WET 
grants. Finally, the reserves depend on NOAA's technical assistance and 
partnership capacity. NERRA requests support of $37.1 million for the 
Coastal Services Center and $8.7 million for CZM Stewardship.
Conclusion
    NERRA greatly appreciates the support the subcommittee has provided 
in the past. This support has been critical to sustain and increase the 
economic viability of the coast and estuary-based industries. We urge 
you to give every consideration to these requests as you move forward 
in the fiscal year 2013 appropriations process.
                                 ______
                                 
    Prepared Statement of the Northwest Indian Fisheries Commission
    Mr. Chairman and members of the subcommittee, thank you for the 
opportunity to provide testimony on the Department of Commerce fiscal 
year 2013 appropriations. My name is Billy Frank, and I am the chairman 
of the Northwest Indian Fisheries Commission (NWIFC). The NWIFC is 
comprised of the 20 tribes that are party to the United States vs. 
Washington \1\ (U.S. vs. Washington). We support funding for National 
Oceanic and Atmospheric Administration (NOAA)--National Marine 
Fisheries Service (NMFS) and the National Ocean Service (NOS). We are 
identifying four specific funding needs:
---------------------------------------------------------------------------
    \1\ United States vs. Washington, Boldt Decision (1974) reaffirmed 
Western Washington Tribes' treaty fishing rights.
---------------------------------------------------------------------------
           summary of fiscal year 2013 appropriations request
    NWIFC specific funding requests:
  --$110 million for the Pacific Coastal Salmon Recovery Fund (NOAA/
        NMFS);
  --$20 million for the Regional Ocean Partnership Grants Program 
        (NOAA/NOS);
  --$3 million for the Pacific Salmon Treaty Chinook Annex (NOAA/NMFS); 
        and
  --$16 million for the Mitchell Act Hatchery Program (NOAA/NMFS).
    The NWIFC also supports the budget priorities and funding requests 
of the National Congress of American Indians.
    We also want to bring to your attention an initiative that we have 
been pursuing--our Treaty Rights at Risk Initiative. The treaty rights 
of the western Washington treaty tribes are in imminent danger. 
Specifically, the treaty-reserved right to harvest salmon is at risk. 
The danger exists due to diminishing salmon populations, which limits 
or eliminates our right to harvest. All this is due to the inability to 
restore salmon habitat faster than it is being destroyed. We have 
called on Federal Government to implement their fiduciary duties by 
better protecting salmon habitat. The Federal Government has a trust 
responsibility to the tribes and the tribes' treaties are 
constitutionally protected. By fulfilling these Federal obligations and 
implementing our requested changes, I have no doubt that we will 
recover the salmon populations. It is imperative that we are successful 
with this initiative as salmon are critical to the tribal cultures, 
traditions and their economies.
    When our tribal ancestors signed treaties, ceding millions of acres 
of land to the United States Government, they reserved fishing, 
hunting, and gathering rights in all traditional areas. These 
constitutionally protected treaties, the Federal trust responsibility 
and extensive case law, including the United States vs. Washington 
decision (1974), all consistently support the role of tribes as natural 
resource managers, both on and off reservation. In Washington State, 
these provisions have developed into a successful co-management process 
between the Federal, State, and tribal governments. These arrangements 
have helped us deal with many problems, but still require additional 
support to meet the many new challenges like air and water pollution 
and climate change.
    Of particular interest to us is the Pacific Coastal Salmon Recovery 
Fund. This is a critical funding source in restoring salmon habitat. 
This funding source continues to assist tribes in the implementation of 
salmon recovery plans and moves us in the direction of achieving the 
recovery goals, which is a direct request in our Treaty Rights at Risk 
initiative. We also appreciate a number of the National Ocean Policy 
intiatives that support key Federal, state and tribal partnerships. Our 
specific requests are further described below.
Justification of Requests
            $110 Million for the Pacific Coastal Salmon Recovery Fund
    The Pacific Coastal Salmon Recovery Fund (PCSRF) is a multi-state, 
multi-tribe program established by the Congress in fiscal year 2000 
with a primary goal to help recover wild salmon throughout the Pacific 
Northwest and Alaska. The PCSRF seeks to aid the conservation, 
restoration, and sustainability of Pacific salmon and their habitats by 
financially supporting and leveraging local and regional efforts. 
Recognizing the need for flexibility among tribes and the States to 
respond to salmon recovery priorities in their watersheds, the Congress 
initially provided funds for salmon habitat restoration, salmon stock 
enhancement, salmon research, and implementation of the 1999 Pacific 
Salmon Treaty Agreement between the United States and Canada. PCSRF is 
making a significant contribution to the recovery of wild salmon 
throughout the region.
    The tribes' overall goal in the PCSRF program is to restore wild 
salmon populations. The key tribal objective is to protect and restore 
important habitat that promotes the recovery of Endangered Species Act 
(ESA) listed species and other salmon populations in Puget Sound and 
along the Washington coast that are essential for western Washington 
tribes to exercise their treaty-reserved fishing rights consistent with 
U.S. vs. Washington and Hoh vs. Baldrige.\2\ These funds will also 
support policy and technical capacities within tribal resource 
management departments to plan, implement, and monitor recovery 
activities.
---------------------------------------------------------------------------
    \2\ Hoh vs. Baldrige--A Federal court ruling that required 
fisheries management on a river-by-river basis.
---------------------------------------------------------------------------
    It is for these reasons that the tribes strongly support the 
Pacific Coastal Salmon Recovery Fund. The tribes have used these funds 
to support the scientific salmon recovery approach that makes this 
program so unique and important. Related to this scientific approach 
has been the tribal leadership and effort which has developed and 
implemented the ESA-listed Puget Sound Chinook Recovery Plan approved 
by NOAA.
    Unfortunately, the PCSRF monies have decreased over the past decade 
from the fiscal year 2002 amount of $110 million. Restoration of this 
line item in fiscal year 2013 to the $110 million level will support 
the original intent of the Congress and enable the Federal Government 
to fulfill its obligations to salmon recovery and the treaty fishing 
rights of the tribes.
            $20 Million for the Regional Ocean Partnership Grants 
                    Program
    The Hoh Tribe, Makah Tribe, Quileute Tribe, and the Quinault Indian 
Nation have deep connections to the marine resources off the coast of 
Washington. They have pioneered cooperative partnerships with the State 
of Washington and the Federal Government in an effort to advance the 
management practices in the coastal waters. However, to have an 
effective partnership, the tribes, and their partners need additional 
funding.
    The four tribes, the State of Washington and NOAA's NOS, through 
the Marine Sanctuary Program, have formed the Intergovernmental Policy 
Council (IPC), which is intended to strengthen management partnerships 
through coordination and focus of work efforts. Through this 
partnership, the entities hope to maximize resource protection and 
management, while respecting existing jurisdictional and management 
authorities. In addition to this partnership with the Marine Sanctuary 
Program, the four tribes have proposed a mechanism by which they can 
effectively engage with the West Coast Governors' Agreement for Ocean 
Health to create a regional ocean planning group for the west coast 
that is representative of the States and sovereign tribal governments 
with an interest in the ocean.
    The four coastal tribes and the State also wish to engage in an 
ocean monitoring and research initiative to support and transition into 
an ecosystem-based fisheries management plan for the Washington coast. 
This tribal-State effort would be in collaboration with NOAA and 
consistent with regional priorities identified by a regional planning 
body. Effective management of the ocean ecosystem and its associated 
resources requires the development of baseline information against 
which changes can be measured. This initiative will expand on and 
complement existing physical and biological databases to enhance 
ecosystem-based management capabilities. In turn, this will support 
ongoing efforts by the State and tribes to become more actively engaged 
in the management of offshore fishery resources.
    For the tribes to participate in this regional ocean planning body, 
and for the tribes and State to conduct an ocean monitoring and 
research initiative off the Washington coast, they will need funding to 
support this effort. The Regional Ocean Partnership Grants program, 
within the National Ocean Service Coastal Management account, would be 
an ideal program to support tribal participation with the West Coast 
Governors' Agreement to address ocean governance and coastal/marine 
spatial planning issues.
    In addition, the economic value associated with effective marine 
resource protection is huge. Not only are marine areas crucial for our 
natural resources and those that use them--they are bridges of commerce 
between nations and continents. Healthy oceans are essential if we 
value stable climates that will sustain our economies and our lives. 
Tribes must be partners in the efforts to research, clean up, and 
restore the environment in order to deal with identified problems.
            $3 Million for the Pacific Salmon Treaty 2008 Chinook Annex
    Adult salmon returning to most western Washington streams migrate 
through United States and Canadian waters and are harvested by 
fisherman from both countries. For years, there were no restrictions on 
the interception of returning salmon by fishermen of neighboring 
countries.
    In 1985, after two decades of discussions, the Pacific Salmon 
Treaty (PST) was created through the cooperative efforts of tribal, 
State, United States and Canadian governments, and sport and commercial 
fishing interests. The Pacific Salmon Commission (PSC) was created by 
the United States and Canada to implement the treaty, which was updated 
in 1999, and most recently in 2008.
    The 2008 update of the treaty gave additional protection to weak 
runs of Chinook salmon returning to Puget Sound rivers. The update 
provides compensation to Alaskan fishermen for lost fishing 
opportunities, while also funding habitat restoration in the Puget 
Sound region.
    The PSC establishes fishery regimes, develops management 
recommendations, assesses each country's performance and compliance 
with the treaty, and is the countries' forum to reach agreement on 
mutual fisheries issues. As co-managers of the fishery resources in 
western Washington, tribal participation in implementing the PST is 
critical to achieve the goals of the treaty to protect, share, and 
restore salmon resources.
    We support the fiscal year 2013 NOAA fisheries budget which 
includes $3 million to implement the 2008 Pacific Salmon Treaty Chinook 
Annex. Specifically, the funds would be used for Coded-Wire-Tag Program 
Improvements ($1.5 million) and Puget Sound Critical Stocks 
Augmentation ($1.5 million).
            $16 Million for the Mitchell Act Hatchery Program
    Salmon produced by the Mitchell Act hatcheries on the lower 
Columbia River are critically important in that they provide 
significant harvest opportunities for both Indian and non-Indian 
fisheries off the coast of Washington. This hatchery production is 
intended to mitigate for the lost production caused by the hydropower 
dam system on the Columbia River. This hatchery production is also 
important in that it dampens the impact of Canadian fisheries under the 
terms of the PST Chinook Annex on Puget Sound and coastal stocks. This 
funding provides for the operations of this important hatchery program 
and is required to mitigate for the Federal hydropower system on the 
Columbia River.
                              our message
    We generally support the administration's fiscal year 2013 budget 
with the changes noted above. The tribes strive to implement their co-
management authority and responsibility through cooperative and 
collaborative relationships with the State and local communities. The 
work the tribes do benefits all the citizens of the State of 
Washington, the region, and the Nation. But the increasing challenges I 
have described and the growing demand for our participation in natural 
resource/environmental management requires increased investments of 
time, energy, and funding.
    We are sensitive to the budget challenges that the Congress faces. 
Still, we urge you to increase the allocation and appropriations that 
can support priority ecosystem management initiatives. For the sake of 
sustainable health, economies, and the natural heritage of this 
resource, it is critically important for the Congress and the Federal 
Government to do even more to coordinate their efforts with State and 
tribal governments.
                               conclusion
    We are facing many environmental and natural resource management 
challenges in the Pacific Northwest, caused by human population 
expansion and urban sprawl, increased pollution problems ranging from 
storm water runoff to de-oxygenated or ``dead'' areas in the Hood 
Canal, parts of Puget Sound and in the Pacific Ocean. The pathway to 
the future is clear to us. The Federal, State, and tribal governments 
must strengthen our common bond and move forward with the determination 
and vigor it will take to preserve our heritage.
    Western Washington tribes are leaders in protecting and sustaining 
our natural resources. The tribes possess the legal authority, 
technical and policy expertise, and effectively manage programs to 
confront the challenges that face our region and Nation. The activities 
and functions we perform also benefit the entire northwest region.
    The tribes are strategically located in each of the major 
watersheds, and no other group of people is more knowledgeable about 
the natural resources. No one else so deeply depends on the resources 
for their cultural, spiritual, and economic survival. Tribes seize 
every opportunity to coordinate with other governments and 
nongovernmental entities, to avoid duplication, maximize positive 
impacts, and emphasize the application of ecosystem management. We 
continue to participate in resource recovery and habitat restoration on 
an equal level with the State of Washington and the Federal Government 
because we understand the great value of such cooperation.
    Together, we must focus on the needs of our children, with an eye 
on the lessons of the past. We ask for the Congress to continue to 
support our efforts to protect and restore our great natural heritage 
and support our funding requests. Thank you.
                                 ______
                                 
     Prepared Statement of the National Marine Sanctuary Foundation
                         appropriations request
    For 12 years, the National Marine Sanctuary Foundation (NMSF) has 
worked with the Congress and the National Oceanic and Atmospheric 
Administration (NOAA) to connect our fellow citizens to the underwater 
places that define the American ocean--the National Marine Sanctuary 
System. The President's budget request for 2013 could jeopardize 
economic growth in coastal communities by terminating funding for 
national marine sanctuary vessel acquisition and visitor center 
construction, including the completion of ongoing projects. NMSF 
respectfully requests that the subcommittee remedy this situation by 
appropriating:
  --$5.495 million to the Marine Sanctuaries Construction Base, within 
        NOAA's Procurement, Acquisition, and Construction account 
        (fiscal year 2012 enacted level); and
  --$49 million to the Marine Sanctuary Program Base, within NOAA's 
        Operations, Research, and Facilities account (fiscal year 2010 
        enacted level).
    Joining NMSF in this request is the national network of community-
based, nonprofit organizations that support specific sites within the 
sanctuary system. On behalf of their members from coast to coast, the 
Channel Islands Sanctuary Foundation (California); Cordell Marine 
Sanctuary Foundation (California); Farallones Marine Sanctuary 
Association (California); Friends of Thunder Bay National Marine 
Sanctuary (Michigan); Monterey Bay Sanctuary Foundation (California); 
Olympic Coast Alliance (Washington); Sanctuary Friends Foundation of 
the Florida Keys (Florida); and Stellwagen Alive! (Massachusetts) 
support funding National Marine Sanctuary System at these levels.
    While we recognize the challenges associated with providing 
increased funding in the current budget climate, and the need to fund 
other important programs under the jurisdiction of the subcommittee, we 
believe that the President's fiscal year 2013 budget request fails to 
address critical sanctuary contributions to coastal job creation and 
economic growth, from supporting tourism to providing construction 
jobs. It also continues a deeply disturbing trend of underfunding the 
sanctuary program--despite nearly a decade's worth of unmistakable 
signals from Democrats and Republicans in both Houses of Congress that 
the program warrants additional funds.
     national marine sanctuaries are economic engines for coastal 
                              communities
    National marine sanctuaries support economic growth and hundreds of 
coastal businesses in sanctuary communities; preserve vibrant 
underwater and maritime treasures for our children and grandchildren to 
enjoy; and provide critical public access for ocean recreation, 
research, and education. Investing in these sites does much more than 
simply protect small areas of the ocean--national marine sanctuaries 
are economic engines for coastal communities, and investing in 
sanctuaries is a downpayment on the future of fishing families, dive 
operators, and whale-watching vendors, not to mention the many other 
Americans whose livelihoods are dependent on a healthy ocean and 
coasts. We offer the following examples to suggest that the benefits of 
funding our national marine sanctuaries far outweigh the Federal 
outlays that support them:
  --Management of the Stellwagen Bank National Marine Sanctuary off 
        Massachusetts costs taxpayers less than $2 million annually, 
        and healthy sanctuary waters draw the tourists who spent $126 
        million on commercial whale-watching trips there during 2008 
        alone, supporting 31 businesses and almost 600 jobs.\1\
---------------------------------------------------------------------------
    \1\ O'Connor, Simon et al (2009). Whale Watching Worldwide: tourism 
numbers, expenditures and expanding economic benefits, a special report 
from the International Fund for Animal Welfare. Prepared by Economists 
at Large. Available at http://www.ifaw.org/Publications/
Program_Publications/Whales/asset_upload_file841_55365.pdf.
---------------------------------------------------------------------------
  --Taxpayers spend less than $3 million per year to manage the 
        Monterey Bay National Marine Sanctuary off California, whose 
        waters are the focus of a marine science and education industry 
        that employed more than 2,100 people and had a $291 million 
        budget in 2012.\2\
---------------------------------------------------------------------------
    \2\ Monterey Bay Crescent Ocean Research Consortium. (2012) ``Major 
Marine Sciences Facilities in the Monterey Bay Crescent--2012.'' 
Available at http://web.me.com/paduan/mbcorc/Membership_Info_files/
MontereyBayLabs2012-2.pdf.
---------------------------------------------------------------------------
  --The Florida Keys National Marine Sanctuary, where management costs 
        less than $6 million per year, protects coral reefs and legal 
        fishing opportunities that are the backbone of a marine tourism 
        and recreation industry in the two adjacent counties--employing 
        more than 70,000 people and contributing $4.5 billion per year 
        to state GDP.\3\
---------------------------------------------------------------------------
    \3\ National Ocean Economics Program. (2004) ``Ocean Economy 
Data.'' Available at http://www.oceaneconomics.org/Market/ocean/
oceanEconResults.asp?IC=N&selState=12&selCounty= 
12086&selCounty=12087&selYears=All&selSector=6&selIndust=All&selValue=Al
l&cb Multiplier=Multiply&selOut=display&noepID=3204.
---------------------------------------------------------------------------
  --On the shores of Lake Huron, Michigan's Thunder Bay National Marine 
        Sanctuary costs less than $1 million annually and serves as a 
        destination for tourists who spent $110 million visiting the 
        three adjacent counties in 2000, providing almost $36 million 
        in personal income and supporting 1,700 jobs.\4\
---------------------------------------------------------------------------
    \4\ Michigan Sea Grant. (2009). ``Northeast Michigan Integrated 
Assessment Final Report.'' Available at http://
www.miseagrant.umich.edu/downloads/nemia/report/NEMIA-Final-Report.pdf.
---------------------------------------------------------------------------
  --Taken as a whole, the National Marine Sanctuary System manages our 
        waters at a cost to taxpayers of approximately $340 per square 
        mile, while management of National Park Service properties 
        costs more than $16,000 per square mile.\5\
---------------------------------------------------------------------------
    \5\ Office of National Marine Sanctuaries. (2011) ``Sanctuary 
Watch, Summer 2011.'' U.S. Department of Commerce: NOAA National Ocean 
Service, National Marine Sanctuary Program. Available at http://
sanctuaries.noaa.gov/news/pdfs/sanctuarywatch/sw0611.pdf.
---------------------------------------------------------------------------
    Investments in our National Marine Sanctuary System provide 
incredible returns to society, both today and for future generations, 
and we encourage the subcommittee to provide additional resources to 
sanctuaries wherever possible, enabling them to stimulate coastal 
economies, promote ocean recreation, and create a healthy, long-term 
balance on the water.
    national marine sanctuaries start and stay in local communities
    The designation and management of new sanctuaries is wholly 
dependent on a ``bottom-up'' process where local communities are 
involved from very beginning--sanctuaries actually devolve power from 
Washington, DC and give constituents control over the destiny of their 
coasts. All sanctuary rules and regulations are developed on a site-by-
site basis, and sanctuaries are designed from the outset to accommodate 
multiple uses of the ocean. Coastal communities have a controlling 
influence on sanctuary priorities, ensuring that they address unique, 
local circumstances. This community-driven approach to decide where 
sanctuaries are located and what is allowed within them is one of the 
most public in our democracy. National marine sanctuaries are created 
by and for the people: citizens and communities propose sites and then 
have at least three additional chances to weigh in during the process. 
In addition, more than 700 Sanctuary Advisory Council representatives 
from the fishing, tourism, and maritime commerce industries; Tribes, 
State, and local government; and researchers, educators, and 
conservationists spend more than 13,000 hours each year to help manage 
sanctuary operations day-to-day. Sanctuaries are also hubs for 
volunteer activity: more than 100,000 hours are contributed by local 
sanctuary volunteers each year.
national marine sanctuaries' programmatic outlook under proposed fiscal 
                        year 2013 funding levels
    We remain concerned that NOAA's Office of National Marine 
Sanctuaries (ONMS) has not received sufficient appropriations for 
several consecutive budget cycles. As a result of these shortfalls, a 
consolidation with NOAA's Marine Protected Areas Center, and the 
continued underfunding proposed for fiscal year 2013, we project the 
termination of contractors who perform full-time equivalent duties; 
reduced operations at visitor centers; a lack of contingency funding 
needed in case of emergencies like oil spills; and inoperable vessels 
tied up at the docks. In addition, lack of funds will likely result in 
cuts to public access and recreation opportunities, cancellation of 
partnerships that leverage private funds for taxpayer benefits, and the 
dismantling of successful education initiatives.
    The potential impact of reducing sanctuary appropriations goes far 
beyond the individual sanctuaries themselves:
  --limiting visitor center hours;
  --eliminating research programs; and
  --diminishing enforcement capacities will prevent ONMS from 
        fulfilling its statutory mandates while also reducing the 
        economic activity and job creation that surrounds healthy 
        sanctuary communities from coast to coast.
    For example, funding national marine sanctuaries below the 
recommended levels could force the program to:
      Cut Treasured Public Access and Recreation Opportunities For All 
        Americans.--Funding cuts risk the Florida Keys National Marine 
        Sanctuary's 767 mooring buoys, which provide public access and 
        recreational opportunities within the sanctuary while 
        protecting coral reefs and shipwrecks from anchor damage, 
        preserving them for future generations.
      Restrict Enforcement Operations That Protect Legal Fishermen by 
        Guarding Against Illegal Fishing.--Lack of funding jeopardizes 
        on-water patrols for illegal lobster fishermen in the Florida 
        Keys NMS. In a single 2010 case, illegal fishermen pilfered 
        8,500 pounds of spiny lobster within a 6-month period. The 
        lobster had a street value of $155,000--money that was 
        effectively taken out of the pockets of hardworking, legal 
        fishermen.
      Dramatically Shrink Visitor Center Hours.--Visitor centers are a 
        vital link between sanctuaries and the millions of Americans 
        who visit the coast each year and serve as the public face of 
        NOAA. Sanctuary visitor centers see more than 200,000 visitors 
        per year, including the Mokupapapa Discovery Center (Hilo, 
        Hawaii), Great Lakes Maritime Heritage Center (Alpena, 
        Michigan), and Florida Keys EcoDiscovery Center (Key West, 
        Florida).
      Eliminate Cooperative Education Efforts With Local Museums That 
        Leverage Private Funds for Taxpayer Benefits.--Placing exhibits 
        in partner institutions, like the California Academy of 
        Sciences' three-story ``California Coast'' aquarium, is a 
        successful and cost-effective method for reaching the American 
        public. More than 1 million Academy visitors each year learn 
        how the Gulf of the Farallones National Marine Sanctuary 
        protects America's valuable ocean and maritime resources.
      Cancel Collaborative Research Efforts With Local Universities 
        That Leverage Private Funds for Taxpayer Benefits.--Funding 
        cuts could risk partnerships with Oregon State University, 
        Stanford University, and the University of California for 
        collection of wind, tide, current, and marine life data 
        critical to maritime commerce and search-and-rescue operations 
        within the Channel Islands, Monterey Bay, Gulf of the 
        Farallones, Cordell Bank, and Olympic Coast National Marine 
        Sanctuaries.
      Dismantle Successful Education Initiatives That Save Taxpayers 
        Money by Focusing on Low-Cost Prevention Instead of Expensive 
        Restoration or Remediation.--The Multicultural Education for 
        Resource Issues Threatening Oceans (MERITO) program's media 
        outreach has touched more than 13 million California residents. 
        The California Bay-Watershed Education and Training (B-WET) 
        program increases the stewardship ethic of participating youth, 
        and local communities in the Chesapeake Bay, Gulf of Mexico, 
        Hawaii, New England, and Pacific Northwest have imported the 
        program.
 the national oceanic and atmospheric administration needs sufficient 
      funds to fulfill its responsibilities to the american people
    As a member of the Friends of NOAA coalition, the National Marine 
Sanctuary Foundation works with other supporters, stakeholders, and 
partners of NOAA to educate and inform interested audiences about the 
full range of NOAA activities, enabling the agency to more effectively 
carry out its responsibilities relating to our ocean and coasts, 
fisheries, research, and weather and climate, including satellites. 
NOAA is one of the premier science agencies in the Federal Government 
and provides decisionmakers with critically important data, products, 
and services that promote and enhance the Nation's economy, security, 
environment, and quality of life. More than 1.5 million NOAA weather 
forecasts and warnings per year generate benefits of at least $31.5 
billion, and the agency's ocean and atmospheric research, fisheries 
management, and satellite enterprises are essential for the continued 
prosperity of our Nation.\6\ For example, recovery of overfished stocks 
has produced an additional $2.1 billion in income and $5 billion in 
sales over the past decade.\7\ Providing insufficient funding for NOAA 
will only serve to diminish the economic activity and job creation that 
is at present successfully revitalizing communities across America.
---------------------------------------------------------------------------
    \6\ Lazo, J.K., D.M. Waldman, B.H. Morrow, and J.A. Thacher. 2010. 
``Assessment of Household Evacuation Decision Making and the Benefits 
of Improved Hurricane Forecasting.'' Weather and Forecasting. 
25(1):207-219.
    \7\ National Marine Fisheries Service.
---------------------------------------------------------------------------
    We hope the subcommittee will see the benefits of investing in NOAA 
and the National Marine Sanctuary System, and that a failure to provide 
sufficient funding will endanger, quite literally, American lives and 
livelihoods across the Nation.
                                 ______
                                 
  Prepared Statement of the National Network to End Domestic Violence
Introduction
    I am testifying to request a targeted investment of $449.5 million 
in Violence Against Women Act (VAWA) programs administered by the 
Department of Justice, (DOJ) Office of Violence Against Women in the 
fiscal year 2013 budget (specific requests detailed below). In 
addition, I am testifying to request a $1 billion ``cap'' from the 
Victims of Crime Act (VOCA), administered by the Office of Justice 
Programs, Office for Victims of Crime in the fiscal year 2013 budget.
    Commerce, Justice, Science, and Related Agencies Appropriations 
Subcommittee Chairwoman Mikulski, Vice Chairman Hutchison, Chairman 
Inouye, Ranking Member Cochran and distinguished members of the Senate 
Appropriations Committee, thank you for this opportunity to submit 
testimony to the subcommittee on the importance of investing in VAWA 
and VOCA. I sincerely thank the subcommittee for its ongoing support 
and investment in these lifesaving programs. These investments help to 
bridge the gap created by an increased demand and a lack of available 
resources.
    I am the president of the National Network to End Domestic Violence 
(NNEDV), the Nation's leading voice on domestic violence. We represent 
the 56 State and territorial domestic violence coalitions, including 
those in Maryland, Texas, Hawaii, and Mississippi, their 2,000-member 
domestic violence programs, and the millions of victims they serve. Our 
direct connection with victims and service providers gives us a unique 
understanding of their needs and the vital importance of continued 
Federal investments.
Incidence, Prevalence, Severity, and Consequences of Domestic and 
        Sexual Violence
    The crimes of domestic and sexual violence are pervasive, 
insidious, and life-threatening. Every day in the United States, an 
average of three women are killed by a current or former intimate 
partner.\1\ In 2005 alone, the most recent year with this data 
available, 1,181 women were murdered by an intimate partner in the 
United States.\2\ In Texas, 142 women were killed by their current or 
former intimate partner in calendar year 2010.\3\ Recently, the Centers 
for Disease Control and Prevention (CDC) released the first-ever 
National Intimate Partner and Sexual Violence Survey (NISVS) which 
found that domestic violence, sexual violence, and stalking are 
widespread. In fact, domestic violence alone affects more than 12 
million people each year; nearly 1 in 5 women have been raped in their 
lifetime, and 1 in 4 women have been a victim of severe physical 
violence by an intimate partner. More than 80 percent of women who were 
victimized experienced significant short- and long-term impacts related 
to the violence such as Post-Traumatic Stress Disorder (PTSD), injury 
(42 percent), and missed time at work or school (28 percent). Finally, 
NISVS shows that most rape and partner violence is experienced before 
the age of 24, highlighting the importance of preventing this violence 
before it occurs.\4\
---------------------------------------------------------------------------
    \1\ Bureau of Justice Statistics (2008). Homicide Trends in the 
U.S. from 1976-2005. Department of Justice.
    \2\ Ibid.
    \3\ Honoring Texas Victims. Family Violence Fatalities in 2010. 
Texas Council on Family Violence. Available at http://www.tcfv.org/pdf/
Honoring-Texas-Victims.pdf.
    \4\ Black, M.C., Basile, K.C., Breiding, M.J., Smith, S.G., 
Walters, M.L., Merrick, M.T., Chen, J., & Stevens, M.R. (2011). The 
National Intimate Partner and Sexual Violence Survey (NISVS): 2010 
Summary Report. Atlanta, GA: National Center for Injury Prevention and 
Control, Centers for Disease Control and Prevention.
---------------------------------------------------------------------------
    In addition to the terrible cost domestic violence has on the lives 
of individual victims and their families, these crimes cost taxpayers 
and communities. In fact, the cost of intimate partner violence exceeds 
$5.8 billion each year, $4.1 billion of which is for direct medical and 
mental healthcare services.\5\ Domestic violence costs U.S. employers 
an estimated $3 to $13 billion annually.\6\ Between one-quarter and 
one-half of domestic violence victims report losing a job, at least in 
part, due to domestic violence.
---------------------------------------------------------------------------
    \5\ National Center for Injury Prevention and Control. Costs of 
Intimate Partner Violence Against Women in the United States. Atlanta 
(GA): Centers for Disease Control and Prevention; 2003.
    \6\ Bureau of National Affairs Special Rep. No. 32, Violence and 
Stress: The Work/Family Connection 2 (1990); Joan Zorza, Women 
Battering: High Costs and the State of the Law, Clearinghouse Rev., 
Vol. 28, No. 4, 383, 385; Supra, see footnote 10.
---------------------------------------------------------------------------
    Despite this grim reality, we know that when a coordinated response 
is developed, and immediate, essential services are available, victims 
can escape from life-threatening violence and begin to rebuild their 
shattered lives. Funding these programs is fiscally sound, as they save 
lives, prevent future violence, keep families and communities safe, and 
save our Nation money.
Investing in VAWA
    The Congress first authorized VAWA in 1994 in response to the 
terrible crimes of domestic violence, sexual assault, dating violence, 
and stalking. The programs created by VAWA and administered by the DOJ 
and the Department of Health and Human Services, have changed Federal, 
tribal, State and local responses to domestic violence dating violence, 
sexual assault, and stalking. VAWA creates and supports comprehensive, 
cost-effective responses to these pervasive and insidious crimes and 
has unquestionably improved the national response to domestic violence, 
dating violence, sexual assault, and stalking. Due to the overwhelming 
success of VAWA-funded programs, more and more victims are coming 
forward for help each year. More victims report domestic violence to 
the police: reporting rates by women have increased by up to 51 percent 
and by 37 percent for men.\7\ The rate of nonfatal intimate partner 
violence against women has decreased by 63 percent.\8\ Remarkably, the 
number of individuals killed by an intimate partner has decreased by 24 
percent for women and 48 percent for men.\9\ In addition to saving and 
rebuilding lives, VAWA saved taxpayers $12.6 billion in net averted 
social costs in its first 6 years alone.\10\
---------------------------------------------------------------------------
    \7\ ``Intimate Partner Violence in the U.S.'' U.S. Department of 
Justice, Office of Justice Programs, Bureau of Justice Statistics, Jan 
2008.; Cassandra Archer et al., Institute for Law and Justice, National 
Evaluation of the Grants to Encourage Arrest Policies Program 14 
(November 2002).
    \8\ ``Intimate Partner Violence in the U.S.'' U.S. Department of 
Justice, Office of Justice Programs, Bureau of Justice Statistics, 
January 2008.
    \9\ Ibid.
    \10\ Andersen Clark, K., et al. (2002). ``A Cost-Benefit Analysis 
of the Violence Against Women Act of 1994.'' Violence Against Women, 8, 
417.
---------------------------------------------------------------------------
    A recent study demonstrates both the lifesaving and cost-effective 
nature of VAWA-funded programs. The study found that during the 6 
months after a survivor obtained a protective order, the number of 
threats of physical harm or murder decreased nearly 50 percent, 
moderate physical abuse decreased 61 percent, and severe physical abuse 
decreased nearly 50 percent. Moreover, protective orders saved Kentucky 
at least $85 million in just 1 year.\11\ Because many VAWA-funded 
programs can help victims obtain protection orders, this study supports 
the efficacy of continued investment in these funding streams.
---------------------------------------------------------------------------
    \11\ The Kentucky Civil Protective Order Study: A Rural and Urban 
Multiple Perspective Study of Protective Order Violence Consequences, 
Responses and Cost. (2009). U.S. Department of Justice.
---------------------------------------------------------------------------
    While VAWA programs have made systemic changes to meet the needs of 
victims and saved countless lives, the demand for services continues to 
rise. Additionally, many parts of the country still lack basic services 
and traditionally underserved populations face additional barriers to 
accessing services. The National Domestic Violence Census found that in 
just 1 day in 2011, more than 67,000 adults and children found safety 
in our Nation's domestic violence shelters and programs. On the same 
day, however, more than 10,500 requests for services went unmet because 
programs did not have the resources to meet the needs of victims.
    In these tough economic times, State and private funding sources 
are dwindling, while at the same time there are more incidents of 
violence and more victims seeking help. As programs strive to meet the 
needs of all victims requesting services, the Federal funding is 
essential for ensuring that programs can keep their doors open and 
answer crisis calls. In fact, the National Domestic Violence Census 
found that in 2010, 1,441 (82 percent) domestic violence programs 
reported a rise in demand for services, while at the same time, 1,351 
(77 percent) programs reported a decrease in funding.\12\ While we 
recognize the difficult decisions you face during this extremely 
challenging budget year, VAWA, VOCA, and Family Violence Prevention and 
Services Act (FVPSA) funding, is critically needed to prevent and end 
domestic and sexual violence in our country. To address unmet needs and 
build upon its successes, VAWA should maintain at least fiscal year 
2012 funding levels, with key targeted investments for fiscal year 
2013.
---------------------------------------------------------------------------
    \12\ Domestic Violence Counts 2010: A 24-Hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence. (January 2010).
---------------------------------------------------------------------------
Specific Investments in VAWA Programs
    Services, Training, Officers Prosecution (STOP)--$205 Million 
Request.--STOP grants are formula grants given to each State to improve 
the criminal justice response to domestic violence, dating violence, 
sexual assault, and stalking, are used to develop coordinated community 
responses. Many States and jurisdictions have implemented STOP-funded 
strategies that have led to a direct reduction in domestic violence 
homicides.\13\ As part of the coordinated community response, STOP also 
supports the work of victim services agencies. According to Parents and 
Children Together Peace Center, Hawaii, ``as a result of these funds, 
we have been able to provide much-needed individual counseling to 
victims with complex needs such as mental illness, language barriers, 
living in a rural area and/or immigrants.'' \14\ Investment in the STOP 
program is needed to ensure that communities across the country 
continue to strengthen their efforts to hold perpetrators accountable 
and support victims.
---------------------------------------------------------------------------
    \13\ 2010 Biennial Report to Congress on the Effectiveness of Grant 
Programs Under the Violence Against Women Act. U.S. Department of 
Justice, Office on Violence Against Women.
    \14\ STOP (Services <bullet> Training <bullet> Officers <bullet> 
Prosecutors) Program 2010 Report, U.S. Department of Justice, Office on 
Violence Against Women.
---------------------------------------------------------------------------
    Sexual Assault Victim Services Program (SASP)--$35 Million 
Request.--This formula grant addresses the extreme needs of sexual 
assault victims by allowing States, tribes, and territories to provide 
critically needed direct services to victims and training and technical 
assistance to various organizations including law enforcement, courts, 
and social services. In 2009, 56 percent of rape crisis centers were 
forced to reduce staff due to a lack of funds. A 2010 survey revealed 
that 25 percent of rape crisis centers have a waiting list for crisis 
services.\15\ Increased investment in SASP is essential to meet the 
needs of sexual assault victims.
---------------------------------------------------------------------------
    \15\ National Alliance to End Sexual Violence (2010). Internet 
survey of 1,300 rape crisis centers with 644 responses.
---------------------------------------------------------------------------
    Rural Grant Program--$41 Million Request.--The rural grant program 
supports services for victims of domestic and sexual violence living in 
rural and isolated areas. These victims face unique barriers to leaving 
an abusive situation, including a small number of programs serving a 
large geographic area, harsh weather conditions that can make travel 
difficult, under-resourced law enforcement, and a lack of essential 
services including child care, legal services, and public 
transportation. Restoring funding of this critically needed program to 
the fiscal year 2011 level of $41 million is needed to sustain these 
services.
Level Funding Requests for Key VAWA Programs
    Each authorized VAWA program plays a critical role in sustaining a 
holistic response to domestic and sexual violence. The individual 
programs cannot meet the increasing demand for services with continual 
funding cuts.
    Grants To Encourage Arrest Policies and Enforcement of Protection 
Orders Program (GTEAP)--$50 Million Request.--GTEAP helps communities 
develop and sustain a seamless and comprehensive criminal justice 
response to domestic violence, enhancing victims' safety and holding 
perpetrators accountable. In Maryland, GTEAP supports the innovative 
Lethality Assessment Program, which includes a screening tool and 
protocol for first responders and others to assess lethality and link 
victims to services. Maryland experienced a 41 percent decrease in 
domestic violence homicides over the span of 3 years after implementing 
this program and jurisdictions in 11 other States have also implemented 
this successful tool. Ongoing funding for GTEAP will allow communities 
across the country to continue this lifesaving work.
    Civil Legal Assistance for Victims (LAV)--$41 Million Request.--
Research indicates that the practical nature of legal services gives 
victims long-term alternatives to their abusive relationships.\16\ 
However, the retainers or hourly fees for private legal representation 
are beyond the means of most victims of domestic violence, dating 
violence, sexual assault and stalking. In fact, almost 70 percent of 
all victims are without legal representation.\17\ The Civil Legal 
Assistance for Victims Program is the only federally funded program 
designed to meet the legal needs of victims. According to Catholic 
Charities, Inc. of Mississippi, ``the Legal Assistance Clinic has been 
proactive in working closely with other governmental agencies to ensure 
that client's issues pertaining to housing (relocation or lease 
transfer) or employment issues are handled and resolved in a timely 
manner. Moreover, we have also worked very closely with social service 
agencies to ensure that clients receive the needed support services and 
other referrals to agencies/organizations.'' Continued funding is 
needed to ensure victims have access to these needed services.
---------------------------------------------------------------------------
    \16\ See: Farmer, A., & Tiefenthaler, J. (2003). ``Explaining the 
Recent Decline in Domestic Violence,'' Oxford Journals; MacFarlane et 
al., Protection Orders and Intimate Partner Violence: An 18-Month Study 
of 150 Black, Hispanic and White Women.
    \17\ Carter, T. (2004) Pour It On: Activists Cite Rising Need for 
Lawyers to Respond to Domestic Violence, A.B.A. Journal, pg. 73.
---------------------------------------------------------------------------
    Transitional Housing Grants--$25 Million Request.--These grants 
give victims a safe place to begin to rebuild their shattered lives. In 
just 1 day in 2011, 5,275 adults and 8,501 children were housed in 
domestic violence transitional housing programs. On the same day, 
however, 6,714 requests for emergency shelter or transitional housing 
were denied due to a lack of capacity.\18\ The extreme dearth of 
affordable housing produces a situation where many victims of domestic 
violence must return to their abusers because they cannot find long-
term housing,\19\ while others are forced into homelessness.\20\ 
Sustained funding for the Transitional Housing program will allow more 
States and localities to ensure that victims do not have to make these 
unfathomable choices.
---------------------------------------------------------------------------
    \18\ Domestic Violence Counts 2011: A 24-Hour census of domestic 
violence shelters and services across the United States. The National 
Network to End Domestic Violence. (February 2012).
    \19\ Correia, A., Housing and Battered Women: A case study of 
domestic violence programs in Iowa. Harrisburg, PA: National Resource 
Center on Domestic Violence. March, 1999.
    \20\ Charlene K. Baker, Cook, Sarah L., Norris, Fran H., ``Domestic 
Violence and Housing Problems: A Contextual Analysis of Women's Help-
seeking, Received Informal Support, and Formal System Response,'' 
Violence Against Women 9, no. 7 (2003): 754-783.
---------------------------------------------------------------------------
    Remaining VAWA Programs.--To end the intergenerational cycle of 
violence and address the needs of children and youth, we request $12 
million for the consolidated VAWA youth and prevention programs. 
Additionally, we request at least fiscal year 2012 funding levels for 
the remaining VAWA CJS programs.
VOCA Fund Cap--$1 Billion Request
    VOCA, passed in 1984, created the VOCA Fund as a protected source 
of funding for crime victim programs. The Fund does not depend on 
taxpayer dollars--it derives entirely from fines and penalties paid by 
Federal offenders. To ensure a consistent distribution of the Fund to 
victim service providers each year, the Congress set a cap on the Fund, 
saving the amount collected over the cap to ensure its stability. 
Currently, the VOCA Fund has an estimated balance of more than $5 
billion.
    The VOCA fund supports a formula grant to States for victim 
assistance programs, which provide victims with support and services in 
the aftermath of crime. Most domestic and sexual violence programs, 
which are at the heart of the response to victims, rely on continued 
VOCA funding to sustain their programs. With more than 2,000 community-
based domestic violence programs, VOCA provides emergency shelter to 
approximately 300,000 victims, as well as counseling, legal assistance, 
and preventative education to millions of women, men, and children 
annually.\21\ This funding is absolutely crucial to keeping victims and 
their children safe. In order to meet the growing demand for these 
lifesaving services, I urge the subcommittee to release $1 billion 
through the VOCA cap.
---------------------------------------------------------------------------
    \21\ National Coalition Against Domestic Violence, Detailed Shelter 
Surveys (2001).
---------------------------------------------------------------------------
Conclusion
    An increasingly efficient, comprehensive, and life-saving response 
to victims, created and sustained by VAWA, FVPSA, and VOCA funding, has 
made tremendous strides toward preventing and ending domestic and 
sexual violence in this country. However, as these challenging economic 
times take a devastating toll on the ability of shelters and rape 
crisis centers to meet the needs of victims seeking help, victims face 
traumatic and life-threatening situations with no support. We recognize 
the difficult decisions you are faced, but we urge you to invest in 
these life-saving, cost-effective programs that help break the cycle of 
violence, reduce related social ills and save our Nation money now and 
in the future.
                                 ______
                                 
     Prepared Statement of the Natural Science Collections Alliance
    The Natural Science Collections Alliance appreciates the 
opportunity to provide testimony in support of fiscal year 2013 
appropriations for the National Science Foundation (NSF). We encourage 
the Congress to provide NSF with at least $7.373 billion in fiscal year 
2013.
    The Natural Science Collections Alliance is a nonprofit association 
that supports natural science collections, their human resources, the 
institutions that house them, and their research activities for the 
benefit of science and society. We are comprised of more than 100 
institutions which are part of an international community of museums, 
botanical gardens, herbariums, universities, and other institutions 
that house natural science collections and utilize them in research, 
exhibitions, academic and informal science education, and outreach 
activities.
    Federal support for science is an investment in our Nation's 
future. The NSF supports research that creates new knowledge. NSF-
sponsored research also helps to drive innovation and economic growth. 
The agency supports job creation directly by awarding research grants 
to scientists and institutions, and through the acquisition of research 
infrastructure and instrumentation. NSF also trains the next generation 
of researchers and science educators. Collectively, these activities 
provide the foundation for the Nation's research enterprise and 
generate information that ultimately drives economic growth, improves 
human health, addresses energy needs, and enables sustainable 
management of our natural resources.
    The progress of basic scientific research requires a sustained and 
predictable Federal investment. Unpredictable swings in Federal funding 
can disrupt research programs, create uncertainty in the research 
community, and impede the development of solutions to the Nation's most 
pressing problems. NSF's budget request for fiscal year 2013 would 
sustain critical research and education efforts while funding 300 new 
research grants.
    NSF's Biological Sciences Directorate (BIO) is the primary Federal 
supporter of basic biological research. BIO serves a vital role in 
ensuring our Nation's continued leadership in the biological sciences 
by providing about 62 percent of Federal grant support for fundamental 
biological research conducted at our Nation's universities and other 
nonprofit research centers such as natural history museums. BIO's 
support of transformative research has advanced our understanding of 
complex living systems and is leading the way forward in addressing 
major challenges, such as conserving biodiversity, combating invasive 
species, and developing new bio-inspired technologies.
    Equally important, BIO provides essential support for our Nation's 
biological research infrastructure, such as natural science collections 
and university-based natural history museums. These research centers 
enable scientists to study the basic data of life, conduct modern 
biological and environmental research, and provide undergraduate and 
graduate students with hands-on training opportunities. Additionally, 
NSF's Directorate for Geosciences and Office of Polar Programs support 
data and specimen collections that contribute to our understanding of 
the Earth's systems.
Support for Scientific Collections
    Scientific collections play a central role in many fields of 
biological research, including disease ecology, biodiversity, and 
climate change. They also provide critical information about existing 
gaps in our knowledge of life on Earth. Indeed, the Federal Interagency 
Working Group on Scientific Collections recognized this value in their 
2009 report, which found that ``scientific collections are essential to 
supporting agency missions and are thus vital to supporting the global 
research enterprise.''
    We strongly encourage the Congress to support NSF's request for $10 
million to support the digitization of high-priority U.S. specimen 
collections. NSF's investment in digitization would enable the 
scientific community to ensure access to and appropriate curation of 
irreplaceable biological specimens and associated data, and will 
stimulate the development of new computer hardware and software, 
digitization technologies, and database management tools. This effort 
is bringing together biologists, computer science specialists, and 
engineers in multidisciplinary teams to develop innovative imaging, 
robotics, and data storage and retrieval methods. These tools will 
expedite the digitization of collections and contribute to the 
development of new products or services of value to other industries.
    In addition to supporting digitization efforts, NSF supports 
curation and preservation of important biological specimens. We are 
concerned, however, about NSF's proposal to change the Collections in 
Support of Biological Research (CSBR) program from an annual to 
biennial competition. This change would effectively cut in half support 
for preservation and care of our Nation's biological sciences 
collections. In addition to preserving important biological specimens 
for ongoing and future research, CSBR awards are an important source of 
revenue for American-owned companies that specialize in cabinetry and 
supplies used by museums and universities. CSBR awards also directly 
employ researchers and curators and are used to train the next 
generation of biological scientists. Given the current financial strain 
at many museums and universities, CSBR funding is a critical lifeline 
that helps to ensure proper curation of specimens. We urge the Congress 
to restore the proposed funding cut of $4 million and to encourage 
other NSF directorates to join with BIO in providing research support 
to our Nation's natural science collections, which include mineral, 
water and ice, anthropological artifacts, and biological specimens.
Other Programs
    The fiscal year 2013 budget would continue efforts to better 
understand biological diversity. Funding is included for the Dimensions 
of Biodiversity program, which supports cross-disciplinary research to 
describe and understand the scope and role of life on Earth. Despite 
centuries of discovery, most of our planet's biodiversity remains 
unknown. This lack of knowledge is particularly troubling given the 
rapid and permanent loss of global biodiversity. Better understanding 
of life on Earth will help us to protect valuable ecosystem services 
and make new bio-based discoveries in the realms of food, fiber, fuel, 
pharmaceuticals, and bio-inspired innovation.
    The Directorate for Geosciences (GEO) also supports research and 
student training opportunities in natural history collections. GEO 
supports cross-disciplinary research on the interactions between 
Earth's living and nonliving systems--research that has important 
implications for our understanding of water and natural resource 
management, climate change, and biodiversity.
    Within the Directorate for Education and Human Resources, the 
Advancing Informal STEM Learning program is furthering our 
understanding of informal science, technology, engineering, and 
mathematics (STEM) education. This program, formerly called the 
Informal Science Education program, supports projects that create tools 
and resources for STEM educators working outside traditional 
classrooms, such as at museums, botanic gardens, and zoos. The program 
also builds professional capacity for research and development. We urge 
the Congress to restore the proposed 22-percent cut to the program.
Conclusion
    Continued investments in scientific collections and the biological 
sciences are critical. The budget request for NSF will help spur 
economic growth and innovation and continue to build scientific 
capacity at a time when our Nation is at risk of being outpaced by our 
global competitors. Please support an investment of at least $7.373 
billion for NSF for fiscal year 2013.
    Thank you for your thoughtful consideration of this request and for 
your prior support of the National Science Foundation.
                                 ______
                                 
    Prepared Statement of the NSF Task Force of the ASME Technical 
              Communities--Knowledge and Community Sector
      introduction to the american society of mechanical engineers
    Founded in 1880 as the American Society of Mechanical Engineers 
(ASME), ASME is a not-for-profit professional organization that enables 
collaboration, knowledge sharing, and skills development across all 
engineering disciplines, while promoting the vital role of the engineer 
in society. ASME codes and standards, publications, conferences, 
continuing education, and professional development programs provide a 
foundation for advancing technical knowledge and a safer world. ASME 
conducts one of the world's largest technical publishing operations, 
holds more than 30 technical conferences and 200 professional 
development courses each year, and sets some 600 industrial and 
manufacturing standards.
  national science foundation fiscal year 2013 budget request overview
    The National Science Foundation (NSF) Task Force of ASME's 
Knowledge & Community Sector is pleased to comment on NSF's fiscal year 
2013 budget request, in support of this year's proposed funding level 
of $7.37 billion for NSF.
    With its commitment to sponsoring broad-based, cross-cutting 
programs that expand the boundaries of science and engineering, the NSF 
is vital in guiding the Nation's nondefense-related research and 
education. As acknowledged by the administration and the Congress, for 
the United States to remain globally competitive, prosperous, and 
secure, the Nation must support transformative, fundamental research 
that fosters invention and leads to ground-breaking societal advances. 
Such a paradigm produces a high-tech workforce, stimulates economic 
growth, addresses critical national challenges, and sustains our 
Nation's standing as a global leader.
    The total fiscal year 2013 NSF budget request is $7.37 billion, 
representing an increase of 4.8 percent more than the $7.03 billion 
estimate for NSF in fiscal year 2012. While the present budget request 
still places the NSF far behind the goals of the America Creating 
Opportunities to Meaningfully Promote Excellence in Technology, 
Education, and Science (America COMPETES) Act, the NSF Task Force feels 
this is a responsible budget given the current fiscal environment.
    Research and Related Activities comprises the major portion of the 
total NSF request at $5,983 billion, a 5.2-percent increase more than 
the fiscal year 2012 level. All of NSF's research directorates receive 
notable increases in fiscal year 2013. These increases should help the 
Directorates to recover from the post-2004 NSF budget cuts but would 
still not bring total NSF funding to its all-time high 2004 level (in 
fiscal year 2012 adjusted dollars). The resources for the Engineering 
Directorate (ENG) increase by 6.1 percent more than the fiscal year 
2012 level to $876.3 million, of which $165.2 million is budgeted 
through mandate for the Small Business Innovation Research (SBIR) and 
Small Business Technology Transfer (STTR) programs that ENG administers 
for all of NSF.
    ENG comprises the disciplinary-area divisions of Chemical, 
Bioengineering, Environmental, and Transport Systems, up 4.7 percent to 
$179.4 million; Civil, Mechanical and Manufacturing Innovation (CMMI), 
up 6.6 percent to $217 million; and Electrical, Communications and 
Cyber Systems, up 7.1 percent to $114.3 million. Industrial Innovation 
and Partnerships increases 8.7 percent to $210.3 million; Emerging 
Frontiers in Research and Innovation increases 3.2 percent to $32 
million; and Engineering Education and Centers increases 2.7 percent to 
$123.27 million.
    NSF will continue to support research and education efforts related 
to broad, foundation-wide investments. A share of the ENG budget 
(allocated from the constituent divisions), will contribute to these 
initiatives. The following key activities receive increases:
  --Faculty early career development (up 4.9 percent to $216 million);
  --Graduate Research Fellowships (GRF) (up 22.6 percent to $243 
        million); and
  --Research at the Interface of Biological, Math, and Physical 
        Sciences (up 50.9 percent to $30 million).
    Notable reductions include:
  --NSF's Climate Change Research program (a 37.4-percent cut to $6 
        million), and
  --the Networking and Information Technology Research and Development 
        (R&D) program (a 6-percent cut to $1,207.2 million).
    NSF-wide funding for the National Nanotechnology Initiative 
increases by 6.3 percent to $434.9 million for fiscal year 2013. In 
another agency-wide technology program, the administration has proposed 
significant new funding for a cross-cutting advanced manufacturing 
initiative entitled Cyber-enabled Materials, Manufacturing, and Smart 
Systems (CEMMSS), totaling $257 million in fiscal year 2013, an 
increase of 80.9 percent from roughly $142 million in fiscal year 2012. 
Funding for CEMMSS includes $20.8 million in NSF funding for the 
National Robotics Initiative, which partners with National Aeronautics 
and Space Administration, National Institutes of Health (NIH), and 
United States Department of Agriculture to promote U.S. leadership and 
education aimed at next generation robotics.
    Another initiative which the Task Force views as critical to re-
establishing U.S. leadership in clean-energy technology is the Science, 
Engineering, and Education Sustainability (SEES) program. SEES, 
proposed for a 29.2-percent increase to $203 million in fiscal year 
2013, will integrate NSF's climate, energy, and engineering programs to 
increase U.S. energy independence, enhance environmental stewardship 
and reduce energy use and carbon intensity, while generating continued 
economic growth.
     the american society of mechanical engineers-national science 
                     foundationtask force position
Affirmation and Endorsement
    The ASME NSF Task Force highly endorses NSF's crucial function in 
directing basic research and integrated education programs that keep 
America at the vanguard of science, engineering, and technology. NSF 
possesses an exceptional record of comprehensive and flexible support 
of a breadth of research, from ``curiosity-driven'' science to targeted 
initiatives. This achievement has been made possible via strict 
adherence to the independent peer-review process for merit-based 
awards. The proposed increases under the President's fiscal year 2013 
budget should allow NSF to properly sustain and expand these efforts 
and commitments, advancing discovery and learning, spurring innovation, 
and honing the Nation's competitive edge.
    The fiscal year 2013 budget request represents a 4.8-percent 
increase more than fiscal year 2012 funding. Almost all of the total 
increase for NSF is in R&D activity funding, totaling $5.98 billion, an 
increase of 5.6 percent more than fiscal year 2012 funding. Sufficient 
investment in fundamental science and engineering research, that 
involves both established and emerging areas, is essential in 
recognizing and nurturing innovation, in preparing the next generation 
of scientific talent and leaders, and in producing the products, 
processes, and services that improve health, living conditions, 
environmental quality, energy conservation, and national security for 
all Americans.
    Overall, the Task Force also supports and commends activities 
within ENG. NSF's support of ``fundamental research that can contribute 
to addressing national challenges'' is exemplified within ENG. It is 
important to emphasize that it is through such fundamental science and 
engineering investment that the next generation technologies are 
spawned. Examples of successes emanating from ENG include using a 
technique of catalytic fast pyrolysis in a fluidized bed to make green 
gasoline from sawdust and other plant materials. Researchers have 
designed snake robots with sensor-based exploration that maneuver in 
three dimensions and navigate all manners of terrain, building a map to 
establish their location; current applications range from search and 
rescue to minimally invasive heart surgery to archaeological 
exploration. Researchers have developed a new material, with a low-
temperature nonmagnetic phase and a strongly magnetic high-temperature 
phase that is capable of converting heat into electricity, with 
implications in revolutionizing power plant technology.
    NSF leads the U.S. nanotechnology research effort, and ENG is the 
focal point within NSF for this key national research endeavor. ASME 
has strongly supported the National Nanotechnology Initiative (NNI) 
since its inception as an NSF investment area in fiscal year 2000. The 
administration has requested $434.9 million for the NNI in fiscal year 
2013, a 6.3-percent increase. The Task Force strongly supports this 
funding, particularly for investments in activities that will increase 
research in two key areas--nanomanufacturing and environmental health 
and safety.
    Finally, ASME continues to support NSF's vision of ``a nation that 
capitalizes on new concepts in science and engineering and provides 
global leadership in advancing research and education.'' Thus, ASME 
commends the President's expansion of the Faculty Early Career 
Development and the Graduate Research Fellowships programs. Funding for 
the Faculty Early Career Development awards will support exceptionally 
promising college and university junior faculty who are most likely to 
become the academic leaders of the 21st century. The fiscal year 2013 
request provides substantial increases for some of NSF's flagship 
graduate fellowship and traineeship programs, but does not universally 
increase investments:
  --$243 million is provided for the GRF program (an increase of 22.6 
        percent);
  --$52 million (a reduction of 13.6 percent) for the Integrative 
        Graduate Education and Research Traineeship Program; and
  --$27 million for the Graduate Science, Technology, Engineering, and 
        Mathematics (STEM) Fellowships in K-12 Education program (a 
        reduction of 0.2 percent).
    NSF also supports the Research Experiences for Undergraduates 
program at $68 million (an increase of 3.7 percent), the Research 
Experiences for Teachers program at $5 million (-21.6 percent), and the 
Research in Undergraduate Institutions program at $40 million, (the 
same level as last year).
                         questions and concerns
    ASME's key questions and concerns arising from the fiscal year 2013 
budget request center on:
  --the need for sustainable funding for NSF;
  --low-funding success rates for new grants, and low funding levels 
        for existing grants;
  --funding ranking for ENG with respect to other Directorates within 
        NSF; and
  --the need for increased funding for core disciplinary research 
        within ENG.
    NSF is the only Federal agency devoted ``to the support of basic 
research and education across all fields of science and engineering''. 
While comprising only a small percentage of the total Federal budget 
for R&D, NSF provides 22 percent of the Federal support given to 
academic institutions for basic research overall, or 61 percent when 
medical research supported by the NIH is excluded. Moreover, while NSF 
does not directly support medical research, its investments do provide 
the technologies in diagnosis, medicine, pharmaceutical manufacturing, 
and drug delivery that are essential for the medical sciences and 
related industries. Given recent appropriations to provide NSF with 
budget increase despite the long-term fiscal challenges posed by our 
national debt, the ASME NSF Task Force lauds the Congress and the 
administration for their recognition of the unique role that NSF plays 
in the scientific enterprise, and encourages them to provide 
sustainable funding for NSF in fiscal year 2013 for the future 
prosperity of our Nation.
    Although the funding success rate for research grants at NSF has 
increased over the past few years, it is still well below the 30-
percent level of the late 1990s, a trend projected to continue in 
fiscal year 2013. The 2011 funding success rate is estimated at 22 
percent, evincing that budget increase of 1.7 percent in fiscal year 
2012 and the slated budget increase of 4.8 percent for fiscal year 2013 
would still prevent a large number of excellent, meritorious proposals 
from being funded. Nonetheless, even maintaining current grant size and 
duration is not enough. An extended period of constant grant sizes has 
diminished buying power for grants due to inflationary effects, thus 
limiting the ability of grant recipients to adequately support research 
and student development. Note that the bulk of the grants are budgeted 
for graduate student stipend and tuition. Noteworthy, ENG has a funding 
success rate for research grants of 5 percent less than the average for 
other NSF directorates (ENG achieved a 17 percent success rate verses 
approximately 22 percent for NSF-wide in 2011). Moreover, ENG is also 
reduced its average annualized award size to $110,000 in 2011, down 
more than $6,500 from the 2010 level.
    ENG is the single largest source of Federal funding for university-
based, fundamental engineering research--providing 45 percent of the 
total Federal support in this area. However, ENG (less SBIR/STTR) is 
still only fourth in total funding (at $711.1 million) of the six 
Directorates within NSF, despite receiving an increase of 5.7 percent 
in the fiscal year 2012 (excluding SBIR/STTR). Our Nation's long-
standing global prominence in technological innovation may be 
jeopardized if such investments in basic engineering research and 
education are hindered by dearth of Federal funding in engineering.
    The total funding for nonpriority-area core disciplinary research, 
from which new priority areas and even new disciplines are often 
engendered, within ENG should still be scrutinized. Funding for broad, 
Directorate-wide priority areas (e.g., Cyber-enabled Materials, 
Manufacturing, and Smart Systems; Clean-Energy Technology; and National 
Nanotechnology Initiative) and the SBIR/STTR program within ENG 
constitute almost one-half of the budget request for ENG. The Task 
Force does not advocate for the redistribution of monies from 
investment priority-areas into nonpriority core areas, but rather 
provide significant increases for completely flexible core funds in 
order to develop the creative and novel ideas that feed the 
comprehensive fundamental science, engineering, and technology 
knowledge base, which serves to advance this Nation's health, 
prosperity, and welfare, and security.
                               conclusion
    The ASME NSF Task Force urges the Congress to support the 
administration's request at a minimum of $7.37 billion for fiscal year 
2013, and enthusiastically supports the NSF's strategic plan of 
``empower the Nation through discovery and innovation.'' We commend the 
Congress and the administration for their recent support for NSF in the 
fiscal year 2012 appropriations process, but remain concerned that 
inadequate funding will impede those pursuing research oriented careers 
in STEM disciplines.
    We are further concerned the goals of the America COMPETES Act have 
largely fallen off of the national agenda. U.S. investments in science 
and technology have consistently paid back into the economy--generating 
new jobs and new industries--far more than taxpayers have invested. The 
lack of focus on scientific and technological competitiveness is 
particularly worrisome for America's future global competitiveness 
given the continued strong growth in R&D investments around the world. 
The Congress should work to fulfill the goals of the America COMPETES 
Act in order to stimulate our economy with the fruits born from science 
and technology. Sustained yearly increases in the NSF's budget are 
needed for both core disciplinary research and integrated education. 
Increasing award duration would promote a more stable and productive 
environment for learning and discovery. Longer timetables would also 
provide researchers with opportunities to deliver expanded education 
and research experiences to students. We encourage the Congress to make 
available these needed resources for NSF in fiscal year 2013.
                                 ______
                                 
         Prepared Statement of the National Wildlife Federation
    On behalf of the National Wildlife Federation (NWF), our Nation's 
largest conservation advocacy and education organization, and our more 
than 4 million members and supporters, I thank you for the opportunity 
to provide testimony which includes funding recommendations for the 
National Oceanic and Atmospheric Administration (NOAA), the National 
Science Foundation (NSF) and the National Aeronautics and Space 
Administration (NASA). While NWF supports numerous programs under the 
jurisdiction of this subcommittee, including NOAA's Estuary Restoration 
Program, Coastal Zone Management Grants Regional and Coastal Zone 
Management and stewardship; the purpose of this testimony is to 
recommend fiscal year 2013 funding levels (totaling $35.2 million) for 
specific environmental education and climate change education programs 
that we believe are vital to NWF's mission to inspire Americans to 
protect wildlife for our children's future.
    This subcommittee has taken a leadership role in funding 
environmental education and climate change education at the Federal 
level. While we appreciate the subcommittee's leadership, we believe 
that the overall Federal investment in environmental education and 
climate change education programs nationwide--pennies per capita--is 
woefully inadequate. NWF also supports climate change education and 
environmental education programs across the Federal agencies at the 
U.S. Forest Service, Environmental Protection Agency, Department of 
Education, and Department of the Interior.

                       SUMMARY OF RECOMMENDATIONS
                        [In millions of dollars]
------------------------------------------------------------------------
                                                            Fiscal year
Agency               Program                Fiscal year      2013 NWF
                                           2012 enacted   recommendation
------------------------------------------------------------------------
  NOAA Bay Watershed Education and                 7.2             7.2
        Training [B-WET]
  NOAA Environmental Education                     8.0             8.0
        Initiatives, including
        Environmental Literacy Grants
   NSF Climate Change Education                   10.0            10.0
  NASA Climate Change Education                   10.0            10.0
------------------------------------------------------------------------

The Need for Environmental Education
    As our Nation moves toward a clean-energy economy and creates new 
``green jobs'', we must ensure that our education infrastructure keeps 
pace. As is increasingly recognized by business leaders, environmental 
literacy provides critical knowledge that is essential for the success 
of a 21st century workforce--equipping students with the skills to 
understand complex environmental issues, thus enabling them to both 
make better informed decisions as citizens and help find solutions for 
the challenges facing our Nation. Studies have demonstrated that 
environmental literacy is fundamental to improving student achievement 
in STEM (science, technology, engineering, and math) education, to 
creating a stronger economy through green jobs, and to promoting 
environmental stewardship. To be successful as a Nation under a new 
clean-energy economy, we must have an environmentally literate 
citizenry that has the knowledge to find new, innovative solutions to 
protect our planet.
NOAA
            Environmental Literacy Grants
    NWF supports the fiscal year 2012 baseline for NOAA's Environmental 
Literacy Grants and requests $8 million in fiscal year 2013. NOAA's 
Office of Education oversees several Environmental Education 
Initiatives, the largest initiative being the Environmental Literacy 
Grants (ELG) program which helps to establish new partnerships that 
deliver educational materials to thousands of teachers and students. 
The ELG program enables NOAA to partner with the top science centers, 
aquaria, and educators in the country to educate the public about vital 
issues around our changing planet. It also allows NOAA to leverage the 
vast array of climate science being undertaken to increase public 
understanding and the quality of education. These funds are awarded on 
a competitive basis and are increasingly used to build capacity at the 
national and regional levels.
            B-WET Programs
    NWF supports funding NOAA's B-WET program at $7.2 million in fiscal 
year 2013. Administered by NOAA since 2003, the B-WET program offers 
competitive grants to leverage existing environmental education 
programs, foster the growth of new programs, and encourage development 
of partnerships among environmental education programs within watershed 
systems. B-WET's rigorously evaluated programs are implemented by 
region, which allows the unique environmental and social 
characteristics of the region to drive the design of targeted 
activities to improve community understanding, promote teacher 
competency, and enhance student interest and achievement in science. A 
fundamental goal of the program is to demonstrate how the quality of 
the watershed affects the lives of the people who live in it. B-WET 
supports programs for students as well as professional development for 
teachers, while sustaining regional education and environmental 
priorities. B-WET awards have provided environmental education 
opportunities to more than 100,000 students and 10,000 teachers. With 
an increase in funding in fiscal year 2008, B-WET expanded from the 
Chesapeake Bay, California, and Hawaii to also include the Pacific 
Northwest, the northern Gulf of Mexico, and New England. Sustained 
funding of $7.2 million in fiscal year 2013 will enable this successful 
program to continue addressing the needs of some of America's largest 
watersheds.
NASA
            Climate Change Education Grant Program
    NWF supports funding NASA's Climate Change Education Grant Program 
at $10 million in fiscal year 2013. In fiscal year 2008, the Congress 
appropriated funds for the first time to address climate change 
education by providing funding for climate change education grants 
through NASA. In August 2008, NASA announced a Request for Proposals 
for a first-ever competitive grant program seeking applications from 
educational and nonprofit organizations to use NASA's unique 
contributions to climate and Earth system science. The goals of the 
program include:
  --improving the teaching and learning about global climate change in 
        elementary and secondary schools and on college campuses;
  --increasing the number of students using NASA Earth observation 
        data/NASA Earth system models to investigate and analyze global 
        climate change issues;
  --increasing the number of undergraduate students prepared for 
        employment and/or to enter graduate school in technical fields 
        relevant to global climate change; and
  --increasing access to high-quality global climate change education 
        among students from groups historically underrepresented in 
        science.
    NWF recommends that the NASA climate change education program be 
primarily used for grantmaking purposes, and focus not only on 
education about climate science, but also advance education that 
focuses on the connections and relationships between climate change, 
the economy, energy, health, and social well-being.
NSF
            Climate Change Education Grant Program
    The National Wildlife Federation supports funding NSF's Climate 
Change Education (CCE) Grant Program at $10 million in fiscal year 
2013. While public awareness and concern for environmental issues 
continue to rise, the vast majority of the public remains demonstrably 
illiterate about the impact of the environment on their lives and how 
their decisions and actions contribute to it.
    Yet CCE is newly emerging as a field, with few materials, 
curricula, models, standards, or professional development opportunities 
to fill the void. Furthermore, CCE is inherently interdisciplinary; and 
as a result, it often falls through the cracks in traditional science 
education.
    NSF initiated the CCE grant program in fiscal year 2009. This 
program is aimed at improving K-12 to graduate education in climate 
change science and increasing the public's understanding of climate 
change and its consequences. In fiscal year 2012 CCE was appropriated 
$10 million. The Congress should sustain fiscal year 2012 appropriation 
levels in fiscal year 2013 at $10 million to aid in the development of 
the next generation of environmentally engaged scientists and engineers 
by supporting awards in the following areas:
  --increasing public understanding and engagement;
  --development of resources for learning;
  --informing local and national science, technology, engineering, and 
        mathematics (STEM) education policy;
  --preparing a climate science professional workforce; and
  --enhancing informed decisionmaking associated with adaptation to and 
        mitigation of climate change impacts.
    These emerging priorities lie at the intersection of social/
behavioral/economic and Earth system sciences.
                               conclusion
    Providing Federal support for environmental education is a critical 
strategy in securing our new clean-energy future and preparing the next 
generation for the challenges and opportunities ahead. Thank you again 
for providing NWF with the opportunity to provide testimony.
                                 ______
                                 
              Prepared Statement of the Ocean Conservancy
    Thank you for this opportunity to provide Ocean Conservancy's 
recommendations for fiscal year 2013 funding for National Oceanic and 
Atmospheric Administration (NOAA). We urge the Congress to provide an 
overall funding level of $5.3 billion for NOAA in order to fully fund 
the request for NOAA's satellite procurements and restore overall 
funding for ocean and coastal programs to fiscal year 2010 levels. 
Within that total we recommend the following funding levels for the 
following specific programs:

                        [In millions of dollars]
------------------------------------------------------------------------
                                               Fiscal year   Fiscal year
                                 Fiscal year      2013          2013
 Account, program, or activity  2012 enacted   President's   recommended
                                                 budget         level
------------------------------------------------------------------------
Operations research and
 facilities:
    National Ocean Service:
        Regional ocean                   3.5           4.0          10.0
         partnerships.........
        Marine debris.........          4.60      \1\ 3.40          5.25
    National Marine Fisheries
     Service:
        Expand annual stock             63.5          68.6          68.6
         assessments..........
        Fisheries statistics..          23.1          23.5          24.4
    Office of Oceanic and
     Atmospheric Research:
        Integrated ocean                 6.2           6.4          11.6
         acidification........
    Program Support: Office of         182.9         196.2         196.2
     Marine and Aviation
     Operations...............
                               -----------------------------------------
          TOTAL, NOAA.........       4,964.0       5,133.0       5,300.0
------------------------------------------------------------------------
\1\ Proposed funding for Marine Debris in fiscal year 2013 is unclear as
  NOAA has moved the Marine Debris program line into the Habitat
  Conservation and Restoration and merged it with several other
  programs.

    Ocean Conservancy has worked for nearly 40 years to address ocean 
threats through sound, practical policies that protect our ocean and 
improve our lives. We recognize that real leadership means real 
cooperation--between governments, businesses, scientists, policymakers, 
conservation organizations, and citizens. Our focus is on creating 
concrete solutions that lead to lasting change--so we can benefit from 
the ocean for generations to come.
    We simply cannot afford the underfunding of NOAA's ocean and 
coastal programs. NOAA's mission in protecting, restoring, and managing 
our oceans and coasts is vitally important not only to our oceans and 
coasts, but also to our coastal and national economies. In 2009, 
according to the National Ocean Economics Program, coastal tourism and 
recreation contributed more than $61 billion to the Gross Domestic 
Product and accounted for more than 1.8 million jobs. Covering two-
thirds of Earth's surface, the ocean is home to 97 percent of all life. 
Even the air we breathe is connected to a healthy ocean--more than one-
half of the oxygen in the atmosphere is generated by ocean-dwelling 
organisms.
    While we recognize these are tough fiscal times, and the Congress 
is trimming Government budgets across-the-board, NOAA's ocean programs 
have been particularly hard-hit with a nearly 14-percent reduction 
since 2010. With satellite procurement costs continuing to grow, we 
urge the Congress to maintain a balanced portfolio on investments 
across NOAA's missions. Americans shouldn't have to choose between 
forecasting the weather and protecting our ocean. We need both.
    We recommend a total funding level of $5.3 billion for NOAA. This 
funding supports the President's request for the Procurement, 
Acquisition, and Construction account, while restoring funding for the 
Operations Research and Facilities account to fiscal year 2010 funding 
levels. Providing the resources needed to make smart choices for a 
healthy ocean will not just benefit those who live and work along the 
coast, but the American economy and environment as a whole.
    Within the recommended funding of the Operations, Research, and 
Facilities account, Ocean Conservancy would like to highlight the 
following as top priorities for robust funding:
Investments in Fisheries Science and Information
    Expand Annual Stock Assessments, $68.8 million.--Stock assessments 
provide critically needed resources for fisheries managers to assess 
priority fish stocks and implement the requirement for annual catch 
limits (ACLs). The survey and monitoring and stock assessment 
activities funded under this line give fishery managers greater 
confidence that their ACLs will avoid overfishing while providing 
optimal fishing opportunities. Because the information provided by 
stock assessments is so vital to the near-term implementation of ACLs 
and long-term goals for sustainable management of U.S. fisheries, 
increased funding for stock assessments should remain among the highest 
priorities in fiscal year 2013 and beyond. We have turned the corner on 
ending overfishing and the information provided by stock assessments is 
needed to sustain the progress we have made and to continue to improve 
fisheries management for the long-term health of fish and fishermen.
    Fisheries Statistics: Marine Recreational Fisheries Monitoring, 
$24.4 million.--Despite their often sizeable economic and biological 
impacts, much less data are collected from recreational saltwater 
fisheries than commercial fisheries due to the sheer number of 
participants and limited sampling of anglers' catches. Improved 
sampling and timelier reporting of catch data are needed for successful 
management of marine recreational fisheries. NOAA has recently begun to 
implement the new Marine Recreational Information Program (MRIP) with 
the goal of providing better regional monitoring of recreational 
fishing participation, catches, landings, and releases of finfish 
species in marine waters and estuaries for all 50 States and the U.S. 
territories and Commonwealths. Since its inception in 2008, MRIP 
funding has increased to expand the program's capability, but 
significant additional funding is still needed to provide more frequent 
and timely data for more effective in season management of recreational 
fisheries. An increase of $1.3 million more than the fiscal year 2012 
enacted level is needed for MRIP for a funding level of $24.4 million 
for Fisheries Statistics in fiscal year 2013.
    Office of Marine and Aviation Operations (OMAO) Operations and 
Maintenance $196.2 million.--Base funding for NOAA's OMAO supports a 
fleet of 10 Fishery Research Vessels whose primary mission is to 
provide baseline information on fish populations that is critical to 
the development and regular updating of fishery stock assessments for 
the catch-setting process. More than 80 percent of stock assessments 
for species rely on this data. In recent years, however, rising 
operating costs (largely attributable to rising fuel costs) and budget 
constraints have sharply reduced the base-funded days at sea (DAS) for 
NOAA's fleet. The number of base-funded DAS for NOAA's fleet declined 
40 percent between 2006 and 2011 forcing NMFS to spend its program 
funds to ``buy back'' days at sea not covered by OMAO in order to 
maintain its regularly scheduled surveys and collect data that is 
needed to set appropriate catch limits. In order to meet the number of 
DAS needed to collect the data required by managers, we support the 
President's budget request of $196.2 million.
    Regional Ocean Partnership Grants, $10 million.--The Regional Ocean 
Partnership (ROP) grants program provides competitively awarded funds 
to projects that support regional priorities for ocean and coastal 
management and science. Regional approaches continue to be the most 
effective and efficient way to address ocean management challenges. 
Dozens of coastal Governors have come together voluntarily to establish 
ROPs that bring together State and Federal agencies, tribes, local 
governments, and stakeholders to tackle ocean and coastal management 
issues of common concern, such as pollution, habitat restoration, and 
siting offshore energy. While priorities, structures, and methods may 
differ, these partnerships are collectively working toward an improved 
ocean environment and a stronger ocean-related economy for the Nation. 
Competitively awarded grants for ROPs ensure that ocean management is a 
State-driven process where priorities are determined by actual, on-the-
ground needs. Without these competitive grant funds, States and their 
partnerships will be less able to assert local and regional management 
needs, and their ability to leverage the Federal Government's expertise 
and capacity will be weakened.
    While we greatly appreciate the President's budget request for $4 
million for ROP grants, the reality is that $4 million spread across 
the entire Nation's coastal regions falls far short of what State 
partnerships actually need. Without this increase, it is possible that 
some regions and regional entities may receive either no funding or 
only very limited funding. Increased Federal support for ROPs--which 
represent every coastal and Great Lakes State in the continental United 
States--will ensure that funding will reach more regions and strengthen 
more States' ability to foster sustainable use of our oceans, coasts, 
and Great Lakes. For these reasons, we request that the ROP Grants 
line-item within NOAA's National Ocean Service (NOS) be increased to 
$10 million.
    Marine Debris, $5.25 million.--Marine debris has become one of the 
pervasive pollution problems facing the world's oceans, coasts, and 
waterways. Research has demonstrated that persistent debris has serious 
effects on the marine environment, wildlife and the economy. Marine 
debris is its various forms including derelict fishing gear and 
plastics, causes wildlife entanglement, destruction of habitat, and 
ghost fishing. It also presents navigational hazards, causes vessel 
damage, and pollutes coastal areas. The problem of marine debris has 
been growing over the past several decades and natural disasters such 
as the March 2011 Japanese tsunami tragedy can exacerbate an already 
challenging issue. Trash travels and research indicates that tsunami 
debris could impact the Northwestern Hawaiian Islands in the spring of 
2012 and the west coast of the United States in 2013.
    While the quantity of marine debris in our ocean has greatly 
increased, funding for NOAA's Marine Debris Program has remained well 
below the authorized level of $10 million. We were pleased to see an 
additional $600,000 for marine debris removal in 2012, but additional 
resources are needed to ensure NOAA has the capacity to monitor and 
respond to the impacts of debris from the tsunami and other sources. In 
order to sustain current programs and allow NOAA the capacity to 
evaluate, track and clean up the debris from the tsunami which is 
likely to impact U.S. shores, for fiscal year 2013 we request $5.75 
million, $750,000 more than fiscal year 2012 funding levels.
    In addition, the administration has proposed moving the Marine 
Debris Program out of the NOS and into the National Marine Fishery 
Service's (NMFS) Habitat Conservation and Restoration Program. We have 
significant concerns with this proposal. When the Congress passed the 
Marine Debris Act of 2006, the Marine Debris Program was deliberately 
placed within NOS. The program's role includes conducting scientific 
research, addressing navigational hazards, identifying the economic 
impacts of debris, and preparing and responding to marine debris 
events. If placed under the umbrella of NMFS's Habitat Conservation and 
Restoration Program, the effort and the scope Marine Debris Program 
could be restricted. Working closely with NOS's Office of Response and 
Restoration's (ORR) emergency division, the program has collaborated on 
tsunami debris response through modeling, assessment, and preparation. 
At a time when the potential impacts of the tsunami are unknown, it 
seems a close connect between ORR and the Marine Debris Program should 
be a priority.
    Integrated Ocean Acidification Program, $11.6 million.--In recent 
years, scientists have raised the alarm about ocean acidification--a 
process whereby ocean waters' absorption of carbon dioxide emissions 
alters marine acidity. Over the last 250 years, oceans have absorbed 
530 billion tons of carbon dioxide, triggering a 30-percent increase in 
ocean acidity. These changes can have far-reaching consequences for 
marine life, including economically important species like shellfish 
and corals. For example, the shellfish industry in the Pacific 
Northwest has been devastated in recent years as more acidic waters 
encroached upon important oyster hatcheries, nearly wiping out several 
years-worth of oyster ``seed''.
    Recognizing the dire need for better understanding of this emerging 
economic threat, in early 2009 Congress passed and enacted the Federal 
Ocean Acidification Research and Monitoring (FOARAM) Act. Under FOARAM, 
the Congress instructed NOAA to establish an ocean acidification 
program to coordinate research, establish a monitoring program, develop 
adaptation strategies, and provide critical research grants to improve 
the understanding of ocean acidification's ecological and socioeconomic 
impacts. Because economic impacts like those seen in the shellfish 
industry are on the leading edge of what will be a growing problem, 
adequate funding for this line item is critical to fulfill the 
Congress' directives and build the scientific foundation needed to 
protect vulnerable industries from ocean acidification.
    While the President's budget requests $6.4 million for Integrated 
Ocean Acidification for fiscal year 2013, we believe that the 
President's fiscal year 2012 request of $11.6 million is far more 
reflective of the actual on-the-ground needs. As stated in the 
President's fiscal year 2012 NOAA congressional budget justification, 
funding at the $11.6 million level will allow NOAA to develop more 
cost-efficient acidification sensors for monitoring; conduct an 
assessment of acidification effects on commercial and recreational 
marine fish stocks; and create a Coral Reef Ocean Acidification 
Observing Network. By increasing the programmatic funding for 
Integrated Ocean Acidification to this level, NOAA will be able to take 
these concrete actions to more effectively tackle the economic, on-the-
ground implications of ocean acidification and prepare more effectively 
for future adaptation strategies that will protect our Nation's key 
ocean and coastal economic assets.
                                 ______
                                 
  Letter From Richard M. Whitman, Natural Resources Policy Director, 
                        Oregon Governor's Office
                                                    March 20, 2012.
The Hon. Barbara Mikulski, Chairwoman,
Subcommittee on Commerce, Justice, Science, and Related Agencies, 
        Committee on Appropriations, United States Senate, Washington, 
        DC.
The Hon. Kay Bailey Hutchison, Ranking Member
Subcommittee on Commerce, Justice, Science, and Related Agencies, 
        Committee on Appropriations, United States Senate, Washington, 
        DC.
    Dear Chairwoman Mikulski and Senator Hutchison: The Governor of 
Oregon is committed to working together with California and Washington 
to improve ocean health off the west coast. In 2008, our then Governor 
Kulongoski released the action plan for the West Coast Governors 
Alliance on Ocean Heath, together with the Governors of California and 
Washington. As recommended by both the U.S. Commission on Ocean Policy 
and the Pew Oceans Commission, the action plan uses a collaborative 
approach to address some of our region's most pressing ocean and 
coastal management challenges, such as preparing coastal communities 
for the effects of sea level rise.
    The purpose of this letter is to request support for $10 million in 
the fiscal year 2013 budget for the nine regional ocean partnerships in 
the United States. These grants will provide essential support for the 
development and implementation of action plans within each region. 
Additionally, I request appropriation language stating that 10 percent 
of the total funding be divided equally to existing partnerships for 
operations support, and that the remaining funding broadly support the 
development and implementation of regional priorities as determined by 
the partnerships through competitive solicitations.
    The alliance affirms our commitment to work together on seven 
priority issues:
  --Ensuring clean coastal waters and beaches;
  --Protecting and restoring healthy ocean and coastal habitats;
  --Promoting the effective implementation of ecosystem-based 
        management of our ocean and coastal resources;
  --Reducing adverse impacts of offshore development;
  --Increasing ocean awareness and literacy among our residents;
  --Expanding ocean and coastal scientific information, research, and 
        monitoring; and
  --Fostering sustainable economic development throughout our diverse 
        coastal communities.
    Regional approaches can advance Federal interests in ocean 
management through coordination with other levels of government by 
providing direct resources to address the unique needs of a region, as 
well as integrated, efficient, and effective management of ocean 
resources.
    The plan advances key priorities of the National Ocean Policy in 
areas such as water quality, ocean and coastal research and mapping, 
coastal pollution, and habitat protection and restoration. The West 
Coast Governors Alliance works closely with representatives of the 
National Oceanic and Atmospheric Administration, the Environmental 
Protection Agency, and the Department of the Interior to implement the 
regional action plan, and will continue to collaborate with the 
interagency Subcommittee on Integrated Management of Ocean Resources.
    Our request to support funding for regional ocean partnerships in 
the fiscal year 2013 budget will help the region, and regional ocean 
partnerships throughout the United States, implement effective regional 
ocean governance to the benefit of coastal communities and all who 
benefit from healthy coasts and oceans.
    Thank you for considering this request to support $10 million in 
fiscal year 2013 funding for the regional ocean partnerships in the 
United States. This level of funding will help the West Coast Governors 
Alliance on Ocean Health implement its actions plan, and will improve 
the economic and environmental health of both the west coast and the 
Nation.
            Sincerely,
                                Richard M. Whitman,
                         Natural Resources Policy Director,
                                          Oregon Governor's Office.
                                 ______
                                 
 Prepared Statement of the United States Section of the Pacific Salmon 
                               Commission
    Mr. Chairman, my name is W. Ron Allen, and I serve as a 
Commissioner on the United States Section of Pacific Salmon Commission 
(PSC). The PSC was established in 1985 to oversee implementation of the 
Pacific Salmon Treaty (Treaty) between the United States and Canada. In 
May 2008, the PSC concluded bilateral negotiations that developed 
revised 10-year salmon fishing regimes to replace regimes that were 
expiring at the end of 2008. The provisions of the new fisheries 
agreements were approved by the United States and Canadian Federal 
governments and are being implemented for the 2009-2018 period. The 
U.S. Section is requesting that the Congress includes funding in the 
fiscal year 2013 National Marine Fisheries Service (NMFS) budget for 
the Pacific Salmon Treaty at $9,708,000 and the Chinook Salmon 
Agreement at $1,844,000.
    The implementation of the Treaty is funded through the Departments 
of Commerce, the Interior, and State. The Department of Commerce funds 
implementation of the Treaty as line items under Salmon Management 
Activities. The funding for Salmon Management Activities in the 
President's fiscal year 2013 budget is similar to previous years. 
However, the line item breakout within Salmon Management Activities was 
not made available to us.
    The U.S. Section recommends that the Congress:
  --Fund the Pacific Salmon Treaty line item of NMFS at $9,708,000 for 
        fiscal year 2013 an increase in funding compared to $5,600,000 
        in recent-year budgets. This funding provides support for the 
        States of Alaska, Washington, Oregon, and Idaho and the NMFS to 
        conduct the salmon stock assessment and fishery management 
        programs required to implement the Treaty's conservation and 
        allocation provisions for Coho, Sockeye, Chinook, Chum, and 
        Pink salmon fisheries. Included within the total amount of 
        $9,708,000 is $400,000 to continue a joint Trans-boundary River 
        Salmon Enhancement Program as required by the Treaty.
  --Fund the Pacific Salmon Treaty Chinook Salmon Agreement line item 
        of NMFS for fiscal year 2013 at $1,844,000, level funding from 
        what has been provided by the Congress in recent years. This 
        funding is necessary to acquire the technical information to 
        fully implement the abundance-based Chinook salmon management 
        program provided for under the Treaty.
    The funding identified above is for ongoing annual programs and 
does not include new funding specifically needed for full application 
of the revised agreement for 2009-2018 that was negotiated by the PSC 
and accepted by the governments of the United States and Canada on 
December 23, 2008. Funding for implementing the revised treaty 
arrangements was part of NMFS fiscal year 2012 budget, and the U.S. PSC 
Commissioners recommend that it be continued in the fiscal year 2013 
Federal budget.
    The base Treaty implementation projects included in the Pacific 
Salmon Treaty line item consist of a wide range of stock assessment, 
fishery monitoring, and technical support activities for all five 
species of Pacific salmon in the fisheries and rivers from southeast 
Alaska to Washington, Oregon, and Idaho. The States of Alaska, 
Washington, Oregon, Idaho, the Federal NMFS, and the 24 treaty tribes 
of Washington and Oregon are charged with conducting the salmon fishery 
stock assessment and harvest management actions required under the 
Treaty. Federal funding for these activities is provided through NMFS 
on an annual basis.
    The agency projects carried out under PSC funding are directed 
toward acquiring, analyzing, and sharing the information required to 
implement the salmon conservation and sharing principles of the Treaty. 
A wide range of programs for salmon stock size assessments, escapement 
enumeration, stock distribution, and catch and effort information 
collection from fisheries are represented. The information from many of 
these programs is used directly to establish fishing seasons, harvest 
levels, and accountability to the provisions of Treaty fishing regimes.
    The base Treaty implementation funding of approximately $5.6 
million budget has essentially remained at this low level since the 
early 1990s. Since that time, the growing complexity of conservation-
based, and Endangered Species Act compliant fishing regimes has 
required vastly more stock assessment, fishery compliance monitoring, 
and technical support activities. In order to continue to fulfill the 
Federal commitments created by Pacific Salmon Treaty, the States have 
had to augment Federal funding with other Federal and State support. 
For example, additional sources of funding have included Federal 
Anadromous Fish Grants, Federal Pacific Coast Salmon Recovery Funds 
(PCSRF), Federal Dingell-Johnson dollars, and State general funds. 
However, alternative sources for funding have been reduced or 
eliminated with the Anadromous Fish Grants eliminated in the Federal 
fiscal year 2010 budget, use of PCSRF monies constrained in fiscal year 
2010 by new appropriations language and further constrained in 2012 by 
the NMFS, and State dollars and Dingell-Johnson grants cut 
significantly during the current economic downturn.
    The economic impact of commercial and sport fisheries has been 
measured by the U.S. Fish and Wildlife Service at approximately $2-$3 
billion per year to the States involved in the PST. To continue to 
implement the Federal PST conservation-based fishing regimes that 
contribute to the sustainability of salmon stocks and the large 
economic return to the States, the U.S. PSC members recommend an 
increase in base treaty implementation funding from the current $5.6 
million to $9,708,000.
    Effective, science-based implementation of negotiated salmon 
fishing arrangements and abundance-based management approaches for 
Chinook, southern Coho, Northern Boundary and Trans-boundary River 
salmon fisheries includes efforts such as increased annual tagging and 
tag recovery operations and application of other emerging stock 
identification techniques. The U.S. PSC members recommend that 
$9,708,000 be provided for the NMFS Pacific Salmon Treaty line item in 
fiscal year 2013 for the States for Treaty technical support 
activities. The $400,000 that has been provided in the separate 
International Fisheries Commissions line item since 1988 for a joint 
Trans-boundary River enhancement program with Canada is now included in 
this amount. The recommended amount for the combined projects 
represents an approximate increase of $4,108,000 more than the amount 
appropriated for fiscal year 2012.
    Beginning in fiscal year 1998, the Congress provided $1,844,000 to 
allow for the collection of necessary stock assessment and fishery 
management information to implement a new abundance-based management 
approach for Chinook salmon coast-wide in the Treaty area. Through a 
rigorous competitive technical review process for project approval, the 
States of Alaska, Washington, Oregon, and Idaho, and the 24 treaty 
tribes use the funding to support research and data collection needed 
for abundance-based Chinook management. The U.S. Section recommends 
level funding of $1,844,000 for fiscal year 2013 to support the 
abundance-based Chinook salmon management program.
    The United States and Canada agreed in 1988 to a joint salmon 
enhancement program on the Trans-boundary Rivers, which are rivers 
rising in Canada and flowing to the sea through Southeast Alaska. Since 
1989, the Congress has provided $400,000 annually for this effort 
through the NMFS International Fisheries Commission line item under the 
Conservation and Management Operations activity. Canada provides an 
equal amount of funding and support for this bilateral program. The 
funding for the U.S. share is included in the $9,708,000 the U.S. 
Section is recommending for the fiscal year 2013 NMFS Pacific Salmon 
Treaty line item.
    This concludes the statement of the U.S. Section of the PSC 
submitted for consideration by your subcommittee. We wish to thank the 
subcommittee for the support that it has given us in the past. I will 
be pleased to answer any questions of the committee members.

                      SUMMARY OF PROGRAM FUNDING FOR THE U.S.-CANADA PACIFIC SALMON TREATY
----------------------------------------------------------------------------------------------------------------
                                                                                                    Fiscal year
                                                                    Fiscal year     Fiscal year      2013 U.S.
                                                                       2010            2011           Section
                                                                   appropriation   appropriation  recommendation
----------------------------------------------------------------------------------------------------------------
Department of Commerce:
    Pacific Salmon Treaty line item.............................      $5,610,000      $5,600,000  \1\ $9,708,000
    Pacific Salmon Treaty--Chinook Salmon Agreement line item...       1,844,000       1,844,000       1,844,000
----------------------------------------------------------------------------------------------------------------
\1\ The recommended fiscal year 2013 amount includes $400,000 provided for the Joint Trans-boundary River
  Enhancement Program currently funded under the NMFS International Fisheries Commission account.

    Thank you for this opportunity to share the fiscal year 2013 budget 
requests of the Pacific Salmon Commission.
                                 ______
                                 
  Prepared Statement of the Pacific States Marine Fisheries Commission
    The following testimony is being submitted in response to the 
administration's proposal to terminate funding for the Inter 
Jurisdictional Fisheries Act (IJFA) Grants to States, a longstanding 
line item account within the National Marine Fisheries Service budget. 
In addition to the fiscal year 2013 proposed termination, the 
administration has zeroed out the IJFA Grants program for fiscal year 
2012 as part of its spend plan, although the Congress appropriated 
$1,157,000 for this year.
    Traditional funding levels for the IJFA have been roughly $2.5 
million annually. These grants serve to support the conservation and 
management of fish species which occur in both Federal and State 
waters. For the west coast, the funding is used to support conservation 
and management tasks not currently being undertaken by National Oceanic 
and Atmospheric Administration (NOAA) or the Regional Fishery 
Management Councils. IJFA is a dollar-for-dollar matching program. The 
States and the Interstate Marine Fisheries Commissions have considered 
this program to be a cornerstone in the Federal-State fishery 
management partnership. The administration's decision to terminate this 
program effectively nullifies this partnership.
    Set forth below is an explanation of how the States of Alaska, 
Washington, Oregon, Idaho, California, and the Pacific States Marine 
Fisheries Commission (PSMFC) use IJFA matching grants. If the program 
funding is terminated, these activities will cease as well or NOAA will 
be required to allocate internal resources for their continuation.
  uses of inter jurisdictional fisheries act funds by the west coast 
         states and pacific states marine fisheries commission
    Washington and Oregon use the majority of their IJFA funds for 
groundfish data collection and analysis activities that directly 
support the implementation of Pacific Coast Groundfish Fishery 
Management Plan.
    In addition, a portion of these funds directly support the cost of 
yelloweye rockfish surveys using remotely operated vehicles, yellow 
rockfish longline surveys, and nearshore rockfish tagging projects 
providing the essential charter boat rental, equipment/gear, data 
processing, and salary for technicians involved in coastal. A portion 
of the funds support management of Oregon's Pink Shrimp Fishery. Ocean 
shrimp are an interjurisdictional fishery found on the west coast. 
Resource management of shrimp requires monitoring and sampling of 
fishery catches and logbooks. IJFA funds directly support biologists in 
monitoring, sampling, and management coordination of the shrimp 
fishery.
    In California IJFA funds support the coastal pelagic species 
program. Pacific Sardines, Pacific Mackerel, and Jack Mackerel account 
for nearly 86,000 tons of commercial catch in California.
    Field personnel funded by IJFA funds monitor daily landings of 
Pacific Sardine and Pacific Mackerel made to major commercial fish 
dealers and processors. Data from samples are used to determine the 
composition of the catch from which estimates of population size 
determine recommended harvest amounts for adoption by the Pacific 
Fishery Management Council.
    Field biologist and temporary help staff are also funded by IJFA 
funds to participate in at-sea cruises designed to collect fishing 
independent information on the status of coastal pelagic species. These 
fishery independent data are also used as part of sock assessment 
efforts to determine allowable harvest levels.
    In Idaho IJFA funds support field biologists in carrying out 
activities to determine the abundance and migratory patterns of 
steelhead returning to the Snake River. This information is a critical 
component to setting management, harvest, and escapement levels 
conforming to United States vs. Oregon and United States-Canadian 
Treaty obligations.
    In Alaska, IJFA funds support salmon research activities in 
southeast Alaska. The funds have been used to complete four subprojects 
including Pink and Chum Salmon stock evaluations, Coho Salmon spawning 
research, salmon catch sampling, and troll fishery management methods 
research.
    IJFA funds are used by PSMFC to coordinate the Tri-State Dungeness 
Crab Fishery. This is the largest economic fishery in the west coast 
and seasons are managed on an Interjurisdictional fishery basis. 
Without IJFA funding of meetings and workshops would not be possible 
and State management of Dungeness Crab could become a Federal 
responsibility.
    In addition PSMFC has used IJFA funds to establish a new initiative 
to support and encourage increased scientific and conservation for 
coastal cutthroat trout (CCT) throughout their geographic distribution 
(from California to Alaska). The effort includes nine State, Federal, 
tribal, and provincial partner agencies. This IJFA funded range-wide 
initiative is important because it helps coordinate activities for fish 
species that is typically underfunded. It is necessary because the 
trout has a complex regulatory history, for example, it is currently 
listed as a sensitive species by many of our partner agencies, and was 
listed as threatened under the Endangered Species Act (ESA). Finally, 
these trout hold a unique place in the angling world as it is 1 of 2 
sea-going trout in Western North America. The PSMFC initiative has 
resulted in two technical workshops and a national symposium, a framing 
document that outlines the needs and broad-scale priority actions for 
CCT, a status assessment in collaboration with the Western Native Trout 
Initiative, and an ambitious and successful data gathering project.
    Since 1991, IJFA funds have been used by the PSMFC to sponsor 
biennial west coast workshops on steelhead management. Topics for these 
workshops include stock status, ESA activities, life histories of 
steelhead, life histories and historical abundance of steelhead, and 
technology applications for steelhead studies. This unique forum allows 
steelhead managers and researchers on a coastwide basis (United States 
and Canada, including Alaska and Idaho) to discuss common problems and 
to share insights into possible solutions.
    IJFA funds also support the Technical Subcommittee (TSC) of the 
Canada-U.S. Groundfish Committee, which has met at least annually since 
1960. The purposes of the TCS are to:
  --Exchange information on the status of groundfish stocks of mutual 
        concern and coordinate, whenever possible, desirable programs 
        of research.
  --Recommend the continuance and further development of research 
        programs having potential value as scientific basis for future 
        management of the groundfish fishery.
  --Review the scientific and technical aspects of existing or proposed 
        management strategies and their component regulations relevant 
        to conservation of stocks or other scientific aspects of 
        groundfish conservation and management of mutual interest.
  --Transmit approved recommendations and appropriate documentation to 
        appropriate sectors of Canadian and U.S. governments and 
        encourage implementation of these recommendations.
    IJFA funds support PSMFC staff for habitat conservation and marine 
debris abatement work through participation in three primary 
Interjurisdictional forums:
  --the Pacific Fishery Management Council's (Council) Habitat 
        Committee;
  --the West Coast Governor's Agreement on Ocean Health marine debris 
        action coordination team; and
  --the Pacific Marine Estuarine Fish Habitat Partnership.
    Work regarding climate change strategies and planning for the 
Pacific Northwest was also pursued. IJFA project funding allowed PSMFC 
to play active roles in preparing for, participating in, and doing 
follow-work for the Council Habitat Committee and serving as the vice 
chair of that committee. This committee advised the Council on 
conservation and resource topics that influence habitat productivity. 
These include duties mandated by the Federal Magnuson-Stevens Fishery 
Conservation and Management Act (Public Law 94-265) to comment on 
significant issues that affect salmon productivity. Additionally, 
Essential Fish Habitat, climate change and ecosystem-based fishery 
management and topics regarding water issues, are frequently a part of 
its agenda.
    Since 1999 the PSMFC's Aquatic Invasive Species (AIS) Program (with 
the support of IJ funds) has worked to prevent and/or minimize impacts 
of AIS, particularly those species that affect fisheries and the 
habitat upon which those fisheries depend. The program elements include 
eradication, research, monitoring, educational outreach, 
interjurisdictional planning, and coordination.
    IJFA funds are critical and providing support for the AIS program 
particularly in the past 5 years as west coast steelhead and salmon 
waterbodies are being threatened by quagga and zebra mussels. Zebra and 
quagga mussels are some of the economically damaging aquatic organisms 
to invade the United States. The destructive powers of these prolific 
mollusks lies in their sheer numbers and their ability to biofoul and 
restrict the flow of water through intake pipes, disrupting supplies of 
drinking, cooling, processing, and irrigating water to the Nation's 
domestic infrastructure.
    A quagga/zebra mussel infestation in any of these salmonbearing 
watersheds would be a disastrous step backward for the recovery of 
these imperiled species and has heightened the urgency of management 
initiatives to halt further range expansion.
                                 ______
                                 
 Prepared Statement of the Regional Information Sharing Systems Program
    The Regional Information Sharing Systems (RISS) is a proven, 
trusted, and innovative program that supports local, State, Federal, 
and tribal criminal justice agencies in their effort to successfully 
resolve criminal investigations and ensure officer safety. There is no 
other program in existence through which officers can receive the level 
of support that RISS provides. Although the demand for RISS's services 
grows each year, the fiscal year 2012 appropriation for RISS was 
severely decreased from the fiscal year 2011 appropriation of $45 
million to $27 million. RISS and law enforcement agencies nationwide 
have already felt the effects of this $18 million reduction. On behalf 
of the hundreds of thousands of officers and public safety 
professionals RISS serves, we urge you to restore fiscal year 2013 RISS 
funding to $45 million.
    RISS has spent nearly 40 years building a valuable and cost-
effective program that is used and trusted by officers and criminal 
justice professionals in all 50 States, the District of Columbia, U.S. 
territories, Australia, Canada, England, and New Zealand. RISS consists 
of six regional centers that tailor their services to meet the needs of 
their unique regions while working together on nationwide initiatives. 
RISS supports efforts against organized and violent crime, gang 
activity, drug activity, terrorism, human trafficking, identity theft, 
and other regional priorities, while promoting officer safety. The 
support provided by RISS has enabled law enforcement and public safety 
agencies to increase their success exponentially.
    RISS offers law enforcement agencies and officers full-service 
delivery, from the beginning of an investigation to the ultimate 
prosecution and conviction of criminals. An officer can query 
intelligence databases, retrieve information from investigative 
systems, solicit assistance from research staff, utilize surveillance 
equipment, receive training, and use analytical staff to help prosecute 
criminals. Law enforcement agencies and officers rely on RISS for its 
diverse and far-reaching services and programs. Without access to these 
services, thousands of law enforcement agencies and hundreds of 
investigations will suffer.
    RISS has been at the forefront in providing resources to enhance 
officer safety. More than 19,000 law enforcement officers have died 
serving our Nation. The RISS Officer Safety Event Deconfliction System 
(RISSafe) is an essential component to helping ensure that our officers 
are safe. RISSafe stores and maintains data on planned law enforcement 
events, with the goal of identifying and alerting affected agencies and 
officers of potential conflicts impacting law enforcement efforts. 
RISSafe is the only comprehensive and nationwide deconfliction system 
that is accessible on a 24/7/365 basis and available to all law 
enforcement agencies.
    Since RISSafe's inception in 2008, more than 456,800 operations 
have been entered. Of those operations, 32.5 percent, or 148,646, have 
resulted in an identified conflict. Currently, 19 RISSafe Watch Centers 
are operational, 13 of which are operated by organizations other than 
RISS. These organizations have invested resources to support this 
critical officer safety program. Many agencies have adopted internal 
policies mandating the use of RISSafe. RISSafe continues to proliferate 
throughout the country, with demand increasing each day. It is 
impossible to put a cost to the number of officers RISSafe has already 
prevented from harm or, worse, death.
    The RISS Officer Safety Web site was deployed in March 2011 and has 
been visited more than 13,000 times. The Web site serves as a 
nationwide repository for issues related to officer safety, such as 
concealments, hidden weapons, armed and dangerous threats, videos, 
special reports, and training. RISSafe and the RISS Officer Safety Web 
site are two important components of the U.S. Attorney General's Law 
Enforcement Officer Safety Initiative, along with VALOR and the 
Bulletproof Vest Initiative. Efforts are underway to bidirectionally 
interconnect the secure VALOR Web site with the RISS Officer Safety Web 
site. RISS also provides officer safety training and develops and 
distributes publications about emerging threats, such as the Sovereign 
Citizens Movement special research report. With more than 800,000 law 
enforcement officers across the country, more support to ensure their 
safety is essential.
    RISS provides a full complement of investigative support services, 
including analysis, investigative and research support, equipment, 
training, publications development, field services support, and 
technical assistance. Since 2000, RISS has assisted in training more 
than 668,000 individuals, conducted more than 326,000 on-site visits, 
loaned almost 57,000 pieces of equipment, and produced more than 
290,000 analytical products. These statistics show how RISS is 
impacting law enforcement efforts, but the real success stories come 
directly from agencies and officers. For example, RISS staff provided 
support in a child pornography case involving digital forensics 
analysis. The collection of pornography discovered was one of the 
largest, with more than 100,000 images. With RISS's help, the case led 
to an 18-year sentence.
    On January 8, 2011, United States Representative Gabrielle Giffords 
hosted a ``Congress on Your Corner'' gathering in Tucson, Arizona, to 
talk with her constituents. As the event began, a gunman entered the 
crowd and shot Representative Giffords. The gunman turned on the crowd, 
killing 6 individuals and seriously wounding 12 others. The shooting 
was recorded on video by a store security camera. There was an urgent 
need to locate an audio/video analyst to clarify the still photos taken 
from the video surveillance to determine whether an accomplice was at 
large. RISS was contacted to assist in this effort. The results of the 
RISS analyst's work enabled law enforcement to close a potential lead, 
saving valuable law enforcement time and resources.
    The same types of successes are happening in jurisdictions across 
the country. Since 2000, agencies utilizing RISS's services and 
resources made more than 57,360 arrests and seized more than $942.5 
million in narcotics, property, and currency. RISS is an excellent 
return on investment for our country. All law enforcement and public 
safety entities are facing tightened budgets and limited resources. 
RISS helps augment law enforcement efforts. A Pennsylvania police 
officer said, ``RISS offers services and support that law enforcement 
cannot obtain anywhere else. Analytical products, equipment loans, and 
training are important tools for law enforcement. Connectivity to 
RISSNET is absolutely critical to solving multijurisdictional crimes.''
    Historically, law enforcement agencies have faced obstacles related 
to information sharing, communications, and technology. Many problems 
stemmed from the fact that although these agencies individually held 
pieces of information, they lacked a mechanism to securely collect and 
exchange information. Consequently, law enforcement's response to 
criminal activity was often fragmented, duplicative, and limited. Since 
the inception of the RISSNET in 1997; however, many of these obstacles 
have been resolved. RISSNET is a secure Sensitive But Unclassified 
(SBU) law enforcement information sharing cloud provider. RISSNET 
provides access to millions of pieces of data; offers bidirectional 
information sharing; and connects disparate State, local, and Federal 
systems. Agencies can easily connect to RISSNET, securely share 
information and intelligence, and query multiple systems 
simultaneously.
    Our Nation's public safety mission requires an interoperable 
information-sharing environment to proactively solve crimes. RISSNET is 
a critical component in meeting this need. RISSNET also serves as the 
secure communications infrastructure for other critical resources and 
investigative tools. Currently, 86 systems are connected or pending 
connection to RISSNET and more than 400 resources are available via 
RISSNET to authorized users; the owners of these resources rely on 
RISSNET for its secure infrastructure. By connecting agencies and 
systems to RISSNET, rather than funding the build-out of new stand-
alone systems, hundreds of millions of dollars are saved and millions 
of data records are easily and quickly accessible by law enforcement. 
Examples of RISSNET resources include the RISS Criminal Intelligence 
Databases (RISSIntel), RISSafe, the RISS National Gang Program 
(RISSGang), the RISS Automated Trusted Information Exchange (ATIX), the 
RISSLeads Investigative Bulletin Board, the RISSLinks data-
visualization and link-analysis tool, the RISS Center Web sites, and 
secure email.
    The RISSIntel user interface provides for real-time, online 
federated search of 15 RISS partner intelligence databases, including 
State systems and CalGang, and does not require the RISSNET user to 
have a separate user account with the respective partner systems. In 
fiscal year 2011, RISSIntel contained more than 3.1 million 
intelligence records and users made almost 4 million inquiries. These 
records include individuals, organizations, and associates suspected of 
involvement in criminal activity, as well as locations, vehicles, 
weapons, and telephone numbers. The interaction between RISSafe and 
RISSIntel provides comprehensive officer safety event and subject 
deconfliction services.
    RISSGang is the only comprehensive gang resource that offers a 
criminal intelligence database, a Web site, a secure bulletin board, 
and specific news and publications. The RISSGang database provides 
access to gang information, including suspects, organizations, weapons, 
photographs, and graffiti. RISSGang provides for a federated search, 
including CalGang. RISS is connecting other gang databases to RISSNET. 
RISS ATIX is a communications and information sharing capability that 
enables law enforcement, public safety, and private sector entities to 
share terrorism and homeland security information in a secure, real-
time environment. RISS ATIX includes discipline-specific Web pages, a 
secure bulletin board, document library, and email.
    RISSLeads provides authorized law enforcement officers with the 
ability to post information regarding cases, investigative leads, or 
other law enforcement issues. Authorized users are able to view and 
respond to posts. Connecting law enforcement officers across 
jurisdictional boundaries is crucial in detecting and apprehending 
today's mobile and sophisticated criminals.
    Each RISS Center maintains a Web site to provide users with easy 
access to RISSIntel and other resources, such as the National Railroad 
Trespasser Database, the Cold Case Database, the Forensic Accounting 
Database, and the Pseudoephedrine Violator Tracking System. Because of 
demand from agencies and officers, RISS has expanded its Pawnshop 
Database nationwide. The number of investigative records available 
through these different systems exceeds 28 million.
    RISSNET is 1 of 4 SBU networks participating in the Assured SBU 
Interoperability Initiative under the auspices of the White House and 
the Office of the Program Manager, Information Sharing Environment (PM-
ISE). The goal is to provide simplified sign-on and access to a variety 
of system-to-system enhancements within an interoperable and protected 
SBU environment for local, State, Federal, and tribal law enforcement, 
regardless of agency ownership of the individual network. RISS is the 
only non-Federal partner providing the critical State, local, and 
tribal law enforcement piece essential to the Nation's information 
sharing environment. RISS is at the forefront in providing federated 
access and simplified sign-on. The Federal Bureau of Investigation Law 
Enforcement Online users, the Chicago Police Department users, and the 
Pennsylvania Justice Network users access RISSNET resources via 
Federated Identity.
    RISS continuously seeks and is sought out by others to enable new 
information sharing partnerships that leverage its secure SBU 
information sharing capabilities. Most recently, several State Medicaid 
Fraud Control Units (MFCUs) began pursuing the use of RISSNET to 
securely share information, strategies, best practices, lessons 
learned, and other information to help in their detection and 
prosecution efforts. Ultimately, this project has the potential to 
support Medicare and other healthcare fraud investigations and 
information sharing efforts. In addition, RISS supports the Nationwide 
Suspicious Activity Reporting Initiative, the National Virtual Pointer 
System, the National Center for Missing & Exploited Children, the 
National Gang Intelligence Center, the United States Secret Service, 
and the United States Attorneys' Offices. RISS continues to connect 
fusion centers to RISSNET, integrate RISS services and tools into 
fusion center operations, and provide training. RISS is supported by 
the International Association of Chiefs of Police, the National 
Sheriffs' Association, the National Narcotic Officers' Associations' 
Coalition, and the National Alliance of Gang Investigators 
Associations.
    It is respectfully requested that the Congress restore fiscal year 
2013 funding for RISS to the fiscal year 2011 amount of $45 million so 
that this essential information sharing and public safety program can 
continue to serve our Nation. Inadequate funding and support for RISS 
could cost lives, hinder investigations, and impact the safety of our 
communities. It would be counterproductive to require local and State 
RISS members to self-fund match requirements, as well as to reduce the 
amount of Bureau of Justice Assistance discretionary funding. Agencies 
require more, not less, funding to fight the Nation's crime problem. 
RISS is unable to make up the decrease in funding that a match would 
cause, and it has no revenue source of its own. Cutting the RISS 
appropriation by requiring a match should not be imposed on the 
program.
    RISS provides resources and capabilities to share critical 
information nationwide, serves as a secure platform for other criminal 
justice entities, and provides investigative support services that, in 
many cases, agencies would not otherwise receive. RISS is essential in 
creating a safer working environment for our Nation's law enforcement. 
Appropriate funding will enable RISS to continue effectively serving 
the criminal justice community. For additional information on the RISS 
Program, visit www.riss.net. RISS appreciates the support this 
committee has continuously provided to the RISS Program and is grateful 
to provide this testimony.
                                 ______
                                 
   Prepared Statement of Rebecca Underwood--Parent/Guardian/Advocate
    I wish to express my appreciation to the Senate Appropriations 
Committee Subcommittee on Commerce, Justice, Science, and Related 
Agencies for this opportunity to submit written testimony for the 
record of the hearing held on Wednesday, March 8, 2012, to consider 
fiscal year 2013 appropriations for the Department of Justice (DOJ).
    As noted during Attorney General Eric Holder's testimony and 
subsequent questions from the subcommittee members on Wednesday, March 
8, 2012, budget realities exist. Dollars are precious. The Civil Rights 
Division has requested additional funds to strengthen civil rights 
enforcement, including enforcement of the Civil Rights of 
Institutionalized Persons Act (CRIPA) as part of a Vulnerable People 
Priority Goal. I write to express my deep concern regarding DOJ 
activities under CRIPA/Americans with Disabilities Act (ADA)/Olmstead 
enforcement resulting in the closure of intermediate-care facilities 
for individuals with severe and profound developmental/intellectual 
disabilities against resident's choice. Federal tax dollars are 
currently being spent by DOJ under the guise of ``civil rights 
enforcement'' to undermine and dismantle a system of care for our most 
vulnerable citizens, those with severe and profound developmental/
intellectual disabilities. In the process of ``civil rights 
enforcement'', DOJ, due to blatant disregard for the individual choice 
requirements of ADA, is overriding individual civil rights.
    My interest in this issue is as the mother and co-legal guardian of 
our son who due to profound neurological impairment occurring at birth, 
has functional abilities of a 4-12-week-old infant despite his 32 
chronological years. In addition to the profound neurological 
impairment due to subarachnoid hemorrhages, pulmonary hemorrhages 
impaired his respiratory functional status. He requires and receives 
24/7 intensive skilled nursing care in a State-owned and -operated 
Medicaid-certified intermediate care facility for individuals with 
developmental disabilities (ICF/DD). This placement was not our only 
choice when we could no longer provide the intensive care our son 
requires, but it definitely was and continues to be the best choice for 
our son. He has thrived in this setting beyond our wildest 
expectations. Our son will never walk, talk, roll over, be able to hold 
his own head up, speak a word or call me ``momma'' or even recognize me 
as his mother. He is medically fragile. His care needs are intensive. 
He is appropriately served by a highly trained, specialized team will 
be difficult and extremely costly to duplicate in a smaller setting 
that DOJ favors.
    DOJ policies and actions work to eliminate the safe homes for 
vulnerable people like my son. Claiming that Medicaid-certified 
facilities (ICFs/DD) are ``isolated'' and ``segregated'', the Civil 
Rights Division commences investigations aimed at closure and 
elimination of this option of care for our most vulnerable loved ones.
Civil Rights Enforcement in Wisconsin
    DOJ descended upon Wisconsin to conduct ``investigations'' of 2 of 
our 3 State-owned and -operated facilities for people with 
developmental disabilities, including our son's facility, under 
authority of CRIPA. Surprisingly, a whole year passed following the 
``investigations'' without word from DOJ as to their findings despite 
the fact that DOJ had committed substantial resources to wide-ranging 
investigations of two major facilities--investigations that supposedly 
met the criteria for activity commencement under CRIPA. It was later 
learned that one of the initial DOJ consultants had written a favorable 
report of the conditions within our son's facility. The report never 
surfaced and this consultant has never been used by the DOJ again.
    DOJ then requested to return to ``assess progress'' since the 
previous visit--but with new consultants. These consultants produced 
the obligatory derogatory report alleging egregious and flagrant 
violations of residents' civil rights. DOJ proposed--Wisconsin 
rejected--that the residents be transitioned out. Clearly DOJ's goal 
was not merely to correct what DOJ defined as egregious and flagrant 
conditions and violations but to actually shut these facilities down.
    Then, as now, parents and guardians were left out of the 
``investigations''. As one attorney from the Civil Rights Division 
wrote regarding the request of Wisconsin families to be consulted and 
involved in the investigations:

    ``There are many committed and commendable private organizations 
and individuals that have an important role in overseeing the care 
residents in institutions receive. However, their `participation' and 
`representation' in investigative tours is `inappropriate.' ''

    Involving the parents and legal guardians of residents was 
``inappropriate'' in the eyes of the DOJ. Parents were denied the right 
by the DOJ's Civil Rights Division to be involved in the investigations 
of the alleged violations of their children's civil rights.
    We were stymied for years in our attempts to learn the nature of 
the complaints that prompted this wide-ranging investigation. It was 
not complaints from residents and their families, but instead from 
outside sources--agencies and organizations that continue to this day 
to advocate against the option of Medicaid-certified and -licensed 
congregate care facilities.
    History appears to be repeating itself in how DOJ conducts CRIPA/
ADA/Olmstead investigations. Bolstered by advocacy organizations that 
are also using Federal funds to work to undermine and effect the 
elimination of the option of Medicaid-certified congregate care 
settings for our most vulnerable citizens, DOJ is now seeking 
additional funds for the Civil Rights Division to strengthen civil 
rights enforcement as part of the Vulnerable People Priority Goal.
    The DOJ's Civil Rights Division is moving fast and furious in 
States across the country declaring that the civil rights of vulnerable 
persons who reside in ICFs/DD are being violated even though the legal 
guardians have carefully chosen an ICF/DD setting after much careful 
deliberation.
    Misguided DOJ ADA/Olmstead enforcement policies which ignore and 
disregard individual choice regarding residential services are 
affecting and harming thousands of vulnerable people with severe and 
profound disabilities who function as infants and toddlers despite 
having the chronological age of adults.
    The United States Supreme Court Justices were quite clear on the 
issue of individual choice in the Olmstead decision:

    ``We emphasize that nothing in the ADA or its implementing 
regulations condones termination of institutional settings for persons 
unable to handle to benefit from community settings . . . Nor is there 
any Federal requirement that community-based treatment be imposed on 
patients who do not desire it.''
Civil Rights Enforcement in Georgia
    In October 2010, DOJ reached a settlement agreement with the State 
of Georgia by which all individuals with developmental disabilities are 
required to transition out of their Medicaid-certified facilities 
against their choice. Families and legal guardians were not consulted 
or allowed to be involved in the development of the agreement which is 
mandating the relocation of their vulnerable family members, 
individuals with the most severe and profound levels of developmental 
and intellectual disabilities. They are ``vulnerable people.''
    When the settlement agreement with the State of Georgia was 
announced, the Assistant Attorney General for Civil Rights referred to 
the agreement as a ``template for Olmstead enforcement activities 
across the country''. What this said to families across the country is 
that DOJ intends to force the closure of all ICFs/DD and force 
residents out against their choice into community-based settings.
    I support the option of community-based residential settings and 
services for those who choose and can benefit from those settings. 
However, forced transitions to community-based services and settings 
against choice, under the guise of ``Olmstead enforcement'', are in 
complete opposition to the actual ruling of the United States Supreme 
Court in Olmstead.
Civil Rights Enforcement in Arkansas
    Following a multiyear CRIPA/ADA civil rights investigation, 
Arkansas defended the Conway Human Development Center in Conway, 
Arkansas, at trial in Federal court in September 2010. The cost to 
Arkansas families and taxpayers to prevail in court was in excess of $4 
million. The costs incurred by DOJ in this grand defeat and borne by 
Federal taxpayers in this misguided litigation is unknown.
    Federal District Court Judge Leon Holmes, in his ruling dismissing 
the case, noted DOJ's complete disregard for family and guardian input:

    ``Most lawsuits are brought by persons who believe their rights 
have been violated. Not this one . . . All or nearly all of these 
residents have parents or guardians who have the power to assert the 
legal rights of their children or wards. Those parents and guardians, 
so far as the record shows, oppose the claims of the United States. 
Thus the United States [Department of Justice] is in the odd position 
of asserting that certain persons' rights have been and are being 
violated while those persons--through their parents and guardians 
disagree.''
Civil Rights Enforcement in Virginia
    A settlement agreement has recently been reached between the DOJ 
Civil Rights Division and the Commonwealth of Virginia. If this 
settlement agreement is accepted by the Court, closure of ICFs/DD will 
result. Families, not permitted an opportunity for input, have been 
forced to file a motion to intervene to protect their loved ones from 
being displaced.
    In Virginia, as in Georgia and my State of Wisconsin, parents and 
legal guardians who expressly opposed closure were ignored. The blatant 
disregard by the DOJ for the choice requirements of Olmstead cannot be 
allowed to continue.
Conclusion and Request
    In ruling in Olmstead, the Supreme Court Justices interpreted the 
ADA to require choice. Current activities of DOJ, operating out of 
public view and disregarding family and guardian involvement, to coerce 
States to cease operating programs (ICFs/DD) which provide life 
sustaining services for persons with lifelong, severe intellectual 
disabilities are not in the public interest. In light of budget 
realities we must ask if the best use of public dollars is the 
deinstitutionalization activities being carried out by the DOJ which 
run counter to the choice requirement of Olmstead which DOJ claims to 
be ``enforcing'' while displacing affected vulnerable people from their 
life sustaining services.
    I refuse to believe that it was the intention of the Supreme Court 
Justices in the Olmstead decision that DOJ would time after time, in 
State after State, decide that the civil rights of each and every 
resident of a State-operated, Medicaid-certified ICF/DD are being 
violated simply because the resident or their legal representative has 
not chosen community-based services. What is choice if there is no 
choice?
    I respectfully request the subcommittee to provide oversight and 
accountability of the devastating activities of the DOJ by which States 
are coerced into closing ICFs/DD, forcing vulnerable persons to be 
dislocated from their life-sustaining services. Please discontinue 
funding deinstitutionalization programs of the DOJ Civil Rights 
Division which, through a misguided and harmful agenda, denies choice, 
and is undermining and working to effect the elimination of a life 
sustaining option of care under the guise of ``civil rights 
enforcement''.
                                 ______
                                 
   Prepared Statement of SEARCH--The National Consortium for Justice 
                       Information and Statistics
                              introduction
    I am Kelly Harbitter, Programs and Policy Advisor for SEARCH. I 
write to you today on the Department of Justice (DOJ) funding to be 
provided for in the fiscal year 2013 Commerce, Justice, Science, and 
Related Agencies appropriations bill. SEARCH recommends that the 
National Criminal History Improvement Program (NCHIP) receive 
appropriations of $25 million.
    SEARCH is a State criminal justice support organization created by 
the States and comprised of Governors' appointees from each State. Each 
State pays dues annually. SEARCH's mission is to promote the effective 
use of information and identification technology by justice agencies 
nationwide. SEARCH has a long-standing partnership with DOJ to promote 
information sharing, as well as to protect personal privacy within the 
criminal justice community. It is from this perspective--and on behalf 
of these State partners--that I would like to address the level of 
NCHIP funding as set forth in the President's proposed budget released 
on February 13, 2012.
    As you know, NCHIP received an allocation of $5 million in the 
recent budget proposal. SEARCH recognizes that these are difficult 
budgetary times, and as such, the States have been judicious in their 
investment in criminal history improvement over the past several years. 
But the demand for accurate, complete, and timely criminal records 
continues to grow at a rapid pace, and there should be a priority 
placed on NCHIP funding. Indeed, despite the single-digit budget 
allocations, State applications for NCHIP funding over the last several 
years have been nearly five times the budgeted amounts. SEARCH 
recommends that NCHIP receive appropriations at a level considerably 
higher than the President's proposal, at $25 million rather than $5 
million. This level of funding reflects the States' identified needs 
and will enable States and territories to continue to improve the 
quality, timeliness, and accessibility of criminal history records.
             national criminal history improvement program
    The NCHIP program was first initiated in 1995, and has been 
extraordinarily successful in helping States to improve the accuracy, 
reliability, and completeness of their automated criminal history 
record systems.
    DOJ administers NCHIP through the Bureau of Justice Statistics 
(BJS) in DOJ's Office of Justice Programs (OJP). NCHIP responds to a 
DOJ objective to enhance the criminal justice capabilities of State 
governments by improving the accuracy, completeness, and timeliness of 
criminal history records. These State systems support Federal records 
systems, including the Federal Bureau of Investigation (FBI) Interstate 
Identification Index (III).\1\ III consists of records, 70 percent of 
which are maintained by the States and only 30 percent are maintained 
by the FBI.\2\
---------------------------------------------------------------------------
    \1\ The Interstate Identification Index is the national system 
designed to provide automated criminal history record information. The 
III stores the criminal history records of Federal offenders and 
records of offenders submitted by all States and territories.
    \2\ Survey of State Criminal History Information Systems 2010, 
Bureau of Justice Statistics, U.S. Department of Justice, Office of 
Justice Programs (November 2011) (available at: https://www.ncjrs.gov/
pdffiles1/bjs/grants/237253.pdf).
---------------------------------------------------------------------------
    BJS, with limited funding, has been widely recognized for its 
extraordinary efficiency, effectiveness and accomplishments in the 
NCHIP program. The last two Government Accountability Office (GAO) 
reports on NCHIP (in 2004 and 2008) highlighted the program's continued 
success in meeting its goals and the significant progress States made 
toward automating State criminal history records and making them 
accessible nationally.\3\ The reports also noted BJS' adherence and 
enforcement to the important oversight issues the Congress is concerned 
with regarding grant programs today. Indeed, the States--including the 
State repositories--have devoted massive efforts and resources over 
many years toward building automated, criminal history record databases 
that are accurate, complete, and reliable. Notwithstanding the efforts 
of BJS and the States, there continue to be significant shortfalls in 
arrest reporting; in disposition reporting; and in accuracy and data 
quality. Most significantly, approximately one-half of arrest records 
contained in the FBI III database are missing dispositions.\4\
---------------------------------------------------------------------------
    \3\ See GAO reports (available at: http://www.gao.gov/new.items/
d04364.pdf; http://www.gao.gov/new.items/d08898r.pdf).
    \4\ The Attorney General's Report on Criminal History Background 
Checks, United States Department of Justice, section III.6, p. 18 (June 
2006) (available at: http://www.justice.gov/olp/
ag_bgchecks_report.pdf).
---------------------------------------------------------------------------
         national criminal history improvement program funding
    The President's fiscal year 2013 budget would provide $5 million 
for NCHIP. This is not a sufficient amount to promote the program's 
success.
    Despite NCHIP's noted success, this gradual reduction in funding 
has adversely affected the program. NCHIP has been so significantly 
underfunded that some States no longer receive any allocation from the 
NCHIP grants. A pattern of underfunding State efforts to maintain 
effective criminal history records reverberates across the entire 
criminal justice system, not only in the individual States. Because 
State criminal history records are the primary source for the FBI III 
database, any constraints on the States weakens the ability of many 
Federal programs to identify threats and keep our Nation safe.
    In fact, the accuracy, completeness, and reliability of the 
Nation's criminal history record system has a more important and 
comprehensive impact today than ever before, including for law 
enforcement investigations; for officer safety; for sentencing and 
other criminal justice purposes; for expungement and other re-entry 
strategies; for homeland security and antiterrorism purposes; for 
public noncriminal justice purposes, including security clearances and 
employment suitability; for private sector risk management purposes; 
and for research and statistical programs that provide critical 
guidance for justice assistance decisions and for shaping law and 
policy. Without an adequate level of funding for the States, the 
quality of criminal records available nationwide will be negatively 
impacted.
  state successes with national criminal history improvement program 
                                funding
    Virginia.--With NCHIP funds, the Virginia State Police personnel 
provide electronic access to criminal history records on-site at gun 
shows. This ensures rapid response to the National Instant Criminal 
Background Check System (NICS) and prevents the transfer of firearms to 
prohibited persons. NCHIP funds have also furthered efforts in Virginia 
to improve the completeness and accuracy of computerized criminal 
history files and the Court Automated Information System. Between 
October 2010 and December 2011, the completion rate for missing 
dispositions reached approximately 95 percent. Virginia plans to use 
NCHIP funds to achieve additional goals to research, resolve, and enter 
as many missing final court dispositions associated with Virginia 
criminal history records as possible, as well as assist with the ever-
increasing problem of juvenile arrests and dispositions.
    Michigan.--Michigan has used NCHIP grants since the program began 
to enhance its automated criminal history record system and integrate 
it with the Automated Fingerprint Identification System (AFIS). NCHIP 
also funded a number of data quality studies and improvement projects 
to improve the completeness, accuracy, and disposition reporting 
associated with Michigan criminal history records. The State has also 
significantly reduced disposition backlogs. By mid-2000, Michigan had 
surpassed the 95-percent goal of complete, accurate, and timely 
electronic reporting of criminal dispositions (established by The Crime 
Control Act of 1990) for adult felonies. Michigan continues its success 
with initiatives with the courts and prosecutor's offices for enhanced 
interfaces to the criminal history.
    New York.--New York has used NCHIP funds since the beginning of the 
program to support major initiatives to modernize and vastly improve 
the ability to provide critical information services to New York's 
State and local criminal justice agencies. One of the most important 
achievements has been to solve the problem of missing dispositions in 
the criminal history repository. Working with the courts, the State 
repository agency identified system and database problems that 
contributed to unresolved arrest events. The attention to these 
problems resulted in a completion rate for missing dispositions of 
greater than 92 percent. NCHIP funds also supported enhancements to 
domestic incident reporting practices in New York. Law enforcement 
officers, preparing to execute a warrant at a suspect's home, benefit 
from knowing if the suspect has any criminal history in domestic 
violence. These funds were also used to develop the New York State 
Integrated Justice portal, a single access point for public safety 
practitioners to access the State's justice systems and data.
    Nevada.--The Nevada Department of Public Safety was able to clear a 
backlog of more than 300,000 court dispositions with NCHIP funding. The 
Department says this monumental task could not have been completed 
without NCHIP funding.
    Florida.--In Florida, citizens and visitors to the State are safer 
today thanks to the productive use of NCHIP funding. Since 1995, 
Florida's criminal justice community has used NCHIP funding to make 
many major improvements in the collection and sharing of information in 
support of public safety. Among the most significant accomplishments 
supported by NCHIP are:
  --creation of a secure statewide Criminal Justice Network for 
        information sharing among criminal justice agencies;
  --automation of court disposition reporting (the rate of adult felony 
        dispositions has been improved from around 60 percent in 1995 
        to more than 75 percent at the end of 2011 for all felony 
        arrests dating back to 1911);
  --background screening for volunteers and employees working with 
        children, the elderly and disabled; and
  --enhancement of information sharing about the State's more than 
        58,000 sexual offenders and predators.
    Alaska.--Alaska has used NCHIP funding since 1996 for:
  --independent repository audits;
  --implementing automated interfaces and charge tracking systems;
  --developing uniform offense citations table;
  --addressing missing dispositions critical to NICS, recidivism 
        studies, and the repository;
  --implementing Live Scan stations, (which raised compliance rates 
        from 56 percent to more than 90 percent for mandatory 
        fingerprinting at the Anchorage courthouse during the 2-year 
        pilot project); and
  --the electronic sharing of automated court criminal records and 
        more. Undertaking these projects would not have been possible 
        without the help from NCHIP.
    Hawaii.--In Hawaii, NCHIP funding has been indispensible to laying 
the foundation for the State's fully integrated justice information 
sharing system. The Hawaii Integrated Justice Information Sharing 
(HIJIS) was designed to build statewide information sharing 
capabilities across the whole of the justice and public safety 
enterprise, to facilitate information exchange with Federal, State, 
county agencies, and to leverage national information sharing standards 
and best practices. In addition, among the many activities that 
Hawaii's NCHIP funding has allowed the State to accomplish are the 
following:
  --Design, develop, and implement CJIS-Hawaii, the enhanced statewide 
        criminal history record information system;
  --Partner with the State court system to share real-time disposition 
        and court status data;
  --Enable CJIS-Hawaii to share information with the national NCIC 
        Protection Order and National Sex Offender Registry systems;
  --Implement a statewide integrated booking and mugshot system;
  --Deploy livescans at all county police departments and Sheriff's 
        Offices, accomplishing a paperless and electronic process end 
        to end; and
  --Design, develop, and implement a ``lights out'' automated 
        identification process for the State so that response times are 
        instantaneous and based on positive identification.
                               conclusion
    Congressional support through the NCHIP program to the State 
criminal history repositories is vital. The Federal investment can be 
leveraged many times over by contributing to the ability of State and 
local criminal justice agencies to provide timely, accurate, and 
compatible information to Federal programs such as III.
    On behalf of SEARCH, its Governors' appointees, and the thousands 
of criminal justice officials who participate in the SEARCH network and 
who benefit from SEARCH's efforts, I thank you for your consideration.
                                 ______
                                 
            Prepared Statement of the Sea Grant Association
    Madam Chair and members of the subcommittee, my name is Jonathan 
Pennock and I am the director of the University of New Hampshire Marine 
Program and the New Hampshire Sea Grant College Program. I am 
submitting this testimony in my capacity as president of the Sea Grant 
Association (SGA). SGA appreciates very much the support the Congress 
has provided the National Sea Grant College Program over the years. 
Because of that support, Sea Grant has been able to deliver a number of 
quantifiable benefits to the residents of our ocean and coastal 
communities which are documented below. In that light, to continue to 
provide similar expected benefits to coastal residents in the future, 
the SGA recommends that NOAA be funded at the level recommended by the 
Friends of NOAA Coalition ($5.3 billion) and that the National Sea 
Grant College Program within NOAA be funded in fiscal year 2013 at $69 
million.
    Recognizing the constraints in the budget process, this amount is 
$18.5 million less than the authorized level for fiscal year 2013. 
While it represents an increase of $6 million more than the amount 
appropriated in the fiscal year 2012 appropriations act, it is 
consistent with guidance provided in the conference report that 
accompanied the fiscal year 2012 appropriation that said: ``the 
Committee recognizes the important role the Sea Grant program plays in 
connecting coastal and Great Lakes communities with practical research 
and results, and encourages the growth of this program in future budget 
requests.''
    For more than 40 years, the National Sea Grant College program has 
worked to create and maintain a healthy coastal environment and 
economy. The Sea Grant network includes more than 30 programs based at 
top universities in every coastal and Great Lakes State, Puerto Rico, 
and Guam. The programs of the Sea Grant network work together to help 
citizens understand, conserve, and better utilize America's coastal, 
ocean and Great Lakes resources. A partnership between universities and 
the Federal Government's National Oceanic and Atmospheric 
Administration (NOAA), Sea Grant directs Federal resources to pressing 
problems in local communities. By drawing on the experience of more 
than 3,000 scientists, engineers, public outreach experts, educators 
and students from more than 300 institutions, Sea Grant is able to make 
an impact at local and State levels, and serve as a powerful national 
force for change.
    Sea Grant invests in high-priority research, addressing issues such 
as population growth and development in coastal communities; 
preparation and response to hurricanes, coastal storms, and tsunamis; 
understanding our interactions with the marine environment; fish and 
shellfish farming; seafood safety; and fisheries management. The 
results of this research are shared with the public through Sea Grant's 
integrated outreach program, which brings together the collective 
expertise of on-the-ground extension agents, educators, and 
communications specialists. The goal is to ensure that vital research 
results are shared with those who need it most and in ways that are 
timely, relevant, and meaningful.
      the economic importance of the nation's coastal communities
    More than one-half of the Nation's population lives in coastal 
watershed counties and this coastal population has increased by nearly 
51 million people over the past 40 years. It is expected to grow by 
another 10 percent in the next decade. The coastal economy contributed 
$8.3 trillion to the Nation's Gross Domestic Product resulting in 66 
million jobs and wages worth an estimated $3.4 trillion (NOAA 2009). 
Much of this economic activity comes from commercial fishing (estimated 
at $4 billion per year and 1 million jobs), recreational fishing 
(estimated at $73 billion per year and supporting more than 320,000 
jobs), our Nation's seaports ($1.9 trillion worth of imports came 
through U.S. ports in 2010 supporting an estimated 13 million jobs), 
and coastal tourism ($531 billion in 2010). Additionally, more than 50 
percent of the total energy produced domestically occurred in coastal 
States including natural gas production, electricity generation, and 
oil and gas production. Coastal areas are providing opportunities for 
renewable energy development with projects that seek to extract energy 
from the movement of ocean water due to tides, currents, or waves; from 
the temperature differential between hot and cold ocean water; and from 
strong winds in offshore ocean environments.
   sea grant's contributions to the economic health of the nation's 
                          coastal communities
    According to data collected for the 2-year (2009 and 2010) period 
by the National Sea Grant Office within NOAA, the Sea Grant program 
delivered the following benefits to the Nation:
  --Nearly $243 million in direct economic benefits to the Nation, 
        which represents nearly a 4 to 1 return on the Federal 
        investment;
  --An estimated additional $146 million in other Federal, State, and 
        nongovernmental resources was leveraged for research, 
        extension, and other services to support the ocean and coastal 
        enterprise;
  --144 new businesses were created, 1,271 businesses were retained, 
        and more than 8,100 jobs were created or retained due to Sea 
        Grant efforts;
  --768 communities across the Nation have adopted more sustainable 
        economic or environmental development practices and policies;
  --More than 340 communities adopted hazard resiliency practices with 
        Sea Grant assistance to make them better prepared to cope with 
        or respond to hazardous coastal events;
  --More than 5,000 individuals or businesses received new 
        certifications in hazard analysis and critical control point 
        handling of seafood products, improving the safety of seafood 
        consumption by Americans across the country;
  --More than 40,000 acres of degraded ecosystems were restored as a 
        result of Sea Grant activities; and
  --Sea Grant supported more than 1,700 undergraduate and more than 
        1,400 graduate students, and some 800,000 K-12 students were 
        reached with information about marine and Great Lakes science 
        and resources.
    The National Sea Grant College program is one of the very few 
nationally competitive grant programs that can demonstrate this kind of 
real impact at the local, State, and national levels.
   sea grant will continue to address the economic and environmental 
               position of america's coastal communities
    Since its creation in 1966, the National Sea Grant College Program 
has been at the forefront of addressing economic opportunities and 
environmental issues facing coastal communities through its research 
and outreach efforts. For every Federal dollar provided for this 
program, between one and two additional non-Federal dollars are 
contributed by non-Federal entities, thus leveraging and extending the 
impact of the Federal investment. With additional funding and guidance 
from the Congress, Sea Grant could bolster its network resources and 
focus on preparing communities to better prepare for and recover from 
extreme events such as coastal storms or oils spills, or reversing the 
trend of working waterfront enterprise losses (such as fish harvesting/
processing facilities and marinas), and advancing the coastal tourism 
industry in sustainable ways.
    Over the next 5 years, Sea Grant will concentrate effort in four 
areas:
  --healthy coastal ecosystems;
  --sustainable coastal development;
  --a safe and sustainable seafood supply; and
  --hazard resilience in coastal communities.
    These four interrelated focus areas emerged from the NOAA and 
program's strategic planning process as areas of critical importance to 
the health and vitality of the Nation's coastal resources and 
communities. They respond to issues of major importance to NOAA, are 
consistent with the work of the NOAA coastal program integration 
effort, and are topical areas in which Sea Grant has made substantial 
contributions in the past and is positioned to make significant 
contributions in the future.
    In each of the four focus areas, Sea Grant has identified goals to 
pursue and strategies designed to take advantage of its strengths in 
integrated research, outreach, and education, and its established 
presence in coastal communities. Understanding relationships and 
synergies across focus areas is vital to achieving the focus area 
goals. Sea Grant is one of many partners working to address these 
complex and interrelated issues. Understanding how activities in one 
area can support and complement other activities, and using 
partnerships to accomplish shared goals, are strategies inherent to Sea 
Grant, and will be central to achieving the goals outlined in the NOAA 
and program's strategic plan.
    America must use its coastal resources wisely to sustain the health 
and productivity of coastal communities. With the requested Federal 
funding that will leverage significant State and local support, the 
National Sea Grant College Program will be uniquely positioned to 
continue its contributions to our coastal communities. As such, the Sea 
Grant Association requests $69 million in Federal Sea Grant funding in 
fiscal year 2013.
    Thank you for the opportunity to present these views. SGA would be 
happy to provide answer questions or provide additional information to 
the subcommittee.
                                 ______
                                 
     Prepared Statement of the Society for Industrial and Applied 
                              Mathematics
    This written testimony is submitted on behalf of the Society for 
Industrial and Applied Mathematics (SIAM) to ask you to continue your 
support of the National Science Foundation (NSF) in fiscal year 2013 by 
providing NSF with $7.373 billion. In particular, we urge you to 
provide the request level for key applied mathematics and computational 
science programs in the Division of Mathematical Sciences and the 
Office of Cyberinfrastructure.
    We are submitting this written testimony for the record to the 
Subcommittee on Commerce, Justice, Science, and Related Agencies of the 
Committee on Appropriations of the U.S. Senate on behalf of the SIAM.
    SIAM has approximately 13,000 members, including applied and 
computational mathematicians, computer scientists, numerical analysts, 
engineers, statisticians, and mathematics educators. They work in 
industrial and service organizations, universities, colleges, and 
Government agencies and laboratories all over the world. In addition, 
SIAM has almost 500 institutional members, including colleges, 
universities, corporations, and research organizations.
    First, we would like to emphasize how much SIAM appreciates your 
subcommittee's continued leadership on and recognition of the critical 
role of the NSF and its support for mathematics, science, and 
engineering in enabling a strong U.S. economy, workforce, and society.
    Today, we submit this testimony to ask you to continue your support 
of NSF in fiscal year 2013 and beyond. In particular, we request that 
you provide NSF with $7.373 billion, the level requested for this 
agency in the President's fiscal year 2013 budget request.
    As we are reminded every day, the Nation's economic strength, 
national security, and public health and welfare are being challenged 
in profound and unprecedented ways. Addressing these challenges 
requires that we confront fundamental scientific questions. 
Computational and applied mathematical sciences, the scientific 
disciplines that occupy SIAM members, are particularly critical to 
addressing U.S. competitiveness and security challenges across a broad 
array of fields: medicine, engineering, technology, biology, chemistry, 
computer science, and others.
    SIAM recognizes the challenging fiscal situation, and notes that in 
the face of economic peril, Federal investments in mathematics, 
science, and engineering remain crucial as they power innovation and 
economic growth upon which our economy and fiscal health depend.
                      national science foundation
    NSF provides essential Federal support for applied mathematics and 
computational science, including more than 60 percent of all Federal 
support for basic academic research in the mathematical sciences. Of 
particular importance to SIAM, NSF funding supports the development of 
new mathematical models and computational algorithms, which are 
critical to making substantial advances in such fields as climate 
modeling, energy technologies, genomics, analysis and control of risk, 
and nanotechnology. In addition, new techniques developed in 
mathematics and computing research often have direct application in 
industry. Modern life as we know it--from search engines like Google to 
the design of modern aircraft, from financial markets to medical 
imaging--would not be possible without the techniques developed by 
mathematicians and computational scientists. NSF also supports 
mathematics education at all levels, ensuring that the next generation 
of the U.S. workforce is appropriately trained to participate in 
cutting-edge technological sectors and that students are attracted to 
careers in mathematics and computing.
    Below are highlights of the main budgetary and programmatic 
components at NSF that support applied mathematics and computational 
science.
     national science foundation division of mathematical sciences
    The NSF Division of Mathematical Sciences (DMS) in the Directorate 
for Mathematical and Physical Sciences (MPS) provides the core support 
for all mathematical sciences. DMS supports areas such as algebra, 
analysis, applied mathematics, combinatorics, computational 
mathematics, foundations, geometry, mathematical biology, number 
theory, probability, statistics, and topology. In addition, DMS 
supports national mathematical science research institutes; 
infrastructure, including workshops, conferences, and equipment; and 
postdoctoral, graduate, and undergraduate training opportunities.
    The activities supported by DMS and performed by SIAM members, such 
as modeling, analysis, algorithms, and simulation, provide new ways of 
obtaining insight into the nature of complex phenomena, such as the 
power grid, software for military applications, the human body, and 
energy-efficient building systems. SIAM strongly urges you to provide 
DMS with the budget request level of $245 million to enable sustained 
investment by NSF in critical mathematical research and related 
mathematical education and workforce development programs.
    In particular, investment in DMS is critical because of the 
foundational and cross-cutting role that mathematics and computational 
science play in sustaining the Nation's economic competitiveness and 
national security, and in making substantial advances on societal 
challenges such as energy, the environment, and public health. NSF, 
with its support of a broad range of scientific areas, plays an 
important role in bringing U.S. expertise together in interdisciplinary 
initiatives that bear on these challenges. DMS has traditionally played 
a central role in such cross-NSF efforts, with programs supporting the 
interface of mathematics with a variety of other fields, such as 
geosciences, biology, cybersecurity, and solar energy.
    SIAM supports DMS's participation in the several new NSF-wide 
initiatives, including Cyber-Enabled Materials and Manufacturing for 
Smart Systems (CEMMSS), which would support partnerships between 
mathematical scientists, computer scientists, physical scientists, and 
engineers to develop computational tools for transforming materials 
discovery to power our manufacturing base and help advance myriad 
technologies. In addition, SIAM continues to support DMS's role in 
enabling interdisciplinary work through participation in the Research 
at the Interface of Biological, Mathematical, and Physical Sciences 
(BioMaPS) initiative, which supports research in mathematical and 
computational biology to expand our understanding of biological 
processes and inspire potentially transformative new technologies for 
manufacturing and energy.
       national science foundation office of cyberinfrastructure
    Work in applied mathematics and computational science is critical 
to enabling effective use of the rapid advances in information 
technology and cyberinfrastructure. Programs in the NSF Office of 
Cyberinfrastructure (OCI) focus on providing research communities 
access to advanced computing capabilities to convert data to knowledge 
and increase our understanding through computational simulation and 
prediction.
    SIAM strongly urges you to provide OCI with the budget request 
level of $218.3 million to invest in the computational resources and 
science needed to solve complex science and engineering problems. In 
addition, SIAM strongly endorses OCI's efforts to take on the role of 
steward for computational science across NSF, strengthening NSF support 
for relevant activities and driving universities to improve their 
research and education programs in this multidisciplinary area.
    The programs in OCI that support work on software and applications 
for the next generation of supercomputers and other cyberinfrastructure 
systems are very important to enable effective use of advances in 
hardware, to facilitate applications that tackle key scientific 
questions, and to better understand increasingly complex software 
systems. SIAM strongly supports the proposed increase in funding for 
OCI data activities, including data infrastructure, tools, and 
repositories. The explosion in data available to scientists from 
advances in experimental equipment, simulation techniques, and computer 
power is well known, and applied mathematics has an important role to 
play in developing the methods and tools to translate this shower of 
numbers into new knowledge.
    SIAM continues to support the agency-wide initiative 
Cyberinfrastructure Framework for 21st Century Science and Engineering 
(CIF21). This program works to develop comprehensive, integrated, 
sustainable, and secure cyberinfrastructure to accelerate research and 
capabilities in computational and data-intensive science and 
engineering.
        supporting the pipeline of mathematicians and scientists
    Investing in the education and development of young scientists and 
engineers is a critical role of NSF and a major step the Federal 
Government can take to ensure the future prosperity and welfare of the 
United States. Currently, the economic situation is negatively 
affecting the job opportunities for young mathematicians at 
universities, companies, and other research organizations. It is not 
only the young mathematicians who are not being hired that suffer from 
these cutbacks. The research community at large suffers from the loss 
of ideas and energy that these graduate students, postdoctoral fellows, 
and early career researchers bring to the field and the country suffers 
from the lost innovation.
    In light of this situation, SIAM strongly supports NSF's proposed 
fiscal year 2013 increases in the Graduate Research Fellowship (GRF) 
program and the Faculty Early Career Development (CAREER) program. The 
GRF program would receive $243 million, which would support 2,000 new 
graduate student awards. The CAREER program would receive $216 million 
and would support an additional 40 CAREER awards, totaling 440 new 
awards for fiscal year 2013 if funded.
    Before reaching the graduate and early career stage, young 
mathematicians and scientists gain critical interests and skills as 
undergraduates. SIAM supports efforts by NSF to improve undergraduate 
science, technology, engineering, and mathematics (STEM) education, and 
notes the key role that mathematicians play in training for these 
fields. As interdisciplinary research questions become increasingly 
central to scientific progress, students need early exposure to 
research experiences and interdisciplinary challenges. SIAM supports 
the newly proposed Expeditions in Education Initiative, which will 
better link NSF research and education activities to enable hands-on 
learning for students on cutting-edge systems and challenges across 
disciplines.
                               conclusion
    We would like to conclude by thanking you again for your ongoing 
support of NSF that enables the research and education communities it 
supports, including thousands of SIAM members, to undertake activities 
that contribute to the health, security, and economic strength of the 
United States. NSF needs sustained annual funding to maintain our 
competitive edge in science and technology, and therefore, we 
respectfully ask that you continue robust support of these critical 
programs by providing $7.373 billion for NSF in fiscal year 2013.
    We appreciate the opportunity to provide testimony to the 
subcommittee on behalf of SIAM. SIAM looks forward to providing any 
additional information or assistance you may ask of us during the 
fiscal year 2013 appropriations process.
                                 ______
                                 
              Prepared Statement of The Nature Conservancy
    Thank you for the opportunity to offer comments on the fiscal year 
2013 appropriations for the National Oceanic and Atmospheric 
Administration (NOAA). The Nature Conservancy (Conservancy) is an 
international, nonprofit conservation organization working around the 
world to protect ecologically important lands and waters for nature and 
people. Our mission is to conserve the lands and water upon which all 
life depends.
    As the Nation enters the fiscal year 2013 budget cycle and another 
year of fiscal challenges, the Conservancy recognizes the need for 
fiscal austerity and stresses our concern that the natural resource 
stewardship programs should not shoulder a disproportionate share of 
cuts in this budget.
    Our recommendations this year do not exceed the President's budget 
request except in cases in which the ocean and coastal programs have 
borne a severely disproportionate cut and will result in the inability 
for NOAA to meet its critical stewardship mandates. Moreover, as a 
science-based and business-oriented organization, we believe strongly 
that the budget levels we support represent a prudent investment in our 
country's future that not only help NOAA achieve their most critical 
missions by catalyzing local and regional action, but will also reduce 
risks and ultimately save money based on tangible economic and societal 
benefits natural resources provide each year to the American people.
    Fisheries Management.--The 2007 amendments to the Magnuson-Stevens 
Fisheries Conservation and Management Act (MSFCMA) were intended to end 
overfishing in the United States and reduce destructive fishing 
practices in U.S. waters. Further, it included new provisions that 
create mechanisms for communities to engage in conservation efforts 
while securing the contribution of marine fisheries to their local 
economies. NOAA Fisheries, in implementing the MSFCMA, has made 
important strides in addressing these challenges and strengthening 
fisheries management; however, much more needs to be done. To recover 
fish stocks so that they provide food and jobs to struggling fishermen 
now and in the future, we need to recover overfished stocks, reduce 
destructive fishing practices, restore coastal habitats that produce 
fish, and support the efforts of fishermen and local communities that 
depend on fishing. The following NOAA programs are essential to 
achieving healthy coastal habitats and continued robust fisheries 
management.
    Fisheries Habitat Restoration \1\.--Marked by the President's 
fiscal year 2013 request, we are increasingly concerned that NOAA views 
investment in habitat restoration subordinate to more traditional 
fisheries management undertakings. As the gulf oil spill made 
tragically clear, healthy coastal habitats are essential to the 
economic and social well-being of coastal residents as well as others 
throughout the Nation that rely on coastal communities for commerce, 
food, and recreation. Coastal wetlands and nearshore waters produce the 
fish and shellfish that feed America. Furthermore, salt marshes, oyster 
reefs, seagrass meadows, and coral reefs help to prevent erosion and 
protect our communities from storm surges. Since 2001, The Nature 
Conservancy and NOAA have partnered through the community-based 
Restoration program (funded under the Fisheries Habitat Restoration 
line item along with the Open Rivers Initiative) to restore the health 
of degraded habitats in places and ways that benefit not just local 
marine life, but communities and coastal economies as well.
---------------------------------------------------------------------------
    \1\ Relocated in NOAA's fiscal year 2013 bluebook under ``Habitat 
Management and Restoration''.
---------------------------------------------------------------------------
    Through the 124 community-based projects supported in the first 
decade of this partnership, NOAA and the Conservancy have helped 
protect vital coastal and marine habitat, restore species that keep 
coastal systems healthy, remove invasive species, create shellfish 
spawning sanctuaries and re-establish water flows to estuaries. Beyond 
the environmental benefits, these projects have shown that restoration 
pays off for coastal communities, producing jobs for direct restoration 
work and supporting coastal communities through increased fish 
production. A recent economic analysis of oyster reef restoration in 
the Northern Gulf of Mexico provided compelling evidence for such 
claims, finding that two reefs totaling 3.6 miles would increase 
economic output of commercial finfish and crab landings by $35,000 per 
year; cut wave height and energy significantly, reducing shoreline 
erosion and associated damages to private property and public 
infrastructure; and remove up to 4,160 pounds of nitrogen per year from 
Bay waters.\2\
---------------------------------------------------------------------------
    \2\ Kroeger, Timm (2012). ``Oyster Reef Restoration in the Northern 
Gulf of Mexico: Ecosystem Services, Economic Benefits and Impacts, and 
Opportunities for Disadvantaged Coastal Communities.'' The Nature 
Conservancy.
---------------------------------------------------------------------------
    Through our on-the-ground experience we recommend $22 million for 
the Fisheries Habitat Restoration in the fiscal year 2013. Moreover, we 
request that no less than $9 million should be made available for 
competitive cooperative agreements through the Community-based 
Restoration Program (CRP). Additional funding beyond cooperative 
agreements and program administration of CRP should be dedicated to the 
Open Rivers Initiative.
    National Catch Share Program.--Catch Shares give participating 
fishermen a stake in the benefits of a well-managed fishery and align 
the incentives for resource stewardship with the natural incentive for 
fishermen to increase their earnings with a sustainable business model. 
Transition to these systems is difficult and getting the design and 
implementation of these new catch share programs, including provisions 
to engage fishing communities, right is critical. The Conservancy 
supports the President's fiscal year 2013 budget request of $28 million 
for the National Catch Share Program.
    Annual Stock Assessments.--The Magnuson-Stevens Act mandated annual 
catch limits in all fisheries to prevent overfishing by in place by 
2011. While this milestone has been achieved, there is room for 
continued improvement in fishery data collection and stock assessments. 
Adequate stock assessments are essential for the sound management of 
fisheries and the sustainability of fishing resources. The Conservancy 
supports the President's fiscal year 2013 budget request of $69 million 
for annual stock assessments.
    Pacific Coastal Salmon Recovery Fund.--The Pacific Coast Salmon 
Recovery Fund (PCSRF) is the most critical Federal program addressing 
major threats to Pacific salmon so that these fish can continue to 
sustain culture, economies, recreation, and ecosystem health. This 
Federal funding source is tailored for each State, competitively 
awarded based on merit and has funded hundreds of successful, on-the-
ground salmon conservation efforts. PCSRF invests in cooperative 
efforts to conserve species under the National Marine Fisheries Service 
(NMFS) jurisdiction and projects are matched at a 3:1 ratio (Federal/
non-Federal) and have resulted in significant progress in protecting 
and restoring salmon across their range. Notably, the PCSRF has 
catalyzed thousands of partnerships among Federal, State, local, tribal 
governments, conservation, business, and community organizations. The 
Conservancy urges sustaining at least $65 million for the competitive 
and proven PCSRF grants program.
    Species Recovery Grants.--Through this program, NMFS provides 
grants to States to support conservation actions that contribute to 
recovery or have direct conservation benefits for listed species, 
recently de-listed species, and candidate species that reside within 
that State. We support the President fiscal year 2013 budget's request 
for $4.8 million.
    Ocean Services.--Over the years, and across many sites, NOAA has 
been an invaluable partner to the Conservancy. NOAA programs that 
provide practical, community-oriented approaches to restoration, 
resource management, and conservation are natural fits for the 
Conservancy's mission. The Coastal Services Center and National 
Estuarine Research Reserve programs educate hundreds of local community 
officials and practitioners to better ways to apply tools and science. 
In addition, NOAA's data, research and monitoring of coastal and marine 
systems directly provide data and decision-support tools that inform 
the safe operations of industry, prioritize habitats for restoration, 
and advance science-based management decisions. The following funding 
recommendations highlight critical programs that support productive 
coastal communities and healthy coastal and marine places.
    Coral Reef Conservation Program.--The decline of coral reefs has 
significant social, cultural, economic, and ecological impacts on 
people and communities in the United States and around the world. The 
Conservancy works with NOAA's Coral Reef Conservation Program under a 
competitively awarded, multiyear cooperative agreement to address the 
top threats to coral reef ecosystems:
  --climate change;
  --overfishing; and
  --land-based sources of pollution.
    Together we develop place-based strategies; develop resilient 
marine-protected area networks; measure the effectiveness of management 
efforts; and build capacity among reef managers at the global scale. 
NOAA has undertaken a coral reef conservation priority setting exercise 
in all seven of the U.S. jurisdictions with coral reef resources. The 
Conservancy supports the President's fiscal year 2013 budget request of 
$27 million to provide funding to support implementation of these 
conservation priorities, including more comprehensive mapping and data 
compilation and analysis on cold water corals in U.S. waters.
    Coastal and Estuarine Land Conservation Program.--Created by the 
Congress in 2002 and formally authorized in 2009, the Coastal and 
Estuarine Land Conservation Program (CELCP) program has helped preserve 
approximately 45,000 acres of America's most important coastal areas. 
All Federal funding for CELCP is leveraged by at least an equal amount 
of State, local, and private investments. There is significant demand 
for coastal conservation that is not being met. In the last several 
years, NOAA has identified and vetted more than $270 million in coastal 
projects that are eligible for CELCP program funding. The fiscal year 
2013 President's budget request recommends the removal of all funds for 
CELCP. The Conservancy recommends including the fiscal year 2012 
enacted level of $3 million in the budget to minimally support a 
program that utilizes both acquisition and conservation easements to 
protect coastal and estuarine lands considered important for their 
ecological, conservation, recreational, historical, or aesthetic 
values.
    Regional Ocean Partnerships.--The funding would provide support to 
implement priority actions identified by existing and developing 
Regional Ocean Partnerships including the Northeast Regional Ocean 
Council, the Mid-Atlantic Regional Council on Oceans, the South 
Atlantic Alliance, the Gulf of Mexico Alliance, the West Coast 
Governors' Agreement on Ocean Health, and the Council of Great Lakes 
Governors. These multi-state collaborations originated to address 
regional priorities such as habitat conservation and restoration, 
energy siting, coastal resilience to severe storms, coastal water 
quality, and regional data and science needs. Additional funding should 
be provided to support State and regional engagement in the development 
of marine planning, including stakeholder processes and consensus 
building tools, analysis of data and information, and facilitation of 
broad public participation in the planning process. The Conservancy 
urges a least $4 million to advance vital regional ocean and coastal 
priorities.
    National Estuarine Research Reserve System.--The National Estuarine 
Research Reserve System (NERRS) partners with States and territories to 
ensure long-term education, stewardship, and research on estuarine 
habitats. Atlantic, gulf, Pacific, Caribbean, and Great Lakes reserves 
advance knowledge and stewardship of estuaries and serve as a 
scientific foundation for coastal management decisions. This unique 
site-based program around the Nation contributes to a systemic 
research, education, and training on the Nation's estuaries. The 
Conservancy recommends including the fiscal year 2012 enacted level of 
$22 million in the budget.
    National Marine Sanctuaries Program.--National marine sanctuaries 
support economic growth and hundreds of coastal businesses in sanctuary 
communities; preserve vibrant underwater and maritime treasures for 
Americans to enjoy; and provide critical public access for ocean 
recreation, research, and education. Investment in these sites do more 
than simply protect small areas of the ocean, but a downpayment on the 
many other Americans whose livelihoods are dependent on a healthy ocean 
and coasts. The Conservancy supports the President's fiscal year 2013 
budget request of $47 million.
    Thank you for this opportunity to share with the subcommittee the 
Conservancy's priorities in NOAA's fiscal year 2013 budget. We would be 
pleased to provide the committee with additional information on any of 
the Conservancy's activities described here or elsewhere.
                                 ______
                                 
              Prepared Statement of The Planetary Society
    The Planetary Society is deeply troubled with the priorities 
reflected in National Aeronautics and Space Administration's (NASA) 
fiscal year 2013 budget. If implemented, it will portend grave 
consequences for our Nation's ability to conduct deep-space science 
missions and could irreversibly erode unique aspects of the space 
industrial base needed for such missions.
    Specifically, the disproportionate cut to the Planetary Science 
budget would force NASA to walk away from planned missions to Mars, to 
back out of international agreements with the European Space Agency 
(ESA), delay for decades any flagship missions to the outer planets, 
and radically slow the pace of scientific discovery, including the 
search for life on other worlds. We think this is the wrong direction 
for America's space program.
    Planetary Science is the part of NASA that's actually conducting 
interesting and scientifically important missions. Spacecraft sent to 
Mars, Saturn, Mercury, the Moon, comets, and asteroids have been making 
incredible discoveries, with more to come from recent launches to 
Jupiter, the Moon, and Mars. The country needs more of these robotic 
space exploration missions, not fewer.
    For the first time in human history, we have the tools available to 
directly test the hypothesis of whether there is, or has been, life on 
other worlds such as Mars or Europa. Such a discovery would be a 
seminal event in human history and would have a deep and profound 
impact on how we view our place in the Universe, much as Copernicus 
sparked the Age of Enlightenment 500 years ago with his theory that the 
Earth orbits the Sun, just like any other planet. We stand at the dawn 
of a similar period in which our knowledge and understanding of the 
Universe is poised to take another giant leap forward.
    We understand that NASA is undertaking a review to examine options 
for potential future Mars missions, and we support efforts to put the 
program back on track, but we are also adamant that decisions for 
future planetary missions be guided by the most recent Planetary 
Science Decadal Survey of the National Research Council. It took almost 
2 years to forge a consensus of 1,700 planetary scientists and should 
not be dismissed or watered-down. NASA's science programs have achieved 
great successes based on the decadal-survey process and all should be 
reluctant to abandon it.
    While it may appear attractive to develop an integrated strategy 
for Mars science missions and an eventual human mission to Mars, the 
lack of clear goals and tangible program plans on the human side 
suggests the discussion is premature, at best.
    We recognize the intense fiscal and budget pressure the country 
faces. We understand that agency programs are receiving unprecedented 
scrutiny and that budgets are shrinking. However, today's budget 
environment is also an opportunity to take stock of what's working and 
what's not working, and to adjust priorities.
    Today, approximately 27 percent of NASA's budget goes to Science, 
with 8 percent of NASA's total going to Planetary Science. The human 
spaceflight program (SOMD+ESMD) consumes about 45 percent of NASA's 
budget, and the remaining 28 percent goes to aeronautics, technology, 
and infrastructure. The Planetary Society is a strong supporter of both 
human and robotic space exploration and a strong advocate for 
investments in technology. However, given the impacts of the proposed 
fiscal year 2013 budget, some adjustments are needed.
    Specifically, the Planetary Society recommends reallocating 
approximately 3 percent from within NASA's total budget to rebaseline 
the share for Science to at least 30 percent and restoring the $300 
million cut to Planetary Science to fund it at $1.5 billion. This 
modest rebalancing will allow NASA to fully implement the decadal 
survey for Planetary Science, send a mission to Mars and prepare for 
missions to the outer planets, while allowing NASA to continue a robust 
program of missions in Earth Science, Astronomy, and Heliophysics.
    We arrive at this conclusion primarily because NASA's Science 
program currently has an abundance of compelling world-class science 
missions with clearly defined mission goals and carefully crafted 
program plans that are poised to move out. We believe that a healthy 
and vibrant Science program is an excellent investment that will 
energize, engage, and inspire the next generation of scientists, 
engineers, educators, and the public, as has been the case with the 
Mars rovers and many other missions. The diversity and frequency of 
science mission opportunities laid out by the decadal survey will 
significantly contribute to thousands of high-tech jobs in the 
aerospace industry, at research laboratories, and in universities. 
These programs will stimulate the best and brightest with interesting 
and meaningful scientific and technical challenges that will make our 
Nation stronger and more competitive.
    While we recognize these are difficult choices, we believe an 
increase in the share of the NASA budget for Science to 30 percent is 
the best place for the agency to make the most effective use of the 
taxpayers' money at this time and in today's budget environment.
    We are at the brink of the next revolution in scientific 
understanding. A great Government will lead this pursuit and make these 
investments because it will make a difference to our society and to our 
children.
                                 ______
                                 
   Prepared Statement of the University Corporation for Atmospheric 
                                Research
    On behalf of the University Corporation for Atmospheric Research 
(UCAR), I submit this written testimony to the Senate Appropriations 
Subcommittee on Commerce, Justice, Science and Related Agencies for the 
committee record. UCAR is a consortium of more than 100 research 
institutions, including 77 doctoral-degree granting universities, which 
manages and operates the National Center for Atmospheric Research 
(NCAR) on behalf of the National Science Foundation (NSF). I urge the 
subcommittee to support the following levels of science funding in the 
fiscal year 2013 Commerce, Justice, Science and Related Agencies 
Appropriations Act.
    National Science Foundation.--At least $7.373 billion, including 
$106.6 million for NCAR within the Geosciences Directorate (GEO).
    National Aeronautics and Space Administration.--$5.073 billion for 
Science, and within this mission directorate, $1.785 billion for Earth 
science, including $440.1 million for Earth science research, and $647 
million for Heliophysics.
    National Oceanic and Atmospheric Administration (NOAA).--$5.008 
billion, including $413.8 million for the Office of Oceanic and 
Atmospheric Research (OAR), $212.7 million for the OAR Climate Research 
line, and $991.9 million for the National Weather Service (NWS).
    Countless economic studies over the years have demonstrated the 
link between federally funded scientific R&D and economic vitality, 
industry and job growth, productivity, competitiveness, and innovation. 
Even in this difficult economic environment, we must maintain a balance 
of basic research elements including the scientific workforce; data 
collection, analysis and storage; computing; and facilities. As I 
describe below, I am concerned that the President's budget request for 
fiscal year 2013 represents some imbalance within the science agencies.
National Science Foundation
    I urge you to support the President's fiscal year 2013 request of 
$7.373 billion for NSF. NSF's mission is to support basic research 
which is the basis for two key drivers of our economy--technology 
development and innovation. According to the NSF budget request, ``In a 
given year, NSF awards reach nearly 1,900 colleges, universities, and 
other public and private institutions in 50 States, the District of 
Columbia, and Puerto Rico. In fiscal year 2013, NSF support is expected 
to reach approximately 285,000 researchers, postdoctoral fellows, 
trainees, teachers, and students.'' As illustrated by these numbers, 
NSF is indispensable to the health and resiliency of our Nation's 
scientific R&D enterprise.
    National Center for Atmospheric Research.--NSF's GEO supports a 
broad and diverse academic field that contributes to our understanding 
of long-term weather, extreme weather, dynamics of water resources, 
effects of the Sun on the Earth, effects of space weather on global 
communications, interactions of the Earth's systems, energy resources, 
geologic hazards, and all aspects of the global oceans. UCAR endorses 
the President's fiscal year 2013 request of $906.4 million for NSF's 
GEO.
    However, I do have concerns within the GEO budget request that I 
would like to address, namely the proposed budget for the NCAR. In 
recent years, NSF has created constructive, cross-cutting initiatives 
meant to address issues of importance to the Nation, such as 
sustainability. Investment in these meritorious activities has 
unfortunately come at the expense of established NSF programs and 
centers, many which complement the new initiatives. Given Federal 
budget pressures, this promises to undercut some of the basic, critical 
programs that NSF provides the Nation, including NCAR, an NSF Federally 
Funded Research and Development Center that expands the capacity of the 
Nation's academic community to understand weather, the composition of 
the atmosphere, Sun-Earth interactions, space weather, and the 
interactions between oceans and atmosphere.
    Further, while NSF, GEO, and the Division of Atmospheric and 
Geospace Sciences in which NCAR resides, all show increases in the 
budget request for 2013, primarily to fund ongoing growth in the 
sustainability research portfolio, NCAR's proposed budget is decreased 
by 6.4 percent compared to the fiscal year 2012 estimate. The budget 
request language states, ``This level of support protects the operation 
of the NCAR/Wyoming Supercomputer Center (NWSC), completed on time and 
within budget, and maintains support for other key community research 
infrastructure operated by NCAR.'' However, NCAR encompasses an 
integrated and well-leveraged combination of both science and 
facilities. Continuing full support for this infrastructure, including 
the added costs of operating the NWSC, while absorbing a cut to the 
NCAR budget of more than $6 million, will place NCAR's basic science 
research and community support programs, some of the best in the world, 
in jeopardy. Cutting the laboratory would be counterproductive to the 
potential productivity of the NWSC, given the computing center's 
reliance on NCAR modeling and scientific expertise. With a balanced 
NCAR portfolio of science and facilities, NWSC operations will advance 
many fold critical weather and climate research contributions.
    We estimate that real cuts, when all expenses are tallied, would 
amount to decreases to NCAR's scientific research on the order of 11 to 
13 percent. Simply to maintain programs and infrastructure, NCAR would 
need an increase over the fiscal year 2012 appropriated amount. I urge 
the committee to support funding of $106.6 million for NCAR within 
GEO's Division of Atmospheric and Geospace Sciences, and further, to 
direct the agency to maintain ongoing support for NCAR at sustainable 
levels in future budgets, including the financing of the NWSC operating 
costs, without reducing the NCAR base funding as an offset.
NASA--Science Mission Directorate
    The research supported and data collected by National Aeronautics 
and Space Administration (NASA) Science Mission Directorate are 
essential to atmospheric sciences research and global Earth 
observations. Through the use of space observatories, satellites, and 
other probes, NASA helps us achieve a deeper understanding of Earth, 
including answers to how the Earth's long-term weather patterns may be 
changing. I urge the subcommittee to fund the Science Mission 
Directorate at $5.073 billion, the amount appropriated in fiscal year 
2012 and a level of funding that would help to keep on track future 
missions that are now threatened with delay.
    Earth Science.--Given the promise of observatories such as the 
Orbiting Carbon Observatory 2 (OCO-2), I am pleased that the 
President's budget request proposes to increase funding for this and 
other Earth System Science Pathfinder missions in fiscal year 2013. The 
National Academy of Sciences decadal survey, Earth and Science 
Applications from Space: National Imperatives for the Next Decade and 
Beyond, released in 2007, continues to provide a critical set of 
recommendations of the most compelling needs in future Earth 
observations. Ice, Cloud and Land Elevation Satellite-2 (ICESat-2) and 
Soil Moisture Active-Passive (SMAP) are Tier 1 decadal survey missions 
funded within the Earth Systematic Missions line office. Expected to 
launch in 2014 and 2016, respectively, the fiscal year 2013 request 
keeps these important missions on schedule. However, other important 
missions recommended by the decadal survey are threatened with delays 
that jeopardize their future. Given the importance of these 
measurements to scientists, State and city planners, first responders, 
and Governors, the Nation must not allow any further delay in the 
deployment of these resources needed for our States and localities to 
wisely and appropriately adapt in the decades to come. I urge you to 
fund the President's request of $1.785 billion for Earth science in 
fiscal year 2013.
    While the fiscal year 2013 budget request provides funding to keep 
many important Earth science missions on track, it also proposes a $6.5 
million cut to Earth Science Research that is critical to translating 
missions into discoveries and new knowledge. At least 90 percent of the 
funds of this program are competitively awarded to investigators in 
academia, the private sector, laboratories, and other academic centers 
to utilize NASA data to further our understanding of Earth processes. A 
$6.5 million cut portends the loss of ongoing research projects and 
critical grant money for atmospheric scientists at national 
universities and NCAR. I urge you to restore funding for Earth Science 
Research to $440.1 million, the amount appropriated in fiscal year 
2012.
    Heliophysics.--With all of human civilization located in the 
extended atmosphere of the Sun, heliophysics is a critical discipline 
for understanding Sun/Earth connections. This research allows us to 
analyze the connections between the Sun, solar wind, and planetary 
space environments. NASA's Heliophysics division enables NCAR to serve 
the solar-terrestrial physics community through delivery of community 
models for the upper atmosphere, instrumentation for space and balloon 
flights, and solar and upper-atmospheric data from space and balloon 
missions. I urge you to fund Heliophysics at the requested $647 
million.
NOAA
    All Americans benefit from the life-saving warnings produced by 
NWS. What many Americans do not understand is the research behind 
producing accurate forecasts. Satellite and ground observations collect 
data around the clock on real-time conditions. Computer models are run 
to produce projections and predictions as weather develops. Research 
collaborations with the Nation's leading universities and the private 
sector produce improved data analysis, enhanced forecasting 
capabilities, and technology development. Free and open access to 
forecasts and weather data enable broadcast meteorologists and others 
to reach citizens, local governments, and resource managers with 
critical information. The sum of the parts, when all are supported 
appropriately in a balanced manner, adds up to saved lives, protected 
property, enhanced homeland security, and benefits to the economy. Yet 
NOAA's budget is one of the least balanced of the scientific agencies. 
NOAA is roughly a $5 billion agency, with nearly $2 billion dedicated 
to satellite programs. These satellite observing systems, all located 
within NOAA's National Environmental Satellite, Data, and Information 
Service, will produce data that are absolutely essential to the 
Nation's weather, space weather, and climate forecasting capabilities. 
But they cause an imbalance to NOAA's budget that threatens to torque 
NOAA's mission and products. I urge you to support the requested fiscal 
year 2013 amount of $5.008 billion for NOAA, but to consider increasing 
that amount to restore the balance to NOAA programs that will make it 
possible for the agency to provide the best scientific and operational 
products.
    Office of Oceanic and Atmospheric Research.--In fiscal year 2011, 
the appropriated amount for OAR was $416.6 million. For fiscal year 
2013, the President requests a total of $403.4 million, taking the 
office back almost to the 2009 level. While it may appear that OAR 
receives a healthy 7.7-percent proposed increase for fiscal year 2013, 
fiscal year 2012 cuts were much deeper than this increase. I urge you 
to fund OAR at the requested $413.8 million (operations, research, and 
facilities (ORF) and procurement, acquisition, and construction (PAC) 
combined), recognizing that additional investment is needed to restore 
recent funding cuts to OAR that have resulted in the termination and 
downsizing of many important NOAA research programs.
    One example of such fiscal year 2012 cuts at OAR is the Climate 
Competitive Research, Sustained Observations, and Regional Information 
program, which funds extramural research that leverages NOAA programs 
and provides some of the needed program balance to its portfolio. 
States rely upon the climate, weather, and water outlooks developed 
under this program to develop seasonal and yearly management plans for 
water, agriculture, energy, and fisheries. In addition to these 
critical regional outlooks, this account funds global ocean observing 
programs essential for accurate weather forecasting and satellite 
calibration and validation, which are required to reap full use of the 
billions invested in satellite observations. I urge you to fund OAR's 
Climate Research portfolio at the requested $212.7 million, and to fund 
the President's request of $146.3 million for Climate Competitive 
Research, Sustained Observations, and Regional Information.
    National Weather Service.--As noted earlier, NWS is a 24/7 
operation, and is this Nation's sole authoritative source for issuing 
warnings and forecasts related to weather, severe weather, and long-
term weather trends. To continue providing these critical services to 
the country, NWS must have as much information about weather conditions 
as possible. The less information, the less accurate the forecast will 
be. Yet, the fiscal year 2013 request seems to cut multiple data 
gathering programs. Again, the loss of data gathering capabilities 
creates a serious imbalance to NWS activity. However, within NWS, we 
are extremely pleased with the progress being made by the Hurricane 
Forecast Improvement Program (HFIP) that promises great improvement in 
the reliability of hurricane forecasts. HFIP computing resources have 
been proposed for cuts in fiscal year 2013. Given the great promise of 
HFIP to save lives and property, I ask that that computing resource be 
restored. I urge you to fund NWS at the requested level of $991.9 
million (ORF and PAC combined) and to consider a higher level so that 
restoration of essential observing and computing facilities may be 
achieved.
    Thank you for your service to our Nation's scientific enterprise 
and for the opportunity to express these views on behalf of the 
geosciences community.
                                 ______
                                 
        Prepared Statement of the University of Colorado Boulder
    I write today to urge you to support the President's fiscal year 
2013 budget request of $413.8 million for the National Oceanic and 
Atmospheric Administration's (NOAA) Office of Oceanic and Atmospheric 
Research (OAR), which supports some of the Nation's most critical 
environmental research. Within OAR, I particularly support the 
Competitive Research, Sustained Observations and Regional Information 
program, which facilitates the production of regional, national, and 
global weather and water outlooks. The President's budget request of 
$146.3 million for this program would restore the 20-percent cut it 
sustained in fiscal year 2012.
national oceanic and atmospheric administration's office of oceanic and 
                          atmospheric research
    NOAA OAR funding supports research that increases the effectiveness 
of observations, monitoring, and modeling to help States manage their 
infrastructure, agricultural resources, fisheries, water resources, and 
natural disaster planning and response. Past research has focused on 
forecasting large storm events, seasonal wildfire forecasts, assessing 
local impacts of projected sea-level rise, improving seasonal 
precipitation forecasts to improve dam management for both flood 
control and water storage, and forecasting energy demand scenarios.
    OAR funding also supports 18 Cooperative Institutes. These are 
located across 21 States, Puerto Rico, and the Virgin Islands and are 
affiliated with 48 universities and research institutions. The 
Cooperative Institutes are partnerships that benefit the Nation by 
leveraging the unique strengths of NOAA and universities and research 
institutions in areas ranging from satellite climatology and fisheries 
biology to atmospheric chemistry and coastal ecology. In addition to 
facilitating long-term, substantive research collaboration, the 
Cooperative Institutes facilitate the training of the Nation's next 
generation of both NOAA's and the Nation's scientific workforce. These 
cooperative entities--already strained by fiscal year 2012 budget 
cuts--are the very type of innovative partnerships the Federal 
Government should be promoting. Given the value of the Cooperative 
Institutes, further reductions to NOAA's research budget would have 
negative implications that extend far beyond any near-term budget 
savings.
    In addition, some of NOAA's laboratories that support Cooperative 
Institutes and which are, in part, supported through OAR funds--such as 
the Geophysical Fluid Dynamics Laboratory in New Jersey, the Earth 
Systems Research Laboratory in Colorado, the Pacific Marine 
Environmental Laboratory in Washington, the Atlantic Oceanographic and 
Meteorological Laboratory in Florida, the Great Lakes Environmental 
Research Laboratory in Michigan, and the National Severe Storms 
Laboratory in Oklahoma--risk staff reductions and reduced research 
effectiveness as a result of budget cuts in NOAA's research portfolio.
 competitive research, sustained observations, and regional information
    While OAR sustained a 10-percent cut in funding in fiscal year 2012 
from fiscal year 2011 levels, the Competitive Research, Sustained 
Observations and Regional Information program carried a 
disproportionate amount of that burden with a 20-percent cut from 
fiscal year 2011 levels. The President's budget request would restore 
this program's funding to ensure continued support of critical science 
aimed at understanding the impact of atmospheric, oceanic, land-based, 
snow and ice processes on climate.
    This competitive climate research program funds grant activities 
focused on climate observation and monitoring; Earth system science; 
modeling, analysis, predictions, and projections; and climate and 
societal interactions. These programs not only fund important research 
in these areas, but they also support unique tools such as 
observational instruments, data and information sets, and assessment 
teams. These measure key climate factors such as temperature, 
precipitation, runoff, and soil moisture, and contribute to regional 
decisionmaking across the United States to facilitate responses to 
climate variability and change.
                               conclusion
    Research that stems from NOAA's OAR budget has real and positive 
impacts on the Nation's well-being, allowing us to prepare for the 
impacts of shifts in weather, water supplies, and storms. Just some 
examples of the research areas that could be negatively impact from 
further reductions include:
  --Forecasting of hurricanes and El Nino-Southern Oscillation events;
  --real-time sea level measurements used for tsunami warning systems;
  --storm surge monitoring; and
  --provision of data for early drought warning systems used by water 
        and natural resource managers in the Colorado River Basin, 
        California, and the shared watershed of Georgia, Alabama, and 
        Florida.
    Even in this fiscally constrained environment, the Nation must 
continue to invest in climate research, observations, monitoring, and 
modeling. I urge you to support the President's fiscal year 2013 budget 
request for NOAA OAR research at $413.8 million, and the competitive 
climate research program at $146.3 million. Funding at this level will 
enable the Nation's research institutions to continue their long and 
proud history of partnering with NOAA, industry, and other Government 
agencies to provide the Nation with useable atmospheric and 
oceanographic data to help plan for and respond to the impacts of 
climate variability and change.
    Thank you for your consideration of this testimony.
                                 ______
                                 
                       Prepared Statement of VOR
 protecting the interests of residents of intermediate care facilities 
for persons with intellectual disabilities in actions conducted by the 
department of justice's civil rights division that affect their choice 
                              of residency
    VOR, a national advocacy organization for people with intellectual 
disabilities/developmental disabilities (ID/DD) and their families 
express gratitude to the Subcommittee on Commerce, Justice, Science and 
Related Agencies for this opportunity to submit testimony for the 
record of the hearing on March 8, 2012, in consideration of fiscal year 
2013 appropriations for the Department of Justice (DOJ). VOR's members 
look forward to working with Senators and their staff to ensure the 
civil rights of our most fragile citizens with ID/DD.
 request that department of justice meet its choice obligations under 
 the americans with disabilities act in department of justice actions 
                 involving intermediate care facilities
    To protect the interests of the residents of ICFs for the DD and 
their families to be the primary decisionmakers regarding where they 
reside, in response to the blatant and repeated disregard of the ADA 
requirement for individual choice of residency by the DOJ's Civil 
Rights Division, VOR requests that the subcommittee include the 
following language in the DOJ Civil Rights Division appropriations:
  --In any action taken by DOJ, including investigations, that involves 
        the residents of an ICF/ID, DOJ shall consult with the 
        residents (or, if a resident has a legal representative, the 
        resident's legal representative) and families among all other 
        interested parties before taking action.
  --If, after taking action, families wish to intervene on behalf of 
        their family member with ID/DD in the DOJ action, DOJ is 
        encouraged to support such intervention.
                               about vor
    VOR is a national advocacy organization representing individuals 
with ID/DD and their families. VOR has thousands of members across the 
country, with representation in every State. Unlike other national 
advocacy organizations, VOR recognizes that individuals with ID/DD and 
their families are the primary decisionmakers regarding services and 
supports. We recognize that legitimate choice and person-centered 
supports are only possible in a system that offers a full array of 
quality residential and support options, from small homes to Medicaid-
funded and licensed ICFs/ID.
rationale: doj's civil rights division has routinely ignored olmstead's 
                             choice mandate
    For fiscal year 2013 DOJ has requested an additional 25 attorneys 
and $5.1 million to enable the DOJ's Civil Rights Division to, among 
other activities, ``strengthen civil rights enforcement efforts'' as 
part of the Attorney General's Vulnerable People Priority Goal. A 
portion of the requested increase will reportedly allow the Civil 
Rights Division to increase its enforcement of the Civil Rights of 
Institutionalized Persons Act (CRIPA). Presumably any additional funds 
and attorneys, in part, would also be applied to the Civil Rights 
Division aggressive enforcement of Olmstead. According to a recent 
statement by Tom Perez, Assistant Attorney General for Civil Rights:

    ``The agreement with the Commonwealth [of Virginia] is part of a 
broad, nationwide effort to enforce the Olmstead decision. In the last 
3 years, the Civil Rights Division has joined or initiated litigation 
to ensure community-based services in more than 35 matters in 20 
States. We reached comprehensive agreements with the States of Georgia 
and Delaware that, like the agreement with Virginia, provide broad 
relief for thousands of individuals with disabilities.'' (Tom Perez, 
``Department of Justice Transformative Olmstead Settlement'', February 
6, 2012).

    In DOJ actions in Virginia, Georgia, Illinois, Arkansas and other 
States, the legal ``relief'' for the affected individuals sought or 
supported by the Civil Rights Division has been the displacement of 
fragile individuals from life-sustaining, federally licensed supports 
(``deinstitutionalization'') without regard to choice and with little 
apparent concern for outcomes. These actions to enforce Olmstead are 
expressly contrary to the Supreme Court's decision:\1\
---------------------------------------------------------------------------
    \1\ VOR contends that DOJ actions to close ICFs/DD contrary to 
resident choice also violates the Federal Medicaid law which requires 
that ICF/DD residents be informed of alternatives under the home and 
community-based services waiver and be given the choice of either ICF/
DD or home and community-based services waiver supports. 42 C.F.R. 
441.302(c).

    ``We emphasize that nothing in the ADA [Americans with Disabilities 
Act] or its implementing regulations condones termination of 
institutional settings for persons unable to handle or benefit from 
community settings . . . Nor is there any Federal requirement that 
community-based treatment be imposed on patients who do not desire 
it.'' 527 U.S. 581, 601-02(1999) (see also, Justice Kennedy's 
concurring opinion, ``It would be unreasonable, it would be a tragic 
event, then, were the Americans with Disabilities Act of 1990 (ADA) to 
be interpreted so that States had some incentive, for fear of 
litigation to drive those in need of medical care and treatment out of 
appropriate care and into settings with no assistance and 
---------------------------------------------------------------------------
supervision'').

    Specifically, the Supreme Court held that community placement is 
only required when:
  --The State's treatment professionals have determined that community 
        placement is appropriate;
  --The transfer from an institutional setting to a less restrictive 
        setting is not opposed by the affected individual; and
  --The placement can be reasonably accommodated, taking into account 
        the resources available. Id. at 587.
    Increased funding for CRIPA or ADA enforcement for 
deinstitutionalization activities will undoubtedly result in expanded 
DOJ legal activities to undermine and ultimately eliminate the option 
of Medicaid-certified ICFs/DD.
    Families and legal guardians of our country's most vulnerable 
people with severe and profound ID/DD, who function at the level of 
infants and toddlers despite having the chronological age of adults, 
have strong objections to DOJ's Civil Rights Division's activities to 
``enforce the Olmstead decision.'' Routinely, DOJ fails to seek or 
consider the input or protestations of the very individuals who have 
the greatest insights into the needs and desires of the affected 
individuals:

    ``. . . close relatives and guardians, both of whom likely have 
intimate knowledge of a mentally retarded person's abilities and 
experiences, have valuable insights which should be considered during 
the involuntary commitment process.'' Heller v. Doe, 509 U.S. 312 
(1993)
    ``Individuals with developmental disabilities and their families 
are the primary decisionmakers regarding the services and supports such 
individuals and their families receive and play decisionmaking roles in 
policies and programs that affect the lives of such individuals and 
their families.'' DD Act, 42 U.S.C. 15001(c)(3)(1993) (Findings, 
Purposes and Policies).

    The following examples exemplify the Civil Rights Division's 
blatant disregard for Olmstead`s choice requirements:
United States v. Georgia
    A Settlement Agreement reached between DOJ's Civil Rights Division 
with the State of Georgia in October 2010, prohibits the admission of 
any individual with a developmental disability to a State hospital 
(ICFs/ID) by July 1, 2011, and requires the transition of ALL 
individuals with developmental disabilities already living in State 
ICFs/ID to community settings by July 1, 2015. Affected individuals 
were not afforded any choice and families and legal guardians expressly 
opposed the settlement: ``[I]f everyone is forced to accept community 
living, then no one has choice.'' (Resolution of the East Central 
Georgia ICF/ID Family Association Opposing Settlement Agreement, 
November 30, 2010).
    Predictably, the 1-year implementation report by the court-
appointed independent reviewer has found problems associated with the 
health and safety of displaced residents with regard to access to 
healthcare, medication, nutrition, and safety. Reportedly, there have 
been at least four deaths.
United States v. Virginia
    A January 2012 Settlement Agreement between DOJ and the 
Commonwealth of Virginia continues to display the ideological agenda of 
the DOJ's Civil Rights Division in its relentless effort to eliminate 
the option of Medicaid-certified ICFs/DD. If approved by the court, it 
will result in the closure of four public ICFs/DD. Families who had no 
meaningful opportunity to provide input to settlement terms but who 
expressly opposed closures were not listened to. A Motion to Intervene 
on behalf of residents of all Virginia ICFs/DD has been filed in an 
effort to protect individuals from displacement and harm. The Motion to 
Intervene demonstrates that DOJ has ignored choice, as required by 
Olmstead.
    An earlier court decision from Virginia points to a pattern and 
practice by DOJ to disregard choice contrary to Olmstead:

    ``Thus, the argument made by ARC and the United States [DOJ] 
regarding risk of institutionalization fails to account for a key 
principle in the Olmstead decision: personal choice. And here, where 
more residents desire to remain in institutional care than the new 
facility can provide for, there is little to no risk of 
institutionalization for those whose needs do not require it and who do 
not desire it.'' (Arc of Virginia v. Kaine (December 17, 2009) (see 
also, Stanley Ligas, et al. v. Barry S. Maram, et al., 05 C 4331 (N.D. 
Illinois, July 7, 2009) (denying proposed settlement and decertifying 
class on finding that the named plaintiffs failed to meet the criteria 
set forth in Olmstead because class definition was not restricted to 
individuals who were eligible for, and desired, community placement).
Arkansas
    In its CRIPA and ADA ``civil rights'' case against the State of 
Arkansas regarding its Conway ICF/ID, DOJ spent millions of Federal 
dollars and lost soundly. In his ruling dismissing the case, Federal 
District Court Judge Leon Holmes, addressed squarely the complete 
disregard by DOJ of family/guardian input and choice:

    ``Most lawsuits are brought by persons who believe their rights 
have been violated. Not this one . . . . All or nearly all of those 
residents have parents or guardians who have the power to assert the 
legal rights of their children or wards. Those parents and guardians, 
so far as the record shows, oppose the claims of the United States. 
Thus the United States [Department of Justice] is in the odd position 
of asserting that certain persons' rights have been and are being 
violated while those persons--through their parents and guardians 
disagree.''
   conclusion: please condition department of justice's civil rights 
              division appropriations on respecting choice
    Choice is required by the ADA, as interpreted by Olmstead. Families 
and guardians of our country's most vulnerable citizens seek relief 
from DOJ's deinstitutionalization actions which are counter to the 
Olmstead choice mandate, counter to the best interests of the affected 
individuals who are displaced from life-sustaining services, and are 
pursued in complete disregard of the input of individuals and their 
families as primary decisionmakers. VOR requests the subcommittee to 
require DOJ to fulfill the ADA's choice requirement by the following:
  --In any action taken by the DOJ, including investigations, that 
        involves the residents of an ICF/ID, DOJ shall consult with the 
        residents (or, if a resident has a legal representative, the 
        resident's legal representative) and families among all other 
        interested parties before taking action; and
  --If after taking action, families wish to intervene on behalf of 
        their family member with ID/DD in the DOJ action, DOJ is 
        encouraged to support such intervention.
    Thank you for your consideration.

</pre></body></html>
